Commodity Futures Trading Commission




       Pe rf o rm an c e an d
    Accou n tabil it y R ep o rt


                 Y
         Fiscal ear 2009
COMMODITY FUTURES
TRADING COMMISSION

Gary Gensler
Chairman

Madge Bolinger Gazzola
Executive Director

Mark Carney
Chief Financial Officer

November 2009

This report is in the public domain. Authorization to reproduce
it in whole or in part is granted. While permission to reprint this
publication is not necessary, the citation should be: Commodity
Futures Trading Commission, FY 2009 Performance and
Accountability Report, Washington, D.C., 20581.

All photographs in this document are proprietary and prior
permission from the photographer is required for any use or
reproduction of the photographs.
          COMMODITY FUTURES TRADING COMMISSION




              Association of Government Accountants (AGA)Awards the

             Certificate of Excellence in
              Accountability Reporting
               In recognition of your outstanding efforts in preparing the
              Commodity Futures Trading Commission Performance and
           Accountability Report for the fiscal year ended September 30, 2008




        League of American Communications Professionals (LACP) Awards the

                Gold 2008 Vision Award
In recognition of your outstanding efforts
in preparing the Commodity Futures
Trading Commission Performance and
Accountability Report for the fiscal year
ended September 30, 2008. Awarded
GOLD in the Government classification,
and received overall ranking of 70 out of
over 3,500 total entries.
      Fiscal Year 2009 Commissioners




            Back row from left; Jill E. Sommers, Commissioner; Bart Chilton, Commissioner

            Front row from left; Michael V. Dunn, Commissioner; Gary Gensler, Chairman




II   CFTC
                                            Table of Contents
   A Message from the Chairman .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2
   How This Report is Organized.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6


MANA G EMENT ’ S DI S CU S S ION AND ANALY S I S
   Commission at a Glance.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 9
   Performance Highlights.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 20
   Financial Highlights.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 34
   Management Assurances.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 37
   Forward Looking – Future Business Trends and Events .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 42


P ERFORMANCE S ECTION
   Introduction to the Performance Section .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 46
   Strategic Goal One: Economic Vitality.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 48
   Strategic Goal Two: Market Users and the Public.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 59
   Strategic Goal Three: Industry .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 77
   Strategic Goal Four: Organizational Excellence.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 97


FINANCIAL S ECTION
   A Message from the Chief Financial Officer .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 120
   Limitations of Financial Statements.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 121
   Principal Financial Statements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 122
   Notes to the Financial Statements.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .           127
   Report of the Independent Auditors .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 138


OT H ER ACCOM P ANYIN G INFORMATION
   Inspector General’s FY 2009 Assessment.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 143
   Summary of Audit and Management Assurances.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                          147


A P P ENDI X
   FY 2009 Commissioners .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .       149
   Enforcement Litigation by Strategic Goal .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .               152
   CFTC Information Technology Systems.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 171
   Glossary of Abbreviations and Acronyms.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                  172




                                                                                                                                                              CFTC               1
                        U.S. Commodity Futures Trading
                    Commission Chairman Gary Gensler
                   testifies on Capitol Hill in Washington,
                       Monday, June 22, 2009, before the
                   Senate Banking Committee hearing on
                              over-the-counter derivatives.
                                        (AP Photo/Susan Walsh)




  In the Tradition of Quality Reporting,                         A Message from
     the Commodity Futures Trading                               the Chairman

                                                                 O
Commission Proudly Presents the FY 2009                                    ne year ago, the financial system and our financial
                                                                           regulatory system failed the American public.
 Performance and Accountability Report                                     There were gaps in our regulatory structure that
                                                                 left the Nation unprepared and unable to respond quickly
                                                                 to changing market environments. The last 12 months have
                                                                 taught us much about the new realities of our financial
                                                                 markets. We have learned the limits of foresight and the
                                                                 need for candor about the risks we face. We have learned
                                                                 that transparency and accountability are essential. Only
                                                                 through strong, intelligent regulation—coupled with aggres-
                                                                 sive enforcement mechanisms—can we fully protect the
                                                                 American people and keep our economy strong.


                                                                 The need for reform of our financial system today has many
                                                                 similarities to the situation facing the country in the 1930s.
                                                                 In 1934, President Roosevelt boldly proposed to the
                                                                 Congress “the enactment of legislation providing for the
                                                                 regulation by the Federal Government of the operation of
                                                                 exchanges dealing in securities and commodities for the
                                                                 protection of investors, for the safeguarding of values, and
                                                                 so far as it may be possible, for the elimination of unneces-
                                                                 sary, unwise, and destructive speculation.” The Congress
                                                                 swiftly responded to the clear need for reform by enacting
                                                                 the Securities Act of 1933, the Securities Exchange Act of
                                                                 1934 and the Commodity Exchange Act of 1936.

                                                                 It is clear that we need the same type of comprehensive regu-
                                                                 latory reform today. That is why the Obama Administration
                                                                 is working closely with the Congress to close the gaps in our
                                                                 laws to bring much-needed transparency and regulation to
the over-the-counter (OTC) derivatives market to promote           nor to the regulators in these markets.        Only through
transparency, lower risks, strengthen market integrity and         addressing the lack of transparency can we reduce informa-
protect investors. This is vital for the future of our economy     tion deficits for regulators, market users, and the public.
and the welfare of the American people.                            Further, we also are working with Congress on lowering risk
                                                                   to the system created by OTC derivative transactions by
The Commodity Futures Trading Commission’s (CFTC or
                                                                   requiring standardized products to be centrally cleared.
Commission) mission is to protect market users and the
                                                                   Lastly, we must ensure that entities that deal in derivatives
public from fraud, manipulation and abusive practices
                                                                   are required to register and come under comprehensive
related to the sale of commodity and financial futures and
                                                                   regulation. This includes capital standards, margin require-
options, and to foster open, competitive and financially
                                                                   ments, business conduct standards and record-keeping and
sound futures and options markets.
                                                                   reporting requirements. The CFTC also should have the

Specifically, the CFTC is working with Congress on compre-         authority to set aggregate position limits in the OTC deriva-

hensive regulatory reform of the OTC derivatives market-           tives marketplace.

place. Last year’s crisis highlighted all too well how opaque
                                                                   While regulatory reforms are underway, the CFTC remains
markets can threaten the financial system and the American
                                                                   steadfast in using existing authorities to achieve our mission.
public. There has neither been transparency to the public
                                                                   As such, the CFTC is vigorously using every tool available to
                                                                   protect the American people from fraud, manipulation and
                                                                   other abuses.

                                                                   In the past few months, the CFTC has conducted a number
                                                                   of substantive public hearings and meetings on a number of
                                                                   critical initiatives.   The Commission held three days of
                                                                   hearings into whether concentration position limits should
                                                                   be set in the energy futures markets similarly to how they
                                                                   are currently set in many agriculture markets. We continue
                                                                   to review public comments on this issue and seriously
                                                                   consider proposing a rule to set position limits in the energy
                                                                   markets.
  Gary Gensler, chairman of the Commodity Futures Trading
  Commission, conducts a hearing on energy speculators and         The CFTC and the Securities and Exchange Commission
  whether they influence fluctuations in the energy market that    (SEC) held unprecedented joint meetings on regulatory
  could affect the price of oil and natural gas in an adverse or   harmonization in September. The agencies jointly made 20
  destabilizing way, at the CFTC headquarters in Washington,
                                                                   recommendations where we can change our statutes and
  Wednesday, Aug. 5, 2009. (AP Photo/J. Scott Applewhite)
                                                                   regulations to enhance both agencies’ enforcement powers,



                                                                                                                  CFTC          3
                                                                            markets. This has given market participants, regulators and
                                                                            the public a better idea of who is participating in risk
                                                                            management markets. The CFTC also has begun releasing
                                                                            data on index investment in the commodity futures markets.
                                                                            This data informs market participants, regulators and the
                                                                            public about how much involvement index investors have
                                                                            in the derivatives markets. These two steps are part of an
                                                                            ongoing process of looking for ways to best improve trans-
                                                                            parency in the commodities markets.

                                                                            Our surveillance staff are keeping a close eye for signs of
    U.S. President Barack Obama, left, shakes hands with                    manipulation or congestion. In the past year, the Commis-
    Gary Gensler, chairman of the Commodity Futures Trading                 sion filed 50 enforcement actions and enforcement staff
    Commission, after making remarks on financial regulatory                opened 251 investigations of potential violations of the Act
    reform in the East Room of the White House in Washington,
                                                                            and Commission regulations. Through these and existing
    D.C., U.S., on Wednesday, June 17, 2009. Obama said his
                                                                            cases previously filed by the Commission, the Commission
    plan to refashion supervision of the U.S. financial system
    is needed to fix lapses in oversight and excessive risk taking          imposed monetary penalties of more than $183 million in
    that helped push the economy into a prolonged recession.                restitution and disgorgement and $97 million in civil
    (Photo by Brendan Smialowski/Bloomberg via Getty Images)                monetary penalties.


strengthen market and intermediary oversight, and facilitate
greater operational coordination.                     We are committed to
working with the SEC to implement these recommenda-
tions and will work with Congress to secure necessary
changes in statute to best protect the American public.

A core mission of the CFTC is to promote market transpar-
ency. As such, we have recently taken a number of initiatives
to promote transparency in the futures markets.                      The
Commission has for decades provided the public with
weekly Commitments of Traders (COT) reports consisting
                                                                              Gary Gensler (R), chairman of the Commodity Futures
of aggregated data on large-trader positions. Historically,                   Trading Commission, and Mary Schapiro (L), chairman
the CFTC reported the trades of commercial entities and                       of the Securities and Exchange Commission, testify before
noncommercial entities. These data categorizations became                     the House Financial Services Committee July 22, 2009
less relevant as the markets continued to evolve.                      In     in Washington, DC. The full committee met to hear
                                                                              testimony on ‘Regulatory Perspectives on the Obama
September, the Commission began disaggregating swap
                                                                              Administration’s Financial Regulatory Reform Proposals.’
dealers and managed money (i.e. hedge funds) to more
                                                                              (Photo by Win McNamee/Getty Images)
accurately reflect the makeup of the American futures




4          CFTC
                                                                            erably more complex in nature. We also moved from an
                                                                            environment with open-outcry pit trading to highly sophis-
                                                                            ticated electronic markets.   What was once a group of
                                                                            regional domestic markets is now a global marketplace. I
                                                                            am pleased that Congress has given the CFTC a 16 percent
                                                                            budget increase for FY 2010. We are currently working with
                                                                            the Office of Management and Budget (OMB) and Congress
                                                                            to address the CFTC’s significant further resource needs in
                                                                            the 2011 budget.

                                                                            For example, the Commission requires additional resources

  U.S. Secretary of the Treasury Timothy Geithner (3rd L)                   to replace legacy surveillance equipment with 21st Century
  speaks as Commodity Futures Trading Commission Chairman                   computers. Significant changes in the markets demand new
  Gary Gensler, Federal Deposit Insurance Corporation Chair-                systems capable of efficiently receiving and managing
  man Sheila Bair, Securities and Exchange Commission                       massive amounts of raw data and converting it to useful
  Chairman Mary Shapiro, Director of the National Economic
                                                                            market information for analysis by skilled market experts,
  Council Larry Summers, and other members look on as he
                                                                            economists and technologists. Should Congress enact regu-
  convenes the President’s Working Group on Financial Markets
                                                                            latory reform of the OTC derivatives markets, the CFTC
  (PWG) at the Department of the Treasury June 25, 2009 in
  Washington, DC. The PWG will help coordinate the Adminis-                 would need additional resources to effectively monitor the
  tration’s plan for regulatory reform. (Photo by Alex Wong/Getty Images)   markets.

                                                                            In closing, in FY 2009, we received for the fifth consecutive
The CFTC is highly engaged with our foreign partners. We                    year an unqualified opinion on our financial statements. As
have recently jointly signed a Memorandum of Under-                         was the case for three consecutive years, the auditors
standing with the U.K. Financial Services Authority (FSA) to                disclosed no material instances of noncompliance with laws
enhance cooperation and the exchange of information                         and regulations. I am also proud to report we had no
relating to the supervision of cross-border clearing organiza-              material internal control weaknesses and that our financial
tions and strengthen cross-border supervision of energy                     and performance data in this report are reliable and
futures markets.       We also are working with our foreign                 complete under OMB’s guidance.
partners to implement consistent regulatory reform of the
OTC derivatives marketplace.

As we begin the new fiscal year (FY), the Commission
continues to be under-resourced. With about 580 staff, we
                                                                                               Gary Gensler
have just now returned to our staffing levels 10 years ago. In
                                                                                               November 13, 2009		
the last decade, futures trading volume went up nearly five
fold. The number of actively traded futures and options
contracts went up seven fold, and many of these are consid-




                                                                                                                          CFTC         5
       How This Report is Organized
       This document consists of three primary sections and supplemental sections:


                                                                                    Management’s Discussion and Analysis

                                                                                    The Management’s Discussion and Analysis (MDA) section is an overview
                                                                                    of the entire report. The MDA presents performance and financial high-
           M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S
                                                                                    lights for FY 2009 and discusses compliance with legal and regulatory
                9   Commission at a Glance

               20   Performance Highlights

               34

               37
                    Financial Highlights

                    Management Assurances
                                                                                    requirements, business trends and events, and management issues. For
               42   Forward Looking — Future Business Trends and Events



                                                                                    more information on this section, please contact Mark Carney, Chief
                                                                                    Financial Officer, at 202-418-5477.




                                                                                    Performance Section

                                                                                    The Performance Section compares the Commission’s performance to the
                                                                                    annual goals in the 2007−2012 CFTC Strategic Plan. For more informa-
                      PERFORMANCE SECTION                                           tion on this section, please contact Emory Bevill, Deputy Director for
                            46    Introduction to the Performance Section




                                                                                    Budget and Planning, at 202-418-5187.
                            48    Strategic Goal One: Economic Vitality

                            59    Strategic Goal Two: Market Users and the Public

                            77    Strategic Goal Three: Industry

                            97    Strategic Goal Four: Organizational Excellence




                                                                                    Financial Section

                                                                                    The Financial Section includes the Commission’s financial statements and
                                                                                    the Independent Auditors’ report. For more information on this section,
                      FINANCIAL SECTION                                             please contact Keith Ingram, Deputy Director for Accounting and Financial
                            120 A Message from the Chief Financial Officer




                                                                                    Systems, at 202-418-5612.
                            121 Limitations of Financial Statements

                            122 Principal Financial Statements

                            127 Notes to the Financial Statements

                            138 Report of the Independent Auditors




6   CFTC
Other Accompanying Information

Other Accompanying Information contains the Inspector General’s FY 2009
assessment of management challenges facing the Commission and the
Commission’s summary of audit and management assurances. For more infor-                       Other AccOmpAnying infOrmAtiOn


                                                                                                 143 Inspector General’s FY 2009 Assessment

                                                                                                 147 Summary of Audit and Management Assurances

mation on this section, please contact Mark Carney, Chief Financial Officer, at
202-418-5477.




Appendix

The Appendix contains the FY 2009 Commissioner’s biographies, summaries of
filed Enforcement actions, descriptions of CFTC Information Technology systems,
and a glossary of abbreviations and acronyms used throughout the report. For                                        Appendix


                                                                                                149 FY 2009 Commissioners

                                                                                                152 Enforcement Litigation by Strategic Goal


more information on this section, please contact Lisa Malone, Budget Analyst,                   171 CFTC Information Technology Systems

                                                                                                172 Glossary of Abbreviations and Acronyms




Budget and Planning, at 202-418-5184.



An electronic version of the CFTC FY 2009 Performance and Accountability Report is available
on the Internet at http://www.cftc.gov/aboutthecftc/cftcreports.html.   The 2007-2012 CFTC
Strategic Plan, Keeping Pace with Change, is also available at this Web site.




                                                                                                                                               CFTC   7
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S


    	 9	   Commission at a Glance

    	20	 Performance Highlights

    	34	 Financial Highlights

    	37	 Management Assurances

    	42	 Forward Looking — Future Business Trends and Events
                             Commission at a Glance
                                                       Mission Statement

               The mission of the CFTC is to protect market users and the public
            from fraud, manipulation, and abusive practices related to the sale of
                commodity futures and options, and to foster open, competitive,
                  and financially sound commodity futures and option markets.


Commodity Futures Industry
Futures contracts on agricultural commodities have been             The increase in trading activity, number of participants, and
traded in the United States for more than 150 years, and            complexity and number of contracts available, has trans-
have been under Federal regulation since the 1920s.          At     formed the futures markets into a trillion dollar industry with
the time the Commission was established in 1974, the vast           massive economic force. In addition, the rapid evolution in
majority of futures trading took place on commodities in the        trading technologies, cross-border activities, product innova-
agricultural sector. These contracts gave farmers, ranchers,        tion, and greater competition have made the futures markets
distributors, and end users of everything from corn to cattle,      an integral and significant part of the global economy.
an efficient and effective set of tools to hedge against price
                                                                    Moreover, the electronic integration of cross-border markets
movements.
                                                                    and firms, as well as cross-border alliances, mergers, and
Over the years, the futures industry has become increasingly        other business activities continue to transform the futures
diversified. While farmers and ranchers continue to use the         markets and the firms involved in these markets into a global
futures markets actively to lock in prices for their crops and      industry.
livestock, highly complex financial contracts based on interest
rates, foreign currencies, Treasury bonds, securities indexes,
                                                                    How the CFTC is Organized and Functions
and other products have far exceeded agricultural contracts
in trading volume. The latest statistics show that approxi-         The President appoints and the Senate confirms the CFTC
mately eight percent of on-exchange commodity futures and           Commissioners to serve staggered five-year terms. No more
option trading activity occurs in the agricultural sector, while    than three sitting Commissioners may be from the same
financial commodity futures and option contracts make               political party. With the advice and consent of the Senate,
up approximately 79 percent of trading activity, and other          the President designates one of the Commissioners to serve
contracts, such as those on metals and energy products, make        as Chairman.
up about 13 percent.

                                                                                                                   CFTC          9
     Management’s                                                                   Other Accompanying
                                 Performance Section        Financial Section                                  Appendix
     Discussion & Analysis                                                          Information
The Office of the Chairman oversees the Commission’s                Auditors, risk analysts, and attorneys examine records and
principal divisions and offices that administer the policies,       operations of futures exchanges, clearinghouses, and firms
regulations, and guidance regarding the CEA, as amended.            for compliance with the provisions of the CEA and the
The Office of the Executive Director (OED), by delegation of        Commission’s regulations, while futures trading investiga-
the Chairman, directs the internal management of the Com-           tors and specialists perform regulatory and compliance over-
mission, ensuring that funds are responsibly accounted for          sight to detect potential fraud, market manipulations, and
and that program performance is measured and improved               trade practice violations. Risk analysts also perform analyses,
effectively.                                                        which includes stress testing, to evaluate financial risk at the
                                                                    trader, firm, and clearinghouse levels.
Attorneys at the Commission work on complex and novel legal
issues in areas such as litigation, regulation, and policy devel-   Economists monitor trading activity and price relationships
opment. Among other things, they represent the Commission           in futures markets to detect and deter price manipulation and
in administrative and civil proceedings; assist U.S. Attorneys in   other potential market disruptions and they monitor compli-
criminal proceedings involving futures law violations; develop      ance with speculative position limits. Economists evaluate
regulations governing clearinghouses, exchanges, and interme-       filings for new futures and option contracts and amendments
diaries; provide a wide range of analysis, technical assistance,    to existing contracts to ensure they meet the Commission’s
and guidance on regulatory, legislative, and supervisory issues;    regulatory standards. Economists also analyze the economic
and provide legal advice to the Commission on policy and            effect of various Commission and industry actions and events,
adjudicatory matters. In response to the globalization of the       and advise the Commission accordingly.
futures markets, attorneys represent the CFTC internationally
                                                                    The CFTC is headquartered in Washington, D.C. Regional
in multilateral regulatory organizations, bilaterally with indi-
                                                                    offices are located in Chicago, Kansas City, and New York.
vidual foreign regulators, and participate in country dialogues
organized by the U.S. Department of the Treasury (Treasury).        Additional information about the Commission and its history
                                                                    can be obtained from the Commission’s Office of Public
                                                                    Affairs or through its Web site, http://www.cftc.gov.
Organization and Locations




10      CFTC
                 Management’s                                                                    Other Accompanying
                                             Performance Section         Financial Section                                  Appendix
                 Discussion & Analysis                                                           Information
                                                                             M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




CFTC Programs                                                         ■■   International Affairs

The Commission is charged with a significant responsibility                The Office of International Affairs (OIA) coordinates
to ensure the fair, open, and efficient functioning of futures             the Commission’s non-enforcement related interna-
markets. These regulatory responsibilities, expressed and                  tional activities; represents the Commission in interna-
measured through three strategic goals, are administered by                tional   organizations,      such   as   the    International
the CFTC programs: Market Oversight; Clearing and                          Organization of Securities Commissions (IOSCO);
Intermediary Oversight; and Enforcement. The fulfillment                   coordinates Commission policy as it relates to Treasury
of the Commission’s mission and the achievement of the                     global initiatives; and provides technical assistance to
strategic goals are tied to a foundation of sound manage-                  foreign market authorities.
ment and organizational excellence expressed in the
                                                                      ■■   Chief Economist
agency’s fourth strategic goal.
                                                                           The Chief Economist provides economic support and
■■   Market Oversight
                                                                           advice to the Commission, conducts research on policy
     The Market Oversight program fosters markets that                     issues facing the agency, and provides education and
     accurately reflect the forces of supply and demand for                training for Commission staff.
     the underlying commodities and are free of disruptive
                                                                      ■■   General Counsel
     activity. In order to achieve this goal, program staff,
     oversee trade execution facilities and perform market                 The General Counsel serves the Commission as its legal
     surveillance, market compliance, and market and                       advisor representing the Commission in appellate
     product review functions.                                             litigation and certain trial-level cases, including bank-
                                                                           ruptcy proceedings involving futures industry profes-
■■   Clearing and Intermediary Oversight
                                                                           sionals, and advising the Commission on the
     The Clearing and Intermediary Oversight program                       application and interpretation of the CEA and other
     oversees the compliance activities of derivatives clearing            administrative statutes.
     organizations (DCOs), intermediaries, and the futures
                                                                      ■■   Proceedings
     industry self-regulatory organizations (SROs), which
     include the U.S. commodity exchanges and National                     The Office of Proceedings manages the agency’s repara-
     Futures Association (NFA). Program staff develop regu-                tions program, which provides an inexpensive, expedi-
     lations   concerning     registration,   fitness,   financial         tious, fair, and impartial forum to handle customer
     adequacy, sales practices, protection of customer funds,              complaints and resolve disputes between futures
     clearance and settlement activities, cross-border trans-              customers and commodity futures trading profes-
     actions, systemic risk, and anti-money laundering                     sionals. The Office of Proceedings also provides a forum
     programs, in addition to, policies for coordination with              for the adjudication of administrative enforcement
     foreign market authorities and emergency procedures                   cases brought by the Commission against persons or
     to address market-related events.                                     firms responsible for violating the CEA or Commission
                                                                           regulations.
■■   Enforcement
                                                                      ■■   Agency Direction
     The Enforcement program investigates and prosecutes
     alleged violations of the CEA and Commission regula-                  The Office of the Chairman and the Commissioners
     tions. Violations may involve commodity futures or                    provide executive direction and leadership to the
     option trading on U.S. futures exchanges, or the                      Commission, particularly on policies that implement
     improper marketing and sales of commodity futures                     and enforce the CEA and amendments to that Act,
     products to the general public.                                       including the Commodity Futures Modernization Act of
                                                                           2000 (CFMA). The Offices of the Chairman include:



                                                                                                                          CFTC        11
      Management’s                                                                        Other Accompanying
                                  Performance Section         Financial Section                                      Appendix
      Discussion & Analysis                                                               Information
     Public Affairs, Legislative Affairs, the Secretariat, the   markets by encouraging their competitiveness and effi-
     Inspector General, and Equal Employment Opportunity.        ciency; ensuring their integrity; and protecting market
                                                                 participants against manipulation, abusive trading prac-
■■   Administrative Management and Support                       tices, and fraud. Through its oversight regulation, the CFTC
                                                                 enables the commodity futures and option markets to
     The Executive Director serves as the Chief Operating
                                                                 serve their vital function in the Nation’s economy,
     Officer (COO) directing the effective and efficient allo-
                                                                 providing a mechanism for price discovery and a means of
     cation and use of resources, and developing the manage-
                                                                 offsetting price risks.
     ment and administrative policy and programs of the
     Commission. The Offices of the Executive Director           During the past two years, Congress and Federal financial
     include: Human Resources, Financial Management,             regulators began to re-examine the financial regulatory
     Information and Technology Services, Management             structure.    The recent economic stress has resulted in
     Operations, and the Library.                                heightened congressional scrutiny of Federal financial
                                                                 regulation, which is expected to continue in the year ahead.
                                                                 The Commission continues to undertake its own evalua-
Evolving Mission and Responsibilities
                                                                 tion of its regulatory structure. For example, to address
Congress created the CFTC in 1974 as an independent              concerns about the growth of nontraditional participants
agency with the mandate to regulate commodity futures            in the futures markets and concerns and about excessive
and option markets in the United States. The Commission’s        speculation, the Commission is evaluating whether to
mandate was renewed and/or expanded in 1978, 1982,               adopt speculative position limits for commodities with
1986, 1992, and 1995. In December 2000, the Commission           limited supplies, such as energy contracts. The Commission
was reauthorized through FY 2005 with passage of the             recently held a series of hearings on this subject.
CFMA. The CFMA repealed the ban on futures contracts
based on individual securities and narrow-based security
                                                                 Keeping Pace with Change
indexes, and instituted a regulatory framework for such
products to be administered jointly by the CFTC and the          The CFTC Mission Statement, Strategic Goals and their
SEC. The legislation also placed bilateral, OTC derivatives      related outcome objectives and performance metrics, as
transactions largely outside the CFTC’s jurisdiction and         well as its multi-year Strategic Plans, create a template that
addressed CFTC anti-fraud authority over retail, off-            allows management to articulate priorities, measure results,
exchange foreign currency (forex) transactions.                  and conduct long-range planning while ensuring the flexi-
                                                                 bility to adapt its program to address market and financial
In FY 2008, the Commission was reauthorized as part of
                                                                 emergencies and new regulatory concerns.
that year’s Food, Conservation, and Energy Act of 2008
(Farm Bill). The Farm Bill included other amendments to          In 2007, the Commission issued Keeping Pace with Change,
the CEA as well—primarily to increase the Commission’s           its Strategic Plan for FY 2007 through FY 2012. With the
regulatory oversight role with respect to forex transactions     2007 Strategic Plan, the Commission adopted a fourth
and significant price discovery contracts (SPDCs) traded         strategic goal that assesses and measures organizational
on electronic trading facilities known as exempt commer-         and management excellence. Establishing this fourth stra-
cial markets (ECMs). The Commission has adopted a rule           tegic goal allows the Commission to establish and measure
to implement the new statutory responsibilities for SPDCs        its progress in achieving outcome objectives and strategic
and is conducting evaluations for ECM contracts consistent       goals in a broad performance and management frame-
with those regulatory provisions.                                work, evaluating not only program performance but the
                                                                 overall performance and management of the organization.
Although Congress changed the Commission’s approach
to regulation over time, the Commission’s mission remains        The following table is an overview of the Commission’s
the same. The CFTC continues to be responsible for               strategic mission, statement, strategic goals, and outcome
fostering the economic vitality of the regulated futures         objectives.


12      CFTC
                 Management’s                                                               Other Accompanying
                                           Performance Section        Financial Section                                Appendix
                 Discussion & Analysis                                                      Information
                                                                       M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                                                   Mission Statement

              The mission of the CFTC is to protect market users and the public
           from fraud, manipulation, and abusive practices related to the sale of
           commodity futures and options, and to foster open, competitive, and
                    financially sound commodity futures and option markets.

                                            Strategic Goal One
                    Ensure the economic vitality of the commodity futures and option markets.
                                                    Outcome Objectives
1.	Markets that accurately reflect the forces of supply and demand for the underlying commodity and are free of disruptive
   activity.

2.	Markets that are effectively and efficiently monitored to ensure early warning of potential problems or issues that could
   adversely affect their economic vitality.

                                               Strategic Goal Two
                                         Protect market users and the public.
                                                    Outcome Objectives
1.	 Violations of Federal commodities laws are detected and prevented.

2.	Commodities professionals meet high standards.

3.	Customer complaints against persons or firms falling within the jurisdiction of the CEA are handled effectively and
   expeditiously.

                                          Strategic Goal Three
         Ensure market integrity in order to foster open, competitive, and financially sound markets.
                                                    Outcome Objectives
1.	Clearing organizations and firms holding customer funds have sound financial practices.

2.	Commodity futures and option markets are effectively self-regulated.

3.	Markets are free of trade practice abuses.

4.	Regulatory environment is responsive to evolving market conditions.

                                            Strategic Goal Four
           Facilitate Commission performance through organizational and management excellence,
                          efficient use of resources, and effective mission support.
                                                    Outcome Objectives
1.	 Productive, technically competent, competitively compensated, and diverse workforce that takes into account current
    and future technical and professional needs of the Commission.

2.	Modern and secure information system that reflects the strategic priorities of the Commission.

3.	Organizational infrastructure that efficiently and effectively responds to and anticipates both the routine and emergency
   business needs of the Commission.

4.	Financial resources are allocated, managed, and accounted for in accordance with the strategic priorities of the
   Commission.

5.	Commission’s mission is fulfilled and goals are achieved through sound management and organizational excellence
   provided by executive leadership.




                                                                                                                   CFTC         13
 Management’s                                                                     Other Accompanying
                             Performance Section        Financial Section                                      Appendix
 Discussion & Analysis                                                            Information
CFTC and Industry Trends
In a marketplace driven by change, it may be helpful to look back at industry and CFTC trends over the past few years.
The charts that follow reflect many of those changes affecting the CFTC:

■■     Industry growth versus staff growth;                                           ■■   Number of derivatives clearing organizations (DCOs)
■■     Growth in actively traded futures and option contracts;                             registered with the CFTC;

■■     Enforcement actions to preserve market integrity and                           ■■   Exempt commercial markets (ECMs);
       protection of market users;                                                    ■■   Exempt boards of trade (EBOTs); and
■■     Number of registrants;                                                         ■■   Amount of customer funds held at futures commission
■■     Contract markets designated by the CFTC;                                            merchants (FCMs).


Growth in Volume of Futures & Option Contracts Traded & CFTC Full-time Equivalents
(FTEs), 2000−2009
Trading volume has increased almost five-fold in the last decade (2000−2009), while staffing levels at the Commission
have trended downward.1




Actively Traded Futures & Option Contracts, 2000−2009
The number of actively traded contracts on U.S. exchanges has increased seven-fold in the last decade (2000−2009).




1	   Volume started decreasing at the end of FY 2008 and has continued at about a 20 percent decline for FY 2009.


14          CFTC
                        Management’s                                                                                Other Accompanying
                                                          Performance Section               Financial Section                            Appendix
                        Discussion & Analysis                                                                       Information
                                                                         M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Enforcement Actions to Preserve Market Integrity and Protection of Market Users


Manipulation, Attempted Manipulation, and False Reporting

The CFTC uses every tool at its disposal to detect and deter illegitimate market forces. Through enforcement action, the
Commission preserves market integrity and protects market users, demonstrating that the Commission has significant
authority and intends to use it.

For example, CFTC enforcement efforts in the energy arena from December 2001 through September 2009 resulted in
47 enforcement actions, charging 80 companies and individuals and assessing approximately $458 million in penalties.

 Actions Taken Since December 2001 in Energy Markets                                                              Energy Markets
 Number of Cases Filed or Enforcement Actions                                                                                   47
 Number of Entities/Persons Charged                                                                                             80
 Number of Dollars in Civil Monetary Penalties Assessed                                                             $458,525,000



Commodity Pools, Hedge Funds, Commodity Pool Operators (CPOs), and Commodity Trading Advisors (CTAs)

Investors continue to fall prey to unscrupulous CPOs and CTAs, including CPOs and CTAs operating hedge funds. The
majority of the Commission’s pool/hedge fund fraud cases are brought against unregistered CPOs and/or CTAs. These
cases tend to involve Ponzi schemes or outright misappropriation, rather than legitimate hedge fund operations. From
October 2000 through September 2009, the Commission filed a total of 95 enforcement actions alleging misconduct in
connection with commodity pools and hedge funds.

 Actions Taken Since October 2000                                                                            Pools/Hedge Funds
 Number of Cases Filed or Enforcement Actions                                                                                   95
 Cases/Actions Charging Commission Registrants                                                                                  33
 Number of Dollars in Penalties Assessed                                                                            $618,666,128



Forex Fraud

The Commission vigorously uses its enforcement authority to combat the problem of forex fraud. Since passage of the
CFMA in December 2000 through September 2009, the Commission, on behalf of more than 26,000 customers, has filed
114 cases. Those efforts have thus far resulted in approximately $476 million in restitution and $576 million in civil
monetary penalties.

 Actions Taken Since Passage of the CFMA in December 2000                                              Foreign Currency Markets
 Number of Cases Filed or Enforcement Actions                                                                                  114
 Number of Entities/Persons Charged                                                                                            437
 Number of Customers Affected                                                                                               26,865
 Number of Dollars in Civil Monetary Penalties Assessed                                                             $576,119,521
 Number of Dollars in Restitution Assessed                                                                          $476,599,896




                                                                                                                     CFTC         15
     Management’s                                                                   Other Accompanying
                               Performance Section        Financial Section                                      Appendix
     Discussion & Analysis                                                          Information
Number of Registrants
Companies and individuals who handle customer funds, solicit or accept orders, or give trading advice must apply for
CFTC registration through the NFA, an SRO with delegated oversight authority from the Commission.

The Commission regulates the activities of over 66,000 registrants:

     Registration Category2                                                                                            Number as of September 30, 2009
     Associated Persons (APs) (Salespersons)                                                                                                     51,921
     Commodity Pool Operators (CPOs)                                                                                                              1,277
     Commodity Trading Advisors (CTAs)                                                                                                            2,568
     Floor Brokers (FBs)                                                                                                                          7,114
     Floor Traders (FTs)                                                                                                                          1,447
     Futures Commission Merchants (FCMs)                                                                                                            1663
     Introducing Brokers (IBs)                                                                                                                    1,6944
     TOTAL                                                                                                                                       66,187



Contract Markets Designated by the CFTC, 2004−2009
The following designated contract markets (DCMs) are boards of trade or exchanges that meet the CFTC criteria and
CFTC Core Principles for trading futures or options by both institutional and retail participants. Currently, 14 DCMs
meet CFTC criteria and CFTC Core Principles for trading futures and options.

     DCMs5                                      2004                  2005                  2006                2007           2008            2009
     CBOT
     CCFE
     CFE
     CME
     CSCE
     EPFE
     ELX
     ICE US (NYBOT)
     KCBT
     ME
     MGE
     Nadex (HedgeStreet)
     NFX (PBOT)
     NQLX
     NYCE
     NYFE
                                                                                                                                  (continued on next page)



2	   A person who is registered in more than one registration category is counted in each category.
3	   Includes 15 notice-registered FCMs.
4	   Includes 44 notice-registered IBs.
5	   Refer to the CFTC Glossary in the Appendix for full names of organizations.

16          CFTC
                        Management’s                                                                                     Other Accompanying
                                                            Performance Section                 Financial Section                                  Appendix
                        Discussion & Analysis                                                                            Information
                                                                                              M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




     DCMs5 (continued)                          2004                 2005                2006              2007               2008               2009
     NYMEX (incl. COMEX)
     NYSE LIFFE
     OCX
     USFE
     TOTAL                                        18                   13                  12                12                13                 14



Number of Derivatives Clearing Organizations Registered with the CFTC, 2004−2009
Clearinghouses that provide clearing services for CFTC-regulated exchanges must register as DCOs. Currently, 12 DCOs
are registered with the Commission.

             6
     DCOs                                       2004                 2005                2006              2007               2008               2009
     AE Clearinghouse
     CBOT
     CCorp
     CME
     ICE Clear US
     IDC
     KCBT
     LCH
     MGE
     NADEX
     NGX
     NYMEX
     OCC
     TOTAL                                        10                   11                  11                11                10                 12



Exempt Commercial Markets, 2004−2009
Electronic trading facilities providing for the execution of principal-to-principal transactions between eligible commercial
entities in exempt commodities may operate as ECMs, as set forth under the CEA and the Commission’s regulations.
An ECM is subject to anti-fraud and anti-manipulation provisions and a requirement that, if performing a significant
price discovery function, must provide pricing information to the public. A facility that elects to operate as an ECM must
give notice to the Commission and comply with certain information, record-keeping, and other requirements. An ECM
is prohibited from claiming that the facility is registered with, or recognized, designated, licensed or approved by, the
Commission. A total of 31 ECMs have filed notices with the Commission. In FY 2009, 27 ECMs were in business for at
least part of the year; four however, withdrew their ECM notifications during the fiscal year.




5	   Refer to the CFTC Glossary in the Appendix for full names of organizations.
6	   Refer to the CFTC Glossary in the Appendix for full names of organizations.

                                                                                                                                          CFTC          17
         Management’s                                                                                    Other Accompanying
                                            Performance Section                Financial Section                                      Appendix
         Discussion & Analysis                                                                           Information
     ECMs7                                      2004                 2005          2006             2007           2008           2009
     Agora-X
     CCX
     CDXchange
     ChemConnect
     DFox                                                                                                                           8

     EnergyCross.com
     EOXLIVE
     FCRM
     Flett                                                                                                                          8

     GFI
     HSE
     ICAP
     ICAPture
     ICAP Shipping
     ICE
     IMAREX
     LiquidityPort
     NGX
     Nodal
     NTP
     OILX
     OPEX                                                                                                                           8

     Parity
     SL
     TCX
     TFSWeather
     tpENERGYTRADE                                                                                                                  8

     Tradition Coal.Com
     Trading Optx
     TS
     WORLDPULP
     TOTAL                                        11                    12          17                  19           20            27




7	   Refer to the CFTC Glossary in the Appendix for full names of organizations.
8	   These ECMs withdrew their ECM notifications during FY 2009.

18            CFTC
                        Management’s                                                                         Other Accompanying
                                                           Performance Section      Financial Section                               Appendix
                        Discussion & Analysis                                                                Information
                                                                                              M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Exempt Boards of Trade, 2004−2009
Transactions by eligible contract participants in selected commodities may be conducted on an EBOT as set forth under
the CEA and the Commission’s regulations. EBOTs are subject only to the CEA’s anti-fraud and anti-manipulation
provisions. An EBOT is prohibited from claiming that the facility is registered with, or recognized, designated, licensed, or
approved by the Commission. Also, if it is performing a price discovery function, the EBOT must provide certain pricing
information to the public. To date, 15 EBOTs filed notices with the Commission. In FY 2009, 10 EBOTs were in business
for at least part of the year; one however, withdrew its EBOT notification during the fiscal year.

     EBOTs9                                     2004                 2005                2006              2007               2008               2009
     AE                                                                                                                                            10

     CME AM
     Derivatives Bridge
     GFI ForexMatch
     Intrade
     IRESE
     LiquidityPort
     Longitude
     MATCHBOXX ATS
     Storm
     Swapstream
     TACE
     WBOT
     WXL
     Yellow Jacket
     TOTAL                                         3                    5                   8                 9                10                 10


Customer Funds Held in Futures Commission Merchant Accounts, 2000−2009
The amount of customer funds held at FCMs decreased in the past year after having nearly quadrupled since 2000.




9	   Refer to the CFTC Glossary in the Appendix for full names of organizations.
10	 This   EBOT withdrew its EBOT notification during FY 2009.

                                                                                                                                          CFTC          19
           Management’s                                                                                  Other Accompanying
                                            Performance Section                Financial Section                                      Appendix
           Discussion & Analysis                                                                         Information
                              Performance Highlights


G             rowth continued in the futures industry, as the CFTC
              continued to meet the challenges of regulating the
increasingly global and complex commodities markets.
                                                                                                including position data of foreign contracts linked to
                                                                                                the settlement price of domestic contracts and contracts
                                                                                                determined to perform a significant price discovery
                                                                                                function.

FY 2009 Highlights                                                                         ■■   The CFTC and SEC issued a joint harmonization
                                                                                                report12 to bring greater consistency, where appropriate,
■■     Adopted new regulations, pursuant to new authority                                       to the agencies’ regulatory approaches.              The report
       granted by the Farm Bill, to extend the Commission’s                                     includes 20 recommendations to enhance enforcement
       oversight to previously unregulated SPDCs, in particular                                 powers, strengthen market and intermediary oversight,
       energy contracts, and in addition, conducted three open                                  and facilitate operational coordination.
       hearings on speculative trading in the energy markets
       to assess the feasibility of adopting energy contract                               ■■   Filed 50 Enforcement actions and opened 251
       position limits.                                                                         investigations of potential violations of the Act and
                                                                                                Commission regulations. Obtained $183 million in
■■     Enhanced market transparency of the publicly-available                                   restitution and disgorgement and $97 million in civil
       COT11 reports by disaggregating Commercial and                                           monetary penalties in previously filed or existing cases.
       Noncommercial positions into four categories and by




11	 The  COT report is an important tool for market participants and the public to track the positions of important groups of market participants.
     The COT report is available at http://www.CFTC.gov.

12	 The   report is available at http://www.cftc.gov/stellent/groups/public/@otherif/documents/ifdocs/opacftc-secfinaljointreport101.pdf




20           CFTC
                         Management’s                                                                                           Other Accompanying
                                                             Performance Section                 Financial Section                                      Appendix
                         Discussion & Analysis                                                                                  Information
                                                                             M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




FY 2009 Resources at a Glance
In 2009, Congress invested $146 million in the CFTC to ensure that the Nation’s futures markets operate without
disruption. The agency focused these increases on critical technology modernization and hiring and retaining highly-
trained staff with mission-critical skills.




     FY 2005     FY 2006     FY 2007    FY 2008     FY 2009                 FY 2005     FY 2006     FY 2007    FY 2008     FY 2009




                                                                                                                         CFTC         21
     Management’s                                                                       Other Accompanying
                                  Performance Section         Financial Section                                      Appendix
     Discussion & Analysis                                                              Information
Program Evaluations
The Inspector General (IG) conducted a FY 2009 Assess-            a bureau of Treasury, in which the CFTC has been dele-
ment addressing the Commission’s Most Serious Manage-             gated compliance examination authority. The goal of
ment Issues. The IG’s 2009 Assessment is located in the           the study was to identify opportunities that exist to
Other Accompanying Information section of this report.            improve FinCEN’s interagency coordination with the
                                                                  Federal banking regulators, SROs, and state agencies.
In FY 2009, two external evaluations involving the CFTC
were conducted by the U.S. Government Accountability              Two recommendations were made involving the CFTC.
Office (GAO):                                                     The first recommendation was that CFTC should direct
                                                                  the appropriate staff to consider developing or using
■■   Issues Involving the Use of the Futures Markets
                                                                  an existing process to share and discuss regularly infor-
     to Invest in Commodity Indexes, GAO-09-285R,
                                                                  mation on BSA/ anti-money laundering examination
     January 30, 2009
                                                                  procedures and general trends in a nonpublic setting. In
     GAO conducted this study at the request of the House         response to the GAO’s recommendation, CFTC has been
     Committee on Agriculture.            In summary, until       included in Federal Financial Institutions Examination
     mid-2008, prices for a broad range of physical commod-       Council (FFIEC) working group meetings with the
     ities, from crude oil to crops such as wheat, had            Federal banking regulators and the FinCEN. CFTC
     increased dramatically for several years—leading to          now also participates in a number of other interagency
     concerns and debate over the possible causes. The GAO        groups, including the Data Management Council and
     was asked to address the following: 1) whether the           the Bank Fraud Working Group, which CFTC believes
     Federal law governing futures trading prohibits inves-       allows for significant information sharing, including
     tors from using the futures markets to gain an exposure      information regarding examination procedures.
     to commodity indexes; 2) whether the Federal law
                                                                  The second recommendation was that CFTC should
     governing pension plans prohibits them from investing
                                                                  consider including the SROs that conduct BSA exami-
     in commodities through the futures markets; 3) how
                                                                  nations in interagency meetings. This recommendation
     margins have affected the ability of investors to obtain
                                                                  was not implemented. SROs have not been included in
     exposures to commodity indexes; and 4) how position
                                                                  interagency meetings because concerns have been raised
     limits have affected the ability of investors to obtain
                                                                  about whether the involvement of the private sector
     exposures to commodity indexes.
                                                                  SROs would cause the meetings to fall under the Federal
     GAO’s findings and conclusion are available on its Web       Advisory Committee Act. Moreover, discussions of
     site at http://www.gao.gov.                                  specific suspicious activity report (SAR) details have
                                                                  occurred in past interagency meetings that would cause
■■   Bank Secrecy Act: Federal Agencies Should Take Action        the SROs to have access to SARs that was not envisioned
     to Further Improve Coordination and Information-             in the BSA and other applicable laws.
     Sharing Efforts, GAO-09-227, February 12, 2009
                                                                  GAO’s findings and conclusion are available on its Web
     GAO conducted this study of the Bank Secrecy Act             site at http://www.gao.gov.
     (BSA) enforcement program administered by the
     Financial Crimes Enforcement Network (FinCEN),




22       CFTC
                  Management’s                                                            Other Accompanying
                                            Performance Section   Financial Section                                Appendix
                  Discussion & Analysis                                                   Information
     Introduction to Strategic Goal One


T           he focus of this goal is the marketplace. If U.S.
          commodity futures and option markets are
protected from, and are free of, abusive practices and
                                                                          not anticipated when the estimates of future growth
                                                                          were prepared. In particular, the demise of several large
                                                                          financial firms and the consolidation of others into a
influences, they will fulfill their vital role in the U.S. market         reduced number of entities meant that a smaller
economy, accurately reflecting the forces of supply and                   number of financial firms participated in the futures
demand and serving market users by fulfilling an economic                 markets, which significantly reduced the volume of
need.                                                                     futures contracts traded. With decreased demand for
                                                                          products traded on the exchanges, overall trading
                                                                          volume dipped to 2.8 billion in FY 2009, as shown in
Performance Results for Goal One                                          the figure, Growth in Volume of Futures & Option Contracts
                                                                          Traded & CFTC FTEs, on page 14.
Monitoring market activity represents one of the ways the
Commission seeks to protect the economic function of                      Even though overall trading volume decreased in
the markets. Market surveillance is conducted to detect                   FY 2009, the percentage of new products offered on the
attempted manipulation and other abusive practices that                   exchanges, in FY 2009, increased above projections as
could undermine the capacity of these markets to perform                  shown in the figure, Actively Traded Futures and Option
their economic function. The Commission takes preven-                     Contracts, on page 14. This growth in the number of
tive measures to ensure that market prices accurately reflect             new products occurred despite the severe downturn in
fundamental supply and demand conditions, including                       the economy. In response to the financial crisis and to
the routine daily monitoring of large trader positions,                   accommodate        firms’   hedging   needs,     exchanges
futures and cash prices, price relationships, and supply and              remained innovative and rolled out many new contracts,
demand factors in order to detect threats of price manipu-                most of which most were either slight variations of
lation.                                                                   existing contracts or were attempts to duplicate existing
                                                                          products traded in the OTC market.         The increased
■■   Market Volume and New Products                                       number of new products, above earlier projections, was

     In preparing the estimates of expected growth in futures             not foreseeable.

     trading activity for FY 2009, the Commission considers
                                                                     The following table summarizes the FY 2009 investment
     historical growth in activity over several prior years.
                                                                     and overall performance results for Strategic Goal One. In
     However, in 2008, the United States and world econo-
                                                                     addition, FY 2009 performance results are compared against
     mies suffered a severe downturn that had a material
                                                                     the FY 2009 targets and FY 2008 actual results.
     effect on futures trading on the U.S. regulated exchanges.
     This financial crisis and its effect on futures trading was




                                                                                                                    CFTC         23
      Management’s                                                                    Other Accompanying
                                 Performance Section         Financial Section                                  Appendix
      Discussion & Analysis                                                           Information
                                               Strategic Goal One
                       Ensure the economic vitality of the commodity futures and option markets.
                                                Annual Performance Goal One
                     No price manipulation or other disruptive activities that would cause loss of confidence
                                      or negatively affect price discovery or risk shifting.




                                                                                   2009 Performance Results
                                                                                          Change (+/-) from     Change (+/-) from
Outcome Objectives and Performance Measures                           Met/Not Met           2009 Target           2008 Actual
1.1	Markets that accurately reflect the forces of supply and demand for the underlying commodity and are free of disruptive
    activity.

     1.1.1.	   Percentage growth in market volume.                      Not Met               -43.5%                -19.5%

     1.1.2.	   Percentage of novel or innovative market proposals
               or requests for CFTC action addressed within six
               months to accommodate new approaches to, or                                      0%                   -25%
                                                                          Met
               the expansion in, derivatives trading, enhance the
               price discovery process, or increase available risk
               management tools.

     1.1.3.	   Percentage increase in number of products traded.       Exceeded               +12.7%
                                                                                              +12.7%                +11.3%
                                                                                                                    +11.3%

     1.1.4.a.	 Percentage of new exchange applications completed      Results Not
                                                                                               -75%                  -100%
               within expedited review period.                       Demonstrated
     1.1.4.b.	 Percentage of new clearinghouse organization appli-    Results Not
                                                                                               -100%                 -100%
               cations completed within expedited review period.     Demonstrated
     1.1.5.	   Percentage of new contract certification reviews
               completed within three months to identify and
                                                                        Not Met                -11%                  -11%
               correct deficiencies in contract terms that make
               contracts susceptible to manipulation.
     1.1.6.	   Percentage of rule change certification reviews
               completed within three months, to identify and
               correct deficiencies in exchange rules that make         Not Met                -13%                  -13%
               contracts susceptible to manipulation or trading
               abuses or result in violations of law.
1.2	Markets that are effectively and efficiently monitored to ensure early warning of potential problems or issues that could
    adversely affect their economic vitality.
     1.2.1	    Percentage of derivatives clearing organization
               applications demonstrating compliance with CFTC            Met                   0%                  +100%
                                                                                                                    +100%
               Core Principles.

     1.2.2	Ratio of markets surveilled per economist.                  Exceeded                 +2
                                                                                                +2                     0
                                                                                                                      0%

     1.2.3	    Percentage of contract expirations without
                                                                          Met                   0%                    0%
               manipulation.



24      CFTC
                 Management’s                                                                  Other Accompanying
                                             Performance Section      Financial Section                                     Appendix
                 Discussion & Analysis                                                         Information
  Introduction to Strategic Goal Two

T            he explosive growth in the futures industry
        provides many benefits to the U.S. economy, but
the risk of fraud and manipulation is always present.
                                                                   industry professionals and participants about the kinds of
                                                                   conduct that will not be tolerated.

                                                                   ■■   Enforcement Investigation and Litigation
The trend toward electronic trading platforms and the
expanding complexity of trading instruments have                        In FY 2009, the Commission filed 50 enforcement
challenged the Commission to reconfigure its ability to                 actions and DOE staff opened 251 investigations of
identify, investigate, and take action against parties involved         potential violations of the Act and Commission regula-
in violating applicable laws and regulations. If evidence of            tions. Through these and existing cases previously filed
criminal activity is found, matters are referred to state or            by the Commission, monetary penalties imposed
Federal authorities for criminal prosecution.                           during FY 2009 included more than $183 million in
                                                                        restitution and disgorgement, and $97 million in civil
Over the years, the Commission has taken action in a
                                                                        monetary penalties.
number of cases involving manipulation or attempted
manipulation of commodity prices. A variety of admin-                   Energy markets and the financial downturn have resulted
istrative sanctions, such as bans on futures trading, civil             in increased investigative and litigation activity.         In
monetary penalties, and restitution orders, are available to            FY 2008, the Commission made an unprecedented
the Commission. The Commission may also seek Federal                    announcement that it would conduct a nationwide crude
court injunctions, asset freezes, and orders to disgorge                oil investigation into practices surrounding the purchase,
ill-gotten gains.                                                       transportation, storage, and trading of crude oil and
                                                                        related derivative contracts. This investigation continues
                                                                        and has been extremely resource intensive. The financial
Performance Results for Goal Two
                                                                        downturn has revealed a number of fraudulent schemes,
An increasing segment of the population has money at risk               including Ponzi schemes that could stay afloat only
in the futures markets, either directly or indirectly through           during periods of rising asset values. DOE staff have
pension funds, or ownership of shares in publicly held                  been actively investigating and prosecuting these
companies that participate in the markets.                              schemes. The increased DOE activity to address poten-
                                                                        tial energy market misconduct and ongoing fraud has
Commission staff work to protect market users and the
                                                                        created a challenge for DOE to ensure it effectively and
public by promoting compliance with, and deterring
                                                                        efficiently investigates potential violations, including
violations of, the CEA and Commission regulations. The
                                                                        staff-intensive   manipulation    investigations.   During
Division of Enforcement (DOE) investigates potential
                                                                        FY 2009, unprecedented market activity caused the DOE
misconduct, brings administrative and civil injunctive
                                                                        to shift resources to investigations. DOE continues to
enforcement actions to prosecute such misconduct, seeks
                                                                        perform at a high level while striving to meet its goals.
sanctions against wrongdoers, and publicly reports the
outcome of those enforcement actions. The majority of              The following table summarizes the FY 2009 investment
the work in this area involves investigating and prosecuting       and overall performance results for Strategic Goal Two.
manipulation, attempted manipulation, and fraud. The               In addition, FY 2009 performance results are compared
Commission’s enforcement actions send a message to                 against the FY 2009 targets and FY 2008 actual results.




                                                                                                                    CFTC        25
     Management’s                                                                    Other Accompanying
                                Performance Section        Financial Section                                   Appendix
     Discussion & Analysis                                                           Information
                                                     Strategic Goal Two
                                               Protect market users and the public.
                                                   Annual Performance Goal Two
                                    To have an effective and efficient market surveillance program.




                                                                                      2009 Performance Results
                                                                                             Change (+/-) from   Change (+/-) from
Outcome Objectives and Performance Measures                             Met/Not Met            2009 Target         2008 Actual
2.1	 Violations of Federal commodities laws are detected and prevented.
     2.1.1.	Number of enforcement investigations opened
                                                                          Exceeded                +109
                                                                                                 +109%                  +36
                                                                                                                       +36%
            during the fiscal year.
     2.1.2.	Number of enforcement cases filed during the fiscal
                                                                             Met                    0                   +10
                                                                                                                       +10%
            year.
     2.1.3.	   Percentage of enforcement cases closed during the
               fiscal year in which the Commission obtained sanc-
               tions (e.g., civil monetary penalties, restitution and
                                                                             Met                   0%                   +1%
                                                                                                                        +1%
               disgorgement, cease and desist orders, permanent
               injunctions, trading bans, and registration restric-
               tions).
     2.1.4.	Cases filed by other criminal and civil law enforce-
            ment authorities during the fiscal year that included         Exceeded                 +20
                                                                                                  +20%                  +13
                                                                                                                       +13%
            cooperative assistance from the Commission.
2.2	Commodity professionals meet high standards.
     2.2.1.	   Percentage of self-regulatory organizations that
                                                                             Met                   0%                   0%
               comply with CFTC Core Principles.
     2.2.2.	   Percentage of derivatives clearing organizations
                                                                             Met                   0%                   0%
               that comply with CFTC Core Principles.
     2.2.3.	   Percentage of professionals compliant with stan-
               dards regarding testing, licensing, and ethics                Met                   0%                   0%
               training.
     2.2.4.	   Percentage of self-regulatory organizations that
                                                                             Met                   0%                   0%
               comply with requirement to enforce their rules.
     2.2.5.	   Percentage of total requests for guidance and
                                                                             Met                   0%                  +15%
                                                                                                                       +15%
               advice receiving CFTC response.

                                                                                                             (continued on next page)




26      CFTC
                  Management’s                                                                    Other Accompanying
                                               Performance Section       Financial Section                                    Appendix
                  Discussion & Analysis                                                           Information
                                                                         M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                                            Strategic Goal Two (continued)
                                                                                   2009 Performance Results
                                                                                           Change (+/-) from     Change (+/-) from
Outcome Objectives and Performance Measures                            Met/Not Met           2009 Target           2008 Actual
2.3	Customer complaints against persons or firms registered under the Act are handled effectively and expeditiously.
   2.3.1.a	 Percentage of filed complaints resolved within one
                                                                         Not Met                 -17%                  +16%
            year of the filing date for Voluntary Proceedings.
   2.3.1.b	 Percentage of filed complaints resolved within one
            year and six months of the filing date for Summary          Exceeded                 +20%                  +23%
            Proceedings.
   2.3.1.c	 Percentage of filed complaints resolved within one
            year and six months of the filing date for Formal           Exceeded                  +3%                  +20%
            Proceedings.

   2.3.2	     Percentage of appeals resolved within six months.         Exceeded                 +30%                   -16%




                                                                                                                     CFTC         27
    Management’s                                                                    Other Accompanying
                                Performance Section       Financial Section                                      Appendix
    Discussion & Analysis                                                           Information
Introduction to Strategic Goal Three



T           he Commission focuses on issues of market
        integrity, seeking to protect: 1) the economic
integrity of the markets so that markets may operate free
                                                                 work of the SROs and NFA, but also monitors the finan-
                                                                 cial strength of FCMs directly, as appropriate. In addition,
                                                                 the Commission periodically reviews clearing organization
from manipulation; 2) the financial integrity of the markets     procedures for monitoring risks and protecting customer
so that the insolvency of a single participant does not become   funds.
a systemic problem affecting other market participants;
                                                                 ■■   Protecting Customer Funds
and 3) the operational integrity of the markets so that
transactions are executed fairly and proper disclosures to            Staff members monitor the operations of registrants in
existing and prospective customers are made.                          possession of customer funds through a number of
                                                                      financial oversight and risk surveillance activities. One
                                                                      of the oversight activities involves the review of regula-
Performance Results for Goal Three
                                                                      tory notices that FCMs are required to file with the
In fostering open, competitive, and financially sound                 Commission. These notices disclose predefined report-
markets, the Commission’s two main priorities are to avoid            able events that may indicate a financial issue with the
disruptions to the system for clearing and settling contract          firm (e.g., under-segregation or undercapitalization),
obligations and to protect the funds that customers                   which warrant further staff analysis. Staff also review
entrust to FCMs. Clearing organizations and FCMs are the              monthly financial reports submitted by FCMs, review
backbone of the clearing and settlement system; together,             annual reports of FCMs certified by independent public
they protect against the possibility that the financial diffi-        accountants, and conduct on-site examinations of
culties of one trader may become a systemic problem for               FCMs. In FY 2009, staff processed monthly and annual
other traders.                                                        financial reports filed by approximately 140 FCMs, and
                                                                      performed examinations and on-site reviews of several
Commission staff members also work with the SROs and
                                                                      FCMs to assess their compliance with the Commission’s
NFA to monitor closely the financial condition of FCMs
                                                                      financial requirements, including the Commission’s
through review of various monthly and annual financial
                                                                      minimum capital and customer fund protection
reports and notices of reportable events. The SROs and
                                                                      requirements.
NFA also conduct audits and daily financial surveillance
of their respective member FCMs, reviewing and assessing              The financial and risk surveillance activities performed
each FCM’s exposure to losses from large customer posi-               by staff continue to take on greater importance due to
tions that it carries. As an oversight regulator, the Commis-         the ongoing market volatility and its impact on market
sion not only reviews the audit and financial surveillance            intermediaries and the clearing system. During FY 2009,




28     CFTC
                 Management’s                                                                Other Accompanying
                                           Performance Section        Financial Section                                 Appendix
                 Discussion & Analysis                                                       Information
                                                                           M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




     staff engaged in frequent contact with traders, firms,              In FY 2009, the agency committed substantial staff
     and clearinghouses to monitor the potential for, and                resources to the examination of selected SROs. Division
     instances of, market volatility, market disruptions, or             of Clearing and Intermediary Oversight (DCIO) staff
     emergencies that had the potential to impact: 1) the                completed two reviews to assess the financial surveil-
     proper capitalization of firms; 2) the proper segregation           lance programs of SROs and a review to assess an SRO’s
     of customer funds; and 3) the ability of financial inter-           arbitration program. In one examination DCIO staff
     mediaries to make payments to a DCO in a timely                     focused on an SRO’s staffing levels, including the appro-
     manner. Staff also evaluated systemic risk.                         priate training of SRO staff, and the SRO’s review of
                                                                         FCM financial statements and regulatory notices filed
As a result of these and other ongoing financial oversight               by FCMs.      The second examination focused on the
and risk surveillance activities in FY 2009, there were no               SRO’s staffing levels, review of financial statements and
losses of regulated customer funds as a result of an FCM                 regulatory notices, and FCM examination program. The
failure or the inability of customers to transfer their funds            staff’s review of the arbitration program focused on the
from a failing FCM to a financially sound FCM. The perfor-               SRO’s program for the resolution of disputes involving
mance result indicates that the program’s objectives of                  commodity futures and option contracts among public
ensuring sound financial practices of clearing organizations             customers and market intermediaries. Staff are in the
and firms holding customer funds, and the protection of                  process of conducting a third review of an SRO’s finan-
customer funds are being met.                                            cial surveillance program that will not be completed
                                                                         until FY 2010 and are finalizing a review of an SRO’s
■■   Oversight of SROs and DCOs
                                                                         registration program that also will be completed in
     As a key aspect of assuring effective self-regulation, the          FY 2010.

     Commission oversees futures industry SROs, which
                                                                         In addition to reviews of SROs, DCIO staff completed
     include exchanges and NFA, to ensure that they fulfill
                                                                         three reviews of DCOs, one of them a joint review with
     their responsibilities for monitoring and ensuring the
                                                                         the Division of Market Oversight (DMO), to assess the
     financial integrity of market intermediaries and for
                                                                         DCOs’ programs for compliance with certain CFTC
     protecting customer funds. Commission staff oversee,
                                                                         Core Principles. Based on its reviews, staff determined
     review and report to the Commission on SRO and DCO
                                                                         that the SROs’ and DCOs’ programs were meeting the
     programs for monitoring and enforcing compliance
                                                                         applicable requirements of the Act and Commission
     with applicable provisions of the Act and Commission
                                                                         regulations. The performance results indicate that the
     regulations, including the CFTC Core Principles, and
                                                                         Commission’s oversight program objectives of ensuring
     with the SRO’s or DCO’s rules.          The Commission
                                                                         the financial integrity of market intermediaries and the
     employs a risk-based approach to its examination cycles
                                                                         protection of customer funds are being met.
     of SROs and DCOs, i.e., both the scheduling and scope
     of the risk-based reviews are based on an analysis of the      The following table summarizes the FY 2009 investment
     underlying risks to which an institution is exposed and        and overall performance results for Strategic Goal Three.
     the controls that it has in place to address those risks.      In addition, FY 2009 performance results are compared
                                                                    against the FY 2009 targets and FY 2008 actual results.




                                                                                                                       CFTC         29
      Management’s                                                                    Other Accompanying
                                 Performance Section        Financial Section                                      Appendix
      Discussion & Analysis                                                           Information
                                                Strategic Goal Three
               Ensure market integrity in order to foster open, competitive, and financially sound markets.
                                                Annual Performance Goal Three
                           No loss of customer funds as a result of firms’ failure to adhere to regulations.
                          No customers prevented from transferring funds from failing firms to sound firms.




                                                                                     2009 Performance Results
                                                                                            Change (+/-) from   Change (+/-) from
Outcome Objectives and Performance Measures                             Met/Not Met           2009 Target         2008 Actual
3.1	Clearing organizations and firms holding customer funds have sound financial practices.
     3.1.1.	Lost funds:

                a)	Number of customers who lost funds.                      Met                    0                   0

                b)	Amount of funds lost.                                    Met                   $0                   $0

     3.1.2.	Number of rulemakings to ensure market integrity
                                                                         Exceeded                  +1
                                                                                                  +1%                  +4
                                                                                                                      +4%
            and financially sound markets.
     3.1.3.	    Percentage of clearing organizations that comply
                                                                            Met                   0%                  0%
                with requirement to enforce their rules.
3.2	Commodity futures and option markets are effectively self-regulated.
     3.2.1.	    Percentage of intermediaries who meet risk-based
                                                                            Met                   0%                  0%
                capital requirements.
     3.2.2.	    Percentage of self-regulatory organizations that
                                                                            Met                   0%                  0%
                comply with requirement to enforce their rules.
3.3	Markets are free of trade practice abuses.
     3.3.1.	    Percentage of exchanges deemed to have adequate
                                                                            Met                   0%                  0%
                systems for detecting trade practice abuses.
     3.3.2.	    Percentage of exchanges that comply with require-
                                                                            Met                   0%                  0%
                ment to enforce their rules.
3.4	Regulatory environment is flexible and responsive to evolving market conditions.
     3.4.1.	    Percentage of CFMA Section 126(b) objectives
                                                                            Met                   0%                  0%
                addressed.
     3.4.2.	Number of rulemakings, studies, interpretations,
            and statements of guidance to ensure market integ-
                                                                         Exceeded                 +27                 +22
            rity and exchanges’ compliance with regulatory
            requirements.
     3.4.3.	    Percentage of requests for no-action or other relief
                completed within six months related to novel market
                                                                            Met                   0%                  0%
                or trading practices and issues to facilitate innova-
                tion.
     3.4.4.	    Percentage of total requests for guidance and
                                                                         Exceeded                 +6%                 +18%
                advice receiving CFTC response.


30      CFTC
                   Management’s                                                                  Other Accompanying
                                               Performance Section      Financial Section                                    Appendix
                   Discussion & Analysis                                                         Information
     Introduction to Strategic Goal Four


T          he Commission’s ability to meet its strategic
           program goals depends on excellent management
of its human capital, technology, and financial resources.
                                                                       managers on the hiring process, and worked with
                                                                       managers to use all available recruitment strategies to
                                                                       attract the candidates who can best support the agency’s
Management excellence means hiring, retaining, and                     mission. The Commission exceeded its Congressional
developing a professionally competent and driven workforce             promise of a staff of 580, ending FY 2009 at a level of
with the technical skills and resources to achieve mission             583.    The Commission is also in the process of
success. In addition, management excellence provides the               improving its on-boarding process, ensuring that
executive leadership required to accomplish the agency’s               employees have a smooth transition to their new job
strategic goals and to continue agency function under                  and that they receive the information and training they
emergency condition.                                                   need to succeed.

                                                                  ■■   Facilities Management
Performance Results of Goal Four
                                                                       To accommodate this growth in staff, the agency has
Skilled management of human capital, technology, and                   begun a long-range space plan to expand available seats
financial resources provides the foundation for achievement            in Chicago and Washington D.C. and to upgrade the
of all strategic goals. Resources are always limited, and the          audiovisual tools that will allow the agency to commu-
process of allocating and managing those resources in a                nicate effectively across regions. Anticipated growth in
way that provides the best return to the public are critical.          the coming years will continue to challenge the agency’s
                                                                       management of its space.
■■   Human Capital Management
                                                                  ■■   Financial Management
     The management of human capital has been chal-
     lenging over the last several years. At the beginning of          Management of financial resources is also critical to the
     FY 2009, the agency had experienced years of reduced              success of the agency in meeting its strategic goals. In
     appropriations, exacerbated by a wave of retirements in           FY 2009, Congress appropriated significant funds to
     FY 2006. By the end of FY 2007, the agency’s staff level          allow the agency to upgrade agency technology and
     fell to 437 FTE, the lowest level it has ever experienced         improve agency services. The Commission was able to
     in spite of the enormous growth of the regulated                  obligate all funds successfully by the end of the fiscal
     markets and additional regulatory responsibilities                year, and it received a clean audit report from its external
     passed by Congress. Fortunately, Congress provided the            auditors.
     agency with funding to hire in FY 2009, but with the
                                                                  ■■   Information Technology Management
     promise that the agency would, in a period of six
     months, increase to a staff of at least 580 by the end of         Effective performance in the technology area is the
     the fiscal year. To accomplish this goal, the agency              highest priority items under Goal Four. Technology
     reviewed its internal hiring procedures and made                  investments are effectively aligned with the strategic
     improvements to streamline processes, trained all                 plan and are supporting performance improvement
                                                                       across all goals.



                                                                                                                   CFTC        31
      Management’s                                                                  Other Accompanying
                                Performance Section       Financial Section                                    Appendix
      Discussion & Analysis                                                         Information
■■   Continuity of Operations Readiness
                                                                        National Essential Function on the continuity of the
     The Commission continued to ensure its readiness                   Nation’s financial structure. In addition, the agency
     to deploy to its alternate worksite, and tested this               upgraded its remote access capabilities and imple-
     capability through its participation in Eagle Horizon              mented a regularly recurring telework program to
     09, a national level exercise coordinated by Federal               ensure that employees have the capability to work from
     Emergency Management Agency (FEMA). The Com-                       home or other locations as needed.
     mission also enhanced its readiness by establishing a
     Small Agency Council Continuity of Operations                  The following table summarizes the FY 2009 investment
     Committee, establishing collaborative continuity teams         and overall performance results for Strategic Goal Four.
     with its financial regulatory partners on the President’s      In addition, FY 2009 performance results are compared
     Working Group, and the agencies that support the               against the FY 2009 targets and FY 2008 actual results.


                                                Strategic Goal Four
               Facilitate Commission performance through organizational and management excellence,
                              efficient use of resources, and effective mission support.
                                                 Annual Performance Goal Four
                     Recruit, retain, and develop a skilled and diversified staff to keep pace with attrition and
                                               anticipated losses due to retirement.




                                                                                      2009 Performance Results
                                                                                             Change (+/-) from   Change (+/-) from
 Outcome Objectives and Performance Measures                            Met/Not Met            2009 Target         2008 Actual
 4.1	 Productive, technically competent, competitively compensated, and diverse workforce that takes into account current and
      future technical and professional needs of the Commission.
     4.1.1.	   Percentage of fiscal year program development
               objectives met under CFTC pay for performance                 Met                   0%                   0%
               authority.
     4.1.2.	Average number of days between close of vacancy
            announcement and job offer, per Federal standards             Not Met                 +12%
                                                                                                   +12                   -2
            of 45 days or less.
     4.1.3.	Rate of employee turnover, exclusive of retire-
                                                                         Exceeded                 -1.7%
                                                                                                  -1.7%                -0.5%
            ments.
     4.1.4.	   Percentage of employees in mission-critical posi-
               tions rating themselves at “extensive” or higher
                                                                          Not Met                 -12%                 -35%
               level of expertise on Strategic Workforce Planning
               Survey.
     4.1.5.	   Percentage of underrepresented groups among
                                                                          Not Met                  -3%                  +1%
               new hires.

                                                                                                             (continued on next page)
32      CFTC
                 Management’s                                                                     Other Accompanying
                                             Performance Section         Financial Section                                     Appendix
                 Discussion & Analysis                                                            Information
                                                                            M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                                             Strategic Goal Four (continued)
                                                                                       2009 Performance Results
                                                                                              Change (+/-) from     Change (+/-) from
Outcome Objectives and Performance Measures                               Met/Not Met           2009 Target           2008 Actual
4.2	Modern and secure information system that reflects the strategic priorities of the Commission.
   4.2.1.	    Percentage of CFTC information technology
              resources directly tied to Commission resource                     Met                 0%                     0%
              priorities as stated in the Strategic Plan.
   4.2.2.	    Percentage of major information technology invest-
              ments having undergone an investment review                        Met                 0%                     0%
              within the last three years.
   4.2.3.	    Percentage of Customer Support Center inquiries
                                                                           Exceeded                 +20%                  +16%
              resolved within established performance metrics.

   4.2.4.	    Percentage of employees with network availability.                 Met                 0%                     0%

   4.2.5.	    Percentage of employees who require remote
                                                                                 Met                 0%                     0%
              network availability that have it.
   4.2.6.	    Percentage of major systems and networks certified
              and accredited in accordance with National Institute               Met                 0%                     0%
              of Standards and Technology (NIST) guidance.
   4.2.7.	    Percentage of information technology E-Govern-
              ment initiatives on target for compliance with imple-              Met                 0%                     0%
              mentation schedule.
   4.2.8.	    Percentage of network users who have completed
                                                                           Exceeded                 +1%                     0%
              annual security and privacy training.
4.3	Organizational infrastructure that efficiently and effectively responds to and anticipates both the routine and emergency
    business needs of the Commission.
   4.3.1.	Number of hours required to deploy staff and begin
          mission essential functions at the Continuity of                       Met                  0                    -12
          Operations Plan (COOP) site.
4.4	Financial resources are allocated, managed, and accounted for in accordance with the strategic priorities of the
    Commission.
   4.4.1.	Audit opinion of the Commission’s annual financial
                                                                                                     No                    No
          statements as reported by the CFTC’s external                          Met               Change                Change
          auditors.
   4.4.2.	Number of material internal control weaknesses
          reported in the Performance and Accountability                         Met                  0                        0
          Report.
   4.4.3.	Number of non-compliance disclosures in the audit
                                                                                 Met                  0                        0
          report.
4.5	Commission’s mission is fulfilled and goals are achieved through sound management and organizational excellence provided
    by executive leadership.
   4.5.1.	    Percentage of 18 Strategic Plan priorities that are
                                                                                 Met                 0%                    -75%
              on track to completion by FY 2012.




                                                                                                                        CFTC         33
    Management’s                                                                       Other Accompanying
                                 Performance Section         Financial Section                                      Appendix
    Discussion & Analysis                                                              Information
                          Financial Highlights

T       he following chart is an overview of the Commission’s financial position, preceding a discussion of the agency’s
        financial highlights for FY 2009.

                                                                                    2009                               2008
 Condensed Balance Sheet Data
 	Fund Balance with Treasury                                                 $	    43,961,950                   $	    27,666,831
 	   Property, Equipment, and Software, Net                                        10,346,721                          2,810,441
 	Accounts Receivable                                                                   18,207                           11,534
 	   Prepayments                                                                       558,081                          461,552
 	Other (Custodial)                                                                 1,703,220                          1,721,526
 Total Assets                                                                $	    56,588,179                   $	    32,671,884
 	FECA Liabilities                                                           $	        (207,532)                $	      (218,888)
 	   Payroll, Benefits and Annual Leave                                           (11,529,246)                        (8,029,377)
 	Deposit Fund Liabilities                                               	             (142,279)            	                 —
 	Other Deferred Lease Liabilities                                                 (3,226,161)                        (3,294,324)
 	Accounts Payable                                                                 (4,081,180)                        (2,496,958)
 	Custodial Liabilities                                                            (1,703,220)                        (1,721,526)
 	Other                                                                                  (7,513)                          (9,957)
 Total Liabilities                                                                (20,897,131)                       (15,771,030)
 	Cumulative Results of Operations                                                     (491,751)                       5,224,895
 	Unexpended Appropriations                                                       (35,199,297)                       (22,125,749)
 Total Net Position                                                               (35,691,048)                       (16,900,854)
 Total Liabilities and Net Position                                          $	   (56,588,179)                  $	   (32,671,884)
 Condensed Statements of Net Cost
 	Total Cost                                                                 $	   131,435,739                   $	   105,583,743
 	Net Revenue                                                                          (101,965)                         (67,479)
 Total Net Cost of Operations                                                $	   131,333,774                   $	   105,516,264
 Net Cost by Strategic Goal
 	   Goal One - Economic Vitality                                         $        40,713,470               $         31,654,879
 	   Goal Two - Market User and Public                                             30,206,768                         25,323,903
 	   Goal Three - Industry                                                         30,206,768                         24,268,741
 	   Goal Four - Organizational Excellance                                         30,206,768                         24,268,741
                                                                             $	   131,333,774                   $	   105,516,264

34    CFTC
                Management’s                                                                     Other Accompanying
                                             Performance Section   Financial Section                                          Appendix
                Discussion & Analysis                                                            Information
                                                                           M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Financial Discussion and Analysis                                   For the year ended September 30, 2009, the Balance Sheet
                                                                    reflects total assets of $56.6 million. This reflects a
The CFTC prepares annual financial statements in
                                                                    73 percent increase from FY 2008. The Commission’s Fund
accordance with GAAP for Federal government entities and
                                                                    Balance with Treasury was $16.3 million more in FY 2009
subjects the statements to an independent audit to ensure
                                                                    than it was at the end of FY 2008. A majority of the
their integrity and reliability in assessing performance.
                                                                    increase was attributable to obligated but unexpended

Management recognizes the need for performance and                  contract funding for technology modernization and space

accountability reporting, and fully supports assessments of         renovations.      For example, major upgrades in market

risk factors that can have an impact on its ability to do so.       surveillance systems are underway and market watch rooms

Improved reporting enables managers to be accountable               are being implemented in Chicago and Washington, D.C.

and supports the concepts of the Government Performance             Moreover, budget increases received in FY 2009 and

and Results Act (GPRA), which requires the Commission to:           anticipated in FY 2010 allows the CFTC to increase staffing

1) establish a strategic plan with programmatic goals and           by approximately 200 new positions. Accordingly, existing

objectives; 2) develop appropriate measurement indicators;          space in Chicago and Washington, D.C. is being renovated

and 3) measure performance in achieving those goals.                to increase seating capacity and addition space has been
                                                                    acquired. Construction is scheduled to begin in FY 2010.
The financial summary as shown on the preceding page
highlights changes in financial position between September          In FY 2009, the net book value of general property, plant,
30, 2009 and September 30, 2008. This overview is                   and equipment increased by $7.5 million. This is attributed
supplemented with brief descriptions of the nature of each          to increases of $4.6 million, $2.3 million, and $600
required financial statement and its relevance. Certain             thousand for equipment, software and leasehold improve-
significant balances or conditions featured in the graphic          ments, respectively.
presentation are explained in these sections to help clarify
                                                                    The CFTC litigates against defendants for alleged violations
their relationship to Commission operations. Readers are
                                                                    of the CEA and Commission regulations. Violators may be
encouraged to gain a deeper understanding by reviewing
                                                                    subject to a variety of sanctions including civil monetary
the Commission’s financial statements and notes to the
                                                                    penalties, injunctive orders, trading and registration bars
accompanying audit report presented in the Financial
                                                                    and suspensions, and orders to pay disgorgement and
Section of this report.
                                                                    restitution to customers. When collectible custodial
                                                                    receivables (non-entity assets) are high, the civil monetary
Understanding the Financial Statements                              sanctions that have been assessed and levied against
                                                                    businesses or individuals for violations of law or regulations
The CFTC presents financial statements and notes in the             dominate the balance sheet.
format required for the current year by OMB Circular A-136,
Financial Reporting Requirements, which is revised annually by      As should be expected from a small regulatory agency;
OMB in coordination with the U.S. Chief Financial Officers          payroll, benefits, and annual leave make up the majority of
Council. The CFTC’s current year and prior year financial           CFTC liabilities.
statements and notes are presented in a comparative format.
                                                                    Statement of Net Cost
Balance Sheet
                                                                    This statement is designed to present the components of
The Balance Sheet presents, as of a specific point in time,         the Commission’s net cost of operations. Net cost is the
the economic value of assets and liabilities retained or            gross cost incurred less any revenues earned from
managed by the Commission. The difference between                   Commission activities. The Statement of Net Cost is cate-
assets and liabilities represents the net position of the           gorized by the Commission’s strategic goals.
Commission.


                                                                                                                       CFTC         35
     Management’s                                                                     Other Accompanying
                                Performance Section         Financial Section                                      Appendix
     Discussion & Analysis                                                            Information
The Commission experienced a 24.5 percent increase in            Statement of Budgetary Resources
the total net cost of operations during FY 2009. This is
                                                                 This statement provides information about the provision
consistent with the 30.3 percent budget increase the
                                                                 of budgetary resources and its status as of the end of the
Commission received for its appropriation.
                                                                 year. Information in this statement is consistent with
Strategic Goal One, which tracks activities related to market    budget execution information and the information
oversight, continues to require a significant share of           reported in the Budget of the U.S. Government, FY 2009.
Commission resources at 31 percent of net cost of opera-
                                                                 The $146.0 million appropriation level received in FY 2009
tions in FY 2009. The $40.7 million reflects a continuation
                                                                 represented a 30.3 percent increase for the Commission.
of management’s effort to address market volatility.
                                                                 This permitted the Commission to continue to fund
Strategic Goal Two is representative of efforts to protect       benefits and compensation, lease expenses, printing,
market users and the public. In FY 2009, the net cost of         services to support systems users, telecommunications,
operations for this goal was $30.2 million or 23 percent.        operations, and maintenance of IT equipment. In FY 2009,
The funding for this goal is primarily to support DOE with       gross outlays were in line with the gross costs of operations
new and ongoing investigations in response to market             due to increased hiring and technology spending.
activity. Investigations into crude oil and related derivative
contracts, and suspected Ponzi schemes have been                 Statement of Custodial Activity
extremely resource intensive.
                                                                 This statement provides information about the sources and
Strategic Goal Three is representative of efforts to ensure      disposition of non-exchange revenues.            Non-exchange
market integrity. In FY 2009, the net cost of operations for     revenue at the CFTC is primarily represented by fines,
this goal was $30.2 million or 23 percent. Productivity          penalties, and forfeitures assessed and levied against busi-
improvements continued to be achieved through the use            nesses and individuals for violations of the CEA or
of automated audit and reporting tools. Commission staff         Commission regulations. Other non-exchange revenues
completed two reviews of financial surveillance programs         include registration, filing, appeal fees, and general receipts.
of SROs, and a review of an SRO’s arbitration program. In        The Statement of Custodial Activity reflects total non-
addition, staff completed three compliance reviews of            exchange revenue collected (cash collections) in the
DCOs’ programs.                                                  amount of $17.9 million and a transfer of the collections
                                                                 to Treasury in the same amount. This amount represents a
Strategic Goal Four is representative of efforts to achieve      decrease of $123.9 million from FY 2008, during which
organizational excellence and accountability. Included in        the Commission collected $125 million assessed against
this goal are the efforts of the Chairman, Commissioners,        British Petroleum (BP) Products North America.
and related staff to ensure more transparency in the
commodity markets, address globalization, and lay the            Historical experience has indicated that a high percentage
groundwork for the future. Additionally, these costs are         of custodial receivables prove uncollectible. The method-
reflective of the planning and execution of human capital,       ology used to estimate the allowance for uncollectible
financial management, and technology initiatives. In             amounts related to custodial accounts is that custodial
FY 2009, the net cost of operations for this goal was            receivables are considered 100 percent uncollectible unless
$30.2 million or 23 percent.                                     deemed otherwise. An allowance for uncollectible accounts
                                                                 has been established and included in the accounts
                                                                 receivable on the Balance Sheet. The allowance is based on
                                                                 past experience in the collection of accounts receivables
                                                                 and an analysis of outstanding balances.         Accounts are
                                                                 re-estimated quarterly based on account reviews and a
                                                                 determination that changes to the net realizable value are
                                                                 needed.


36     CFTC
                Management’s                                                                 Other Accompanying
                                           Performance Section       Financial Section                                   Appendix
                Discussion & Analysis                                                        Information
                                                                       M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                         Management Assurances
Management Overview


T        he CFTC is committed to management excellence
         and recognizes the importance of strong financial
systems and internal controls to ensure accountability,
integrity, and reliability. This operating philosophy has
permitted the Commission to make significant progress in
documenting and testing its internal controls over finan-
cial reporting for next year, as prescribed in OMB Circular
A-123, Management’s Responsibility for Internal Control. The
graph below depicts all five components of the internal
control process that must be present in an organization to
ensure an effective internal control process.

Control Environment is the commitment to encourage
the highest level of integrity and personal and professional
standards, and promotes internal control through leader-
                                                                The Commission relies on its performance management
ship philosophy and operation style.
                                                                and internal control framework to:
Risk Assessment is the identification and analysis of risks
                                                                ■■   Ensure that its divisions and mission support offices
associated with business processes, financial reporting,
                                                                     achieve their intended results efficiently and effectively;
technology systems, and controls and legal compliance in
                                                                     and
the pursuit of agency goals and objectives.
                                                                ■■   Ensure the maintenance and use of reliable, complete,
Control Activities are the actions supported by manage-
                                                                     and timely data for decision-making at all levels.
ment policies and procedures to address risk, e.g., perfor-
mance reviews, status of funds reporting, and asset manage-     The Commission strongly believes that the rapid imple-
ment reviews.                                                   mentation of audit recommendations is essential to
                                                                improving its operations.         Integration of Commission
Monitoring is the assessment of internal control perfor-
                                                                strategic, budget, and performance data permits manage-
mance to ensure the internal control processes are properly
                                                                ment to make individual assurance statements with confi-
executed and effective.
                                                                dence. Moreover, data-driven reporting provides the foun-
Information and Communication ensures the agency’s              dation for Commission staff to monitor and improve its
control environment, risks, control activities, and perfor-     control environment.
mance results are communicated throughout the agency.

                                                                                                                   CFTC         37
     Management’s                                                                 Other Accompanying
                               Performance Section      Financial Section                                      Appendix
     Discussion & Analysis                                                        Information
Statement of Assurances
The Statement of Assurance is required by the Federal Managers’ Financial Integrity Act (FMFIA) and OMB Circular A-123,
Management’s Responsibility for Internal Control. The assurance is for internal controls over operational effectiveness
(we do the right things to accomplish our mission) and operational efficiency (we do things right).


                                                   Statement of Assurance

     “CFTC management is responsible for establishing and maintaining effective internal control and financial management
     systems that meet the objectives of the Federal Managers’ Financial Integrity Act (FMFIA). The CFTC conducted its
     assessment of the internal control over effectiveness and efficiency of operations, and compliance with applicable laws
     and regulations, in accordance with OMB Circular A-123, Management’s Responsibility for Internal Control. Based
     on the results of this evaluation, the CFTC can provide reasonable assurance that its internal control over operations,
     and compliance with applicable laws and regulations, as of September 30, 2009 was operating effectively and no
     material weaknesses were found in the design or operation of the internal controls.

     The CFTC also conducts reviews of its financial management systems in accordance with OMB Circular A-127,
     Financial Management Systems. Based on the results of these reviews, the CFTC can provide reasonable assurance that
     its financial management systems are in compliance with applicable provisions of FMFIA as of September 30, 2009.

     In addition, the CFTC conducted its assessment of the effectiveness of internal control over financial reporting, which
     includes safeguarding of assets and compliance with applicable laws and regulations governing the use of budget
     authority and other laws and regulations that could have a material effect on the financial statements, in accordance
     with the requirements of Appendix A of OMB Circular A-123. Based on the results of this evaluation, the CFTC
     can provide reasonable assurance that its internal control over financial reporting as of June 30, 2009 was operating
     effectively and no material weaknesses were found in the design or operation of the internal control over financial
     reporting”.



                                                                       Gary Gensler
                                                                       Chairman


During FY 2009, in accordance with FMFIA, and using the           ■■   Revenues and expenditures applicable to Commission
guidelines of OMB, the Commission reviewed key compo-                  operations are properly recorded and accounted for
nents of its management and internal control system.                   to permit the preparation of accounts and reliable
                                                                       to financial and statistical reports, and to maintain
The objectives of the Commission’s internal controls are to
                                                                       accountability over assets; and
provide reasonable assurance that:
                                                                  ■■   All programs are efficiently and effectively carried out
■■   Obligations and costs are in compliance with applicable
                                                                       in accordance with applicable laws and management
     laws;
                                                                       policy.
■■   Assets are safeguarded against waste, loss, unauthorized
                                                                  The efficiency of the Commission’s operations is evaluated
     use, or misappropriation;
                                                                  using information obtained from reviews conducted
                                                                  by GAO and the Office of Inspector General (OIG),
                                                                  specifically requested studies, or observations of daily
                                                                  operations.



38       CFTC
                  Management’s                                                                Other Accompanying
                                            Performance Section        Financial Section                               Appendix
                  Discussion & Analysis                                                       Information
                                                                            M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




These reviews ensure that the Commission’s systems and               FMFIA Section 2, Management Control
controls comply with the standards established by FMFIA.
                                                                     The Commission has no declared material weakness under
Moreover, managers throughout the Commission are
                                                                     FMFIA for FY 2009 and FY 2008 in the area of financial
responsible for ensuring that effective controls are imple-
                                                                     reporting that hinders preparation of timely and accurate
mented in their areas of responsibility. Individual assur-
                                                                     financial statements.
ance statements from division and office heads serve as a
primary basis for the Chairman’s assurance that manage-
ment controls are adequate. The assurance statements are             FMFIA Section 4, Financial Management
based upon each office’s evaluation of progress made in              Systems.
correcting any previously reported problems, as well as
new problems identified by the OIG, GAO, other manage-               The Commission declared no systems nonconformance
ment reports, and the management environment within                  under FMFIA during FY 2009 and FY 2008. The indepen-
each office. The items presented below are illustrative of           dent auditors’ reports for FY 2009 and FY 2008 disclosed
the work performed during FY 2009:                                   no instances of noncompliance or other matters that were
                                                                     required to be reported under Government Audit Standards
■■   Pay and benefits assessment based on the authority of           and OMB Bulletin 07-04, Audit Standards for Federal
     Section 10702 of the Public Law 107-171, Farm Security          Financial Statements.
     and Rural Invest Act of 2002 (FSRIA);

■■   Remediation of management letter matters identified in          2009 Management Initiatives
     the FY 2008 audit of the agency’s financial statements
     and related internal controls;                                  In the CFTC’s 2008 Performance and Accountability Report,
                                                                     the Inspector General identified two of the agency’s most
■■   Management control reviews conducted with the                   serious management challenges in its 2008 Assessment of
     express purpose of assessing internal controls;                 the Commission.         Due to an increasingly rapid move
                                                                     towards highly sophisticated electronic markets, and espe-
■■   Management control reviews conducted with the
                                                                     cially, in light of the recent economic events in the finan-
     express    purpose       of   assessing   compliance   with
                                                                     cial system the Commission recognizes the consequence of
     applicable laws, regulations, government-wide policies,
                                                                     operating without next generation surveillance systems
     and laws identified by OMB in Memorandum M-09-33
                                                                     and new staff competencies and skill sets. In 2009, the
     Technical Amendments to OMB Bulletin No. 07-04
                                                                     Commission took strategic action in addressing these two
     Audit Requirements for Federal Financial Statements;
                                                                     high priority issues as described below:
■■   Information security as required by the Federal
     Information Security Management Act (FISMA);                    Modernization of Electronic Market Surveillance:

■■   Implementation of the CFTC’s Property Inventory                 The Commission is committed to further developing its
     Management System to maintain an inventory and                  Trade Surveillance System (TSS).             TSS includes new
     monitor the agency’s accountable assets; and                    database technologies as well as integrated commercial
                                                                     software products that when fully deployed will allow staff
■■   U.S. Department of Transportation (DOT), Report on              to keep pace with the ever-changing industry in an adaptive
     Controls Placed in Operation and Tests of Operating             and responsive manner. When fully developed and imple-
     Effectiveness, General, Application, and Operations             mented, TSS will provide CFTC staff with greatly enhanced
     Controls Related to the Enterprise Service Center,              access to trade data and the tools to analyze that data.
     conducted in compliance with the American Institute
     of Certified Public Accountants’ Statement on Auditing
     Standards (SAS) 70.


                                                                                                                        CFTC         39
      Management’s                                                                     Other Accompanying
                                    Performance Section      Financial Section                                      Appendix
      Discussion & Analysis                                                            Information
As part of this effort, the Office of Information Technology    Efficient Acquisition and Integration of Skilled
Services (OITS) and the DMO are executing a multi-year          Human Capital
plan. Together, they have modernized the computer envi-
                                                                During FY 2009, the long-standing Commission focus
ronment that processes trade level data and awarded a
                                                                on strategic human resource initiatives yielded notable
contract to Actimize. Actimize delivered a wash trading
                                                                advances in both program development and opera-
model and data analysis tool in the last quarter of 2008
                                                                tional success. The Commission met its ambitious hiring
and staff are developing business solutions for additional
                                                                commitments while instituting numerous new programs
models. As part of this effort, the Commission awarded
                                                                to enhance its ability to attract, retain, and develop
contracts to two vendors to supplement and support the
                                                                employees. Key to this effort is the governance committee
current CFTC TSS development and implementation
                                                                of senior managers that draws on frequent employee input
efforts. The contractors will work directly with business
                                                                to develop programs that will support long-term mission
users and CFTC technical staff to develop business require-
                                                                goals with knowledgeable, diverse, and productive human
ment documents, technical specifications, project plans,
                                                                capital. This transparent, participative process helps assure
testing plans, and other project artifacts used to support
                                                                that employees value and understand each human resource
the CFTC’s Trade Practice Surveillance Program.
                                                                management initiative. The goal is a workforce that reacts
The Commission is actively working with all of the              and adapts quickly in terms of size, skills, and composition
exchanges to ensure standardized data submission in             to meet changes in the industry, technology and/or statu-
the Financial Information Exchange Mark-up Language             tory or regulatory developments. The governance process
(FIXML).    All exchanges will be submitting trade data         has contributed to annual successes in the development
in FIXML by mid-2010.         Currently, the Commission is      and implementation of a comprehensive pay and benefits
receiving trade data for CME and CBOT in FIXML and is           program mandated by FSRIA.         Due to this process of
in the process of working with other exchanges to receive       employee involvement, the Commission has matched its
their trade data in FIXML.                                      statutory compensation benchmark in ways that employees
                                                                accept and in ways that recognize employee accountability
As part of its effort to modernize its electronic surveil-      for results. For example, the CFTC is in its second full year
lance capabilities, the Commission issued an Advanced           of measuring performance under a merit pay system to
Notice of Proposed Rulemaking to collect account owner-         foster a performance culture. By basing compensation on a
ship and control information for all trading accounts from      performance management system that addressed employee
the exchanges (passed on from firms) on a regular basis.        interest in greater two-way communication about goals
Once the Commission adopts a final rule and is collecting       and results, the Commission has advanced its ability to set
the information, the ownership and control data will be         and reach mission goals.
incorporated into TSS and Integrated Surveillance System
(ISS), the Commission’s market surveillance large trader        This process results in the engagement of all employees

database.                                                       and managers in the continuous improvement in the
                                                                agency’s capacity to manage its human capital strategically.
Expenditures to develop a state-of-the-art, sophisticated       Several important programmatic and operational advances
trade surveillance system directly support CFTC’s responsi-     demonstrated the success of this approach during FY 2009.
bility to ensure market integrity in order to foster open,      In addition to completing the second annual merit pay
competitive, and financial sound markets. Upgrades to           cycle in July, the agency brought the benefits portion of its
TSS will allow staff to better detect novel and complex         total compensation to the level at the statutory benchmark
abusive practices in today’s high-speed, high-volume global     agencies. These benefits changes were designed based on
trading environment. Moreover, TSS will fill a vacuum in        employee input to the effect that the total package needed
inter-market surveillance that only the Commission can          to accommodate individual needs to the extent possible.
address.



40     CFTC
                Management’s                                                               Other Accompanying
                                          Performance Section       Financial Section                                Appendix
                Discussion & Analysis                                                      Information
                                                                              M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




In response, CFTC increased the agency health insurance               including providing training to hiring officials and
premium contribution from 72-75 percent to a full                     obtaining their input. OHR assured that the agency was
85 percent on July 19 and initiated an annual Life Cycle              aware of and used all available flexibilities to attract
payment ($400 in 2009) in September that reimburses                   applications and assure acceptance of offers from top
employee expenses related to health and wellness.                     candidates, such as paid advertising, varied appointment
                                                                      authorities, recruitment bonuses, and salaries above the
The Office of Human Resources (OHR) also completed its
                                                                      minimum of the grade for superior qualifications. Senior
first    comprehensive          Professional   Development   and
                                                                      managers supported this targeting of recruitment in the
Succession Management Program policy document, to
                                                                      areas of greatest mission need by developing detailed
better support effective use by employees and managers of
                                                                      business cases for their FTE requests, which describe how
the many online and on-the-job knowledge management
                                                                      each position would support priority mission-critical func-
resources and opportunities available at CFTC.               Most
                                                                      tions. OHR then worked with selecting officials to further
importantly, the total impact of these efforts to support
                                                                      review precise position requirements and recruitment
agency programs and mission is clearly demonstrated by
                                                                      criteria for each approved vacancy, to help assure assembly
the fact CFTC met its goals to hire new and replacement
                                                                      of the best possible candidate pool to meet the exact
employees on time and with hiring managers commenting
                                                                      mission support needs. The result of these operational
on the excellent quality of the candidates.
                                                                      improvements was on-time completion of the FY 2009
By publicly committing in this manner to a serious,                   hiring program.
ongoing strategic management of human capital initiative,
                                                                      Next steps in this process include completion of the
the agency is improving its ability to: 1) plan for antici-
                                                                      ongoing review of the agency’s position classification
pated change in workforce composition; 2) target and
                                                                      program, to assure it adequately describes and compen-
recruit employees to fill critical skill deficiencies; 3) support
                                                                      sates       the   competencies,    including    supervisory     and
employee development; 4) identify and justify staff
                                                                      executive-level skills, needed in each position in order to
resources needed to perform statutory mandates; and
                                                                      meet its mission. The CFTC is also preparing an improved
5) implement the Title V-exempt CT pay plan envisioned
                                                                      process to orient new hires to the agency and their job
by FSRIA.
                                                                      responsibilities, to better support their rapid contribution
In FY 2009, OHR helped build agency capacity to meet this             to program results. These efforts will continue building
commitment through several operational improvements.                  agency capacity to acquire, integrate, and engage the
These included a review of its business processes that iden-          human capital essential to meeting the goals of the CFTC
tified areas for improvement that streamlined hiring,                 strategic plan.




                                                                                                                          CFTC         41
        Management’s                                                                      Other Accompanying
                                      Performance Section     Financial Section                                       Appendix
        Discussion & Analysis                                                             Information
                Forward Looking –
         Future Business Trends and Events

T         he futures industry has undergone enormous
          growth and change during the last 20 years—in
both the products that are traded and the platforms on
                                                                  staffing levels to counter attrition and to have staff neces-
                                                                  sary to effectively oversee today’s ever growing and more
                                                                  complex markets.
which they are traded. As the Commission looks ahead, it
                                                                  As noted in the discussion of the net cost of operations, the
expects that technology, globalization, and innovation will
                                                                  Commission attempts to balance its investment in four
continue to drive growth in the markets it regulates. As a
                                                                  strategic goals, each focusing on vital areas of regulatory
result of the recent financial crises, Congress is examining
                                                                  responsibility. To continue to be an effective regulator, the
the existing regulatory structures of the financial services
                                                                  Commission will need to place greater reliance on risk
sector. Legislative movement toward strengthening regula-
                                                                  management. It will also need to continue to leverage
tory oversight and bringing OTC markets into a regulated
                                                                  systems and data maintained by other Federal agencies
environment presents the potential for the Commission to
                                                                  and, where possible, by SROs. The Commission will need
acquire significant new responsibilities with attendant
                                                                  to confront the jurisdictional challenges created by innova-
demands on its financial and human resources. Similarly,
                                                                  tion and the expansion of futures and option markets on a
as innovative products cut across regulators’ traditional
                                                                  worldwide basis. These challenges, coupled with a wide
jurisdictions and pose difficult questions regarding who
                                                                  array of new surveillance issues, are expected to signifi-
should be responsible for oversight, the Commission will
                                                                  cantly change the way the Commission uses and allocates
need to devote resources to the harmonization of its regu-
                                                                  resources across its performance goals.
lations with those of other regulators, such as the SEC.

                                                                  Technology
In FY 2006, the Commission experienced a wave of retire-
ments, losing many experienced staff. The Commission              ■■   Technology makes it possible for market participants to
has, since then, struggled to operate at the level needed to           trade globally 24 hours a day on a multitude of newly
do the job required by statute.         The Commission has             designed platforms. As the markets continue to change
repeatedly found itself making difficult choices about how             and grow, the Commission must evolve to meet new
to use its limited resources to fulfill its statutory mission.         information collection and analysis needs. Electronic
During FY 2008 and FY 2009, the Commission was able                    trading, in particular, will require the development of
for the first time in several years, to begin rebuilding its           staff skills to oversee technologically driven markets
staff.   The Commission needs to continue to increase                  and self-regulatory systems.



42       CFTC
                Management’s                                                                  Other Accompanying
                                            Performance Section        Financial Section                               Appendix
                Discussion & Analysis                                                         Information
                                                                                                M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




■■   The Commission will need to upgrade its own                                             will also use this new capability to conduct market
     technology and infrastructure in order to deter                                         research that impacts policy decisions and provides
     manipulation attempts and other disruptions to the                                      the interpretive analysis necessary for Congressional
     integrity of the markets the Commission regulates.                                      inquiries and inter-agency programs.

■■   Electronic trading, combined with the increase in the                              Globalization
     number of trading platforms and contracts, will require
                                                                                        ■■   The financial crisis has heightened global concerns
     CFTC to increase its processing and storage capacity and
                                                                                             with regard to systemic risk, OTC derivatives, and
     improve computational performance. For example, to
                                                                                             cross-border transactions.         Moreover, global concern
     improve data quality, the CFTC will collect transactional
                                                                                             has been growing with regard to volatility and possible
     trade data using FIXML, a worldwide standard.                               In
                                                                                             abusive practices in strategically important energy and
     addition, the agency will continue to implement the
                                                                                             agricultural commodity markets.            In an integrated
     new TSS13. TSS enhances the staff’s ability to effectively
                                                                                             electronically-linked      global     marketplace,      market
     detect a range of trade practice violations in a rapidly
                                                                                             disruptions or abusive practices in one jurisdiction
     changing electronic trading environment by performing
                                                                                             could result in global market systemic concerns.
     sophisticated pattern recognition and data mining.
                                                                                             Moreover, the trading of economically linked contracts
     TSS will also provide Commission staff with enhanced
                                                                                             in different jurisdictions raises significant surveillance
     access to a range of exchange-provided data, allowing
                                                                                             issues. The Commission will need to remain engaged
     staff to generate ad hoc data requests and investigations
                                                                                             internationally in seeking solutions to these problems
     more quickly.
                                                                                             and promote coordinated global responses that reduce
■■   The Commission will also begin an information                                           the possibility of regulatory arbitrage or gaps. As a
     governance effort, which will involve several projects,                                 result, the agency will need to attract experienced staff
     including the redesign of the Commission’s external                                     to meet these increasing demands. Such international
     Web site and intranet and an electronic records and                                     cooperation is built on relationships established and
     document management project.                           These tools will                 maintained by professional regulatory staff over time.
     support the Commission’s external and internal                                          Moreover, as the Commission works to promote greater
     communication needs as it grows to new levels and                                       transparency of global commodity markets, which
     takes on new responsibilities, facilitating collaboration                               requires greater data collection, sharing, and analysis—
     and knowledge transfer. In addition, these efforts will                                 it will be critical for the Commission to have up-to-
     support the Commission’s response to eDiscovery and                                     date technology and expert surveillance staff resources
     Federal records requirements.                                                           to evaluate this data.

■■   The Commission continues to upgrade its information                                Marketplace
     technology management capabilities in the areas of
                                                                                        ■■   Development and growth of renewable energy sources
     analytics, statistical processing and market research.
                                                                                             (i.e., biofuels) could impact existing energy markets.
     This        ongoing        initiative      involves      acquiring        and
     implementing new and emerging software technologies                                ■■   Disruption of oil exports to the United States may
     that enhance and leverage its current information                                       disrupt energy markets.
     assets. The Commission is concentrating on technology
     that can be applied throughout the organization and                                ■■   Significant portions of the electrical power grids may
     especially in the regional offices that are responsible for                             be disabled for an extended period of time, crippling
     Market Surveillance and Compliance. The Commission                                      markets.




13	 Refer   to CFTC Information Technology Systems in the Appendix for a description of functionality.

                                                                                                                                            CFTC         43
       Management’s                                                                                        Other Accompanying
                                             Performance Section                Financial Section                                       Appendix
       Discussion & Analysis                                                                               Information
■■   Convergence of products and markets and new                 Government
     congressional grants of anti-manipulation authority
                                                                 ■■   Congress enacted the Farm Bill, which clarified and
     require increased interagency coordination with the
                                                                      strengthened the Commission’s jurisdiction over
     SEC, Federal Trade Commission, and the Federal
                                                                      off-exchange foreign currency transactions involving
     Energy Regulatory Commission.        This coordination
                                                                      retail participants.   The Commission will need to
     can address areas of mutual interest related to cross-
                                                                      devote staff to reviewing developments and monitoring
     jurisdictional issues, such as those presented by credit
                                                                      participants in the retail off-exchange foreign currency
     event products, commodity exchange-traded funds,
                                                                      marketplace.
     and potential manipulation in the energy markets.
                                                                 ■■   Congress is considering significant regulatory changes
■■   Expansion of the markets results in demand for
                                                                      that could impact the markets and add to the role of
     employees with the skills required to meet Commission
                                                                      the Commission.
     goals, continually challenging the agency to offer
     competitive compensation.                                   ■■   Prompt implementation of enhanced E-Government
                                                                      business processes is a continual challenge with limited
                                                                      staff and financial resources.




44      CFTC
                 Management’s                                                                 Other Accompanying
                                           Performance Section        Financial Section                               Appendix
                 Discussion & Analysis                                                        Information
PERFORMANCE SECTION


  46	 Introduction to the Performance Section

  48	 Strategic Goal One: Economic Vitality

  59	 Strategic Goal Two: Market Users and the Public

  77	 Strategic Goal Three: Industry

  97	 Strategic Goal Four: Organizational Excellence
Introduction to the Performance Section

 T          his section details the Commission’s efforts to
            meet its strategic and performance goals.
 Commission scrutinizes performance measures to ensure
                                                          The


 that the metrics adequately challenge the programs to
 reach the desired results and ensure accountability.



 Success for CFTC:
 Public has confidence in futures markets and markets are
 open, competitive, and financially healthy.


 The Mission: Why we do what we do
 ■■ To protect market users and the public from fraud,
      manipulation, and abusive practices related to the sale
      of commodity futures and options; and

 ■■ To foster open, competitive, and financially sound
                                                                 The Strategy: How we measure
      commodity futures and option markets.
                                                                 what we accomplish
 Most Americans have a direct stake in the trillion dollar
                                                                 The mission of the CFTC is accomplished through four
 futures market through personal investments in securities,
                                                                 strategic goals, each focusing on a vital area of regulatory
 mutual funds, or pension funds tied to these markets. All
                                                                 responsibility to: 1) ensure the economic vitality of the
 Americans have an indirect stake, since these markets are
                                                                 commodity futures and option markets; 2) protect market
 critical to establishing prices from Wall Street to Main
                                                                 users and the public; 3) ensure market integrity in order to
 Street.
                                                                 foster open, competitive, and financially sound markets;
 As the only entity with regulatory oversight across all U.S.    and 4) facilitate Commission performance through organi-
 commodity futures and option markets, the CFTC is               zational and management excellence, efficient use of
 committed to its mission of protecting the integrity of the     resources, and effective mission support.
 futures markets.

 46        CFTC
                  Management’s                                                             Other Accompanying
                                           Performance Section       Financial Section                               Appendix
                  Discussion & Analysis                                                    Information
                                                                                       PERFORMANCE SECTION




Under each of these strategic goals, the Commission                             Commission staff members perform key business processes
has identified several desirable outcome objectives. To                         and strategies that provide the means for producing the
more accurately assess progress towards these outcome                           desired outcomes and achieving the Commission’s mission.
objectives, the Commission sets performance targets for                         The following diagram defines specific concepts of the
various measures under each desired outcome objective.                          Commission’s strategic planning process:

                                                   CFTC Strategic Planning Process
                                  The Commission’s long-term desired results; each focuses on a vital area of regulatory
  Strategic Goals                 responsibility. In 2008, the Commission adopted a fourth goal assessing and measuring
                                  organizational and management excellence.
       Annual
                                  The Commission’s short-term level of performance expected of the CFTC programs to
     Performance
                                  accomplish the strategic goals.
        Goals

      Outcome                     The intended effect or outcome that results from the CFTC program’s activities and
      Objectives                  strategies.

      Business                    A collection of activities and strategies that the CFTC staff perform to produce the desired
     Processes14                  outcomes and achieve the strategic goals.

     Performance                  Key indicators, statistics and metrics that the CFTC uses to measure its effectiveness as
      Measures                    an oversight regulator.


Annually, the agency analyzes the performance metrics to                        that measure the health and dynamics of the markets deter-
determine the measure of success the programs’ activities                       mine the Commission’s actions or decision-making.
have achieved in accomplishing the Commission’s overall
strategic mission.                                                              In addition, external influences affect many performance
                                                                                measures so metrics alone cannot fully disclose as to the
Due to the broad economic functions that the Commission                         success of the performance result. The Commission, there-
oversees, it is not easy to identify detailed objectives and                    fore, further analyzes the progress of each performance
performance metrics that will be accomplished each year.                        metric using a rating tool to help program managers
While some measures do reflect specific performance (e.g.,                      evaluate performance results more effectively.
the number of days to process a reparations complaint),
other measures identify conditions that, if present, are indi-                  The analytical tool provides program managers with the
cators that the Commission’s activities are contributing                        ability to apply adjectival ratings to the performance
successfully to the health of the industry it regulates (e.g.,                  measures, as defined below, and identified in the subse-
the increase in the number of products traded). The metrics                     quent performance details:


                                              Summary Outline of Adjectival Ratings
         Effective                  Significantly exceeds the standards of performance and achieves noteworthy results.
       Moderately                   Exceeds the standards of performance; although there may be room for improvement
        Effective                   in some elements, better performance in all other elements more than offsets this.
        Adequate                    Meets the standard of performance; deficiencies do not substantially affect performance.
         Marginal                   Below the standard of performance; deficiencies require attention and corrective action.
                                    Significantly below the standard of performance; deficiencies are serious, may affect overall
     Unsatisfactory
                                    results, urgently require senior management attention, and prompt corrective action.
      Results Not
                                    Data is not available to evaluate the performance.
     Demonstrated

14	Business   processes are detailed in the CFTC’s 2007-2012 Strategic Plan available on the Internet at http://www.cftc.gov/reports/strategicplan/2012.


                                                                                                                                        CFTC          47
      Management’s                                                                                  Other Accompanying
                                        Performance Section             Financial Section                                          Appendix
      Discussion & Analysis                                                                         Information
Strategic Goal One: Economic Vitality

 Goal One: Ensure the economic vitality of the commodity futures and option markets.




 Outcome Objective 1.1: Futures and option markets that accurately reflect the forces
 of supply and demand for the underlying commodity and are free of disruptive activity.
    n	   Annual Performance Goal 1.1: No price manipulation or other disruptive
         activities that would cause loss of confidence or negatively affect price
         discovery or risk shifting.


 Outcome Objective 1.2: Markets are effectively and efficiently monitored to
 ensure early warning of potential problems or issues that could adversely affect
 their economic vitality.
    n	   Annual Performance Goal 1.2: To have an effective and efficient market
         surveillance program.
                                                                            PERFORMANCE SECTION




  Performance Measure 1.1.1 Percentage growth in market volume.




    FY 2009 Performance Results                                                                  -19.5%
  Status:       Adequate
  Data Source: Exchange’s Trading Volume Data.
  Verification: Exchange Data compared to Futures Industry
                Association (FIA) Report.




Lead Program Office                                                  Performance Highlights

Division of Market Oversight                                         None to report.



Performance Analysis & Review
The percentage growth in the market volume decreased
19.5 percent, in FY 2009, due to the severe downturn in
the economy. Although many new products were intro-
duced by the exchanges, the low trading volume for these
products did not make up for the heavy decrease in the
trading of the major existing contracts. The FY 2009 plan
was based upon historical trends.          These trends were
disrupted by the economy and not by any policy changes
of the CFTC. No attempt was made to predict the growth
rate of the economy which was a huge factor in FY 2009
trading activity.




                                                                                                            CFTC   49
     Management’s                                                                  Other Accompanying
                                 Performance Section         Financial Section                          Appendix
     Discussion & Analysis                                                         Information
  Performance Measure 1.1.2 Percentage of novel or innovative market proposals or requests for CFTC action
  addressed within six months to accommodate new approaches to, or the expansion in, derivatives trading, enhance the
  price discovery process, or increase available risk management tools.



     FY 2009 Performance Results                                                                               75%
 Status:       Moderately Effective
 Data Source: Formal filings and signed letter responses
              by the Commission.
 Verification: Formal filing and disposition dates
               maintained in internal tracking system.




Lead Program Office                                                 submitting exchange had appropriate market surveillance
                                                                    and additional information sharing measures in place. The
Division of Market Oversight
                                                                    30 contracts were submitted by seven different exchanges:
                                                                    MexDer     (20-Year     Fixed   Interest   Rate   Government
Performance Analysis & Review                                       Development Bonds futures contract), the Sydney Futures
                                                                    Exchange (30 Day Interbank Cash Rate option contract,
DMO handled a number of formal and informal proposals
                                                                    Thermal Coal futures and option contracts, New Zealand
or requests for Commission action during the fiscal year
                                                                    Electricity futures and option contracts, and Victorian
that included newer approaches to formal and informal
                                                                    Wholesale Gas futures and option contracts), BM&F
derivatives trading or enhancements to the price-discovery
                                                                    Bovespa (Corn futures contract, Corn Price Basis futures
process. The items, which included innovative products
                                                                    contract, Put and Call options on Corn futures, Structured
and exchange processes, were all addressed within six
                                                                    Transactions Products based on Arabica Coffee Rollover
months of formal receipt.
                                                                    and U.S. Dollar Rollover, and Forward Rate Agreements on
                                                                    the General Market Price Index and on the Extended
Performance Highlights                                              Consumer Price Index), Eurex Deutschland (Gold futures
                                                                    and option contracts, IPD Annual All Property Index
DMO issued a December 5, 2008, no-action letter to BNP
                                                                    futures contract, Silver futures and option contracts,
Paribas confirming that the Division would not recom-
                                                                    European Processing Potatoes futures contract, London
mend that the Commission initiate enforcement action
                                                                    Potatoes futures contract, Hogs futures contract and Piglets
against BNP Paribas or Fortis Bank, for violation of
                                                                    futures contract) LIFFE (Two Year Mid-Curve option on the
Commission or exchange speculative position limits in
                                                                    three Month Sterling (Short Sterling) Interest Rate futures
connection with BNP Paribas’ acquisition of Fortis Bank.
                                                                    contract and Two Year Mid-Curve option on the Three
The no-action relief applied only to aggregated positions
                                                                    Month Euro (EURIBOR) Interest Rate futures contract),
created by the acquisition and was subject to a sunset provi-
                                                                    ICE Futures Europe (globalCOAL Newcastle Coal futures
sion under which the relief lapsed on January 15, 2009.
                                                                    contract, ECX EUA Daily futures contract and ECX CER
In connection with its administration of the foreign board          Daily futures contract) and Nord Pool ASA (Nordic Power
of trade no-action regime, DMO reviewed and processed               option contract).
the proposed listing of 30 new contracts to ensure that the



50     CFTC
                 Management’s                                                                   Other Accompanying
                                              Performance Section       Financial Section                                 Appendix
                 Discussion & Analysis                                                          Information
                                                                            PERFORMANCE SECTION




  Performance Measure 1.1.3 Percentage increase in number of products traded.




    FY 2009 Performance Results                                                                       22.7%
 Status:       Effective
 Data Source: Exchanges submit data on trading volume,
              open interest, delivery notices, exchange of
              futures and prices for all products traded.
 Verification: Data is validated by internal program edits
               and quality checks in central database.




Lead Program Office                                                  exchanges remained innovative and rolled out many new
                                                                     contracts, most of which were either slight variations of
Division of Market Oversight
                                                                     existing contracts or attempts to duplicate existing products
                                                                     in the OTC arena. Futures innovation in energy products
Performance Analysis & Review                                        and the introduction of a large number of new security
                                                                     futures products (SFPs) drove the increase.
The number of products traded grew by approximately
22.7 percent, in FY 2009. Despite the severe economic
                                                                     Performance Highlights
downturn, the growth in the number of new products
offered on the exchanges, in FY 2009, continued because              None to report.




                                                                                                                   CFTC        51
    Management’s                                                                     Other Accompanying
                                  Performance Section        Financial Section                                 Appendix
    Discussion & Analysis                                                            Information
      Performance Measure 1.1.4(a) Percentage of new exchange or clearinghouse organization applications
      completed within expedited review period: New Exchange Applications.



       FY 2009 Performance Results                                                                                                           N/A15
     Status:         Effective
     Data Source: New exchange application(s).
     Verification: Filings and Actions automated database tracks
                   and calculates processing time from receipt
                   date through to date of designation or
                   registration. Agency files containing
                   applications, staff reviews, memoranda to
                   the Commission, and proposed Orders.




      Performance Measure 1.1.4(b) Percentage of new exchange or clearinghouse organization applications
      completed within expedited review period: New Clearinghouse Organization Applications.



       FY 2009 Performance Results                                                                                                           N/A16
  Status:            Effective
  Data Source: New DCO application(s).
  Verification: Filings and Actions automated database tracks
                and calculates processing time from receipt
                date through to date of designation or
                registration. Agency files containing
                applications, staff reviews, memoranda
                to the Commission, and proposed Orders.




Lead Program Offices                                                                       Performance Analysis & Review
Division of Clearing and Intermediary Oversight                                            The expedited processing time for an application is 90 days.

Division of Market Oversight                                                               Division of Clearing and Intermediary Oversight: Two DCO
                                                                                           applications submitted under the fast track mode (90 days)
                                                                                           were removed upon the request of the applicants. As such,
                                                                                           DCIO reviewed these two DCO applications in approxi-
                                                                                           mately 120 days. Another DCO application submitted in
                                                                                           FY 2009 was taken off the fast track as non-qualifying and




15	   The applicants of two fast track submissions were taken off the fast track review.
16    The applicants of two fast track submissions voluntarily requested to be taken off the fast track for review. A third application did not qualify for fast track review.

52          CFTC
                        Management’s                                                                                             Other Accompanying
                                                             Performance Section                  Financial Section                                                   Appendix
                        Discussion & Analysis                                                                                    Information
                                                                         PERFORMANCE SECTION




placed on the 180 day track, the normal processing time           time. One market was designated within the statutory time
for an application.         This application was subsequently     period. One application is still under review waiting for
stayed. A fourth DCO application was filed in the fourth          the market to respond to staff concerns in light of novel
quarter of FY 2009, and staff review of this DCO applica-         issues and questions as well as the need for staff to utilize
tion will not be completed until FY 2010.                         more time to complete its review of materials provided.

Division of Market Oversight: During FY 2009, DMO staff
reviewed two formal DCM applications. Both applications
                                                                  Performance Highlights
were removed from expedited review due to incomplete
applications as well as novel issues requiring extra staff        None to report.




                                                                                                                CFTC       53
    Management’s                                                                  Other Accompanying
                                   Performance Section    Financial Section                                 Appendix
    Discussion & Analysis                                                         Information
  Performance Measure 1.1.5 Percentage of new contract certification reviews completed within three months to
  identify and correct deficiencies in contract terms that make contracts susceptible to manipulation.



     FY 2009 Performance Results                                                                               71%
  Status:       Effective
  Data Source: Exchange certification filings, certified rule
               amendments, and agency memoranda.
  Verification: Filings and Actions automated database tracks
                and calculates processing time from receipt
                date through to date of designation or
                registration.




Lead Program Office                                                    that represent electricity generated by wind, solar, or other
                                                                       renewable energy source.     The Nasdaq OMX certified a
Division of Market Oversight
                                                                       futures contract based on the three-month US Dollar Libor
                                                                       Swap that is designed to closely replicate OTC swap
Performance Analysis & Review                                          contracts. It is reasonable to expect that exchanges will
                                                                       continue to introduce novel and complex products in the
In FY 2009, as in the previous fiscal year, an unusually large         future.
proportion of new contract certifications concerned weather
indexes and SFPs. Those contracts typically are easier to
review than other contracts. However, there also were a high           Performance Highlights
number of niche energy and power contracts that raised
significant regulatory concerns, and a number of environ-              Commission staff completed reviews of over 681 new
mental contracts that appeared to suffer contract design               contract certifications, identified several exchange-certified
flaws. Coupled with an increasing backlog of new product               SFPs that were based on securities that failed to meet listing
certifications, and added responsibilities to review contracts         standards, and identified contract design flaws in several
traded on ECMs to determine whether each contracts                     other contracts. In addition, Commission staff completed
perform a significant price discovery function, the percentage         economic reviews of 11 foreign stock index futures contracts
of completed reviews declined in FY 2009 and, thus, the                to ensure that the contracts meet the Commission’s cash-
percentage was significantly lower than anticipated.                   settlement price standards, are not readily susceptible to
                                                                       manipulation, and are based on broad-based security
U.S. exchanges continued to innovate in FY 2009.                 The
                                                                       indexes.
NYMEX and CCFE expanded their product lines of pollu-
tion allowances, including additional contracts based on the           Commission staff implemented rules, adopted by the
Regional Greenhouse Gas Initiative (RGGI) and NOx and                  Commission in FY 2009, under which the Commission
SO2 allowances. RGGI is a cap-and-trade program among                  determines whether contracts listed for trading on an ECM
10 Northeastern and Mid-Atlantic States designed to reduce             perform a significant price discovery function. Commission
greenhouse gas emissions from power plants. The CCFE                   staff have identified one such SPDC and another 41
also introduced futures contracts based on the California              possible SPDCs that have been, or will be, published for
Climate Action Registry allowance, and various state renew-            comment. ECMs that list SPDCs are subject to increased
able energy certificates (RECs). RECs are tradable certificates        regulatory oversight by the CFTC.

54      CFTC
                  Management’s                                                                    Other Accompanying
                                                 Performance Section        Financial Section                                Appendix
                  Discussion & Analysis                                                           Information
                                                                              PERFORMANCE SECTION




  Performance Measure 1.1.6 Percentage of rule change certification reviews completed within three months, to
  identify and correct deficiencies in exchange rules that make contracts susceptible to manipulation or trading abuses or
  result in violations of law.



    FY 2009 Performance Results                                                                            73%
 Status:        Effective
 Data Source: Exchange certification filings and agency
              memoranda.
 Verification: Filings and Actions automated database tracks
               and calculates processing time from receipt
               date through to date of designation or
               registration.




Lead Program Office                                                    Performance Highlights
Division of Market Oversight                                           Commission staff completed reviews of 71 substantive
                                                                       product rule amendments and 214 substantive trading rule
                                                                       amendments.
Performance Analysis & Review
The percentage of trading rule amendment certification
reviews completed within three months of receipt by the
Commission decreased over last year. This decrease in
performance is due to the fact that DMO did not have
sufficient staff to keep up with the influx of submissions
and added responsibilities resulting from the Farm Bill, in
spite of the support this year of several temporary interns.

For much of FY 2009, the Division was understaffed relative
to the volume of reviews it is required to accomplish. At
times completion of certain rule amendment reviews, for
example, those regarding contracts with very low trading
volume or changes to trading rules that did not seem to
make a large change, were delayed to allow staff to focus
on more important matters, such as rule changes that
might create risk to the markets. It is unlikely, given the
submission of complex contracts and multifaceted trading
rule submissions, and in light of the additional review
responsibilities included in the Farm Bill, that performance
will improve in the absence of increased staffing.




                                                                                                                 CFTC      55
     Management’s                                                                    Other Accompanying
                                 Performance Section           Financial Section                             Appendix
     Discussion & Analysis                                                           Information
   Performance Measure 1.2.1 Percentage of derivatives clearing organization applications demonstrating
   compliance with CFTC Core Principles.



        FY 2009 Performance Results                                                                                  100%
  Status:            Effective
  Data Source: DCO applications(s) for registration.
  Verification: Agency files containing applications,
                staff reviews, memoranda to the
                Commission, and proposed Orders.




Lead Program Office                                                                 Performance Highlights
Division of Clearing and Intermediary Oversight                                     None to report.


Performance Analysis & Review
DCIO met the performance target for FY 2009. Four DCO
applications were subject to DCIO staff review during
FY 2009. Two DCO applications were reviewed in approx-
imately 120 days; DCIO staff determined that the applica-
tions met compliance with CFTC Core Principles and the
applicants were granted registration as DCOs. Another
DCO application was subsequently stayed pursuant to
Section 6 of the Act until the application is materially
complete.         A fourth DCO application was filed in the
fourth quarter of FY 2009, and staff review of this applica-
tion will not be completed until FY 2010.




17	No   applications for registration as a DCO were received in FY 2006, FY 2007, and FY 2008.


56         CFTC
                       Management’s                                                                           Other Accompanying
                                                         Performance Section              Financial Section                        Appendix
                       Discussion & Analysis                                                                  Information
                                                                             PERFORMANCE SECTION




  Performance Measure 1.2.2 Ratio of contracts surveilled per economist.




    FY 2009 Performance Results                                                                                    14
 Status:        Adequate
 Data Source: Exchanges submit data to the Commission on
              all traded contracts, which are maintained in
              the Commission’s database.
 Verification: Data is validated by internal program edits
               and quality checks in central database.




Lead Program Office                                                   Performance Highlights
Division of Market Oversight                                          The ratio of contracts surveilled per economist is too high
                                                                      to ensure full surveillance coverage of all futures markets.
                                                                      The efficiency and productivity of surveillance economists
Performance Analysis & Review
                                                                      are very high, but they are being stretched too thin, with
The target ratio of contracts surveilled per economist is             consequential effects on the adequacy of surveillance
above ideal levels. For this reason, an “Adequate” status of          coverage for some markets.
Performance Result has been selected in spite of the fact
that the actual number of contracts surveilled per econo-
mist met expectations. To increase the efficiency of the
surveillance efforts of DMO, similar contracts on the same
underlying commodity are generally analyzed together.
Even though the number of contracts increased during the
year, the increase was mostly due to additional products
on existing commodities. These additional products may
not materially add to the economists’ surveillance burden.
Thus, they were not counted as distinct contracts for the
purpose of arriving at the relevant ratio.




                                                                                                                   CFTC       57
     Management’s                                                                    Other Accompanying
                                  Performance Section         Financial Section                                Appendix
     Discussion & Analysis                                                           Information
   Performance Measure 1.2.3 Percentage of contract expirations without manipulation.




      FY 2009 Performance Results                                                                                      99.9%
  Status:             Effective
  Data Source: Surveillance reports and large trader
               position reports.
  Verification: Economists daily track and monitor futures
                expirations and economic fundamentals.




Lead Program Office                                                                     Performance Highlights
Division of Market Oversight                                                            Surveillance of energy markets has been the greatest
                                                                                        challenge during FY 2009. During this year, DMO has
                                                                                        enhanced its data collection, information processing, and
Performance Analysis & Review
                                                                                        surveillance analyses to keep pace with the rapidly growing
This measurement examines the number of contract                                        and changing energy markets. Special calls were issued to
expirations without manipulation compared to the total                                  IntercontinentalExchange to obtain daily large trader
number of futures and option expirations.                             The total         reports on this OTC market. DMO started to receive and
number of expirations may vary throughout the year as                                   analyze daily NYMEX transaction data to detect possible
different contracts enter and exit the market.                                          manipulative schemes. Software enhancements were made
                                                                                        to ISS18 to better display and analyze positions in deferred
                                                                                        futures months.




18	Refer   to the CFTC Information Technology Systems in the Appendix for a description of functionality.


58           CFTC
                        Management’s                                                                              Other Accompanying
                                                           Performance Section                Financial Section                             Appendix
                        Discussion & Analysis                                                                     Information
Strategic Goal Two: Market Users and the Public
      Goal Two: Protect market users and the public.




      Outcome Objective 2.1: Violations of Federal commodities laws are detected
      and prevented.
        n	   Annual Performance Goal 2.1: Violators have a strong probability of being
             detected and sanctioned.


      Outcome Objective 2.2: Commodity professionals meet high standards.
        n	   Annual Performance Goal 2.2: No unregistered, untested, or unlicensed
             commodity professionals.


      Outcome Objective 2.3: Customer complaints against persons or firms registered
      under the Act are handled effectively and expeditiously.
        n	   Annual Performance Goal 2.3: Customer complaints are resolved within one
             year from the date filed and appeals are resolved within six months.
  Performance Measure 2.1.1 Number of enforcement investigations opened during the fiscal year.




     FY 2009 Performance Results                                                                             251
 Status:       Effective
 Data Source: Agency documentation and reports
              maintained in the Practice Manager
              litigation management system.
 Verification: Internal reports on investigations and
               litigation documented and maintained in
               internal Enforcement systems.




Lead Program Office                                                Performance Highlights
Division of Enforcement                                            Although the Commission ordinarily conducts enforce-
                                                                   ment investigations on a confidential basis, in light of the
                                                                   unprecedented market conditions during FY 2008 −
Performance Analysis & Review
                                                                   FY 2009, the Commission took the unusual step of publicly
DOE met the performance target for FY 2009. Commencing             disclosing the existence of several ongoing investigations
in 2002, the complexity of Commission’s investigations             of market misconduct, including its National Crude Oil
has increased substantially over prior fiscal years (e.g., the     Investigation (NCI). Through the NCI, DOE is investi-
Commission’s investigation of alleged energy market                gating practices surrounding the purchase, transportation,
manipulation).     As a result of these investigations, the        storage, and trading of crude oil and related derivative
complexity of the Commission’s cases filed and litigated           contracts. While the specifics of all ongoing Commission
also has increased substantially since FY 2002. The                investigations remains confidential; the DOE remains
Commission’s FY 2009 Plan target for this performance              focused on ensuring that the markets are properly policed
measure took into account these factors, and historical            for manipulation and abusive practices.
performance and staffing constraints of DOE.             Despite
these factors and constraints, the Commission exceeded its
target for this performance measure, in part due to the
unprecedented market conditions during FY 2008 −
FY 2009.




60     CFTC
                 Management’s                                                                Other Accompanying
                                             Performance Section       Financial Section                               Appendix
                 Discussion & Analysis                                                       Information
                                                                          PERFORMANCE SECTION




  Performance Measure 2.1.2 Number of enforcement cases filed during the fiscal year.




    FY 2009 Performance Results                                                                                    50
  Status:       Effective
  Data Source: Agency documentation and reports
               maintained in the Practice Manager.
  Verification: Final complaints for each litigation are
                recorded in internal Enforcement system
                and made public via the Commission’s
                Web site.




Lead Program Office                                                     manipulate the Class III milk futures contract and
                                                                        exceeded speculative position limits in that contract.
Division of Enforcement
                                                                        In re Dairy Farmers of America, Inc., et al., CFTC Docket
                                                                        No. 09-02 (CFTC filed Dec. 16, 2008);
Performance Analysis & Review                                      ■■ CFTC v. Lee, et al.
DOE met the performance target for FY 2009. Commencing
                                                                        On November 18, 2008, the Commission filed a civil
in 2002, the complexity of Commission investigations has
                                                                        enforcement action against David P. Lee, a former
increased substantially over prior fiscal years (e.g., the
                                                                        trader for the Bank of Montreal (BMO), charging him
Commission’s investigation of alleged energy market
                                                                        with fraud for mis-marking and mis-valuing the bank’s
manipulation).      As a result of these investigations, the
                                                                        natural gas options book and deceiving the bank. The
complexity of the Commission’s cases filed and litigated
                                                                        complaint also charges Optionable, Inc., and its former
also has increased substantially since FY 2002.            The
                                                                        senior executives Kevin Cassidy and Edward O’Connor,
Commission’s FY 2009 Plan target for this performance
                                                                        with deceiving BMO. Robert B. Moore Jr., Lee’s former
measure took into account these factors, DOE’s historical
                                                                        supervisor, is also named as a defendant. CFTC v. Lee,
performance, and DOE’s staffing constraints.
                                                                        et al., No. 08 CIV 9962 (S.D.N.Y. filed Nov. 18, 2008);

                                                                   ■■ CFTC v. Agape World, Inc.
Performance Highlights
                                                                        On January 27, 2009, the Commission filed a civil
Among the significant enforcement actions filed by the                  injunctive action against Nicholas Cosmo, Agape World,
Commission during FY 2009 are the following:                            Inc., and Agape Merchant Advance LLC, charging them
                                                                        with defrauding customers of tens of millions of dollars
■■ In re Dairy Farmers of America, Inc., et al.
                                                                        that were solicited for the stated purpose of investing in
    On December 16, 2008, the Commission simultane-                     bridge loans and merchant advances, but instead defen-
    ously filed and settled an administrative enforcement               dants misappropriated a significant portion of those
    action against the dairy marketing cooperative Dairy                funds to engage in unauthorized commodity futures
    Farmers of America, Inc. (DFA), its former Chief                    trading. CFTC v. Agape World, Inc., et al., No. 09 0351
    Executive Officer Gary Hanman, and its former Chief                 (E.D.N.Y. filed Jan. 27, 2009);
    Financial Officer Gerald Bos finding that they tried to

                                                                                                                  CFTC        61
     Management’s                                                                   Other Accompanying
                                  Performance Section      Financial Section                                  Appendix
     Discussion & Analysis                                                          Information
■■ CFTC v. Walsh, et al.                                           ■■ In re Interbank FX, LLC

     On February 25, 2009, the Commission filed a civil                On June 29, 2009, the Commission simultaneously filed
     injunctive action against Stephen Walsh and Paul                  and settled an administrative enforcement action against
     Greenwood, charging them with misappropriating at                 registered FCM Interbank FX, LLC (Interbank), finding
     least $553 million from commodity pool participants in            that it violated rules designed to protect the confidential
     connection with entities they owned and controlled,               personal information of consumers. In re Interbank FX,
     defendants Westridge Capital Management, Inc., WG                 LLC, CFTC Docket No. 09-11 (CFTC filed June 29, 2009);
     Trading Investors, LP, and WGIA, LLC. CFTC v. Walsh, et
                                                                   ■■ In re Keane
     al., No. 09 CV 1749 (S.D.N.Y. filed Feb. 25, 2009);
                                                                       On October 6, 2008, the Commission simultaneously
■■ CFTC v. Billion Coupons, Inc., et al.
                                                                       filed and settled an administrative enforcement action
     On February 18, 2009, the Commission filed a civil                against Brian Keane, a former NYMEX clerk, for fraudu-
     injunctive action against Marvin Cooper and his company           lently allocating favorable trades that had been filled for
     Billion Coupons, Inc., charging them with operating a             customers to an account from which he benefited. In re
     Ponzi scheme that involved fraudulently soliciting                Keane, CFTC Docket No. 09-01 (CFTC filed Oct. 6, 2008);
     approximately $4.4 million from more than 125
                                                                   ■■ In re Otis, et al.
     customers—all of whom are deaf—for the sole purported
     purpose of trading forex. CFTC v. Billion Coupons, Inc., et       On December 16, 2008, the Commission simultaneously
     al., No. CV09-00069 JMS LEK (D. Haw. filed Feb. 18,               filed and settled an administrative enforcement action
     2009);                                                            against Frank Otis, former President and CEO of a DFA
                                                                       subsidiary, and Glenn Millar, former Executive Vice
■■ CFTC v. Barki LLC, et al.
                                                                       President of the subsidiary, finding that they aided and
     On March 17, 2009, the Commission filed a civil enforce-          abetted DFA’s speculative position violation by directing
     ment action against Barki, LLC and Bruce C. Kramer,               trading of Class III milk futures in an internal sub-account
     charging them with fraudulently soliciting, since at least        designated for the DFA subsidiary. (See discussion, above,
     June 2004 through February 2009, at least $40 million             of the related enforcement action, In re Dairy Farmers of
     from at least 70 customers to trade forex, misappropri-           America, Inc., et al., CFTC Docket No. 09-02 (CFTC filed
     ating at least $30 million of customer funds to pay               Dec. 16, 2008).) The Commission assessed sanctions,
     purported profits, return principal to customers, and for         including civil monetary penalties (Otis $60,000 and
     personal expenses, including the purchase of a horse farm         Millar $90,000). In re Otis, et al., CFTC Docket No. 09-03
     for more than $1 million, a Maserati sports car and other         (CFTC filed Dec. 16, 2008); and
     luxury cars, artwork, and extravagant parties. CFTC v.
                                                                   ■■ In re Moster
     Barki LLC, et al., No. 3:09-cv-00106-GCM (W.D.N.C. filed
     March 17, 2009);                                                  On February 11, 2009, the Commission simultaneously
                                                                       filed and settled an administrative enforcement action
■■ CFTC v. SNC Asset Management, Inc., et al.
                                                                       against Michael Moster, a former proprietary trader with
     On June 9, 2009, the CFTC filed a civil injunctive action         the Bank of America (BOA), finding that he committed
     against SNC Asset Management, Inc., SNC Investments,              fraud     by     submitting   false   reports   to     BOA.
     Inc., Chief Executive Officer (CEO) Peter Son, and                The Commission assessed sanctions including: a cease
     Chief Financial Officer (CFO) Jin K. Chung, charging              and desist order; permanent trading and registration
     them with operating an $85 million fraudulent forex               bans; and a $360,000 civil monetary penalty. In re
     Ponzi scam involving approximately 500 customers,                 Moster, CFTC Docket No. 09-08 (CFTC filed Feb. 11,
     who were primarily solicited from the Korean                      2009).
     community of the San Francisco Bay area, CFTC v. SNC
     Asset Management, Inc., et al., No. 09-2555PJH (N.D.
     Cal. filed June 9, 2009);

62       CFTC
                  Management’s                                                                  Other Accompanying
                                             Performance Section        Financial Section                                   Appendix
                  Discussion & Analysis                                                         Information
                                                                              PERFORMANCE SECTION




  Performance Measure 2.1.3 Percentage of enforcement cases closed during the fiscal year in which the
  Commission obtained sanctions (e.g. civil monetary penalties, restitution and disgorgement, cease and desist orders,
  permanent injunctions, trading bans, and registration restrictions).



    FY 2009 Performance Results                                                                                  98%
  Status:       Effective
  Data Source: Agency documentation and reports
               maintained in the Monthly Status Report,
               Practice Manager, Commission Proceed-
               ings Bulletin, and press releases.
  Verification: Final orders for each litigation recorded in
                internal Enforcement system.




Lead Program Office                                                    Performance Highlights
Division of Enforcement                                                Among the significant enforcement actions closed by the
                                                                       Commission during FY 2009 are the following:

Performance Analysis & Review                                          ■■ In re Dairy Farmers of America, Inc., et al., CFTC Docket
                                                                            No. 09-02 (CFTC filed Dec. 16, 2008) (attempted
Performance target was almost met for FY 2009. During
                                                                            manipulation and speculative limits violations: sanc-
the FY 2009, DOE closed a total of 32 enforcement cases.
                                                                            tions assessed include a $12 million civil monetary
In all but two of these closed cases, the Commission
                                                                            penalty; a five-year futures trading bar against Hanman
obtained sanctions (e.g., civil monetary penalties, restitu-
                                                                            and Bos; two-year speculative trading bar against DFA;
tion and disgorgement, cease and desist orders, permanent
                                                                            and order that DFA comply with certain undertakings,
injunctions, trading bans, and registration restrictions)
                                                                            including: 1) retaining a monitor to ensure that DFA
against one or more of the respondents/defendants.
                                                                            does not engage in speculative trading and that DFA’s
Staff are required to submit all final orders for each litiga-              Cheese Spot Call market cheese purchases are made for
tion as part of closing activities for their files. These orders            legitimate business purposes; 2) implementing a
are recorded in internal Enforcement systems (Practice                      compliance and ethics program; and 3) providing
Manager).                                                                   future cooperation to the CFTC).

                                                                       ■■ In re Interbank FX, LLC, CFTC Docket No. 09-11 (CFTC
                                                                            filed June 29, 2009) (violations arising from disclosure
                                                                            of non-public customer information: sanctions assessed
                                                                            include a cease and desist order; $200,000 civil
                                                                            monetary penalty; and an order that Interbank comply
                                                                            with its undertaking to establish, implement, and
                                                                            maintain   a   documented        comprehensive     security
                                                                            program that addresses the protection of consumer
                                                                            information, and to obtain an assessment of that
                                                                            program from a certified security professional).




                                                                                                                      CFTC         63
     Management’s                                                                       Other Accompanying
                                    Performance Section        Financial Section                                  Appendix
     Discussion & Analysis                                                              Information
■■ In re Keane, CFTC Docket No. 09-01 (CFTC filed Oct. 6,      ■■ In re ADM Investor Services, Inc., CFTC Docket No. 09-10
     2008) (fraudulent trade allocation: sanctions assessed       (CFTC filed March 26, 2009) (FCM failure to supervise:
     include a permanent trading ban and a $90,000 civil          sanctions assessed include a cease and desist order;
     monetary penalty).                                           $200,000 civil monetary penalty; and an order to
                                                                  comply with certain undertakings, including ADMIS’s
■■ CFTC v. Heierle, et al., No. 07-22396 CIV-LENARD/
                                                                  agreement to implement enhanced procedures to
     TORRES, Default Judgments (S.D. Fla. entered Dec. 19,
                                                                  assure adherence to rules governing post execution
     2008) (commodity pool fraud: sanctions assessed
                                                                  allocation of trades).
     include permanent injunctions, approximately $3.5
     million in restitution, and $6 million in total civil     ■■ CFTC v. Renaissance Asset Management, LLC, et al., No.
     monetary penalties).                                         1:07-CV-0200, Consent Orders (N.D. Ga. entered Feb.
                                                                  13, 2009) (commodity pool fraud: sanctions assessed
■■ CFTC v. Hudgins, No. 608CV187, Consent Order (E.D.
                                                                  include permanent injunctions, $21.2 million in
     Tex. entered April 2, 2008) (commodity pool fraud:
                                                                  restitution, and a $5.8 million civil monetary penalty).
     sanctions assessed include permanent injunction,
     approximately $71 million in restitution, and a $15
     million civil monetary penalty).




64      CFTC
                 Management’s                                                              Other Accompanying
                                         Performance Section       Financial Section                              Appendix
                 Discussion & Analysis                                                     Information
                                                                          PERFORMANCE SECTION




  Performance Measure 2.1.4 Cases filed by other criminal and civil law enforcement authorities during the
  fiscal year that included cooperative assistance from the Commission.



    FY 2009 Performance Results                                                                                     44
  Status:       Effective
  Data Source: Cooperating authorities provide notice to
               DOE of related civil complaints, criminal
               information, and indictments. Cooperative
               enforcement matters are noted in Practice
               Manager.
  Verification: Internal Enforcement system and the
                U.S. Judiciary Public Access to Court
                Electronic Records Services Center.




Lead Program Office                                                ■■ CFTC v. Lee, et al.

Division of Enforcement                                                 On November 18, 2008, the Commission filed a civil
                                                                        enforcement action against David P. Lee, a former trader
                                                                        for the BMO, charging him with fraud for mis-marking
Performance Analysis & Review                                           and mis-valuing the bank’s natural gas options book
Performance target was met for FY 2009. The Commission                  and deceiving the bank. The complaint also charges
believes that its performance in cooperative criminal and               Optionable, Inc., and its former senior executives Kevin
civil enforcement was effective. During the rating period,              Cassidy and Edward O’Connor, with deceiving BMO.
the Commission continued to devote significant resources                Robert B. Moore Jr., Lee’s former supervisor, is also
to cooperative enforcement with other criminal and civil                named as a defendant. On the same day the Commission
law enforcement authorities. The performance of DOE,                    filed its enforcement action, the Manhattan District
during FY 2009, was influenced by the recent and current                Attorney Office and the United States Attorney for the
financial downturn, which has revealed a number of fraud-               Southern District of New York also filed a criminal
ulent schemes, including Ponzi schemes that could stay                  indictment against Cassidy. The Federal Reserve Board
afloat only during periods of rising asset values.                      and the SEC also filed related actions. CFTC v. Lee, et al.,
                                                                        No. 08 CIV 9962 (S.D.N.Y. filed Nov. 18, 2008);

Performance Highlights                                             ■■ In re Keane

Among the significant enforcement actions filed by the                  In an extensive cooperative law enforcement effort, the
Commission during FY 2009, that included related action                 Commission and the New York County District
by other civil and/or criminal authorities, are the following:          Attorney’s Office, conducted an investigation of abusive
                                                                        trading practices on the NYMEX resulting in a series of
                                                                        related civil and criminal actions. During FY 2009, this
                                                                        cooperative effort resulted in a Commission action
                                                                        against Brian Keane finding fraudulent trade alloca-




                                                                                                                    CFTC        65
     Management’s                                                                   Other Accompanying
                                  Performance Section      Financial Section                                    Appendix
     Discussion & Analysis                                                          Information
     tions. In the related criminal matter, Keane pled guilty       ■■ CFTC v. Hudgins
     on March 20, 2008 to the felony state crime of violating
                                                                       On March 13, 2008, the Commission filed a civil
     the anti-fraud provision of New York’s General Business
                                                                       injunctive action against George D. Hudgins, charging
     Law for the same underlying conduct and received a
                                                                       him with fraudulently inducing members of the public
     four-month jail sentence. In re Keane, CFTC Docket
                                                                       to invest approximately $88 million in a commodity
     No. 09-01, Speaking Order (CFTC filed Oct. 6, 2008);
                                                                       pool that traded on-exchange commodity futures and
■■ In re Moster                                                        options contracts. The Commission settled its enforce-
                                                                       ment action in April 2009 (see discussion, above). In a
     On February 11, 2009, the Commission simultaneously
                                                                       related criminal action, Hudgins pleaded guilty on
     filed and settled an administrative enforcement action
                                                                       September 9, 2008, to wire fraud, embezzlement, and
     against Michael Moster, a former proprietary trader
                                                                       money laundering. He was sentenced by U.S. District
     with BOA, finding that he committed fraud by submit-
                                                                       Court Judge Thad Heartfield on March 13, 2009, to 121
     ting false reports to BOA. Based upon the same conduct,
                                                                       months in Federal prison.         CFTC v. Hudgins, No.
     Moster pled guilty on September 18, 2008, to a one-
                                                                       608CV187 (E.D. Tex. filed May 13, 2008); and
     count violation of making false entry into the books
     and records of a bank in the Southern District of New          ■■ CFTC v. Crossfire Trading, LLC, et al.
     York and was ordered to pay $10 million in restitution
                                                                       On February 5, 2009, the Commission filed a civil
     to BOA. The CFTC’s order recognizes the restitution
                                                                       injunctive action against Charles “Chuck” E. Hays and
     made in the context of the criminal case, and provides
                                                                       his company, Crossfire Trading, LLC, charging them with
     that Moster must pay and satisfy any criminal restitu-
                                                                       fraud and misappropriation in connection with a
     tion obligation before his payment of the CFTC civil
                                                                       commodity pool Ponzi scheme. Hays was arrested by
     monetary penalty.       In re Moster, CFTC Docket No.
                                                                       Federal authorities on the same day the Commission’s
     09-08, Speaking Order (CFTC filed Feb. 11, 2009);
                                                                       complaint was filed. CFTC v. Crossfire Trading, LLC, et al.,
■■ CFTC v. Parish, et al.                                              No. 09 CIV 259 DWF/AJB (D. Minn. filed Feb. 5, 2009).

     On February 2, 2009, the Commission settled a civil
     injunctive action against Albert E. Parish and Parish
     Economics LLC, finding that they fraudulently solicited
     approximately $40 million in investments for their
     commodity futures pool. Parish is currently serving a
     sentence of more than 24 years in Federal prison for
     related criminal violations. In lieu of an award of restitu-
     tion, the order recognizes that Parish will be subject to a
     criminal judgment restitution obligation in excess of $40
     million. CFTC v. Parish, et al., No. 2:07-CV-01044-DCN,
     Consent Order (D.S.C. filed Feb. 2, 2009);




66       CFTC
                  Management’s                                                                  Other Accompanying
                                             Performance Section        Financial Section                                  Appendix
                  Discussion & Analysis                                                         Information
                                                                              PERFORMANCE SECTION




  Performance Measure 2.2.1 Percentage of self-regulatory organizations that comply with CFTC Core
  Principles.



    FY 2009 Performance Results                                                                             100%
 Status:        Effective
 Data Source: Documentation from SROs and FCMs under
              review, agency reports, and files from
              reviews and analyses.
 Verification: Review and analysis of systems, data,
               procedures, policies, practices, and manuals,
               including on-site visits at SROs and FCMs.




Lead Program Office                                                    Examinations by DCIO of SROs generally involve an
                                                                       assessment of some or all of the following areas: the level of
Division of Clearing and Intermediary Oversight
                                                                       staffing dedicated by the SRO to conduct financial and sales
                                                                       practice review of FCMs; the conduct of infield examinations
Performance Analysis & Review                                          of FCMs; the review of financial statements and regulatory
                                                                       notices submitted by FCMs; the review of the FCM’s
DCIO met the performance target for FY 2009.               DCIO
                                                                       maintenance of required books and records; and the review
completed two SRO reviews during FY 2009. Based on these
                                                                       of the SRO’s disciplinary program.
reviews, staff determined that the SROs’ programs met the
applicable requirements of the Act and Commission
regulations.                                                           Performance Highlights
CFTC Core Principles require, in relevant part, boards of              DCIO completed reviews of two SROs’ financial surveil-
trade to establish and enforce rules to ensure the financial           lance programs during FY 2009. Staff concluded that the
integrity of FCMs and the protection of customer funds. As             SROs conducted their financial and sales practice programs
part of its oversight program, DCIO conducts periodic,                 in compliance with applicable provisions of the Act and
routine examinations of the financial and sales practice               Commission regulations and staff interpretations. DCIO
programs of the SROs for the purposes of reviewing the                 also is in the process of conducting a third review of an
effectiveness of such programs, and assessing the compli-              SRO’s financial surveillance program that will not be
ance of SROs with applicable CFTC Core Principles,                     completed until FY 2010.
Commission regulations, and staff interpretations.




                                                                                                                     CFTC        67
     Management’s                                                                      Other Accompanying
                                 Performance Section           Financial Section                                 Appendix
     Discussion & Analysis                                                             Information
  Performance Measure 2.2.2 Percentage of derivatives clearing organizations that comply with CFTC Core
  Principles.



     FY 2009 Performance Results                                                                       100%
  Status:       Effective
  Data Source: Documentation from DCOs, agency reports
               and files, and financial surveillance materials.
  Verification: Review and analysis of systems, data,
                procedures, policies, practices, and manuals,
                including on-site visits at DCOs.




Lead Program Office                                                   Performance Highlights
Division of Clearing and Intermediary Oversight                       One review of a DCO focused on CFTC Core Principle of
                                                                      financial resources, and another review of several DCOs
                                                                      focused on CFTC Core Principle of default procedures. A
Performance Analysis & Review
                                                                      third review, conducted jointly with DMO, focused on
DCIO met the performance target for FY 2009. Three reviews            CFTC Core Principle of system safeguards of several DCOs.
to assess compliance with certain CFTC Core Principles were           Based on its reviews, staff determined that the DCO
completed during FY 2009.           Based on its reviews, staff       programs met the applicable requirements of the Act and
determined that the DCO programs met the applicable                   Commission regulations.
requirements of the Act and Commission regulations. In
addition to conducting these reviews, DCIO staff conduct
financial and risk surveillance of DCOs and clearing
members on a daily basis, a central element of DCIO’s
ongoing oversight. Staff have identified no instances of
noncompliance. Another component of DCO oversight is
the review of rules and rule changes of DCOs. During the
past fiscal year, 68 rule submissions, many containing
multiple rules, were filed by DCOs under the self-certification
provisions of the Act. Staff reviewed each of the submissions
and found none that violated CFTC Core Principles.




68      CFTC
                  Management’s                                                                  Other Accompanying
                                                Performance Section       Financial Section                            Appendix
                  Discussion & Analysis                                                         Information
                                                                       PERFORMANCE SECTION




  Performance Measure 2.2.3 Percentage of professionals compliant with standards regarding testing, licensing,
  and ethics training.



    FY 2009 Performance Results                                                                      100%
  Status:       Effective
  Data Source: NFA’s audit reports.
  Verification: NFA audits and the agency’s ongoing
                oversight of NFA’s compliance and
                registration programs.




Lead Program Office                                             (RFED); provides financial requirements for FCMs, FCM
                                                                affiliates, and RFEDs, who act as counterparties in retail
Division of Clearing and Intermediary Oversight
                                                                forex transactions; and permits the intermediation of such
                                                                transactions by registrants. In general, the Farm Bill
Performance Analysis & Review                                   establishes that those involved in offering forex products
                                                                to retail customers should be registered with the
DCIO met the performance target for FY 2009: 100 percent
                                                                Commission, unless they are otherwise regulated. DCIO
of professionals were compliant with standards regarding
                                                                staff have drafted, but not yet released, proposed regulations
testing, licensing, and ethics training.
                                                                for Commission consideration that address off-exchange
                                                                retail forex transactions, and require the registration of all
                                                                intermediaries and RFEDs, and that will establish financial
Performance Highlights
                                                                requirements for the new entities. Staff have also drafted
In May 2008, the Farm Bill became effective. Within the         proposed amendments to the Commission’s existing
Farm Bill are several amendments to the Act concerning          regulations regarding registration, maintenance of books
off-exchange retail forex transactions. Among other things,     and records, anti-fraud, risk-disclosure, and supervisory
the legislation:    creates a new category of Commission        requirements as necessary to incorporate the new categories
registrant eligible to act as a counterparty in these           of registrants, and unique structure of OTC retail forex
transactions, known as a retail foreign exchange dealer         markets into existing regulations.




                                                                                                              CFTC        69
     Management’s                                                               Other Accompanying
                                  Performance Section   Financial Section                                 Appendix
     Discussion & Analysis                                                      Information
  Performance Measure 2.2.4 Percentage of self-regulatory organizations that comply with requirement to
  enforce their rules.



     FY 2009 Performance Results                                                                       100%
 Status:       Effective
 Data Source: Documentation from SROs, agency reports,
              and files from reviews and analyses.
 Verification: Review and analysis of systems, data,
               procedures, policies, practices, and
               manuals, including on-site visits at SROs.




Lead Program Office
                                                                    for compliance with Section 17 of the Act. DCIO’s examina-
Division of Clearing and Intermediary Oversight                     tions of SROs generally involve an assessment of some or all
                                                                    of the following areas: the level of staffing dedicated by the

Performance Analysis & Review                                       SRO to conduct financial and sales practice review of FCMs;
                                                                    the conduct of infield examinations of FCMs; the review of
DCIO met the performance target for FY 2009. Two reviews            financial statements and regulatory notices; the review of the
to assess the financial surveillance programs of SROs, and          FCM’s maintenance of required books and records; and the
one review to assess an SRO’s arbitration program were              review of the SRO’s disciplinary program.
completed in FY 2009.

CFTC Core Principle 11 provides, in relevant part, that a           Performance Highlights
DCM shall establish and enforce rules to ensure the financial
                                                                    DCIO completed reviews of two SRO’s financial surveillance
integrity of FCMs and the protection of customer funds.
                                                                    programs that focused on the SRO’s oversight of member
DCMs, in their capacity as SROs, receive and review monthly
                                                                    FCMs compliance with the CFTC, and SRO minimum
financial reports submitted by FCMs for the purpose of
                                                                    financial and related reporting requirements. Staff concluded
assessing whether the FCMs are in compliance with the
                                                                    that the SROs conducted their financial and sales practice
Commission’s and the SRO’s minimum financial require-
                                                                    programs in compliance with applicable provisions of the
ments, including requirements related to the safeguarding of
                                                                    Act and Commission regulations and staff interpretations.
customer funds. Commission regulations further require,
                                                                    DCIO also completed a review of an SRO’s arbitration
and SRO rules require, an FCM to file a notification with the
                                                                    program for the settlement of customers’ claims or grievances
Commission and the FCM’s designated SRO whenever the
                                                                    against any member or employee of a registered futures
SRO fails to meet capital and segregation requirements.
                                                                    association. DCIO determined that the SRO’s arbitration
DCIO conducts periodic, routine examinations of the finan-          program was in compliance with applicable provisions of
cial and sales practice programs of the SROs for the purposes       the Act and Commission regulations. DCIO is in the process
of reviewing the effectiveness of such programs, and assessing      of conducting a third review of an SRO’s financial
the SROs’ compliance with applicable CFTC Core Principles,          surveillance program that will not be completed until
Commission regulations, and staff interpretations. DCIO             FY 2010, and is finalizing a review of an SRO’s registration
also reviews the programs of registered futures associations        program that also will be completed in FY 2010.


70     CFTC
                 Management’s                                                                  Other Accompanying
                                              Performance Section       Financial Section                                 Appendix
                 Discussion & Analysis                                                         Information
                                                                         PERFORMANCE SECTION




  Performance Measure 2.2.5 Percentage of total requests for guidance and advice receiving CFTC responses.




    FY 2009 Performance Results                                                                             90%
 Status:        Effective
 Data Source: Signed letters (formal) and email and
              telephone responses (informal).
 Verification: Agency files maintained in chronological
               files and responses to formal requests
               published on the Commission’s Web site.




Lead Program Office
                                                                  effort to respond to requests as quickly as possible, but the
Division of Clearing and Intermediary Oversight                   timeliness of a response also is affected by the speed with
                                                                  which a requester provided additional information sought
                                                                  by staff, and the length of time required by other
Performance Analysis & Review
                                                                  Commission divisions or offices to review a draft response,
DCIO met the performance target for FY 2009. DCIO staff           factors outside the control of DCIO.
respond to numerous requests for guidance and advice on
the CEA and Commission regulations each year. Requests
                                                                  Performance Highlights
are received from members of the public, market partici-
pants, intermediaries, SROs, foreign entities, and others.        In FY 2009, DCIO responded to numerous requests, both
These requests may be formal, such as written requests for        formal and informal, for interpretations of the Commission’s
no-action, interpretative, or exemption letters. DCIO also        registration requirements, and issued exemptive and
receives numerous informal requests for guidance and              no-action letters addressing various issues, including the
advice via e-mail and phone calls.                                circumstances under which general partners of commodity
                                                                  pools may be relieved from CPO registration requirements
Although DCIO responds to all requests it receives, it is not
                                                                  when a registered designee serves as the pool’s operator.
always possible for DCIO to respond within the fiscal year
                                                                  Additionally, DCIO issued an exemptive letter granting relief
that it receives a request. DCIO estimates that up to 10
                                                                  from certain record-keeping and disclosure requirements to
percent of requests may fall in this category. Some requests
                                                                  a registered CPO of a publicly offered commodity pool. The
that raise novel or complex issues, or requests in the form of
                                                                  relief is predicated on substituted compliance with parallel
no-action letters, interpretations, or exemptions, take more
                                                                  requirements under securities laws.
time to research and to prepare a response. It should be
noted, however, the statistics on numbers of letters issued or    DCIO also issued a letter, in FY 2009, providing guidance to
e-mail responded to may not reflect the complexity of any         CPOs on complying with the financial reporting require-
particular matter, or the resources necessary to address one      ments set forth in Part 4 of the Commission’s regulations.
issue versus another issue. In addition, matters commenced        The letter assisted CPOs in meeting their regulatory require-
in one fiscal year may overlap, and be completed during the       ments by highlighting recent regulatory changes affecting the
subsequent fiscal year, resulting in some imprecision in          financial filings required of CPOs, and identified common
statistical measures for a given year. DCIO makes every           deficiencies observed in prior year financial filings.

                                                                                                                   CFTC     71
     Management’s                                                                  Other Accompanying
                                 Performance Section      Financial Section                                   Appendix
     Discussion & Analysis                                                         Information
  Performance Measure 2.3.1(a) Percentage of filed complaints resolved within one year of the filing date for
  Voluntary Proceedings.



     FY 2009 Performance Results                                                                           83%
  Status:       Moderately Effective
  Data Source: Reparations case tracking system and
               Judgment Officer Disposition report.
  Verification: Weekly and monthly reports and statistics
                submitted by Judgment Officer.




Lead Program Office                                                 Performance Highlights
Office of Proceedings                                               In FY 2009, 83 percent of the voluntary proceedings
                                                                    complaints were decided in one year or less. The JO issued
                                                                    six decisions in voluntary cases.     Of those, five were
Performance Analysis & Review
                                                                    completed in less than one year, and the sixth case was
A claim of any size can be adjudicated through the volun-           completed in just over one year and two months (420
tary proceeding if all complainants and respondents consent         days). Therefore, the resolution of voluntary proceedings
to use this approach, and if the complainant submits the            complaints is moderately effective, supporting the outcome
required $50 filing fee. All evidence is submitted in writing       measure, objective, and goal.
and there is no oral hearing. The decision issued by the
Judgment Officer (JO) is final and is not appealable.

The voluntary proceedings tend to take less time because,
given the non-appealable nature of the proceedings and the
more informal nature of the resolution process, the parties
are more inclined to settle, and the proceeding is completed
through a review of written documentation.

The summary and formal proceedings take more time
because of the evidentiary and hearing requirements of the
proceedings; the summary tend to take slightly longer, in
part, because more parties are pro se. A variety of other
factors can affect the length of the proceeding, including
motions for extensions of time, and stays pending payment
of penalties agreed to in settlement.




72      CFTC
                 Management’s                                                                 Other Accompanying
                                              Performance Section       Financial Section                             Appendix
                 Discussion & Analysis                                                        Information
                                                                         PERFORMANCE SECTION




  Performance Measure 2.3.1(b) Percentage of filed complaints resolved within one year and six months of the
  filing data for Summary Proceedings.



    FY 2009 Performance Results                                                                          80%
 Status:        Effective
 Data Source: Reparations case tracking system and
              Judgment Officer Disposition report.
 Verification: Weekly and monthly reports an statistics
               submitted by Judgment Officer.




Lead Program Office                                               Performance Highlights
Office of Proceedings                                             None to report.


Performance Analysis & Review
If the complainant does not select the voluntary proceeding
and the claim amount is $30,000 or less, the complainant
must select the summary proceeding and submit a $125
filing fee. In the summary proceeding process, evidence is
submitted in writing, and an oral hearing may be held by
telephone. The decision by the JO is appealable to the
Commission and, ultimately, to the U.S. Court of Appeals.

In FY 2009, the Performance Measure goal was to dispose of
60 percent of the cases within one year and six months. The
agency exceeded this goal, resolving 80 percent of the
summary proceedings cases in less than one year and six
months. The Office of Proceedings undertook a number of
actions to improve the speed of resolution, including
resolving deficiencies more quickly during the complaint
phase and allowing electronic filing of documents, the factors
affecting this outcome can vary from case to case. Often
external factors, including complaint deficiencies, requests
for extension of time, and discovery issues, may impact the
ability to resolve the complaint in a speedy manner.




                                                                                                             CFTC   73
     Management’s                                                                   Other Accompanying
                                 Performance Section      Financial Section                              Appendix
     Discussion & Analysis                                                          Information
  Performance Measure 2.3.1(c) Percentage of filed complaints resolved within one year and six months of the
  filing date for Formal Proceedings.



     FY 2009 Performance Results                                                                             93%
 Status:       Effective
 Data Source: Reparations case tracking system and
              Administrative Law Judge’s Disposition
              reports.
 Verification: Weekly and monthly reports an statistics
               submitted by Administrative Law Judges.




Lead Program Office
                                                                    ments, the factors affecting this outcome can vary from case
Office of Proceedings                                               to case. Various external factors affect the timely processing
                                                                    and resolution of complaints, including: the facts and
                                                                    complexity of the case, whether the parties are cooperative in
Performance Analysis & Review
                                                                    discovery and prepare and submit their evidence quickly,
The formal proceeding can be selected if the complainant            whether any procedural disputes arise, and whether an oral
does not select the voluntary proceeding and if the claim           hearing is required (and, if so, when it can be scheduled.)
amount is more than $30,000.             The complainant must       Pro se complainants and inexperienced attorneys also impact
submit a $250 filing fee. In addition to the submission of          the amount of time it takes to process this type of case.
documentary evidence, an oral hearing may be held in a
                                                                    For example, the Administrative Law Judges (ALJ) resolved
location that is, to the extent possible, convenient to the
                                                                    a total of 14 formal complaints during FY 2009. All of these
parties. The decision is appealable to the Commission and
                                                                    were resolved within one year and six months, except on
ultimately to the U.S. Court of Appeals.
                                                                    one case that took a total of 666 days to resolve due to
In FY 2009, the agency resolved 93 percent of the formal            numerous orders and notices involving the default of some
proceeding complaints in one year and six months, exceeding         of the respondents.
the goal of 90 percent. The Office of Proceedings undertook
a number of actions to improve the speed of resolution,
                                                                    Performance Highlights
including resolving deficiencies more quickly during the
complaint phase and allowing electronic filing of docu-             None to report.




74     CFTC
                 Management’s                                                                   Other Accompanying
                                              Performance Section       Financial Section                                  Appendix
                 Discussion & Analysis                                                          Information
                                                                                                   PERFORMANCE SECTION




   Performance Measure 2.3.2 Percentage of appeals resolved within six months.




      FY 2009 Performance Results                                                                                                  40%
  Status:             Effective
  Data Source: Opinions and orders issued by the
               Commission.
  Verification: Final opinions and orders are posted on
                the Commission’s Web site. Pending
                cases are maintained by the Secretariat,
                status reports are issued monthly.




Lead Program Office                                                                         Performance Highlights
Office of General Counsel (OGC)                                                             During FY 2009, the Commission issued its decision in a
                                                                                            case involving manipulation, In re DiPlacido, CFTC Docket
                                                                                            No. 01-23 (Nov. 5, 2008).       The Commission held that
Performance Analysis & Review
                                                                                            respondent Anthony J. DiPlacido (DiPlacido) manipulated
The effectiveness goal for this OGC program is 5o percent of                                the settlement prices of electricity futures contracts traded
appeals resolved within six months and OGC began FY 2009                                    on NYMEX on four occasions in 1998. Significantly, the
planning to meet or exceed that goal.                            Mid-year, OGC              case alleged manipulation based on trading floor practices
lowered its expectations based on a dearth of new repara-                                   rather than a classic corner or squeeze.        Applying its
tion appeals filed in FY 2009, coupled with the age of the                                  customary four-part test for manipulation, the Commission
cases on the Commission’s docket at the beginning of the                                    found that DiPlacido had the ability to influence prices
year. At the start of FY 2009, the Commission had 12 repa-                                  because his trading activity accounted for 28 percent to 52
rations appeals on its docket,19 many of which were then                                    percent of the trading volume during the closes at issue and
more than six months old. At the end of the first two                                       that he had the intent to do so in order to enhance the value
quarters, two new appeals had been filed and six appeals                                    of over-the-counter positions held by his customer. Third,
had been resolved (one within the six month goal, a                                         the Commission found that an artificial price was in fact
dismissal by delegated authority). In these circumstances,                                  established and that DiPlacido caused it by bidding through
OGC submitted a revised plan figure. During the last two                                    offers and otherwise engaging in disruptive trading prac-
quarters, seven new appeals and miscellaneous post-judg-                                    tices, paying more than he had to, or selling for less,
ment matters came before the Commission, a number of                                        depending on which way his customer wanted to move the
which were resolved within six months. At year end, 40                                      market. The Commission applied the manipulation theory
percent of matters completed during FY 2009 were closed                                     adopted by the JO of the U.S. Department of Agriculture in
within six months, bringing the program substantially closer                                In re Henner, 30 Agric. Dec. 1151 (1971), a case brought by
to its effectiveness target.                                                                the CFTC’s predecessor agency, the Commodity Exchange
                                                                                            Authority. In that case, the JO, whose decision was the final
                                                                                            decision of the agency, concluded that the respondent,



19	This   includes 15 related, identical petitions for interlocutory review counted as one case.


                                                                                                                                          CFTC       75
          Management’s                                                                                      Other Accompanying
                                              Performance Section                 Financial Section                                   Appendix
          Discussion & Analysis                                                                             Information
through his trading activity on the trading floor of the CME,    dents to file in that country’s courts without a bond.
paid more than he had to in order to raise the closing price.    Complainants, residents of Peru, sought a waiver, relying
                                                                 on the absence of a bond requirement for U.S. residents in
The Commission imposed a cease and desist order, a $1
                                                                 Peru’s constitution, various procedural statutes and Peru’s
million civil monetary penalty, a 20-year trading ban, and
                                                                 Administrative Code. In proceedings before the ALJ, their
revoked DiPlacido’s registration. The case was appealed to
                                                                 showing was deemed insufficient under Commission prec-
the U.S. Court of Appeals for the Second Circuit. The Court
                                                                 edent requiring an affirmative statement that no bond was
issued its decision on October 16, 2009, reducing the civil
                                                                 required of nonresident litigants and the complaint was
monetary penalties by $320,000 and otherwise affirming
                                                                 dismissed without prejudice. On appeal, the Commission
the Commission’s decision and sanctions.         DiPlacido v.
                                                                 addressed the showing required by Section 14(c) ”in light
CFTC, No.08-5559-ag, 2009 WL 3226624 (2nd Cir.) (Oct.
                                                                 of the principle that our legal system rarely requires a party
16, 2009).
                                                                 to prove a negative.” Recognizing “the inherent difficulty
In Rubini Vargas v. FX Solutions, LLC, CFTC Docket No.           that may attend establishing a waiver claim,” the
07-R025 (Feb. 24, 2009), the Commission modified the             Commission held that if a diligent search revealed no
showing required for a non-U.S. resident complainant to          relevant authority, it would treat “the absence of authority
file a reparations claim without posting the bond required       as compelling proof that no bond is required.”            The
by CEA Section 14(c). Under that provision, a non-resident       Commission vacated the order of dismissal and remanded
claimant in the reparations forum must post a bond in            the case. On remand, the complaint was dismissed on
double the amount of the claim, but may obtain a waiver if       unrelated grounds.
the complainant’s country of residence permits U.S. resi-




76     CFTC
                Management’s                                                                Other Accompanying
                                           Performance Section       Financial Section                                 Appendix
                Discussion & Analysis                                                       Information
          Strategic Goal Three: Industry
Goal Three: Ensure market integrity in order to foster open, competitive,
and financially sound markets.



Outcome Objective 3.1: Clearing organizations and firms holding customer funds have
sound financial practices.
   n	   Annual Performance Goal 3.1: No loss of customer funds as a result of firms’
        failure to adhere to regulations. No customers prevented from transferring funds
        from failing firms to sound firms.


Outcome Objective 3.2: Commodity futures and option markets are effectively self-regulated.
   n	   Annual Performance Goal 3.2: No loss of funds resulting from failure of self-regulated
        organizations to ensure compliance with their rules.


Outcome Objective 3.3: Markets are free of trade practice abuses.
   n	    Annual Performance Goal 3.3: Minimize trade practice abuses.


Outcome Objective 3.4: Regulatory environment is flexible and responsive to evolving
market conditions.
   n	   Annual Performance Goal 3.4: Rulemakings issued and requests responded to
        reflect the evolution of the markets and protect the interests of the public.
   Performance Measure 3.1.1(a) Lost Funds: Number of customers who lost funds.




      FY 2009 Performance Results                                                                                                        0
  Status:             Effective
  Data Source: Agency database of financial information
               from 1-FR-FCM and FOCUS reports, and
               related regulatory notices.
  Verification: Exchanges’ daily trading data and FCMs’
                financial filings are maintained in Stressing
                Positions at Risk (SPARK20) and 1-FR data
                systems.




   Performance Measure 3.1.1(b) Lost Funds: Amount of funds lost.




      FY 2009 Performance Results                                                                                                       $0
  Status:             Effective
  Data Source: Agency database of financial information
               from 1-FR-FCM and FOCUS reports, and
               related regulatory notices.
  Verification: Exchanges’ daily trading data an d FCMs’
                financial filings are maintained in SPARK
                and 1-FR data systems.




Lead Program Office                                                                     is continuing to monitor the FCM’s bankruptcy proceedings
                                                                                        and, as of September 30, 2009, no customers trading on
Division of Clearing and Intermediary Oversight                                         DCMs have lost funds due to the FCM’s bankruptcy.

                                                                                        FCMs are required to segregate their own assets from all
Performance Analysis & Review
                                                                                        customer funds deposited for trading on DCMs in designated
Performance target was met for FY 2009. During FY 2009, no                              accounts with a bank, trust company, clearing organization,
customers who deposited funds with FCMs for trading on                                  or other FCM. FCMs holding funds for customers trading on
DCMs experienced any losses as a result of the FCM’s failure                            non-U.S. contract markets are required to comply with Part
to adhere to Commission regulations. However, a registered                              30 of the Commission’s regulations with respect to the
FCM filed for bankruptcy protection in August 2007. DCIO                                custody of the customers’ funds.


20	Refer   to CFTC Information Technology Systems in the Appendix for a description of functionality.


78           CFTC
                        Management’s                                                                               Other Accompanying
                                                           Performance Section                Financial Section                             Appendix
                        Discussion & Analysis                                                                      Information
                                                                       PERFORMANCE SECTION




FCMs also are required to prepare daily calculations demon-     SPARK system, combined with required financial warning
strating compliance with the customer funds custody require-    notices from the FCMs and constant market monitoring.
ments. These calculations must be prepared by 12:00 noon
and must demonstrate compliance as of the end of business       Performance Highlights
on the previous business day.
                                                                The Commission was successful in ensuring that no losses
DCIO conducts financial and risk surveillance activities to     of regulated customer funds occurred due to firm failures or
closely monitor the operations of FCMs in possession of         the inability of customers to transfer their funds from a
customer funds. These surveillance activities include DCIO’s    failing firm to a sound firm in FY 2009.




                                                                                                               CFTC     79
     Management’s                                                              Other Accompanying
                                Performance Section     Financial Section                                  Appendix
     Discussion & Analysis                                                     Information
  Performance Measure 3.1.2 Number of rulemakings to ensure market integrity and financially sound markets.




     FY 2009 Performance Results                                                                                       4
 Status:       Moderately Effective
 Data Source: Code of Federal Regulations; proposed
              and final amendments to regulations.
 Verification: Proposed and final regulations are
               published in the Federal Register and
               posted on the Commission’s Web site.




Lead Program Office                                                also can account for a difference between the fiscal year plan
                                                                   and the actual outcome.
Division of Clearing and Intermediary Oversight

                                                                   Performance Highlights
Performance Analysis & Review
                                                                   The Commission has adopted a risk-based capital regula-
Performance target was exceeded for FY 2009. The number of         tion for FCMs (i.e., an FCM’s minimum capital requirement
rulemakings to ensure market integrity and financial sound-        is determined based upon the relative risk associated with
ness is not a number that can be precisely predetermined.          customer and non-customer futures positions carried by the
The final number of rulemakings is driven, in part, by changes     FCM). The Commission recently proposed amendments to
in the marketplace, or in the structure of exchanges, clearing     the minimum capital requirements that FCMs and IBs must
organizations, and intermediaries that operate within that         maintain. The proposed amendments would increase capital
marketplace. The number can be a function of what is needed        requirements by: 1) increasing the required minimum dollar
to allow appropriate market interrelationships to be main-         amounts to $45,000 for IBs and $1 million for FCMs;
tained and to allow registered entities to operate in the most     2) requiring risk-based (i.e., margin-based) calculations in
efficient manner possible. These factors may not be foresee-       the regulation to include all customer and noncustomer
able at the time the performance estimate is prepared. In          over-the-counter contracts that are submitted for clearing by
addition, the need for a rulemaking may not be known, or           the FCM to U.S. or foreign clearing organizations; and
may not have reached a decision-making point until further         3) increasing the applicable percentages specified in the
analysis, study, and other actions or events take place. This      regulation for such margin-based calculations.




80     CFTC
                Management’s                                                                  Other Accompanying
                                             Performance Section       Financial Section                                 Appendix
                Discussion & Analysis                                                         Information
                                                                            PERFORMANCE SECTION




  Performance Measure 3.1.3 Percentage of clearing organizations that comply with requirement to enforce
  their rules.



    FY 2009 Performance Results                                                                          100%
  Status:       Effective
  Data Source: Documentation from DCOs under review,
               agency reports, files, and financial
               surveillance materials.
  Verification: Review and analysis of systems, data,
                procedures, policies, practices, and
                manuals, including on-site visits at DCOs.




Lead Program Office                                                  Performance Highlights
Division of Clearing and Intermediary Oversight                      One review of a DCO focused on CFTC Core Principle of
                                                                     financial resources, and another review of several DCOs
                                                                     focused on CFTC Core Principle of default procedures. A
Performance Analysis & Review                                        third review, conducted jointly with DMO, focused on
Performance target was met for FY 2009. Three reviews to             CFTC Core Principle of system safeguards of several DCOs.
assess compliance with certain CFTC Core Principles were             Based on its reviews, staff determined that the DCO
completed during FY 2009.          Based on its reviews, staff       programs met the applicable requirements of the Act and
determined that the DCO programs met the applicable                  Commission regulations.
requirements of the Act and Commission regulations. In
addition to conducting these reviews, DCIO staff conduct
financial and risk surveillance of DCOs and clearing
members on a daily basis, a central element of DCIO’s
ongoing oversight. Staff have identified no instances of
noncompliance. Another component of DCO oversight is
the review of rules and rule changes of DCOs. During the
past fiscal year, 68 rule submissions, many containing
multiple rules, were filed by DCOs under the self-certification
provisions of the Act. Staff reviewed each of the submissions
and found none that violated CFTC Core Principles.




                                                                                                                CFTC       81
     Management’s                                                                   Other Accompanying
                                  Performance Section        Financial Section                              Appendix
     Discussion & Analysis                                                          Information
  Performance Measure 3.2.1 Percentage of intermediaries who meet risk-based capital requirements.




     FY 2009 Performance Results                                                                       100%
 Status:       Effective
 Data Source: Agency database of financial information
              from 1-FR-FCM and FOCUS reports, and
              related regulatory notices.
 Verification: Review and analysis of exchanges’ daily
               trading data and FCMs’ financial filings
               in SPARK and 1-FR data systems.




Lead Program Office                                                 SPARK system, combined with required financial warning
                                                                    notices and market monitoring, to closely monitor the
Division of Clearing and Intermediary Oversight
                                                                    financial condition of FCMs.


Performance Analysis & Review                                       Performance Highlights
Performance target was met for FY 2009. The Act,                    DCIO staff reviewed all regulatory notices received from
Commission regulations, and SRO rules require FCMs to               FCMs during FY 2009. This review included assessing each
comply with minimum financial requirements and related              firm’s actions to ensure that all firms that reported a failure
reporting requirements at all times. Included in the                to maintain the minimum capital requirement either took
minimum financial requirements is the Commission’s and              the necessary steps to bring themselves back into compli-
SROs’ risk-based capital requirement. Any FCM failing to            ance or properly transferred their customers’ accounts to
meet the risk-based capital requirement must provide imme-          other, adequately capitalized FCMs. DCIO staff reviewed
diate notice to the Commission and to the firm’s designated         financial reports submitted by every registered FCM on a
SRO. Furthermore, Commission regulations provide that               monthly basis to assess compliance with the minimum
any FCM that fails to meet minimum capital requirements,            financial requirements. DCIO staff also reviewed audited
including the risk-based capital requirement, and cannot            annual financial reports for every FCM during FY 2009.
timely come back into compliance with these requirements            Finally, DCIO staff conducted examinations of several
must transfer all customer accounts and immediately cease           FCMs during FY 2009 to assess the firms’ compliance with
operating as an FCM until it can demonstrate compliance.            Commission and SRO capital requirements.

The Commission and SROs monitor FCMs’ compliance
with the risk-based capital requirement through review of
monthly financial reports, regulatory notices, and the
conduct of in-field examinations.         DCIO also uses the




82     CFTC
                 Management’s                                                                   Other Accompanying
                                              Performance Section       Financial Section                                  Appendix
                 Discussion & Analysis                                                          Information
                                                                        PERFORMANCE SECTION




  Performance Measure 3.2.2 Percentage of self-regulatory organizations that comply with requirement to
  enforce their rules.



    FY 2009 Performance Results                                                                        100%
 Status:        Effective
 Data Source: Documentation from DCMs/SROs under
              review, agency reports and files, and
              financial surveillance materials.
 Verification: Review and analysis of systems, data,
               procedures, policies, practices, and
               manuals, including on-site visits.




Lead Program Offices                                             DCIO conducts periodic, routine examinations of the finan-
                                                                 cial and sales practice programs of the SROs for the purposes
Division of Clearing and Intermediary Oversight                  of reviewing the effectiveness of such programs; in addition,
                                                                 DCIO accesses the SROs’ compliance with applicable CFTC
Division of Market Oversight
                                                                 Core Principles, Commission regulations, and staff interpre-
                                                                 tations.    DCIO also reviews the programs of registered
Performance Analysis & Review                                    futures associations for compliance with Section 17 of the
                                                                 Act. DCIO’s examinations of SROs generally involve an
Division of Clearing and Intermediary Oversight: Performance     assessment of some or all of the following areas: the level of
target was met for FY 2009. Two reviews to assess the finan-     staffing dedicated by the SRO to conduct financial and sales
cial surveillance programs of SROs and one review to assess      practice review of FCMs; the conduct of infield examina-
an SRO’s arbitration program were completed in FY 2009.          tions of FCMs; the review of financial statements and regu-
                                                                 latory notices; the review of the FCM’s maintenance of
CFTC Core Principle 11 provides, in relevant part, that a
                                                                 required books and records; and the review of the SRO’s
DCM shall establish and enforce rules to ensure the finan-
                                                                 disciplinary program.
cial integrity of FCMs and the protection of customer funds.
DCMs, in their capacity as SROs, receive and review monthly      Division of Market Oversight:         DMO staff conduct rule
financial reports submitted by FCMs for the purpose of           enforcement reviews (RERs) of DCMs on a regular cycle to
assessing whether the FCMs are in compliance with the            ensure that exchanges enforce their rules.             CEA Core
Commission’s and the SRO’s minimum financial require-            Principle 2 specifically requires that exchanges monitor and
ments, including requirements related to the safeguarding        enforce compliance with their rules. DMO reviews exchange
of customer funds. In addition, Commission regulations           compliance with CEA Core Principle 2 when it conducts an
and SRO rules require an FCM to file a notification with the     RER of an exchange’s trade practice surveillance program.
Commission and the FCM’s designated SRO whenever the             RERs also examine the adequacy of an exchange’s market
SRO fails to meet capital and segregation requirement.           surveillance, audit trail, disciplinary, and dispute resolution




                                                                                                                 CFTC        83
     Management’s                                                                 Other Accompanying
                                 Performance Section     Financial Section                                   Appendix
     Discussion & Analysis                                                        Information
programs. When DMO examines these programs, its review          FCMs’ compliance with the CFTC and SRO minimum finan-
includes an analysis to ensure that an exchange is enforcing    cial and related reporting requirements. Staff concluded
its rules that relate to the particular program under review.   that the SROs conducted their financial and sales practice
In FY 2009, DMO found in its RER report for the MGE that        programs in compliance with applicable provisions of the
the exchange maintains an adequate open outcry audit trail      Act and Commission regulations and staff interpretations.
and trade practice surveillance program to detect trading       DCIO also completed a review of an SRO’s arbitration
abuses.    The MGE uses an automated trade surveillance         program for the settlement of customers’ claims or griev-
system to identify and investigate potential trading viola-     ances against any member or employee of a registered
tions. However, DMO recommended that the MGE increase           futures association. DCIO determined that the SRO’s arbi-
the staffing level of its compliance group, examine the         tration program was in compliance with applicable provi-
underlying reasons for the large number of compliance staff     sions of the Act and Commission regulations. DCIO is in
turnover during the review period, and augment its audit        the process of conducting a third review of an SRO’s finan-
trail compliance program for electronic trading. DMO also       cial surveillance program that will not be completed until
found that the MGE maintains an effective market surveil-       FY 2010, and is finalizing a review of an SRO’s registration
lance program that includes daily surveillance to identify      program that also will be completed in FY 2010.
possible manipulation, and to ensure orderly liquidation of
                                                                Division of Market Oversight: DMO found in its RER report
expiring contracts. During FY 2009, DMO also was working
                                                                for the MGE that the exchange maintains an adequate open
on two additional RERs that will be completed in FY 2010.
                                                                outcry audit trail and trade practice surveillance program to
These reviews include a joint RER of the CME and the CBOT
                                                                detect trading abuses. The MGE uses an automated trade
and an RER of ICE US.
                                                                surveillance system to identify and investigate potential
DMO also conducts ongoing daily surveillance of all             trading violations. However, DMO recommended that the
exchanges to ensure that exchanges are enforcing their          MGE increase the staffing level of its compliance group,
rules.                                                          examine the underlying reasons for the large number of
                                                                compliance staff turnover during the review period, and
                                                                augment its audit trail compliance program for electronic
Performance Highlights
                                                                trading. DMO also found that the MGE maintains an effec-
Division of Clearing and Intermediary Oversight: DCIO           tive market surveillance program that includes daily surveil-
completed reviews of two SROs’ financial surveillance           lance to identify possible manipulation, and to ensure
programs that focused on the SROs’ oversight of member          orderly liquidation of expiring contracts.




84        CFTC
                 Management’s                                                              Other Accompanying
                                          Performance Section       Financial Section                                Appendix
                 Discussion & Analysis                                                     Information
                                                                               PERFORMANCE SECTION




  Performance Measure 3.3.1 Percentage of exchanges deemed to have adequate systems for detecting trade
  practice abuses.



    FY 2009 Performance Results                                                                              100%
  Status:       Effective
  Data Source: Agency reports and files from reviews and
               analyses, and documentation from exchanges
               subject to a rule enforcement review.
  Verification: Review and analysis of systems, data,
                procedures, policies, practices, and manuals,
                including on-site visits.




Lead Program Office                                                     Performance Highlights
Division of Market Oversight                                            DMO found in its RER report for the MGE that the exchange
                                                                        maintains an adequate open outcry audit trail and trade
                                                                        practice surveillance program to detect trading abuses. The
Performance Analysis & Review
                                                                        MGE uses an automated trade surveillance system to identify
DMO staff conduct RERs of DCMs on a regular cycle that                  and investigate potential trading violations. DMO recom-
includes review and analysis of exchange programs for                   mended, however, that the MGE increase the staffing level of
detecting trading abuses and violations of exchange rules. In           its compliance group, examine the underlying reasons for
FY 2009, DMO completed an RER of the MGE and was                        the large number of compliance staff turnover during the
working to complete a RER of ICE US. In addition, DMO                   review period, and augment its audit trail compliance
initiated a joint RER of the CME and CBOT that is expected              program for electronic trading. DMO also found that the
to be completed in FY 2010. In the course of conducting                 MGE maintains an effective market surveillance program
RERs and daily surveillance of all futures exchanges, DMO               that includes daily surveillance to identify possible manipu-
has not found any exchange to have inadequate systems in                lation, and to ensure orderly liquidation of expiring
place for detecting trade practice abuses.                              contracts.

DMO also conducts ongoing daily surveillance of all
exchanges to ensure that exchanges are enforcing their rules.




                                                                                                                      CFTC       85
     Management’s                                                                       Other Accompanying
                                  Performance Section           Financial Section                                 Appendix
     Discussion & Analysis                                                              Information
  Performance Measure 3.3.2 Percentage of exchanges that comply with requirement to enforce their rules.




     FY 2009 Performance Results                                                                      100%
 Status:       Effective
 Data Source: Agency reports and files from reviews and
              analyses, and documentation from
              exchanges subject to a review.
 Verification: Review and analysis of systems, data,
               procedures, policies, practices, and
               manuals, including on-site visits.




Lead Program Offices                                               of reviewing the effectiveness of such programs; in addition,
                                                                   DCIO accesses the SROs’ compliance with applicable CFTC
Division of Clearing and Intermediary Oversight                    Core Principles, Commission regulations, and staff interpre-
Division of Market Oversight                                       tations. DCIO also reviews the programs of registered futures
                                                                   associations for compliance with Section 17 of the Act.
                                                                   DCIO’s examinations of SROs generally involve an assess-
Performance Analysis & Review                                      ment of some or all of the following areas: the level of
Division of Clearing and Intermediary Oversight: Performance       staffing dedicated by the SRO to conduct financial and sales
target was met for FY 2009. Two reviews to assess the finan-       practice review of FCMs; the conduct of infield examinations
cial surveillance programs of SROs and one review to assess        of FCMs; the review of financial statements and regulatory
an SRO’s arbitration program were completed in FY 2009.            notices; the review of the FCM’s maintenance of required
                                                                   books and records; and the review of the SRO’s disciplinary
CFTC Core Principle 11 provides, in relevant part, that a          program.
DCM shall establish and enforce rules to ensure the financial
integrity of FCMs and the protection of customer funds.            Division of Market Oversight: DMO staff conduct RERs of
DCMs, in their capacity as SROs, receive and review monthly        DCMs on a regular cycle to ensure that exchanges monitor
financial reports submitted by FCMs for the purpose of             and enforce compliance with their rules, as required by CFTC
assessing whether the FCMs are in compliance with the              Core Principle 2. Such reviews may examine some or all of a
Commission’s and the SRO’s minimum financial require-              DCMs audit trail, market surveillance, trade practice surveil-
ments, including requirements related to the safeguarding of       lance, disciplinary, and dispute resolution programs. When
customer funds. In addition, Commission regulations and            DMO examines any of these programs, its review includes an
SRO rules require an FCM to file a notification with the           analysis designed to ensure that the DCM is enforcing its
Commission and the FCM’s designated SRO whenever the               rules that relate to the particular program under review. In
SRO fails to meet capital and segregation requirement.             FY 2009, DMO completed an RER of the MGE that thor-
                                                                   oughly examined the Exchange’s market surveillance, audit
DCIO conducts periodic, routine examinations of the finan-         trail, trade practice surveillance, disciplinary, and dispute
cial and sales practice programs of the SROs for the purposes      resolution programs.    DMO was working to complete a




86     CFTC
                 Management’s                                                                 Other Accompanying
                                             Performance Section       Financial Section                                 Appendix
                 Discussion & Analysis                                                        Information
                                                                        PERFORMANCE SECTION




review of the self-regulatory programs at ICE US futures and     association. DCIO determined that the SRO’s arbitration
initiated joint a RER of the CME and the CBOT. The ICE US,       program was in compliance with applicable provisions of
CME, and CBOT reviews are expected to be complete in             the Act and Commission regulations. DCIO is in the process
FY 2010.                                                         of conducting a third review of an SRO’s financial surveil-
                                                                 lance program that will not be completed until FY 2010, and
DMO also conducts ongoing daily surveillance of all
                                                                 is finalizing a review of an SRO’s registration program that
exchanges to ensure that exchanges are enforcing their rules.
                                                                 also will be completed in FY 2010.
DMO has not identified any material deficiencies at either
exchange.                                                        Division of Market Oversight: DMO found in its RER report
                                                                 for the MGE that the exchange maintains an adequate open
                                                                 outcry audit trail and trade practice surveillance program to
Performance Highlights
                                                                 detect trading abuses. The MGE uses an automated trade
Division of Clearing and Intermediary Oversight:      DCIO       surveillance system to identify and investigate potential
completed reviews of two SROs’ financial surveillance            trading violations. DMO recommended, however, that the
programs that focused on the SROs’ oversight of member           MGE increase the staffing level of its compliance group,
FCMs’ compliance with the CFTC and SRO minimum finan-            examine the underlying reasons for the large number of
cial and related reporting requirements. Staff concluded         compliance staff turnover during the review period, and
that the SROs conducted their financial and sales practice       augment its audit trail compliance program for electronic
programs in compliance with applicable provisions of the         trading. DMO also found that the MGE maintains an effec-
Act and Commission regulations and staff interpretations.        tive market surveillance program that includes daily surveil-
DCIO also completed a review of an SRO’s arbitration             lance to identify possible manipulation, and to ensure
program for the settlement of customers’ claims or grievances    orderly liquidation of expiring contracts.
against any member or employee of a registered futures




                                                                                                                  CFTC    87
     Management’s                                                                Other Accompanying
                               Performance Section       Financial Section                                    Appendix
     Discussion & Analysis                                                       Information
  Performance Measure 3.4.1 Percentage of CFMA Section 126(b) objectives addressed.




     FY 2009 Performance Results                                                                        100%
  Status:      Effective
  Data Source: Agency reports, files, and documentation.
  Verification: Formal Memoranda of Understanding
                (MOUs) or seriatim approvals are published
                in the Federal Register and posted on the
                Commission’s Web site.




Lead Program Office                                                 Recently, OIA’s activities have focused on the international
                                                                    community’s response to the global financial crisis and to
Office of International Affairs
                                                                    heightened concerns with respect to volatility in energy and
                                                                    agricultural commodities. As discussed below, this focus has

Performance Analysis & Review                                       required OIA to staff a variety of international working
                                                                    groups, communicate with the European Commission on
This performance measure has been met by: 1) engaging in            OTC initiatives, coordinate oil market surveillance policies
discussions with foreign regulators, both on a bilateral basis      with the U.K. FSA and coordinate with Treasury to develop a
and within Treasury’s country dialogues, on an “as needed”          U.S. position on financial crisis responses within the G20
basis to address regulatory issues, as well as by carrying          and G8 structure.
forward discussions with the Committee of European
Securities Regulators (CESR); 2) participating in Task Forces,      These varied activities reflect that no one regulator alone can
meetings and working groups organized by multi-lateral              successfully address global activities in the absence of coor-
organizations such as IOSCO, and the Council of Securities          dinated global action. For example, efforts to close gaps in
Regulators of the Americas (COSRA); 3) organizing the               the regulation of OTC derivatives or the trading of energy
annual Commission training symposium and international              futures will be less effective if there are material differences
regulators meeting; and 4) coordinating technical assistance        in the policies of other jurisdictions that lead to regulatory
missions to foreign market authorities.                             arbitrage.

The recurring activities of OIA include participating in the        International coordination work is expected to increase due
IOSCO Technical Committee and its constituent working               to issues that arise in the course of the ongoing electronic
groups, participating in Treasury’s country dialogues, and          integration of global markets, cross-border mergers, market
organizing the annual training seminar and international            alliances and requests by foreign entities (such as clearing
regulators’ meeting. Other international matters are event-         organizations) for regulated status under the CEA, as well as
driven, such as the need to engage in bilateral discussions         from increasing calls on the CFTC to participate in Treasury-
with a foreign regulator to negotiate a market surveillance         organized dialogues with commercially important jurisdic-
arrangement, or ad hoc in nature, such as requests for tech-        tions such as India and China.
nical assistance.




88      CFTC
                    Management’s                                                                Other Accompanying
                                              Performance Section        Financial Section                                  Appendix
                    Discussion & Analysis                                                       Information
                                                                         PERFORMANCE SECTION




To date, OIA has been able, within the limits of its staff             OTC and cash markets in one or more jurisdictions, the
resources, to provide international coordination, representa-          Task Force called for measures to improve regulators’
tion and technical assistance at acceptable levels as approved         supervisory and enforcement powers and the enhance-
by the Chairman. Although we anticipate for the near term              ment of global cooperation.
that these demands can be met by the additional staff
                                                                  ■■ Consistent with the G-20 calls for further work
resources that were allocated to OIA for FY 2009-2010, the
                                                                       addressing commodity markets, IOSCO renewed the
failure to fund these resources will make it unlikely that OIA
                                                                       mandate of the Commodity Futures Markets Task
will be able to address the increasing demands resulting
                                                                       Force. The Task Force has initiated discussions with an
from the globalization of U.S. futures markets.
                                                                       expanded membership to advance progress on
                                                                       enhancing commodity market transparency.
Performance Highlights
                                                                  ■■ The co-chairs of the Commodity Futures Markets Task
Response to Volatility in Energy and Agricultural Markets              Force requested to work with the Bank for International
                                                                       Settlements to enhance BIS OTC derivatives data by
■■ OIA has continued to coordinate policy with the U.K.                disaggregating oil market data.     Additional work to
   FSA, with a view to improve the MOU (2006), which                   enhance commodity market transparency is planned.
   established a framework for the CFTC and FSA to share
   information that the respective authorities need to            ■■ In connection with the CFTC’s ongoing “special call”

   detect potential abusive or manipulative trading prac-              request for data from swap dealers and index traders in

   tices that involve trading in related contracts on U.K.             the United States, OIA coordinated with foreign regula-

   and U.S. derivatives exchanges. In order to address                 tors in order to resolve various issues that potentially

   increased concerns as to the role of speculation in                 could inhibit access to data from foreign large traders.

   linked commodity markets, in 2008 OIA negotiated               ■■ Working with other parts of the U.S. government, OIA
   revisions to the MOU that require coordinated position              has put forward on behalf of the CFTC various
   limits and reporting requirements in linked contracts               proposals for presentation within the G8 and G20 that
   trading on U.S. and U.K. exchanges.          In 2009 OIA            are aimed at enhancing the transparency of commodity
   continued to coordinate with FSA to enhance surveil-                futures   markets,   with   an   emphasis    on   energy
   lance over linked oil markets.                                      commodity markets.

■■ OIA represented the CFTC as co-chair with the U.K.             ■■ OIA joined a newly created Task Force within IOSCO
   FSA of the IOSCO Task Force on Commodity Future                     that will focus on enhancing coordinated global
   Markets (Task Force), which was formed in 2008 by                   surveillance of securities and derivatives markets and
   IOSCO in response to concerns raised around the price               intermediaries.
   rises and volatility in agricultural and energy commod-
                                                                  Response to the Global Financial Crisis
   ities in 2008 and focused on whether futures market
   regulators’ supervisory approaches were appropriate in         ■■ OIA participated in two chair-level IOSCO task forces
   light of recent market developments. The Task Force                 —one on unregulated entities (hedge funds) and the
   made recommendations to improve transparency in                     other on unregulated markets and products. The unreg-
   energy commodity markets—futures, cash and OTC—                     ulated entities task force report recommended that
   in order to enhance the ability of futures market regu-             hedge fund operators should be required to register
   lators to access all of the information that may be                 and encouraged regulators to support non-public
   needed to understand fully price formation in a partic-             reporting by systemically important hedge funds. The
   ular futures contract. Moreover, because manipulative               unregulated markets and products task force is close to
   schemes are often complex and may involve futures,                  finalizing a report that recommends improvements in




                                                                                                                 CFTC       89
     Management’s                                                                  Other Accompanying
                                Performance Section       Financial Section                                  Appendix
     Discussion & Analysis                                                         Information
     the securitization market and encourages the standard-        ■■ OIA continued its activities within working groups of
     ization and clearing of OTC derivatives.                         IOSCO’s Technical Committee. Of particular note is a
                                                                      joint Standing Committee 2 and Standing Committee
■■ OIA has worked closely with Treasury to help formu-
                                                                      3 project that is developing international standards of
     late a coordinated U.S. response to the financial crisis
                                                                      best practice for direct electronic access to exchanges. A
     within the G20 structure. Among other things, OIA has
                                                                      key component of this work focuses on the role that
     made recommendations for the various G20 working
                                                                      automated “filters” can play in reducing the risk of
     groups relating to enhancing sound regulation,
                                                                      clearing firm defaults. Projects on point of sale disclo-
     strengthening transparency and international coopera-
                                                                      sure, internal controls and liquidity risk management,
     tion and promoting the integrity of financial markets.
                                                                      structured products and dark pools of liquidity also
     These efforts complement the CFTC’s efforts to promote
                                                                      were undertaken within these working groups. OIA
     standardization of OTC derivatives and clearing by
                                                                      also participates in the Task Force on Implementation
     central counterparties.
                                                                      of the IOSCO Objectives and Principles of Securities
■■ In response to concerns regarding bankruptcy protec-               regulation, which has been reviewing the IOSCO
     tions accorded customer funds, OIA in consultation               Principles to determine whether revisions are needed
     with DCIO proposed to the IOSCO Technical                        in light of lessons earned during the financial crisis.
     Committee a project that would examine customer
                                                                   ■■ Within COSRA, OIA contributed to projects addressing
     asset   protection   under      international   insolvency
                                                                      the development of self-regulatory organizations and
     schemes issues arising from the failure of Lehman
                                                                      regional integration through cross-border recognition
     Brothers.
                                                                      schemes was discussed.
■■ OIA is leading a cross-divisional staff task force to
                                                                   ■■ Recognizing the growing importance of EU financial
     identify issues and to develop ideas for responding to
                                                                      policy on U.S. firms and exchanges, OIA has used
     recent financial market events.
                                                                      its added resources to increase its coverage of
International Financial Policy                                        European Commission policy developments affecting
                                                                      derivatives.
■■ OIA coordinated with Treasury on various country
     dialogues, at which time OIA raised issues that relate to     International Regulatory Coordination
     U.S. futures markets and firms. During the year, OIA
                                                                   ■■ OIA negotiated on behalf of the CFTC an enhanced
     worked with Treasury on dialogues with the European
                                                                      cooperation and collaboration agreement with the
     Union (EU) (regulation of OTC derivatives, including
                                                                      Japan Ministry of Economy, Trade and Industry and the
     clearing); India and Japan.
                                                                      Japan Ministry of Agriculture, Forestry and Fisheries.
■■ OIA represented the CFTC at the November North                     These measures are designed to promote investor
     American Trade Agreement (NAFTA) dialogue with                   protection and market integrity, and to enhance the
     Canada and Mexico, where OIA promoted enhanced                   supervision of physical commodity futures trading
     ability of U.S. intermediaries to solicit institutional          occurring on a cross-border basis between Japan and
     customers and the recognition of electronic trading              the United States.
     systems of U.S. exchanges, respectively.
                                                                   ■■ OIA coordinated letters supporting the recognition of
■■ OIA also coordinates with Treasury with regard to the              U.S. futures exchanges in foreign jurisdictions (Brazil,
     International Monetary Fund’s (IMF) semi-annual                  Germany, and Switzerland).
     Global Financial Stability Report on developments in
     international capital markets to ensure that derivatives
     developments accurately reflect CFTC activities.




90      CFTC
                 Management’s                                                                 Other Accompanying
                                             Performance Section       Financial Section                                Appendix
                 Discussion & Analysis                                                        Information
                                                                      PERFORMANCE SECTION




■■ In order to coordinate the supervision of clearing orga-    ■■ The CFTC’s annual International Regulators’ Meeting
   nizations that are registered both by the CFTC and               took place in Boca Raton, Florida on in March 2009.
   another jurisdiction’s regulator, OIA has worked with            The theme of the meeting was “lessons learned from
   DCIO to develop a model MOU to address the supervi-              recent financial market events.” and included discus-
   sion of such dually-regulated clearing organizations.            sions focused on clearing credit default swaps, crisis
   The first such clearing oversight MOU was entered into           management, hedge fund regulation and the detection
   by the CFTC and U.K. FSA in September 2009.                      and prosecution of market trading abuses.

■■ OIA has coordinated with Treasury to plan for the IMF’s     ■■ OIA organized and accompanied CFTC staff on a tech-
   Financial Sector Assessment of the U.S. financial                nical assistance mission to the Ethiopian Commodity
   regulatory system.                                               Exchange Authority focusing on market oversight and
                                                                    surveillance, enforcement and clearing and settlement.
Technical Assistance
                                                               ■■ OIA organized visits by foreign regulators to meet with
■■ OIA organized the CFTC’s annual symposium and
                                                                    CFTC operational staff to discuss regulatory techniques.
   training seminar, where 67 participants from 31 coun-
                                                                    Jurisdictions represented included, among others, staff
   tries representing 46 different organizations and more
                                                                    from the Forward Markets Commission of India, the
   than 35 domestic and international panelists discussed
                                                                    Securities Exchange Board of India, and the Ethiopia
   market activities and supervisory techniques.
                                                                    Commodities Exchange

                                                               ■■ OIA organized internships within the CFTC for staff
                                                                    from the Financial Supervisory Service of Korea and the
                                                                    Japanese Ministry of Economics, Trade and Industry.




                                                                                                             CFTC        91
     Management’s                                                               Other Accompanying
                              Performance Section      Financial Section                                 Appendix
     Discussion & Analysis                                                      Information
  Performance Measure 3.4.2 Number of rulemakings, studies, interpretations, and statements of guidance to
  ensure market integrity and exchanges’ compliance with regulatory requirements.



     FY 2009 Performance Results                                                                                       63
 Status:       Effective
 Data Source: Federal Register, proposed and final
              amendments to regulations, notices and
              orders, and staff statements of guidance.
 Verification: Proposed and final regulations are published
               in the Federal Register and posted on the
               Commission’s Web site.




Lead Program Offices                                                 is prepared. In addition, the need for a rulemaking, study,
                                                                     interpretation, or guidance may not be known or may not
Division of Clearing and Intermediary Oversight
                                                                     have reached a decision-making point until further analysis
Division of Market Oversight                                         and other actions or events have taken place. This also can
                                                                     account for a difference between the fiscal year plan and the

Performance Analysis & Review                                        actual outcome.

Division of Clearing and Intermediary Oversight:              DCIO   Division of Market Oversight: The number of rulemakings,

completed a combined total of 24 rulemakings, interpreta-            studies, interpretations, and statements of guidance is not a

tions, orders, and statements of guidance that addressed             number that can be forecasted precisely. The final number is

regulatory efforts to ensure market integrity and exchanges’         driven, in part, by changes in the marketplace or in the oper-

compliance with regulatory requirements. The combined                ations of exchanges that may not be foreseeable at the time

total of DCIO’s and DMO’s results in the amount of 63                the performance estimate is prepared. DMO staff contrib-

exceeded the fiscal year plan of 36. The number of rulemak-          uted to the Commission’s publication of 39 Federal Register

ings, studies, orders, interpretations, and statements of            notices including notices of proposed and final rulemaking.

guidance to ensure market integrity and exchanges’ compli-
ance with regulatory requirements is not a number that can           Performance Highlights
be precisely predetermined.        The final number of these
combined statistics reported by DCIO is driven, in part, by          Division of Clearing and Intermediary Oversight: The
changes in the marketplace, or in the structure of the               Commission amended Regulations 4.26 and 4.36 in order to
exchanges, clearing organizations, and intermediaries that           require that CPOs and CTAs file Disclosure Documents elec-
operate within that marketplace.         The number can be a         tronically through NFA’s electronic Disclosure Document
function of what is needed to allow appropriate market               filing system. This action was in response to a petition filed
interrelationships to be maintained and to allow the                 by NFA with the Commission. NFA explained that although
exchanges, clearing organizations, and intermediaries to             it had developed a new Internet-based Disclosure Document
operate in the most efficient manner possible. These factors         electronic filing system that will be significantly less resource
may not be foreseeable at the time the performance estimate          intensive while also streamlining and enhancing the filing




92     CFTC
                 Management’s                                                                     Other Accompanying
                                              Performance Section         Financial Section                                  Appendix
                 Discussion & Analysis                                                            Information
                                                                        PERFORMANCE SECTION




process for registrants, absent an electronic filing require-    ments to ECMs listing, and trades involving, contracts that
ment, the proposed benefits would not be realized. DCIO          perform a significant price discovery function. The rules
prepared an interpretative statement issued by the               provide guidance with respect to compliance with nine stat-
Commission regarding the bankruptcy treatment of customer        utory core principles for ECMs with SPDCs, introduce new
funds related to cleared-only contracts. The interpretation      and amend prior information-submission requirements, and
concluded that claims arising out of cleared-only contracts      establish the procedures and standards by which the CFTC
are properly included within the meaning of “net equity” for     will determine that an ECM contract performs a significant
purposes of the U.S. Bankruptcy Code and Commission              price discovery function. In July of 2009, in its first final
regulations.                                                     action under the new rules, the Commission determined
                                                                 that the ICE Henry Financial LD1 Fixed Price contract
Division of Market Oversight: In FY 2009, the Commission
                                                                 performs a significant price discovery function under the
approved final rules that increased the Commission’s over-
                                                                 material liquidity, price linkage and arbitrage criteria estab-
sight of ECMs.      These markets have become prominent
                                                                 lished in section 2(h)(7) of the CEA, as amended by the
energy related contract trading forums. The rules implement
                                                                 2008 Farm Bill.
the provisions of the 2008 Farm bill that apply new require-




                                                                                                                CFTC        93
     Management’s                                                                  Other Accompanying
                               Performance Section       Financial Section                                  Appendix
     Discussion & Analysis                                                         Information
   Performance Measure 3.4.3 Percentage of requests for no-action or other relief completed within six months
   related to novel market or trading practices and issues to facilitate innovation.



      FY 2009 Performance Results                                                                                             100%
  Status:             Effective
  Data Source: Applicant’s letter requesting relief and
               Commission letter of response.
  Verification: Applicant’s letter and supporting
                documentations maintained in internal
                tracking system, FILAC21. Responses
                to formal request published on the
                Commission’s Web site.




Lead Program Office                                                                    Performance Highlights
Division of Market Oversight                                                           In FY 2009, DMO issued a no-action letter to BNP Paribas
                                                                                       confirming that the division would not recommend that the
                                                                                       Commission initiate an enforcement action against BNP
Performance Analysis & Review
                                                                                       Paribas or Fortis Bank S.A./N.V., or their respective affiliates,
In FY 2009, DMO withdrew two no-action letters that                                    for violation of Commission or exchange speculative
allowed the letters’ recipients to exceed Federal agricultural                         position limits, to the extent any such violation results from
speculative position limits when acting as index traders.                              the application of the Commission’s aggregation policy and
DMO also amended ICE Futures Europe’s foreign terminal                                 rules to the acquisition by BNP Paribas of Fortis Bank. DMO
no-action letter to enhance the CFTC’s ability to carry out its                        granted this temporary relief in response to the credit crises
market surveillance responsibilities. ICE Futures Europe lists                         and to facilitate BNP Paribas’ acquisition of Fortis Bank, a
cash-settled contracts that settle to NYMEX contracts. DMO                             large financial institution that experienced severe credit
also responded to a BNP Paribas request for formal no-action                           related difficulties.      The relief required BNP Paribas and
relief from the Federal agricultural speculative position                              Fortis Bank to promptly implement any measures following
limits. DMO granted the requested relief within six months.                            the acquisition that may be necessary to ensure compliance
The no-action relief is discussed further below.                                       prospectively with any applicable position limit.




21	Refer   to CFTC Information Technology Systems in the Appendix for a description in functionality.


94           CFTC
                        Management’s                                                                                   Other Accompanying
                                                           Performance Section                Financial Section                                Appendix
                        Discussion & Analysis                                                                          Information
                                                                           PERFORMANCE SECTION




  Performance Measure 3.4.4 Percentage of total requests for guidance and advice receiving CFTC responses.




    FY 2009 Performance Results                                                                               93%
 Status:        Effective
 Data Source: Signed letters (formal) and email and
              telephone responses (informal).
 Verification: Agency files maintained in chronological
               files and responses to formal request are
               published on Commission’s Web site.




Lead Program Offices                                               noted, however, that the statistics on numbers of letters issued
                                                                   or e-mail responded to may not reflect the complexity of any
Division of Clearing and Intermediary Oversight
                                                                   particular matter or the resources necessary to address one
Division of Market Oversight                                       issue versus another issue. In addition, matters commenced
                                                                   in one fiscal year may overlap, and be completed during a
                                                                   subsequent fiscal year, resulting in some imprecision in
Performance Analysis & Review                                      statistical measures for a given year. DCIO makes every effort
Division of Clearing and Intermediary Oversight: DCIO met          to respond to requests as quickly as possible, but the
its performance target for FY 2009. DCIO staff respond to          timeliness of a response also is affected by the speed with
numerous requests for guidance and advice on the CEA and           which a requester provided additional information sought by
Commission regulations each year. Requests are received            staff, and the length of time required by other Commission
from members of the public, market participants, intermedi-        divisions or offices to review a draft response, factors outside
aries, SROs, foreign entities, and others. These requests may      the control of DCIO.
be formal, such as written requests for no-action, interpreta-
                                                                   Division of Market Oversight:           DMO staff respond to
tive, or exemption letters.    DCIO also receives numerous
                                                                   numerous requests for guidance and advice on the CEA and
informal requests for guidance and advice via e-mail and
                                                                   Commission regulations each year. These requests may be
phone calls.
                                                                   informal, via email or phone calls, or formal in the form of
Although DCIO responds to all requests that it receives, it is     requests for no-action, interpretative, or exemptive letters.
not always possible for DCIO to respond within the fiscal          Staff respond to informal guidance and advice requests in a
year that it receives a request. DCIO estimates that up to 10      very short period of time, usually no longer than a period of
percent of requests may fall in this category. Some requests       days.       To the extent that staff are unable to provide an
that raise novel or complex issues, or requests in the form of     informal response to such requests, the requester is advised
no-action letters, interpretations, or exemptions, take more       to submit a formal request for guidance. DMO staff strive to
time to research and to prepare a response. It should be           address such formal requests within six months of receipt.




                                                                                                                   CFTC        95
     Management’s                                                                     Other Accompanying
                                  Performance Section      Financial Section                                   Appendix
     Discussion & Analysis                                                            Information
Performance Highlights
Division of Clearing and Intermediary Oversight: In FY 2009,      DCIO also issued a letter in FY 2009 providing guidance to
DCIO responded to numerous requests, both formal and              CPOs on complying with the financial reporting require-
informal, for interpretations of the Commission’s registra-       ments set forth in Part 4 of the Commission’s regulations.
tion requirements and issued exemptive and no-action letters      The letter assisted CPOs in meeting their regulatory require-
addressing various issues, including the circumstances under      ments by highlighting recent regulatory changes affecting the
which general partners of commodity pools may be relieved         financial filings required of CPOs, and identified common
from CPO registration requirements when a registered              deficiencies observed in prior year financial filings.
designee serves as the pool’s operator. Additionally, DCIO
issued an exemptive letter granting relief from certain record-
keeping and disclosure requirements to a registered CPO of
a publicly offered commodity pool. The relief is predicated
on substituted compliance with parallel requirements under
securities laws.




96      CFTC
                   Management’s                                                                Other Accompanying
                                            Performance Section        Financial Section                                   Appendix
                   Discussion & Analysis                                                       Information
Strategic Goal Four: Organizational Excellence
   Goal Four: Facilitate Commission performance through organizational and management
   excellence, efficient use of resources, and effective mission support.



   Outcome Objective 4.1: A productive, technically competent and diverse workforce that takes
   into account current and future technical and professional needs of the Commission.
      n	   Annual Performance Goal 4.1: Recruit, retain, and develop a skilled and diversified
           staff to keep pace with attrition and anticipated losses due to retirement.


   Outcome Objective 4.2: A modern and secure information system that reflect the strategic
   priorities of the Commission.
      n	   Annual Performance Goal 4.2: Link business decisions on information technology
           resources to CFTC strategic goals by establishing a decision-making and review process
           for allocation of information technology resources.


   Outcome Objective 4.3: An organizational infrastructure that efficiently and effectively responses
   to and anticipates both the routine and emergency business needs of the Commission.
      n	   Annual Performance Goal 4.3: A fully operational Contingency Planning Program to
           ensure the CFTC is prepared for emergencies and is fully capable of recovery and
           reconstitution.


   Outcome Objective 4.4: Financial resources are allocated, managed, and accounted for in
   accordance with the strategic priorities of the Commission.
      n	    Annual Performance Goal 4.4: A clean audit opinion for CFTC.


   Outcome Objective 4.5: The Commission’s mission is fulfilled and goals are achieved through
   sound management and organizational excellence provided by executive leadership.
      n	   Annual Performance Goal 4.5: Progress in completing the 18 priorities established
           in the Commission Strategic Plan for FY 2007 through FY 2012.
  Performance Measure 4.1.1 Percentage of fiscal year program development objectives met under CFTC pay for
  performance authority.



     FY 2009 Performance Results                                                                          100%
  Status:       Effective
  Data Source: Memoranda and policy documents
               published on the CFTC intranet.
  Verification: The NFC personnel/payroll system
                documents merit pay and benefits
                changes. Memos on the CFTC intranet
                document program changes and the
                status of pending program reviews by
                the Pay Parity Governance Committee.




Lead Program Office                                                     and the benefits provided by its parity benchmark Federal
                                                                        financial regulatory agencies. The new programs imple-
Office of Human Resources
                                                                        mented during FY 2009 included: an increase in agency
                                                                        contributions to Federal Employee Health Benefits
Performance Analysis & Review                                           program premiums from 72-75 percent to a full 85
                                                                        percent; and implementation of an annual Life Cycle
The Commission met all objectives for FY 2009. These objec-
                                                                        payment (funded at $400 in 2009) to support employee
tives largely completed the multi-year plan to implement a
                                                                        productivity by reimbursing health- and wellness-related
merit-based system of total compensation parity under the
                                                                        expenses. Together, these programs respond to employee
agency’s statutory compensation authority. All employees con-
                                                                        input on workplace needs and help to ensure that the
tributed to this goal by providing input to the development of
                                                                        agency environment supports and rewards shared
the enhanced awards program and the selection of new benefits
                                                                        accountability for meeting CFTC goals and objectives
programs to close the total compensation gap with its bench-
                                                                        under its merit pay system. Support for that system was
mark pay parity agencies.       The process of confirming and
                                                                        highlighted at the second Chairman’s honorary awards
maintaining parity continued to rely on this participative,
                                                                        ceremony on September 17, 2009, with participation by
transparent approach, which included employee focus groups
                                                                        all regions.
and the publication of statistics on awards and performance
ratings. The CFTC efforts have resulted in meeting its goals to      ■■ The Pay Parity Governance Committee continued its
recruit and retain skilled employees and in its third consecu-          review of compensation program options in the area of
tive biennial Best in Class ranking by the Partnership for Public       position     classification,   based   on   interviews   with
Service in the area of Pay and Benefits, based on all-employee          managers. The committee, which includes representa-
surveys on the CFTC work environment.            The Pay Parity         tives from all segments of the CFTC, received a research
Governance Committee completed the first of several stages in           report on a comprehensive review of career ladders/
its review of agency position classification practices, as part of      promotion potential of all agency job titles during July
what will be ongoing maintenance of merit pay parity.                   2009. The goal is to refine, as needed, the system for
                                                                        determining the qualification requirements, titles, and
                                                                        pay rates for agency positions, to assure continued success
Performance Highlights
                                                                        in recruiting, and retaining a workforce possessing the
■■ The CFTC closed the significant remaining gaps between               skills needed over the period of the agency Strategic Plan.
     the benefits portion of its total compensation program

98      CFTC
                  Management’s                                                                     Other Accompanying
                                              Performance Section        Financial Section                                   Appendix
                  Discussion & Analysis                                                            Information
                                                                               PERFORMANCE SECTION




  Performance Measure 4.1.2 Average number of days between close of vacancy announcement and job offer,
  per Federal standards of 45 days or less.



    FY 2009 Performance Results                                                                                        57
  Status:       Moderately Effective
  Data Source: Running account on status of the priority
               hiring initiative is updated and distributed
               weekly to agency offices and divisions.
  Verification: Vacancy announcements with opening
                and closing dates are published on the
                Commission’s Web site. Offer letters to
                candidates are filed in the candidate’s
                official personnel folder and maintained
                in OHR.




Lead Program Office                                                     in the hiring process and enhanced weekly reporting on the
                                                                        anticipated and actual time spent on each step in the recruit-
Office of Human Resources                                               ment process. The reduction in the time required to fill many
                                                                        more positions than last year benefited from senior manage-
Performance Analysis & Review                                           ment support for this effort as a primary agency priority,
                                                                        despite continuing extraordinary demands on the agency to
The FY 2009 priority hiring initiative to fill 95 positions was a       respond to market events. A job market very favorable to
success that built on improvements made since last year by              employers also resulted in a huge volume of applications,
all participants in the hiring process. While OHR aims to               each of which required careful, substantive review.
meet the 45-day government-wide standard, the unusually
                                                                        The selecting officials and OHR staff continue to refine job
heavy recruitment needs and the difficulty inherent in
                                                                        requirements and recruitment strategies as well as streamline
targeting highly-skilled professional positions make the 45
                                                                        processes and improve use of automation to further reduce
days a stretch goal. The results warrant an assessment of
                                                                        the time required in future years to efficiently process these
moderately effective because the combined efforts of hiring
                                                                        enormous candidate pools.       OHR has created a Hiring
officials and OHR resulted in continued progress in reducing
                                                                        Roadmap for use in FY 2010 that describes the opportunities
time to hire during a year of huge FTE growth.
                                                                        we will exploit to further build this agency capacity to bring
Based on lessons learned in filling 65 positions during                 on new employees quickly. In light of this context, actual
FY 2008, which was the first major recruitment effort by the            results for this measure represent an effective outcome for an
agency in several years, OHR took steps to facilitate more              effort to increase agency headcount by an extraordinary
rapid appointment of highly-qualified candidates.             These     percentage in a brief period.
efforts included seminars for selecting officials on their role




                                                                                                                      CFTC        99
     Management’s                                                                       Other Accompanying
                                   Performance Section          Financial Section                                 Appendix
     Discussion & Analysis                                                              Information
Performance Highlights
■■ Added expertise and enhanced reporting instruments           ■■ In addition to the strenuous efforts to rapidly fill
   to support the agency priority hiring team that effec-          permanent positions, the Commission again dedicated
   tively responded to ambitious recruitment goals with            significant resources to filling 45 paid and 15 volunteer
   timely identification and appointment of high-quality           summer positions. This major hiring effort matched
   candidates. Selecting officials participated in seminars        that of last year and was again undertaken as a way to
   that briefed them on how they could effectively fulfill         meet immediate workforce needs and as an investment
   their roles in the selection process. Ongoing actions           in publicizing to entry level and other candidates the
   include continued review and update of recruitment              CFTC’s mission and its appeal as a potential future
   tools and processes, such as job analyses and crediting         employer. The program participants benefited from an
   plans used to rate and rank candidates, and enhance-            enhanced program schedule that included five formal
   ment of targeted recruitment efforts to increase the            in-house training seminars, a visit to Capitol Hill, and
   diversity and overall strength of the applicant pools.          optional events such as a day of community service.




100   CFTC
               Management’s                                                               Other Accompanying
                                          Performance Section       Financial Section                               Appendix
               Discussion & Analysis                                                      Information
                                                                           PERFORMANCE SECTION




  Performance Measure 4.1.3 Rate of employee turnover, exclusive of retirements.




    FY 2009 Performance Results                                                                           1.9%
  Status:       Effective
  Data Source: Records entered in the NFC
               personnel/payroll system to effect each
               action, with crosscheck compilation and
               summary report by CFTC’s Office of
               Financial Management (OFM).
  Verification: Each turnover action is recorded in the
                NFC personnel/payroll system and is daily
                tracked by OFM to project the status for
                the fiscal year.




Lead Program Office                                                 Performance Highlights
Office of Human Resources                                           ■■ The Pay Parity Governance Committee took the lead in
                                                                         acting on input from surveys and focus groups to
                                                                         implement changes to the work environment that were
Performance Analysis & Review
                                                                         most desirable to employees and hence would offer the
CFTC exceeded its goals for employee retention during                    greatest benefit in terms of retention and productivity.
FY 2009. This is a vital measure of Commission success in                These included not only flexible benefits enhancements
building and sustaining a work environment that makes it an              that could accommodate individual employee’s needs
employer of choice for a workforce with the mission-critical             at various stages in their career, such as Life Cycle
competencies that are in high demand in the labor market.                accounts to support family wellness, but also the
Successful staff retention is important because it protects the          opportunity to elect the regular and recurring telework
Commission’s knowledge base, optimizes the availability of               that is now offered by many employers with which the
trained staff to meet workload demands, and minimizes the                agency competes in the job market.
costs of repeated recruitment and development of replace-
                                                                    ■■ Two pending initiatives will help assure continued
ment hires. Over time, it has been a challenge to meet this
                                                                         success in this area. The first is a formal program to
goal in light of the compensation offered by competing
                                                                         provide assistance online with the on-boarding of newly
employers. In response, the CFTC continues to use its pay
                                                                         hired employees. This program is being designed to
parity authority to attract candidates with an attractive
                                                                         assure that new employees receive particular support in
package of total compensation and retain them by main-
                                                                         acclimating to the agency during their first year, in the
taining an outstanding work environment offering profes-
                                                                         form of reference materials, and training opportunities.
sional growth opportunities.
                                                                         The second is a resumption of on-site retirement and
                                                                         financial planning services for employees, designed to
                                                                         assure that those who are eligible to retire only do so
                                                                         after full, informed consideration of the financial and
                                                                         psychological implications. While the objective remains
                                                                         the support of prudent retirement planning, this service
                                                                         aids retention and recruitment efforts by demonstrating
                                                                         the supportive nature of the CFTC work environment.

                                                                                                                   CFTC      101
     Management’s                                                                    Other Accompanying
                                  Performance Section       Financial Section                                  Appendix
     Discussion & Analysis                                                           Information
  Performance Measure 4.1.4 Percentage of employees in mission-critical positions rating themselves at
  “extensive” or higher level of expertise on Strategic Workforce Planning Survey.



    FY 2009 Performance Results                                                                                 43%
  Status:      Effective
  Data Source: Self-assessments of over 95% of agency
               employees who completed the FY 2008
               online Strategic Workforce Planning Survey.
  Verification: The aggregate statistical results of this
                annual survey were presented to executive
                management January 2008. The data
                elements on the self-assessment of agency
                employees captured the percentage of total
                headcount rating themselves at the
                “extensive” or higher level of expertise.




Lead Program Office                                                 of the critical elements for success in meeting individual
                                                                    duties and responsibilities.
Office of Human Resources
                                                                    For the future, the imminent issuance of the Commission’s
Performance Analysis & Review                                       new Professional Development and Succession Management
                                                                    Program will help plan the targeted development of the
While the CFTC-wide survey results did not meet the ambi-
                                                                    specific skills needed by the agency. The goal is to have not
tious goal for this measure, they continue a positive trend
                                                                    only a significant core percentage of the workforce with the
—when plotted over several years—that is noteworthy consid-
                                                                    key skills it needs today, but a learning environment that helps
ering the large number of senior experts who retired and the
                                                                    its employees continually update their expertise, so they
major influx of junior trainees during this period. Given the
                                                                    remain as flexible and innovative as the markets it oversees.
highly specific skill sets required by the CFTC mission, these
departures and arrivals certainly affect the supply of talent,
which in key areas must be developed, to a degree, in-house.
                                                                    Performance Highlights
This refreshing of Commission expertise is continual and a          ■■ Division and office heads received their fourth annual
sign of healthy adaptation to changing market oversight                 Strategic Workforce Planning Survey reports during
needs, so we do not expect a linear expertise level increase            FY 2009. These reports provide objective, quantitative
during times of turnover and increasing headcount.                      data to help them to assess pending workforce issues
                                                                        and to develop or acquire the critical employee compe-
Since the overall objective of the strategic management of
                                                                        tencies they need as employees retire or leave the
human capital is to have competent employees in each
                                                                        agency or as the nature of their work changes.
position, this measure indicates that the Commission
continues on track with a successful set of training and other      ■■ OHR completed the Professional Development and
initiatives to recruit, develop, and retain the critical skills         Succession Management policy document to encourage
needed to meet mission requirements. Contributors to this               more effective use of the Commission’s extensive
trend include success in recruiting and training highly-                training and career development resources. The goal of
competent staff and supporting them with ongoing career                 the policy is to help individuals and organizations
development resources, such as online courseware and                    target the development of the major job competencies
in-house Industry/Legal/Technical seminars that capture and             needed to meet the goals and objectives mapped to the
share the knowledge of agency experts. In addition, manda-              CFTC Strategic Plan for 2007−2012.
tory quarterly performance reviews heighten understanding

102     CFTC
                 Management’s                                                                      Other Accompanying
                                              Performance Section       Financial Section                                   Appendix
                 Discussion & Analysis                                                             Information
                                                                                PERFORMANCE SECTION




  Performance Measure 4.1.5 Percentage of underrepresented groups among new hires.




    FY 2009 Performance Results                                                                            24.0%
  Status:        Effective
  Data Source: Documentation consists of
               self-identification provided by new hires
               when they enter on duty, creating a data
               element that is also a required entry in
               the NFC employment record.
  Verification: Results represent compilation of all
                available self-identification form results,
                whether on hard copy or from the NFC
                database.




Lead Program Office                                                      divisions drew on a diverse pool of selecting officials to repre-
                                                                         sent the Commission during the recruitment process. These
Office of Human Resources                                                ongoing efforts build on and reinforce one another, assuring
                                                                         CFTC can continue to secure the benefits of a diverse
Performance Analysis & Review                                            workforce.

The agency improved its performance for this measure over
last year.     OHR consulted with the Office of Equal                    Performance Highlights
Employment Opportunity to set a 27 percent goal that                     ■■ Exceeded last year’s performance in representative
approximates the diversity of the Nation’s workforce.                         hiring when filling positions across the full range of
Achieving an outcome near that level reflects the success of                  Commission position types and grade levels.
all agency participants in preparing for the major initiative to
bring on over 95 permanent new hires, including paid adver-              ■■ Achieved 40 percent minority representation rate when
tisements and other targeted recruitment efforts.             During          filling approximately 45 paid summer positions,
FY 2009, CFTC continued to use its updated and expanded                       increasing agency recruitment visibility for the future
email contacts for the distribution of agency vacancy                         and securing a number of those hires for continuing
announcements, while continuing a very substantial summer                     internships during the school year.
employment program. Summer hiring increases its current
and future visibility to a diverse pool of candidates, by
encouraging a broad base of individuals to consider the
Commission as a permanent employer when they complete
their education. As in the past, the Commission’s offices and




                                                                                                                          CFTC       103
     Management’s                                                                         Other Accompanying
                                    Performance Section          Financial Section                                   Appendix
     Discussion & Analysis                                                                Information
  Performance Measure 4.2.1 Percentage of CFTC information technology resources directly tied to Commission
  resource priorities as stated in the Strategic Plan.



    FY 2009 Performance Results                                                                        100%
 Status:       Effective
 Data Source: Information Technology (IT) budget
              documents, Project Management Life Cycle
              documents, and the CFTC Strategic Plan.
 Verification: IT planning and procurement process
               meetings with the Chief Information
               Officer (CIO) and OITS staff are held and
               documented twice monthly. Meetings
               assure that planning and procurement are
               aligned with to the CFTC Strategic Plan.




Lead Program Office                                                Performance Highlights
Office of Information and Technology Services                      The CFTC continues to fund IT initiatives in support of its
                                                                   strategic plan. As an example, the Strategic Plan’s Strategic
                                                                   Priority 1.1 is to “Enhance technology capability and data
Performance Analysis & Review
                                                                   standards to recognize, understand, and adapt to market
The CFTC establishes its IT resources through a planning           changes.” In support of this priority, the CFTC has funded
and procurement process based on the strategic goals of the        key initiatives such as the TSS, which uses complex
CFTC.                                                              algorithms to find trade practice violations as well as
                                                                   provide a platform for improved access to exchange
The CFTC holds IT planning and procurement process
                                                                   provided trade data for Commission staff. The CFTC is also
meetings twice a month to assure its alignment of IT
                                                                   aggressively pursuing data standardization for collecting
resources with the strategic plan. These meetings review the
                                                                   data in support of the trade surveillance program. Over the
planning and procurement documents to ensure that
                                                                   past two years, the CFTC has been meeting with the futures
adequate resources are requested to support CFTC goals.
                                                                   industry to adopt FIXML, a world-wide standard that will
The planning and procurement process tracks planned and
                                                                   improve data quality and flexibility for the CFTC and the
actual budgets and aligns priorities as needed.
                                                                   futures industry.       The CFTC is currently implementing
                                                                   FIXML for the CME Group exchanges, with additional
                                                                   exchanges to be added, in FY 2010.




104     CFTC
                 Management’s                                                                   Other Accompanying
                                             Performance Section       Financial Section                                Appendix
                 Discussion & Analysis                                                          Information
                                                                                              PERFORMANCE SECTION




   Performance Measure 4.2.2 Percentage of major information technology investments having undergone an
   investment review within the last three years.



      FY 2009 Performance Results                                                                                            100%
  Status:             Effective
  Data Source: Project Management Life Cycle (PMLC)
               documents.
  Verification: PMLC documents created by project
                managers and IT budget documents.
                Project managers update the PMLC
                documents which are routed to and
                approved by the Deputy CIO and/or
                CIO. IT Budget documents are reviewed
                regularly by the CIO and the CFO.




Lead Program Office                                                                     Performance Highlights
Office of Information and Technology Services                                           The CFTC recently has completed its ISS investment review.
                                                                                        ISS is at the heart of the CFTC’s market surveillance
                                                                                        program. Its mission is to identify situations that could
Performance Analysis & Review
                                                                                        pose a threat of manipulation and to initiate appropriate
The CFTC holds IT planning and procurement process                                      preventive actions.   Each day, for all active futures and
meetings twice a month to review investments. In addition,                              option contract markets, the Commission’s market surveil-
the CFTC conducted IT investment reviews for all of CFTC’s                              lance staff continuously monitor the daily activities of large
major systems within the last three years. The major systems                            traders, key price relationships, and relevant supply and
include TSS, eLaw22, ISS, and the CFTC network. The CFTC                                demand factors for potential market problems.         Market
reviews its major systems to assure that technology is                                  surveillance staff accomplish this by reviewing highly confi-
meeting the needs of the CFTC and is properly aligned with                              dential information from exchanges, intermediaries, and
the strategic goals of the Commission.                        These thorough            large traders using the ISS. Exchanges electronically transmit
reviews include senior management, business users, IT                                   to the CFTC the daily positions of each clearing member.
professionals, and the CFO staff. The reviews found that                                Clearing members, FCMs, and foreign brokers (together
CFTC’s major systems continue to exceed expectations and                                called reporting firms) electronically file daily reports
are within budget.                                                                      consisting of the futures and option positions of traders
                                                                                        that hold positions above specific reporting levels set by
                                                                                        CFTC regulations.




22	Refer   to CFTC Technology Systems in the Appendix for a description of functionality.


                                                                                                                                      CFTC       105
       Management’s                                                                                     Other Accompanying
                                            Performance Section                Financial Section                                  Appendix
       Discussion & Analysis                                                                            Information
  Performance Measure 4.2.3 Percentage of Customer Support Center inquiries resolved within established
  performance metrics.



    FY 2009 Performance Results                                                                      100%
 Status:       Effective
 Data Source: Customer support logs.
 Verification: Customer support logs are recorded daily
               and reviewed periodically by the associate
               director for customer support.




Lead Program Office                                                 Performance Highlights
Office of Information and Technology Services                       In FY 2009, the CFTC resolved 100 percent of its inquiries
                                                                    within established performance metrics, exceeding its goal
                                                                    of 80 percent.
Performance Analysis & Review
The CFTC exceeded its goal of resolving 80 percent of inqui-
ries within tight performance metrics. The performance
metrics apply to tickets identified as resolvable on the first
contact and within one business day.

The CFTC tracks its customer support inquiries and their
resolution through a sophisticated customer support system.
The system also allows the CFTC to organize inquiries so
that the CFTC can proactively make decisions to improve
service and reduce issues.




106    CFTC
                 Management’s                                                                 Other Accompanying
                                              Performance Section       Financial Section                             Appendix
                 Discussion & Analysis                                                        Information
                                                                         PERFORMANCE SECTION




  Performance Measure 4.2.4 Percentage of employees with network availability.




    FY 2009 Performance Results                                                                       100%
 Status:        Effective
 Data Source: Network logs.
 Verification: Network logs are recorded daily and
               reviewed periodically by the associate
               director for network operations.




Lead Program Office                                               Performance Highlights
Office of Information and Technology Services                     The CFTC is committed to providing the best possible IT
                                                                  support to its staff. As part of this commitment, the CFTC
                                                                  achieved 100 percent network conductivity by utilizing
Performance Analysis & Review
                                                                  redundant circuits to avoid network outages that would
The CFTC maintains connectivity through redundant servers         have cost the CFTC time and productivity. In addition, the
in Washington, D.C. and Chicago. The CFTC received addi-          CFTC has invested in technology to assure the performance
tional funds to upgrade its aging network infrastructure to       of the network is optimized, so there is negligible delay in
meet growing needs.          The additional funds allowed the     accessing information.
CFTC to continue to support its strategic goals by assuring
network availability through refreshment of technology.




                                                                                                               CFTC      107
     Management’s                                                                Other Accompanying
                                   Performance Section    Financial Section                                Appendix
     Discussion & Analysis                                                       Information
  Performance Measure 4.2.5 Percentage of employees who require remote network availability that have it.




    FY 2009 Performance Results                                                                    100%
 Status:       Effective
 Data Source: Employee Remote Access Policy and
              Customer Support Center service ticket logs.
 Verification: All employees have remote access capability
               as advertised on the CFTC intranet via the
               Remote Access Policy. Customer Support
               Center service ticket logs document that
               those needing assistance with the available
               remote access service receive it in a timely
               manner.




Lead Program Office                                                Performance Highlights
Office of Information and Technology Services                      The CFTC is committed to supporting workplace flexibility
                                                                   and providing mobile computing support.

Performance Analysis & Review
The CFTC provides employees with remote access to email,
intranet resources, and duty station desktop computers.




108    CFTC
                 Management’s                                                               Other Accompanying
                                             Performance Section       Financial Section                            Appendix
                 Discussion & Analysis                                                      Information
                                                                            PERFORMANCE SECTION




  Performance Measure 4.2.6 Percentage of major systems and networks certified and accredited in accordance
  with NIST guidance.



    FY 2009 Performance Results                                                                          100%
 Status:        Effective
 Data Source: Accreditation documentation.
 Verification: Accreditation reviews are conducted and
               documented by the chief information
               security officer and approved by the CIO.




Lead Program Office                                                  Performance Highlights
Office of Information and Technology Services                        In addition to certifying and accrediting its own systems,
                                                                     the CFTC certified and accredited three systems owned by
                                                                     the independent NFA that maintain CFTC information.
Performance Analysis & Review
All four major CFTC systems are accredited. The CFTC certi-
fied and accredited its major systems, TSS, eLaw, ISS, and the
CFTC network, within the last three years.             CFTC will
continue to comply with FISMA and safeguard IT assets.




                                                                                                                CFTC      109
     Management’s                                                                   Other Accompanying
                                 Performance Section         Financial Section                              Appendix
     Discussion & Analysis                                                          Information
  Performance Measure 4.2.7 Percentage of information technology E-Government initiatives on target for
  compliance with implementation schedule.



      FY 2009 Performance Results                                                                   100%
 Status:       Effective
 Data Source: E-Government documents.
 Verification: E-Government documents are created by
               the OITS staff and reviewed by the CIO.




Lead Program Office                                               Performance Highlights
Office of Information and Technology Services                     The CFTC has met its requirements for compliance with
                                                                  E-Government initiatives including Web site and records
Performance Analysis & Review                                     management.

The CFTC met 100 percent of its E-Government initiatives.         Specifically, the CFTC Web site, http://www.CFTC.gov,
The CFTC oversees the futures industry, one of the world’s        continues to provide an example of an internal agency-
largest and fastest growing markets. The futures markets          specific E-Government initiative that is transforming agency
depend heavily on electronic trading. The CFTC must use           operations. The Commission maintains close communica-
technology effectively and efficiently to meet its mission of     tion with its stakeholders to ascertain their needs and
protecting market users and the public from fraud, manipu-        attempt to meet those needs through its Web site.         In
lation, and abusive practices related to the sale of commodity    FY2009, the CFTC reinstated the ForeSee Survey to support
and financial futures and options, and to foster open,            the collection of information and reporting on customer
competitive, and financially sound futures and option             behavior, customer requirements, and customer satisfac-
markets. Meeting the mandates of the E-Government Act in          tion. The ongoing collection of this information is essential
many cases provides direct support for the CFTC in fulfilling     as the agency continues to measure and evaluate the success
its mission. The CFTC has met its E-Government goals by           of its Web site in meeting the needs of its stakeholders and
enhancing its Web site, as described below.                       customers and make improvements to the Web site based
                                                                  on the information collected.

                                                                  As part of ongoing efforts to enhance market transparency,
                                                                  the CFTC published several new market reports to http://
                                                                  www.CFTC.gov. A new monthly report titled “This Month in
                                                                  the Futures Markets”, draws upon the COTs data and displays
                                                                  various market statistics for 22 actively-traded commodity
                                                                  markets. Additionally, the CFTC began refining the data in




110    CFTC
                 Management’s                                                                Other Accompanying
                                            Performance Section       Financial Section                                Appendix
                 Discussion & Analysis                                                       Information
                                                                       PERFORMANCE SECTION




its weekly COTs and began releasing on a quarterly basis,       During FY 2009, the CFTC continued the use of Webcasting
data collected from ongoing special swap dealers and index      to make meetings and other events more widely available
traders in the futures markets.                                 and accessible to its stakeholders and members of the
                                                                public. To date, advisory committee meetings and forums
In FY 2009, the CFTC has added Real Simple Syndication
                                                                to discuss events affecting the agriculture markets have been
(RSS) feeds to its Web site. These feeds allow users to stay
                                                                Webcast and archived on http://www.CFTC.gov.
informed by automatically retrieving the latest content
from multiple Web sites. CFTC’s Web site provides RSS
feeds so that Press Releases, Speeches and Testimony can be
immediately available to users without them having to
come to the CFTC Web site.




                                                                                                              CFTC      111
     Management’s                                                               Other Accompanying
                                  Performance Section   Financial Section                                 Appendix
     Discussion & Analysis                                                      Information
  Performance Measure 4.2.8 Percentage of network users who have completed annual security and privacy
  training.



    FY 2009 Performance Results                                                                              99%
 Status:       Effective
 Data Source: Annual security and privacy training
              documents and attendance sheets.
 Verification: Annual security and privacy training is
               conducted and documented by the chief
               information security officer and reported
               in the agency’s FISMA filing to OMB.




Lead Program Office                                                  Performance Highlights
Office of Information and Technology Services                        The CFTC exceeded its goal of 98 percent completion of its
                                                                     annual security and privacy training. Through multiple
                                                                     training sessions and multi-media presentations, the CFTC
Performance Analysis & Review
                                                                     was able to accommodate the busy schedules of its
The Commission exceeded its annual security and privacy              employees. The CFTC was able to use its IT capabilities to
training goal. FISMA requires that all Federal employees             conduct the training at its remote locations, assuring access
and contractors receive annual security and privacy training.        to all employees.
The CFTC takes security and privacy training very seriously
and is proud that 99 percent of the staff were trained in
security and privacy training this year, exceeding the CFTC’s
goal of 98 percent.




112    CFTC
                 Management’s                                                                   Other Accompanying
                                               Performance Section       Financial Section                                Appendix
                 Discussion & Analysis                                                          Information
                                                                            PERFORMANCE SECTION




  Performance Measure 4.3.1 Number of hours required to deploy staff and begin mission essential functions at
  the COOP site.



    FY 2009 Performance Results                                                                                        12
 Status:        Effective
 Data Source: DHS/FEMA National Level Exercise 2-08
              Eagle Horizon 2008 Continuity Evaluation;
              EOP/OSTP National Communications
              Systems Directive 3-10 Compliance Report;
              EH-09 participation and after action report;
              and DHS/FEMA approval of CFTC
              MEF/PMEF Designations.
 Verification: The Commission’s DHS/FEMA-approved
               National Level Exercise 2-08 After Action
               Report; EOP/OSTP-approved NCSD 3-10
               Compliance Report; White House-approved
               MEF/PMEF Designations issued June 2009;
               and CFTC internal EH-09 observations.




Lead Program Offices                                                 The CFTC fully participated in EH-09. The agency deployed
                                                                     12 members of its continuity team to its continuity facility
Office of the Executive Director (Chief, Security and
                                                                     and tested its COOP capabilities within two hours of EH-09
Continuity Programs)
                                                                     activation. The continuity team conducted day-to-day
                                                                     business functions that directly support the Commission’s
Performance Analysis & Review                                        primary mission essential function (PMEF) from its alter-
                                                                     nate site and, through observations, provided recommenda-
In FY 2009, the CFTC measured its continuity-related perfor-         tions for improvements or validated current capabilities and
mance based on the agency’s participation in Eagle Horizon           procedures.
09 (EH-09). EH-09 was a mandatory, annual exercise for
testing and evaluating the continuity capabilities of execu-         In addition to the CFTC’s participation in EH-09 program,
tive branch departments and agencies. EH-09 was internally           the agency assessed and reported on its compliance with the
evaluated; the exercise objectives as outlined by the U.S.           Executive Office of the President’s (EOP) Office of Science
Department of Homeland Security (DHS)/FEMA were to:                  and Technology Policy (OSTP), National Communications
                                                                     System      Directive   3-10,   Minimum       Requirements    for
■■ Exercise the Federal executive branch continuity alert,           Continuity Capabilities (NCSD 3-10). Of the 13 communi-
   notification, and deployment procedures;                          cations requirements assessed for headquarters, the CFTC
■■ Implement interagency continuity communications;                  identified requirements that provide meaningful communi-
                                                                     cations capabilities at its headquarters facility and at its
■■ Exercise agency continuity implementation and opera-              alternate facility for continuity missions.
   tional procedures;
                                                                     The agency expects to procure and install the Homeland
■■ Review and update the viable elements of the agency               Security Data Network during FY 09. As outlined by the
   continuity capability; and                                        OSTP, CFTC will seek an exemption from requirements that
■■ Assess the agency’s ability to identify and prioritize            the agency does not need for daily or contingency activities
   essential functions and conduct operations from pre-              or that are already available to the CFTC through Federal
   planned alternate locations.                                      partnerships at its shared continuity facility and other loca-




                                                                                                                       CFTC       113
     Management’s                                                                      Other Accompanying
                                 Performance Section         Financial Section                                     Appendix
     Discussion & Analysis                                                             Information
tions. The risk to CFTC from less than full and conventional      ■■ Testing and upgrading Blackberry capabilities for
compliance with NCS and FEMA Directive requirements is               Emergency Management officials; testing of GETS and
low and will not result in a significant impact on the agency’s      WPS capabilities routinely; pursuing Blackberry notifi-
ability to effectively communicate or support its PMEF               cation capability specific to continuity alert and
during emergencies.                                                  activation;

                                                                  ■■ Drafting and vetting a Contingency Management Policy
Performance Highlights                                               that outlines executive and staff level continuity,
                                                                     security, and emergency preparedness coordination
In June 2009, the White House validated the CFTC’s
                                                                     across the CFTC;
Mission Essential and Primary Mission Essential Functions.
Validation of the agency’s functions formally provides both       ■■ Testing the Virtual Private Network service that allows
the foundation and the goal of CFTC continuity planning              employees to securely access the CFTC network from
and preparedness for the remainder of FY 2009 and                    telework or home computers; and
beyond.    The CFTC’s continuity program is poised for
                                                                  ■■ Updating the CFTC Pandemic Continuity Plan to recon-
marked improvement through ongoing exercise participa-
                                                                     cile the human resource, telework, and continuity plans
tion, interagency coordination through the recently estab-
                                                                     of the Commission.
lished “Small Agency Council Continuity Committee,” and
communications enhancement and cooperation. Other
performance highlights include:

■■ Hiring a Chief of Security and Continuity Planning to
   oversee the physical security and continuity planning
   and preparedness program;

■■ Routinely visiting the continuity facility to ensure that it
   is operating effectively; upgrading the desktop technol-
   ogies at each workstation at the continuity facility; and
   authorizing construction of an interagency secure room
   at the continuity facility from which several Federal
   partners can conduct secure activities as necessary and
   in compliance with NCSD 3-10;




114     CFTC
                 Management’s                                                               Other Accompanying
                                            Performance Section       Financial Section                             Appendix
                 Discussion & Analysis                                                      Information
                                                                            PERFORMANCE SECTION




  Performance Measure 4.4.1 Audit opinion of the Commission’s annual financial statements as reported by the
  CFTC’s external auditors.



    FY 2009 Performance Results                                                        Unqualified
  Status:       Effective
  Data Source: CFTC Performance and Accountability Report.
  Verification: Audit Report of the Independent Auditors.




Lead Program Office                                                  Performance Highlights
Office of Financial Management                                       The CFTC 2009 Financial Statements were presented fairly,
                                                                     in all material respects, and in conformity with the GAAP
                                                                     for Federal agencies.
Performance Analysis & Review
The public accounting firm Clifton Gunderson LLP, on
behalf of the Inspector General, reported that the
Commission’s financial statements were presented fairly, in
all material respects, and were in conformity with the GAAP
for Federal agencies.




                                                                                                                CFTC     115
     Management’s                                                                    Other Accompanying
                                  Performance Section        Financial Section                              Appendix
     Discussion & Analysis                                                           Information
  Performance Measure 4.4.2 Number of material internal control weaknesses reported in the Performance and
  Accountability Report.



    FY 2009 Performance Results                                                                                        0
  Status:       Effective
  Data Source: CFTC Performance and Accountability Report.
  Verification: Audit Report of the Independent Auditors.




Lead Program Office                                                  Performance Highlights
Office of Financial Management                                       The CFTC had no material weaknesses in FY 2009.


Performance Analysis & Review
During FY 2006, Commission error and other deficiencies
led KPMG to find that there were material weaknesses in the
controls over financial reporting. The Commission took
corrective actions in FY 2007 to remediate two of the three
components of that material weakness finding. The areas of
controls that were corrected were over leases and civil
monetary sanctions. The last component of the material
weakness, the process for estimating year-end accounts
payable and accruals was repeated, however, it was down-
graded to a significant deficiency. In FY 2008, the significant
deficiency related to accruals was remediated.




116     CFTC
                  Management’s                                                                Other Accompanying
                                               Performance Section       Financial Section                             Appendix
                  Discussion & Analysis                                                       Information
                                                                           PERFORMANCE SECTION




  Performance Measure 4.4.3 Number of non-compliance disclosures in the audit report.




    FY 2009 Performance Results                                                                                    0
 Status:        Effective
 Data Source: CFTC Performance and Accountability Report.
 Verification: Audit Report of the Independent Auditors.




Lead Program Office                                                 Performance Highlights
Office of Financial Management                                      The CFTC was in substantial compliance with laws and
                                                                    regulations in FY 2009.

Performance Analysis & Review
The CFTC improved its audit results over previous years by
coming into substantial compliance with laws and regula-
tions in FY 2007. Moving to compliance was greatly facili-
tated by migrating to a financial management systems
platform operated by the DOT Enterprise Service Center, an
OMB-designated financial management line of business
service provider. This business arrangement has enabled the
CFTC to accumulate, analyze, and present reliable financial
information, provide reliable, timely information for
managing current operations, and achieve timely reporting
of financial information to central agencies.




                                                                                                            CFTC       117
     Management’s                                                                  Other Accompanying
                                 Performance Section        Financial Section                           Appendix
     Discussion & Analysis                                                         Information
  Performance Measure 4.5.1 Percentage of 18 Strategic Plan priorities that are on track to completion by
  FY 2012.



    FY 2009 Performance Results                                                                                25%
 Status:       Effective
 Data Source: Pilot operating plans related to IT (Strategic
              Priority 1.1) and human capital (Strategic
              Priority 4.3).
 Verification: Not applicable at pilot stage; however pilot
               operating plans related to IT (Strategic
               Priority 1.1) and human capital (Strategic
               Priority 4.3) are available for review.




Lead Program Office                                                  strategic priorities in the face of ongoing changes in both
                                                                     mission authorities and budgetary resources. Additionally,
Office of Executive Director (OED)
                                                                     the plans assist managers in adopting business processes
                                                                     that address governance needs and provide streamlined
Performance Analysis & Review                                        documentation to measure progress in executing plans in
                                                                     order to ensure priories are ultimately achieved.
The Commission is on track for completion by the end of
FY 2012 of the Strategic Priorities outlined in the Strategic
Plan.                                                                Performance Highlights
During FY 2009, OED developed operating plans for two                Initially, the agency developed strategic operating plans for IT
Strategic Priorities that will serve as a model for the              strategic priority 1.1 and human capital strategic priority 4.3.
remaining strategic priorities. Additionally, OED, working
                                                                     CFTC then expanded its efforts to develop a modernization
with the Division of Market Oversight and external consul-
                                                                     blueprint for market oversight and surveillance that covers
tants, conducted a comprehensive overview of the CFTC
                                                                     Strategic Theme 1: CFTC must act in real time to address
market oversight and market surveillance program, which
                                                                     how the markets are functioning and evolving.
resulted in a modernization operating plan. The objectives
of the operating plans are:         to provide a blueprint to        The CFTC introduced a Business Planning and Evaluation
managers for developing effective, efficient approaches to           function in OED, and CFTC is recruiting business managers
structuring operating plans for programmatic (mission) or            within its divisions and major offices to assist with business
operational (mission support) priorities; and to assist              planning.
managers in articulating short-term strategies for achieving




118     CFTC
                 Management’s                                                                    Other Accompanying
                                               Performance Section        Financial Section                                  Appendix
                 Discussion & Analysis                                                           Information
FINANCIAL SECTION


  	120	 A Message from the Chief Financial Officer

  121	 Limitations of Financial Statements

  122	 Principal Financial Statements

  127	 Notes to the Financial Statements

  138	 Report of the Independent Auditors
A Message From the Chief Financial Officer

  F            or the fifth consecutive year, a public accounting
               firm, on behalf of our Inspector General,
               reported that the financial statements included
  in this report were presented fairly, in all material respects,
  and in conformity with the U.S. generally accepted accounting
                                                                        management service provider. As a consequence, the CFTC
                                                                        is able to accumulate, analyze, and present reliable financial
                                                                        information, or provide reliable, timely information for
                                                                        managing current operations and timely reporting of
                                                                        financial information to central agencies. Furthermore, our
  principles (GAAP) for Federal agencies.                               system is in substantial compliance with the Federal
                                                                        Financial Management Improvement Act (FFMIA) of 1996
  For the third consecutive year the Commission had no                  (although CFTC is not required to comply with FFMIA, it
  material weaknesses, and was compliant with laws and                  has elected to do so).
  regulations. This includes substantial compliance with the
  Federal Information Security Management Act (FISMA).
  Last year, KPMG identified no significant deficiencies in the
  controls over financial reporting, nor did Clifton Gunderson,
                                                                                         Mark Carney
  our new auditor for FY 2009.                                                           Chief Financial Officer

  The CFTC leverages a financial management systems
  platform    operated      by    the      U.S.   Department       of
  Transportation’s (DOT) Enterprise Service Center, an Office
  of Management and Budget (OMB) designated financial




  120 CFTC
                   Management’s                                                                      Other Accompanying
                                                  Performance Section       Financial Section                                 Appendix
                   Discussion & Analysis                                                             Information
Limitations of Financial Statements
Management has prepared the accompanying financial statements to report the financial position and operational results
for the CFTC for FY 2009 and FY 2008 pursuant to the requirements of Title 31 of the U.S. Code, section 3515 (b).

While these statements have been prepared from the books and records of the Commission in accordance with GAAP
for Federal entities and the formats prescribed by OMB Circular A-136, Financial Reporting Requirements, these statements
are in addition to the financial reports used to monitor and control budgetary resources, which are prepared from the
same books and records.

The statements should be read with the understanding that they
represent a component of the U.S. government, a sovereign
entity. One implication of this is that the liabilities presented
herein cannot be liquidated without the enactment of
appropriations, and ongoing operations are subject to the
enactment of future appropriations.
             Principal Financial Statements
Commodity Futures Trading Commission

Balance Sheets
As of September 30, 2009 and 2008

                                                                                                       2009                  2008


  Assets
  Intragovernmental:
  	   Fund Balance with Treasury (Note 2)                                                        $	 43,961,950         $	 27,666,831
  	   Accounts Receivable (Note 3)                                                                         8,570       	         7,440
  	   Prepayments (Note 1H)                                                                              15,138        	       47,279
  	   Total Intragovernmental                                                                         43,985,658       	    27,721,550

  Custodial Receivables, Net (Note 3)                                                                  1,703,220       	     1,721,526
  Accounts Receivable (Note 3)                                                                             9,637       	         4,094
  General Property, Plant and Equipment, Net (Note 4)                                                 10,346,721       	     2,810,441
  Prepayments (Note 1H)                                                                                 542,943        	      414,273

  Total Assets                                                                                   $	 56,588,179         $	 32,671,884

  Liabilities
  Intragovernmental:
  	   FECA Liabilities                                                                           $	      37,362        $	      41,092
  	   Accounts Payable                                                                                  450,004        	      366,651
  	   Total Intragovernmental                                                                           487,366        	      407,743

  Accounts Payable                                                                                     3,631,176       	     2,130,307
  Accrued Funded Payroll                                                                               5,101,251       	     3,504,048
  Annual Leave                                                                                         6,427,995       	     4,525,329
  Actuarial FECA Liabilities (Note 7)                                                                   170,170        	      177,796
  Custodial Liabilities                                                                                1,703,220       	     1,721,526
  Deposit Fund Liabilities                                                                              142,279        	             -
  Deferred Lease Liabilities (Note 8)                                                                  3,226,161       	     3,294,324
  Other                                                                                                    7,513       	         9,957
  Total Liabilities                                                                              $	 20,897,131         $	 15,771,030

  Net Position
  Cumulative Results of Operations                                                               $	     491,751        $	 (5,224,895)
  Unexpended Appropriations                                                                           35,199,297       	    22,125,749
  Total Net Position                                                                                  35,691,048       	    16,900,854

  Total Liabilities and Net Position                                                             $	 56,588,179         $	 32,671,884
The accompanying notes are an integral part of these financial statements.



122 CFTC
                 Management’s                                                                          Other Accompanying
                                              Performance Section            Financial Section                                    Appendix
                 Discussion & Analysis                                                                 Information
                                                                              F I NAN C I AL S E C T I ON




Commodity Futures Trading Commission

Statements of Net Cost
For the Years Ended September 30, 2009 and 2008

  Net Cost by Goal (Note 14)                                                                  2009                   2008


  Goal 1: Ensure the economic vitality of the commodity futures and option markets

  Gross Costs                                                                           $	   40,745,079      $	     31,675,123
  Less: Earned Revenue                                                                  	       (31,609)     	          (20,244)

  Net Cost of Operations – Goal One                                                     $	   40,713,470      $	     31,654,879

  Goal 2: Protect market users and the public

  Gross Costs                                                                           $	   30,230,220      $	     25,340,098
  Less: Earned Revenue                                                                  	       (23,452)     	          (16,195)

  Net Cost of Operations – Goal Two                                                     $	   30,206,768      $	     25,323,903

  Goal 3: Ensure market integrity in order to foster open, competitive, and financially
  sound markets

  Gross Costs                                                                           $	   30,230,220      $	     24,284,261
  Less: Earned Revenue                                                                  	       (23,452)     	          (15,520)

  Net Cost of Operations – Goal Three                                                   $	   30,206,768      $	     24,268,741

  Goal 4: Facilitate Commission performance through organizational and management
  excellence, efficient use of resources, and effective mission support


  Gross Costs                                                                           $	   30,230,220      $	     24,284,261
  Less: Earned Revenue                                                                  	       (23,452)     	          (15,520)


  Net Cost of Operations – Goal Four                                                    $	   30,206,768      $	     24,268,741

  Grand Total

  Gross Costs                                                                           $	 131,435,739       $	 105,583,743
  Less: Earned Revenue                                                                  	      (101,965)     	          (67,479)

  Total Net Cost of Operations                                                          $	 131,333,774       $	 105,516,264
The accompanying notes are an integral part of these financial statements.




                                                                                                                     CFTC 123
    Management’s                                                                        Other Accompanying
                                  Performance Section          Financial Section                                 Appendix
    Discussion & Analysis                                                               Information
Commodity Futures Trading Commission

Statements of Changes in Net Position
For the Years Ended September 30, 2009 and 2008

                                                                                                     2009                      2008


  Cumulative Results of Operations
  Beginning Balances, October 1                                                             $	 (5,224,895)             $	 (5,700,823)

  Budgetary Financing Sources

  Appropriations Used                                                                            131,635,050           	 102,111,763


  Other Financing Sources
  	   Imputed Financing Sources                                                                     5,415,370          	      3,880,429

  Net Cost of Operations                                                                         (131,333,774)         	 (105,516,264)

  Net Change                                                                                	       5,716,646          	        475,928

  Total Cumulative Results of Operations, September 30                                      $	       491,751           $	 (5,224,895)

  Unexpended Appropriations
  Beginning Balances, October 1                                                             $	 22,125,749              $	 14,180,963

  Budgetary Financing Sources
  	   Appropriations Received                                                                    146,000,000           	 111,265,650
  	   Less: Canceled                                                                               (1,291,402)         	      (1,209,101)
  	   Appropriations Used                                                                        (131,635,050)         	 (102,111,763)
  		 Total Budgetary Financing Sources                                                            13,073,548           	      7,944,786

  Total Unexpended Appropriations, September 30                                             $	 35,199,297              $	 22,125,749

  Net Position                                                                              $	 35,691,048              $	 16,900,854
The accompanying notes are an integral part of these financial statements.




124 CFTC
                 Management’s                                                                            Other Accompanying
                                              Performance Section            Financial Section                                        Appendix
                 Discussion & Analysis                                                                   Information
                                                                              F I NAN C I AL S E C T I ON



Commodity Futures Trading Commission

Statements of Budgetary R esources
For the Years Ended September 30, 2009 and 2008

                                                                                                      2009                 2008

  Budgetary Resources
  Unobligated Balance, October 1                                                               $	     4,746,653    $	     6,986,081
  Recoveries of Prior Year Unpaid Obligations                                                           930,496           3,990,815
  Total Prior Resources                                                                               5,677,149          10,976,896
  Budget Authority:
  	    Appropriation                                                                                146,000,000         112,050,000
  	    Spending Authority from Offsetting Collections
  		 Collected                                                                                         184,243             708,068
  		 Change in Receivables from Federal Sources                                                          3,160             (66,027)
  	 Change in Unfilled Customer Orders
  		 Advance Received                                                                                  (2,446)                (44)
  		 Without Advance from Federal Sources                                                              12,380               7,244
  Total New Resources                                                                          $	 146,197,337      $	 112,699,241
  Permanently Not Available:
  	    Cancellation of Expired Accounts                                                              (1,291,402)   	     (1,209,101)
  	    Enacted Reduction                                                                       	              -    	       (784,350)

  Total Budgetary Resources                                                                    $	 150,583,084      $	 121,682,686

  Status of Budgetary Resources
  Obligations Incurred:
  Direct
  	 Obligations Incurred, Direct                                                                    147,582,499         116,771,039
  	 Obligations Incurred, Reimbursable                                                         $	       106,982    $	       164,994
  Total Obligations Incurred (Note 11)                                                              147,689,481         116,936,033
  Unobligated Balance
  Apportioned:
  	 Unobligated Balance Apportioned                                                                     222,131           1,689,337
  	 Unobligated Balance Not Available                                                                 2,671,472           3,057,316

  Total Status of Budgetary Resources                                                          $	 150,583,084      $	 121,682,686

  Change in Obligated Balances
  Net Obligated Balance, October 1
  	 Unpaid Obligations                                                                         $	  22,935,810      $	  12,548,687
  	 Uncollected Customer Payments from Federal Sources                                                (15,634)     	      (74,417)
  Net Obligated Balance, October 1                                                             $	 22,920,176       $	  12,474,270
  Gross Obligations Incurred, Net                                                                 147,689,481         116,936,033
  Gross Outlays                                                                                  (128,737,555)       (102,558,095)
  Recoveries of Prior Year Unpaid Obligations                                                        (930,496)         (3,990,815)
  Change in Receivables from Federal Sources                                                          (15,540)             58,783
                                                                                               $	 40,926,066       $	 22,920,176
  Net Obligated Balance, September 30
  	 Unpaid Obligations                                                                         $	    40,957,240    $	    22,935,810
  	 Uncollected Customer Payments from Federal Sources                                                  (31,174)            (15,634)
  Net Obligated Balance, September 30                                                          $	    40,926,066    $	    22,920,176

  Net Outlays
  Gross Outlays                                                                                $	 128,737,555      $	 102,558,095
  Offsetting Collections Received                                                                    (646,925)           (708,024)
  Distributed Offsetting Receipts                                                                        (828)             (4,933)

  Net Outlays                                                                                  $	 128,089,802      $	 101,845,138
The accompanying notes are an integral part of these financial statements.
                                                                                                                        CFTC 125
      Management’s                                                                      Other Accompanying
                                  Performance Section          Financial Section                                   Appendix
      Discussion & Analysis                                                             Information
Commodity Futures Trading Commission

Statements of Custodial Activity
For the Years Ended September 30, 2009 and 2008

                                                                                                        2009                 2008



  Revenue Activity
  Sources of Cash Collections:
      	   Registration and Filing Fees                                                           $	       513,858     $	       906,326
  	       Fines, Penalties, and Forfeitures                                                            17,376,121          140,879,579
  	       General Proprietary Receipts                                                                         828                4,933
  Total Cash Collections                                                                               17,890,807          141,790,838
  Change in Custodial Receivables                                                                	         (18,306)           1,101,215
  Total Custodial Revenue                                                                        $	    17,872,501     $	 142,892,053


  Disposition of Collections
  	Transferred to Others, by Recipient:
  		 Transferred to Treasury                                                                     	    (17,890,807)    	    (141,790,838)
  		 Change in Custodial Liabilities                                                             	         (18,306)   	      (1,101,215)

  Net Custodial Activity                                                                         $	               -   $	              -
The accompanying notes are an integral part of these financial statements.




126 CFTC
                     Management’s                                                                     Other Accompanying
                                              Performance Section            Financial Section                                   Appendix
                     Discussion & Analysis                                                            Information
    Notes to the Financial Statements
                      As of and For the Fiscal Years Ended September 30, 2009 and 2008


Note 1. Summary of Significant                                      The financial statements report on CFTC financial position,
Accounting Policies                                                 net cost of operations, changes in net position, budgetary
                                                                    resources, and custodial activities. The books and records of
A. Reporting Entity                                                 the agency served as the source of information for preparing
                                                                    the financial statements in the prescribed formats.         All
The CFTC is an independent agency of the executive branch of
                                                                    agency financial statements and reports used to monitor
the Federal government. Congress created the CFTC in 1974
                                                                    and control budgetary resources are prepared from the same
under the authorization of the Commodity Exchange Act (CEA
                                                                    books and records. The statements should be read with the
or Act) with the mandate to regulate commodity futures and
                                                                    understanding that they are for a component of the U.S.
option markets in the United States. The agency’s mandate
                                                                    government, a sovereign entity.
was renewed and expanded under the Futures Trading Acts of
1978, 1982, and 1986; under the Futures Trading Practices           The Balance Sheets present the financial position of the
Act of 1992; and the CFTC Reauthorization Act of 1995, and          agency. The Statements of Net Cost present the agency’s
under the Commodity Futures Modernization Act of 2000.              operating results; the Statements of Changes in Net Position
Congress passed the Food, Conservation, and Energy Act              display the changes in the agency’s equity accounts. The
of 2008 (Farm Bill), which reauthorized the Commission              Statements of Budgetary Resources present the sources,
through FY 2013. Since its inception, the CFTC has continu-         status, and uses of the agency’s resources and follow the
ously operated through authorized appropriations.                   rules for the Budget of the United States Government. The
                                                                    Statements of Custodial Activity present the sources and
The CFTC is responsible for ensuring the economic utility
                                                                    disposition of collections for which the CFTC is the fiscal
of futures markets by encouraging their competitiveness and
                                                                    agent, or custodian, for the U.S. Treasury (Treasury) General
efficiency; ensuring their integrity; and protecting market
                                                                    Fund Miscellaneous Receipt accounts.
participants against manipulation, abusive trade practices,
and fraud.                                                          Throughout these financial statements, assets, liabilities,
                                                                    revenues and costs have been classified according to the
B. Basis of Presentation                                            type of entity with whom the transactions were made.
                                                                    Intragovernmental assets and liabilities are those from or to
The financial statements have been prepared to report the
                                                                    other Federal entities. Intragovernmental earned revenues are
financial position and results of operations for the CFTC, as
                                                                    collections or accruals of revenue from other Federal entities,
required by the Chief Financial Officers’ (CFO) Act of 1990
                                                                    and intragovernmental costs are payments or accruals to
along with the Accountability of Tax Dollars Act of 2002, and
                                                                    other Federal entities. The CFTC does not transact business
the Government Management Reform Act of 1994. They are
                                                                    among its own operating units, and therefore, intra-entity
presented in accordance with the form and content require-
                                                                    eliminations were not needed.
ments contained in OMB Circular No. A-136, “Financial
Reporting Requirements,” dated June 10, 2009.
                                                                    Historically, the Commission treated restitution receiv-
                                                                    ables as non-entity assets and related activities as custo-
The principal financial statements have been prepared in
                                                                    dial. However, the Commission is no longer named in civil
all material respects from the agency’s books and records
                                                                    injunctive and administrative proceedings as the collector
in conformity with U.S. GAAP, as prescribed for the Federal
                                                                    of restitution sanctions. Accordingly, the Commission
government by the Federal Accounting Standards Advisory
                                                                    changed its method of accounting and reporting for restitu-
Board (FASAB). The application and methods for applying
                                                                    tion assets stemming from actions against violators of the
these principles are appropriate for presenting fairly the
                                                                    CEA and Commission regulations. Beginning in FY 2009,
entity’s assets, liabilities, net cost of operations, changes in
                                                                    the Commission no longer records restitution sanctions as
net position, and budgetary resources.

                                                                                                                   CFTC 127
     Management’s                                                                   Other Accompanying
                                 Performance Section        Financial Section                                  Appendix
     Discussion & Analysis                                                          Information
custodial receivables and now reports on these non-Federal         D. Entity and Non-Entity Assets
assets in the Management’s Discussion and Analysis section
                                                                   Assets consist of entity and non-entity assets. Entity assets are
of its Performance and Accountability Report. Also, the
                                                                   those assets that the CFTC has authority to use for its opera-
Commission only includes in its Statement of Custodial
                                                                   tions. Non-entity assets are those held by the CFTC that are
Activity those collections it anticipates forwarding to the
                                                                   not available for use in its operations. Non-entity assets held
Treasury’s general fund. Since the current presentation
                                                                   by the CFTC include deposit fund balances, custodial fines,
reflects a change from one that was acceptable to another
                                                                   interest, penalties, and administrative fees receivable, net.
that is preferred, prior year amounts in Note 3 “Accounts
Receivable” are presented as previously reported.
                                                                   E. Fund Balance with Treasury
Certain FY 2008 amounts have been reclassified to conform
                                                                   Fund Balance with Treasury is the aggregate amount of CFTC
to the FY 2009 presentation.
                                                                   funds with Treasury in expenditure, receipt, and deposit
                                                                   fund accounts. Appropriated funds recorded in expenditure
C. Budgetary Resources and Status                                  accounts are available to pay current liabilities and finance
The CFTC is funded through congressionally approved                authorized purchases. Custodial collections recorded in the
appropriations. The CFTC is responsible for administering          deposit fund account and miscellaneous receipts accounts of
the salaries and expenses of the agency through the execu-         the Treasury are not available for agency use. At fiscal year end,
tion of these appropriations.                                      receipt account balances are cleared and returned to Treasury.


Congress annually enacts one-year appropriations that              The CFTC does not maintain bank accounts of its own, has
provide the CFTC with the authority to obligate funds within       no disbursing authority, and does not maintain cash held
the respective fiscal year for necessary expenses to carry out     outside of Treasury. Treasury disburses funds for the agency
mandated program activities. In addition, Congress enacted         on demand. Spending authority from offsetting collections is
a permanent indefinite appropriation that is available until       recorded in the agency’s expenditure account and is available
expended. All appropriations are subject to quarterly appor-       for agency use subject to certain limitations.
tionment as well as congressional restrictions.
                                                                   F. Accounts Receivable
The CFTC budgetary resources for FY 2009 consist of:
                                                                   Accounts receivable consists of amounts owed by other
■■   Unobligated balances of resources brought forward             Federal agencies and the public to the CFTC and is valued net
     from the prior year;                                          of an allowance for uncollectible amounts. The allowance
                                                                   is based on past experience in the collection of receivables
■■   Recoveries of obligations in prior years; and                 and analysis of the outstanding balances. Accounts receivable
                                                                   arise from reimbursable operations, earned refunds or the
■■   New resources in the form of appropriations and               Civil Monetary Sanctions program.
     spending authority from offsetting collections.
                                                                   G. Property, Equipment, and Software
Unobligated balances associated with resources expiring at
the end of the fiscal year remain available for five years after   Furniture, fixtures, equipment, information technology
expiration only for upward adjustments of prior year obliga-       hardware and software, and leasehold improvements are capi-
tions, after which they are canceled and may not be used.          talized and depreciated or amortized over their useful lives.
All unused monies related to canceled appropriations are
returned to Treasury and the canceled authority is reported as     The CFTC capitalizes assets annually if they have useful lives
a line item on the Statements of Budgetary Resources and the       of at least two years and an individual value of $25,000 or
Statements of Changes in Net Position.                             more.    Bulk or aggregate purchases are capitalized when
                                                                   the individual useful lives are at least two years and a value
                                                                   of $25,000 or more.       Property, equipment, and software
                                                                   that do not meet the capitalization criteria are expensed

128 CFTC
                 Management’s                                                                   Other Accompanying
                                             Performance Section        Financial Section                                   Appendix
                 Discussion & Analysis                                                          Information
                                                                          F I NAN C I AL S E C T I ON




when acquired. Depreciation for equipment and software             J. Accounts Payable
is computed on a straight-line basis using a five-year life.
                                                                   Accounts payable consists primarily of contracts for goods
Leasehold improvements are amortized over the remaining
                                                                   or services, such as leases, utilities, telecommunications, and
life of the lease. The Commission’s assets are valued net of
                                                                   consulting and support services.
accumulated depreciation.

                                                                   K. Accrued Payroll and Benefits and
H. Prepayments
                                                                   Annual Leave Liability
Payments to Federal and non-Federal sources in advance             The accrued payroll liability represents amounts for salaries
of the receipt of goods and services are recorded as prepay-       and benefits owed for the time since the payroll was last paid
ments, and recognized as expenses when the related goods           through the end of the reporting period. The annual leave
and services are received. Intragovernmental prepayments           liability is the amount owed employees for unused annual
reported on the Balance Sheet were made primarily to DOT           leave as of the end of the reporting period. At the end of each
for transit subsidy services. Prepayments to the public were       quarter, the balance in the accrued annual leave account is
primarily for software and subscription services.                  adjusted to reflect current balances and pay rates. Sick leave
                                                                   and other types of non-vested leave are expensed as taken.
I. Liabilities
                                                                   The agency’s employees participate in the Civil Service Retire-
CFTC liabilities consist of actual and estimated amounts
                                                                   ment System (CSRS) or the Federal Employees’ Retirement
that are likely to be paid as a result of transactions covered
                                                                   System (FERS). On January 1, 1987, FERS went into effect
by budgetary resources for which Congress has appropriated
                                                                   pursuant to Public Law 99-335. Most employees hired after
funds or funding, or are otherwise available from reimburs-
                                                                   December 31, 1983, are automatically covered by FERS and
able transactions to pay amounts due.
                                                                   Social Security. Employees hired prior to January 1, 1984,
Liabilities include those covered by budgetary resources in        could elect to either join FERS and Social Security or remain
existing legislation and those not yet covered by budgetary        in CSRS.
resources. The CFTC liabilities not covered by budgetary
                                                                   For employees under FERS, the CFTC contributes an amount
resources include:
                                                                   equal to one percent of the employee’s basic pay to the tax
■■   Intragovernmental Federal Employees’ Compensation             deferred Thrift Savings Plan and matches employee contribu-
     Act (FECA) liabilities;                                       tions up to an additional four percent of pay. FERS and CSRS
                                                                   employees can contribute a portion of their gross earnings to
■■   Annual leave benefits which will be funded by annual
                                                                   the plan up to the Internal Revenue Service limits; however,
     appropriations as leave is taken;
                                                                   CSRS employees receive no matching agency contribution.
■■   Actuarial FECA liabilities;
                                                                   L. Leases
■■   Custodial liabilities for custodial revenue transferred to
                                                                   The CFTC does not have any capital lease liabilities. The
     Treasury at fiscal year end;
                                                                   operating leases consist of commercial property leases for the
■■   Contingent liabilities;                                       CFTC headquarters and regional offices. Lease expenses are
                                                                   recognized on a straight-line basis.
■■   Deposit funds;
                                                                   M. Deposit Funds
■■   Deferred lease liabilities; and
                                                                   Deposit funds are expenditure accounts used to record monies
■■   Advances received for reimbursable services yet to be
                                                                   that do not belong to the Federal government. They are held
     provided.
                                                                   awaiting distribution based on a legal determination or inves-
                                                                   tigation. The CFTC deposit fund is used to record and later
CFTC liabilities that are covered by budgetary resources are
                                                                   distribute collections of monetary awards to the appropriate
considered current liabilities..

                                                                                                                  CFTC 129
      Management’s                                                                  Other Accompanying
                                    Performance Section    Financial Section                                  Appendix
      Discussion & Analysis                                                         Information
victims as restitution. The cash collections recorded in this         P. Net Cost of Operations
fund are offset by a Deposit Liability. Activities in this fund are
                                                                      Net cost of operations is the difference between CFTC expenses
not fiduciary in nature because they are not legally enforce-
                                                                      and earned revenue. The presentation of program results by
able against the government.
                                                                      strategic goals is based on the current CFTC Strategic Plan
N. Net Position                                                       established pursuant to the Government Performance and
                                                                      Results Act (GPRA) of 1993.
Net position consists of unexpended appropriations and
cumulative results of operations. Unexpended appropriations           The mission statement of the CFTC is to protect market users
are appropriations that have not yet been used to acquire             and the public from fraud, manipulation, and abusive prac-
goods and services or provide benefits. Appropriations are            tices related to the sale of commodity and financial futures
considered expended, or used, when goods and services have            and options, and to foster open, competitive, and financially
been acquired by the CFTC or benefits have been provided              sound futures and option markets. The mission is accom-
using the appropriation authority, regardless of whether              plished through four strategic goals, each focusing on a vital
monies have been paid or payables for the goods, services,            area of regulatory responsibility:
or benefits have been established. Appropriations are used
primarily to acquire goods and services to operate CFTC               ■■   Ensure the economic vitality of the commodity futures
programs or to provide benefits.                                           and option markets;


Cumulative results of operations represent the excess of              ■■   Protect market users and the public;
financing sources over expenses since inception. Cumulative
                                                                      ■■   Ensure market integrity in order to foster open, compet-
results of operations are derived from the net effect of
                                                                           itive, and financially sound markets; and
capitalized assets, expenses, exchange revenue, and unfunded
liabilities.                                                          ■■   Facilitate Commission performance through organi-
                                                                           zational and management excellence, efficient use of
O. Revenues                                                                resources, and effective mission support.

The CFTC receives reimbursement and earns revenue for the
following activities:                                                 Q. Custodial Activity

                                                                      The CFTC collects penalties and fines levied against firms for
■■   Reimbursement for travel, subsistence, and related
                                                                      violation of laws as described in the CEA as codified at 7 U.S.C.
     expenses from non-Federal sources for attendance at
                                                                      § 1, et seq, and the Commodities Futures Modernization Act
     meetings or similar functions that an employee has
                                                                      of 2000, Appendix E of P.L. 106-554, 114 Stat. 2763. Unpaid
     been authorized to attend in an official capacity on
                                                                      fines, penalties and accrued interest are reported as custodial
     behalf of the Commission.
                                                                      receivables, with an associated custodial liability. The receiv-
■■   Reimbursement for Intergovernmental Personnel Act                ables and the liability are reduced by amounts determined
     Mobility Program assignments from state and local                to be uncollectible. Revenues earned and the losses from bad
     governments, institutions of higher education, and               debts are reported to Treasury.
     other eligible organizations for basic pay, supplemental
                                                                      Collections made by the CFTC during the year are deposited
     pay, fringe benefits, and travel and relocation expenses.
                                                                      and reported into designated Treasury miscellaneous receipt
■■   Reimbursement from non-Federal sources for registration          accounts for:
     fees to cover the cost of expenses related to the CFTC’s
                                                                      ■■   Registration and filing fees;
     annual International Regulators Conference.
                                                                      ■■   Fines, penalties and forfeitures; and

                                                                      ■■   General proprietary receipts.


130 CFTC
                  Management’s                                                                     Other Accompanying
                                               Performance Section         Financial Section                                  Appendix
                  Discussion & Analysis                                                            Information
                                                                           F I NAN C I AL S E C T I ON




At fiscal year end, custodial collections made by the CFTC          Note 2. Fund Balance with Treasury
are returned to Treasury. The CFTC does not retain any
amount for custodial activities including reimbursement of          A. Reconciliation to Treasury
the cost of collection.
                                                                    There are no differences between the Fund Balance reflected
                                                                    in the CFTC Balance Sheets and the balance in the Treasury
R. Use of Management Estimates                                      accounts.
The preparation of the accompanying financial statements in
accordance with U.S. GAAP requires management to make               B. Fund Balance with Treasury
certain estimates and assumptions that directly affect the
                                                                    Fund Balances with Treasury consist of entity assets such as
results of reported assets, liabilities, revenues, and expenses.
                                                                    appropriations and reimbursements for services rendered.
Actual results could differ from these estimates.
                                                                    Obligation of these funds is controlled by quarterly appor-
                                                                    tionments made by OMB. Work performed under reim-
S. Reconciliation of Net Obligations and Net Cost of
                                                                    bursable agreements is initially financed by the annual
Operations
                                                                    appropriation and is subsequently reimbursed.               Other
In accordance with OMB Circular No. A-136, the Commission           funds include non-entity deposit fund receipts.
reconciles its change in budgetary obligations with its net cost
                                                                    Fund Balance with Treasury at September 30, 2009 and
of operations.
                                                                    2008 consisted of the following:




                                                                                                          2009                 2008
  Appropriated Funds                                                                         $	    43,819,671     $	    27,666,831
  	    Deposit Fund                                                                                   142,279                       -

  TOTAL APPROPRIATED FUND BALANCE WITH TREASURY                                              $	    43,961,950     $	    27,666,831



C. Status of Fund Balance with Treasury

Status of Fund Balance with Treasury at September 30, 2009 and 2008 consisted of the following:

                                                                                                          2009                 2008
  Appropriated Funds
  Unobligated Fund Balance
  	    Available                                                                             $	       222,131     $	        1,589,552
  	    Expired                                                                               	               -                84,151
  	    Unavailable                                                                                  2,640,300               3,057,318
  Obligated Balance Not Yet Disbursed                                                              40,957,240           22,935,810
  Total Appropriated Funds                                                                         43,819,671           27,666,831

  Deposit Fund                                                                                        142,279                       -

  Total Fund Balance with Treasury                                                           $	    43,961,950     $	    27,666,831




                                                                                                                       CFTC      131
      Management’s                                                                   Other Accompanying
                                 Performance Section        Financial Section                                    Appendix
      Discussion & Analysis                                                          Information
Note 3. Accounts Receivable                                        Historical experience has indicated that a high percentage of
                                                                   custodial receivables prove uncollectible. The Commission’s
Accounts receivable consist of amounts owed the CFTC by
                                                                   methodology used to estimate the allowance for uncollectible
other Federal agencies and the public. Accounts receivable are
                                                                   amounts related to custodial accounts, considers all receiv-
valued at their net collectable values. Non-custodial accounts
                                                                   ables to be 100 percent uncollectible unless deemed otherwise.
receivable are primarily for overpayments of expenses to other
                                                                   An allowance for uncollectible accounts has been established
agencies, or vendors, and repayment of employee benefits.
                                                                   and included in accounts receivable on the balance sheets.
Historical experience has indicated that most of the non-
                                                                   The allowance is based on past experience in the collection
custodial receivables are collectible and there are no material
                                                                   of accounts receivable and analysis of outstanding balances.
uncollectible amounts.
                                                                   Accounts are re-estimated quarterly based on account reviews
                                                                   and the agency determination that changes to the net realiz-
Custodial receivables (non-entity assets) are those for
                                                                   able value are needed.
which fines and penalties have been assessed and levied
against businesses or individuals for violations of the CEA
                                                                   Beginning in FY 2009, the Commission no longer records
or Commission regulations. Violators may be subject to a
                                                                   restitution sanctions as custodial receivables.        Prior year
variety of sanctions including fines, injunctive orders, bars or
                                                                   amounts are presented as previously reported.
suspensions, rescissions of illegal contracts, disgorgements,
and restitutions to customers.                                     Accounts receivable, as of September 30, 2009 and 2008,
                                                                   consisted of the following:



                                                                                                         2009                 2008
  Custodial Receivables, Net:
  	   Civil Monetary Penalty Interest                                                       $	      1,837,945    $	     23,073,549
  	   Civil Monetary Penalties, Fines, and Administrative Fees                                   224,068,663          1,431,481,645
  	   Less: Allowance for Loss on Interest                                                         (1,834,753)   	      (23,069,460)
  	   Less: Allowance for Loss on Penalties, Fines, and Administrative Fees                      (223,040,935)   	 (1,430,214,727)
  Registration and Filing Fees                                                                       672,300               450,519

  Net Custodial RECEIVABLES                                                                 $	      1,703,220    $	      1,721,526

  Other Accounts Receivable                                                                 $	        18,207     $	         11,534

  ACCOUNTS RECEIVABLE, NET                                                                  $	      1,721,427    $	      1,733,060




Note 4. Property, Equipment, and Software, Net

Equipment and IT assets are capitalized annually if they have      ment and software is computed on a straight-line basis using
useful lives of at least two years and an individual value of      a five-year life. Leasehold improvements are amortized over
$25,000 or more. Bulk or aggregate purchases are capital-          the remaining life of the lease. Property, Equipment and
ized when the individual useful lives are at least two years       Software as of September 30, 2009 and 2008 consisted of the
and a value of $25,000 or more. Depreciation for equip-            following:




132 CFTC
                 Management’s                                                                    Other Accompanying
                                             Performance Section       Financial Section                                     Appendix
                 Discussion & Analysis                                                           Information
                                                                            F I NAN C I AL S E C T I ON




  2009                                                                                                Accumulated
                                                                                                      Amortization/             Net Book
  Major Class                       Service Life and Method                           Cost            Depreciation               Value

  Equipment                         5 Years/Straight Line                        $	 7,327,516     $	    (1,552,199)    $	       5,775,317
  IT Software                       5 Years/Straight Line                           4,760,185     	     (2,087,920)             2,672,265
  Software in Development           Not Applicable                                  1,293,029     	              -              1,293,029
  Leasehold Improvements            Remaining Life of Lease/Straight Line             673,456     	        (67,346)               606,110

                                                                                 $	 14,054,186    $	 (3,707,465)       $	 10,346,721


  2008                                                                                                Accumulated
                                                                                                      Amortization/             Net Book
  Major Class                       Service Life and Method                           Cost            Depreciation               Value

  Equipment                         5 Years/Straight Line                        $	 1,999,554     $	      (864,058)        $	   1,135,496
  IT Software                       5 Years/Straight Line                           2,966,169     	     (1,291,224)             1,674,945

                                                                                 $	 4,965,723     $	 (2,155,282)       $	       2,810,441


Note 5. Liabilities Not Covered by Budgetary Resources
As of September 30, 2009 and 2008, the following liabilities
were not covered by budgetary resources:

                                                                                                             2009                    2008

  Intragovernmental –­ FECA Liabilities                                                          $	          37,362    $	           41,092
  Annual Leave                                                                                            6,427,995               4,525,329
  Actuarial FECA Liabilities                                                                               170,170                 177,796
  Custodial Liabilities                                                                                   1,703,220               1,721,526
  Deposit Fund Liabilities                                                                                 142,279     	                    -
  Deferred Lease Liabilities                                                                              3,226,161               3,294,324
  Other                                                                                                       7,513                  9,957

  Total Liabilities Not Covered by Budgetary Resources                                           $	      11,714,700    $	         9,770,024



Note 6. Retirement Plans and Other Employee Benefits
The CFTC imputes costs and the related financing sources for         Full costs include pension and ORB contributions paid out
its share of retirement benefits accruing to its past and present    of CFTC appropriations and costs financed by OPM. The
employees that are in excess of the amount of contributions          amount financed by OPM is recognized as an imputed
from the CFTC and its employees, which are mandated by law.          financing source. This amount was $5,415,370 for the period
The Office of Personnel Management (OPM), which admin-               ended September 30, 2009, and $3,880,429 for the period
isters Federal civilian retirement programs, provides the cost       ended September 30, 2008. Reporting amounts such as plan
information to the CFTC. The CFTC recognizes the full cost of        assets, accumulated plan benefits, or unfunded liabilities, if
providing future pension and other retirement benefits (ORB)         any, is the responsibility of OPM.
for current employees as required by Statement of Federal
Financial Accounting Standards (SFFAS) No. 5, “Accounting for        Liabilities for future pension payments and other future
Liabilities of the Federal Government”.                              payments for retired employees who participate in the
                                                                     Federal Employees Health Benefits Program and the Federal
                                                                     Employees Group Life Insurance Program are reported by
                                                                     OPM rather than CFTC.


                                                                                                                            CFTC 133
     Management’s                                                                       Other Accompanying
                                  Performance Section        Financial Section                                        Appendix
     Discussion & Analysis                                                              Information
Note 7. Actuarial FECA Liabilities                                As of September 30, 2009, future estimated minimum lease
                                                                  payments through FY 2015 are as follows:
FECA provides income and medical cost protections to
covered Federal civilian employees injured on the job, to           Fiscal Year                                              Dollars

employees who have incurred work-related occupational               2010                                               $	 10,970,480

diseases, and to beneficiaries of employees whose deaths are        2011                                                   11,268,766
attributable to job-related injuries or occupational diseases.      2012                                                    9,898,728
The FECA program is administered by the U.S. Department of          2013                                                    8,147,303
Labor (DOL), which pays valid claims against the CFTC and           2014                                                    8,306,539
subsequently seeks reimbursement from the CFTC for these            2015                                                    8,283,441
paid claims. Accrued FECA liabilities represent amounts due         Total Minimum lease payments                           56,875,257
to DOL for claims paid on behalf of the agency. Accrued             Add: Amount representing estimated
FECA liabilities at September 30, 2009 and September 30,            executory costs (taxes, maintenance,                   11,943,803
                                                                    and insurance)
2008 were $37,362 and $41,092, respectively.
                                                                    Total minimum lease
Actuarial FECA liability represents the liability for future        payments, including                                $	 68,819,060
                                                                    estimated executory costs
workers compensation (FWC) benefits, which includes the
expected liability for death, disability, medical, and miscel-
                                                                  Lease expense is recognized on a straight-line basis. Because
laneous costs for approved cases. The liability is determined
                                                                  the lease payment amounts vary, and in some cases, CFTC
using a formula provided by DOL annually as of September
                                                                  receives periods of up-front free rent, a deferred lease liability
30th using a method that utilizes historical benefits payment
                                                                  representing expense amounts in excess of payments to date
patterns related to a specific incurred period to predict the
                                                                  has been recorded. The deferred lease liabilities at September
ultimate payments related to that period.         The projected
                                                                  30, 2009 and September 30, 2008 were $3,226,161 and
annual benefits payments are discounted to present value
                                                                  $3,294,324, respectively.
using OMB’s economic assumptions for ten-year Treasury
notes and bonds. To provide more specifically for effects of
inflation on liability for FWC benefits, wage inflation factors   Note 9. Contingent Liabilities
(Consumer Price Index-Medical) are applied to the calcu-          The CFTC records commitments and contingent liabilities
lation of projected future benefits. These factors are also       for legal cases in which payment has been deemed probable
used to adjust historical payments so benefits are stated in      and for which the amount of potential liability has been esti-
current-year constant dollars. Actuarial FECA liabilities at      mated, including certain judgments that have been issued
September 30, 2009 and September 30, 2008 were $170,170           against the agency and which have been appealed. There were
and $177,796, respectively.                                       no contingent liabilities as of September 2009 and 2008.


Note 8. Leases                                                    Note 10. Undelivered Orders
The CFTC leases office space in publicly owned buildings for      The amounts of budgetary resources obligated for undelivered
its locations in Washington D.C., Chicago, New York, and          orders as of September 30, 2009 and 2008 were as follows:
Kansas City. The lease contracts for publicly-owned buildings
are operating leases. The CFTC has no real property. Future                                               2009                  2008

estimated minimum lease payments are not accrued as liabili-        Undelivered Orders        $     32,332,889         $   17,450,966

ties and are expensed on a straight-line basis.
                                                                  The amount of undelivered orders represents the value of
                                                                  unpaid and paid obligations recorded during the current or
                                                                  a prior fiscal year, upward adjustments of obligations that
                                                                  were originally recorded in a prior fiscal year, and recoveries
                                                                  resulting from downward adjustments of obligations that
                                                                  were originally recorded in a prior fiscal year.
134 CFTC
                 Management’s                                                                     Other Accompanying
                                            Performance Section        Financial Section                                       Appendix
                 Discussion & Analysis                                                            Information
                                                                        F I NAN C I AL S E C T I ON




Note 11. Apportionment Categories of Obligations Incurred
Obligations incurred and reported in the Statements of
Budgetary Resources in 2009 and 2008 consisted of the
following:

                                                                                                         2009                  2008
  Direct Obligations, Category A                                                           $	    147,582,499     $	   116,771,039
  Reimbursable Obligations, Category A                                                                106,982                164,994

  Total Obligations Incurred                                                               $	    147,689,481     $	   116,936,033



Note 12. Permanent Indefinite                                    Note 14. Intra-governmental Cost and
Appropriations                                                   Exchange Revenue by Goal
CFTC permanent indefinite appropriation as authorized by         As required by GPRA, the Commission’s reporting has been
Public Law 107-38 funds emergency expenses to respond to         aligned with the following major goals presented in the 2007
the terrorist attacks on the United States that occurred on      – 2012 CFTC Strategic Plan.
September 11, 2001. The fund provides support to deal with
consequences of the attacks and support national security.            1.	    Ensure the Economic Vitality of the Commodity
                                                                             Futures and Option Markets;

Note 13. Explanation of Differences between                           2.	    Protect Market Users and the Public;
the Statement of Budgetary Resources and                              3.	    Ensure Market Integrity in Order to Foster Open,
Budget of the U.S. Government                                                Competitive, and Financially Sound Markets; and

The CFTC had no material differences between the amounts              4.	    Facilitate Commission Performance Through
reported in the Statement of Budgetary Resources and the                     Organizational     and     Management         Excellence,
actual amounts reported in the Budget of the U.S. govern-                    Efficient Use of Resources, and Effective Mission
ment for FY 2008. The Budget of the U.S. Government with                     Support.
actual numbers for FY 2009 has not yet been published. The       The Net Cost of Operations is derived from transactions
expected publication date is February 2010. A copy of the        between the Commission and public entities, as well as with
Budget can be obtained from OMB’s Web site at http://www.        other Federal agencies. Certain FY 2008 amounts have been
whitehouse.gov/omb/.                                             reclassified to conform to the FY 2009 presentation. The
                                                                 details of the intra-governmental costs and revenues, as well
                                                                 as those with the public, are as follows:




                                                                                                                      CFTC 135
     Management’s                                                                  Other Accompanying
                               Performance Section       Financial Section                                      Appendix
     Discussion & Analysis                                                         Information
                                                                                          2009                        2008

 Goal 1: Ensure the economic vitality of the commodity futures and option markets
 Intragovernmental Gross Costs                                      $	                7,061,197    $	             5,652,064
 Less: Earned Revenue                                               	                   (12,591)                     (5,062)
 Intragovernmental Net Cost of Operations                           $	                7,048,606    $	             5,647,002
 Gross Costs with the Public                                        $	               33,683,882    $	            26,023,059
 Less: Earned Revenue                                               	                   (19,018)                    (15,182)
 Net Cost of Operations with the Public                             $	               33,664,864    $	            26,007,877

 Total Net Cost of Operations – Goal One                            $	               40,713,470    $	            31,654,879

 Goal 2: Protect market users and the public
 Intragovernmental Gross Costs                                      $	                5,238,953    $	             4,521,651
 Less: Earned Revenue                                               	                    (9,342)                     (4,049)
 Intragovernmental Net Cost of Operations                           $	                5,229,611    $	             4,517,602
 Gross Costs with the Public                                        $	               24,991,267    $	            20,818,447
 Less: Earned Revenue                                               	                   (14,110)                    (12,146)
 Net Cost of Operations with the Public                             $	               24,977,157    $	            20,806,301

 Total Net Cost of Operations – Goal Two                            $	               30,206,768    $	            25,323,903

 Goal 3: Ensure market integrity in order to foster open, competitive, and financially
 sound markets
 Intragovernmental Gross Costs                                      $	                5,238,953    $	             4,333,249
 Less: Earned Revenue                                               	                    (9,342)                     (3,881)
 Intragovernmental Net Cost of Operations                           $	                5,229,611    $	             4,329,368
 Gross Costs with the Public                                        $	               24,991,267    $	            19,951,012
 Less: Earned Revenue                                               	                   (14,110)                    (11,639)
 Net Cost of Operations with the Public                             $	               24,977,157    $	            19,939,373

 Total Net Cost of Operations – Goal Three                          $	               30,206,768    $	            24,268,741

 Goal 4: Facilitate Commission performance through organizational and management
 excellence, efficient use of resources, and effective mission support
 Intragovernmental Gross Costs                                      $	                5,238,953    $	             4,333,249
 Less: Earned Revenue                                                                    (9,342)                     (3,881)
 Intragovernmental Net Cost of Operations                           $	                5,229,611    $	             4,329,368
 Gross Costs with the Public                                        $	               24,991,267    $	            19,951,012
 Less: Earned Revenue                                                                   (14,110)                    (11,639)
 Net Cost of Operations with the Public                             $	               24,977,157    $	            19,939,373

 Total Net Cost of Operations – Goal Four                           $	               30,206,768    $	            24,268,741

 Net Cost of Operations                                             $	              131,333,774    $	           105,516,264




136 CFTC
               Management’s                                                                Other Accompanying
                                          Performance Section   Financial Section                                     Appendix
               Discussion & Analysis                                                       Information
                                                                            F I NAN C I AL S E C T I ON




Note 15. Reconciliation of Net Obligations and Net Cost of Operations

The schedule presented in this footnote reconciles the net           are recognized as a component of the net cost of operations
obligations with the Net Cost of Operations. Resources Used          for the period but the budgetary resources (and related obli-
to Finance Activities reflects the budgetary resources obli-         gation) will not be provided (or incurred) until a subsequent
gated and other resources used to finance the activities of the      period. Components Not Requiring or Generating Resources
agency. Resources Used to Finance Items Not Part of the Net          includes items recognized as part of the net cost of opera-
Cost of Operations adjusts total resources used to finance the       tions for the period but that will not generate or require the
activities of the entity to account for items that were included     use of resources. Net Cost of Operations agrees with the Net
in net obligations and other resources but were not part of          Cost of Operations as reported on the Statements of Net Cost.
the Net Cost of Operations.        Components Requiring or           Certain FY 2008 amounts have been reclassified to conform
Generating Resources in Future Periods identifies items that         to the FY 2009 presentation.

                                                                                                            2009                    2008

  Resources Used to Finance Activities
  Budgetary Resources Obligated
      Obligations Incurred                                                                       $	147,689,481           $	116,936,033
      Less: Spending Authority from Offsetting Collections and Recoveries                        	    (1,127,833)        	    (4,640,056)
  Obligations Net of Offsetting Collections and Recoveries                                           146,561,648         	 112,295,977
      Offsetting Receipts                                                                        	            (828)      	         (4,933)
      Net Obligations After Offsetting Receipts                                                      146,560,820         	 112,291,044

  Other Resources
      Imputed Financing from Cost Absorbed by Others                                                   5,415,370         	    3,880,429
  Total Resources Used to Finance Activities                                                     $	151,976,190           $	116,171,473


  Resources Used to Finance Items Not Part of the Net Cost of Operations
      Change in Budgetary Resources Obligated for Goods, Services, and Benefits
                                                                                                 	 (14,926,597)          	 (10,184,214)
      Ordered but not yet Provided
      Resources that Fund Expenses Recognized in Prior Periods (Decrease in
                                                                                                 	         (79,519)      	       (336,280)
      Unfunded Liabilities)
      Offsetting Receipts                                                                                     828        	          4,933
      Resources that Finance the Acquisition of Assets                                           	    (9,343,530)        	       (853,027)
  Total Resources Used to Finance Items Not Part of the Net Cost of Operations                   $	 (24,348,818)         $	 (11,368,588)


  Components of the Net Cost of Operations That Will
  not Require or Generate Resources in the Current Period
      Increase/(Decrease) in Contingent Liabilities                                              	               -       	       (310,000)
      Increase in Unfunded Liabilities                                                                 1,902,666         	       133,088
  Total Components of Net Cost of Operations that Will Require or Generate
                                                                                                 $	    1,902,666         $	      (176,912)
   Resources in Future Periods


  Components Not Requiring or Generating Resources
      Depreciation and Amortization                                                                    1,807,247         	       893,189
      Other                                                                                      	          (3,511)      	         (2,898)
  Total Components of Net Cost of Operations that Will Not Require or Generate
                                                                                                 $	    1,803,736         $	      890,291
   Resources
  Total Components of Net Cost of Operations that Will Not Require or Generate
                                                                                                 $	    3,706,402         $	      713,379
   Resources in the Current Period

  Net Cost of Operations                                                                         $	131,333,774           $	105,516,264


                                                                                                                             CFTC 137
     Management’s                                                                     Other Accompanying
                                 Performance Section         Financial Section                                        Appendix
     Discussion & Analysis                                                            Information
 Report of the Independent Auditors

       a1

                                               Independent Auditor’s Report


       Chairman and Inspector General of the
       United States Commodity Futures Trading Commission


       We have audited the accompanying balance sheet of Commodity Futures Trading Commission
       (CFTC) as of September 30, 2009, and the related statements of net cost, changes in net
       position, budgetary resources, and custodial activity for the year then ended. The financial
       statements of CFTC as of September 30, 2008 were audited by other auditors whose report
       dated November 12, 2008, expressed an unqualified opinion on those financial statements. In
       our audits of CFTC for fiscal years 2009, we found:

             •	 the CFTC financial statements are presented fairly, in all material respects, in conformity
                with accounting principles generally accepted in the United States of America;

             •	 no material weaknesses or significant deficiencies in internal control over financial
                reporting (including safeguarding assets) and compliance with laws and regulations; and

             •	 no reportable noncompliance with laws and regulations we tested.

       The following sections discuss in more detail (1) these conclusions, (2) our conclusions on
       Management’s Discussion and Analysis (MD&A) and other supplementary information, and (3)
       our objectives, scope and methodology.


       OPINION ON FINANCIAL STATEMENTS

       In our opinion, the financial statements including the accompanying notes present fairly, in all
       material respects, in conformity with accounting principles generally accepted in the United
       States of America, CFTC’s assets, liabilities and net position as of September 30, 2009, and its
       net costs; changes in net position; budgetary resources and custodial activity for the year then
       ended.


       CONSIDERATION OF INTERNAL CONTROL

       In planning and performing our audit, we considered CFTC’s internal control over financial
       reporting as a basis for designing our auditing procedures and to comply with the Office of
       Management and Budget (OMB) audit guidance for the purpose of expressing our opinion on
       the financial statements, but not for the purpose of expressing an opinion on internal control and
       compliance or on management’s assertion on internal control included in MD&A. Accordingly,
       we do not express an opinion on the effectiveness of the entity’s internal control over financial
       reporting or on management’s assertion on internal control included in the MD&A.

       11710 Beltsville Drive, Suite 300
       Calverton, MD 20705­3106
       tel: 301­931­2050


                                                                                                    h
       fax: 301­931­1710                                          1
       www.cliftoncpa.com                        Offices in 17 states and Washington, DC




138 CFTC
           Management’s                                                                         Other Accompanying
                                           Performance Section              Financial Section                        Appendix
           Discussion & Analysis                                                                Information
                                                                      F I NAN C I AL S E C T I ON




            Our consideration of internal control over financial reporting was for the limited purpose
            described in the preceding paragraph and would not necessarily identify all deficiencies in
            internal control over financial reporting that might be significant deficiencies or material
            weaknesses.

            A control deficiency exists when the design or operation of a control does not allow
            management or employees, in the normal course of performing their assigned functions, to
            prevent or detect misstatements on a timely basis. A significant deficiency is a control
            deficiency, or combination of control deficiencies, that adversely affects the entity’s ability to
            initiate, authorize, record, process, or report financial data reliably in accordance with generally
            accepted accounting principles such that there is more than a remote likelihood that a
            misstatement of the entity’s financial statements that is more than inconsequential will not be
            prevented or detected by the entity’s internal control.

            A material weakness is a significant deficiency, or combination of significant deficiencies, that
            results in more than a remote likelihood that a material misstatement of the financial statements
            will not be prevented or detected by the entity’s internal control.

            Our consideration of internal control over financial reporting was for the limited purpose
            described in the first paragraph of this section and would not necessarily disclose all
            deficiencies in the internal control that might be material weaknesses or significant deficiencies.
            We did not identify any deficiencies in internal control over financial reporting that we consider
            to be material weaknesses or significant deficiencies, as defined above.

            We noted other nonreportable matters involving internal control and its operation that we will
            communicate in a separate management letter to CFTC management.


            SYSTEMS’ COMPLIANCE WITH FFMIA REQUIREMENTS

            Under the Federal Financial Management Improvement Act of 1996 (FFMIA), we are required to
            report whether the financial management systems used by CFTC substantially comply with the
            Federal financial management systems requirements, applicable Federal accounting standards,
            and the United States Standard General Ledger (SGL) at the transaction level. To meet this
            requirement, we performed tests of compliance with FFMIA Section 803(a) requirements.

            The objective of our audit was not to provide an opinion on compliance with FFMIA.
            Accordingly, we do not express such an opinion. The results of our work disclosed no instances
            in which CFTC’s financial management systems did not substantially comply with Federal
            financial management systems requirements, Federal accounting standards, or the SGL at the
            transaction level.


            COMPLIANCE WITH LAWS AND REGULATIONS

            Our tests of CFTC’s compliance with selected provisions of laws and regulations for fiscal 2009
            disclosed no instances of noncompliance that would be reportable under United States
            Government Auditing Standards or OMB audit guidance. However, the objective of our audit
            was not to provide an opinion on overall compliance with laws and regulations. Accordingly, we
            do not express such an opinion.



                                                              2





                                                                                                            CFTC 139
Management’s                                                                    Other Accompanying
                            Performance Section        Financial Section                                Appendix
Discussion & Analysis                                                           Information
      CONSISTENCY OF OTHER INFORMATION

      The MD&A is not a required part of the financial statements but is supplementary information
      required by accounting principles generally accepted in the United States of America. We have
      applied certain limited procedures, which consisted principally of inquiries of management
      regarding the methods of measurement and presentation of the required supplementary
      information. However, we did not audit the information and express no opinion on it.

      The introductory information, performance information and other accompanying information
      listed in the table of contents are presented for additional analysis and are not a required part of
      the financial statements. Such information has not been subjected to the auditing procedures
      applied in the audit of the financial statements and, accordingly, we express no opinion on them.


      OBJECTIVES, SCOPE AND METHODOLOGY

      Management is responsible for (1) preparing the financial statements in conformity with
      accounting principles generally accepted in the United States of America, (2) establishing,
      maintaining, and assessing internal control to provide reasonable assurance that the broad
      control objectives of the Federal Managers’ Financial Integrity Act (FMFIA) are met, and (3)
      ensuring that CFTC’s financial management systems substantially comply with FFMIA
      requirements, and (4) complying with other applicable laws and regulations.

      We are responsible for obtaining reasonable assurance about whether the financial statements
      are presented fairly, in all material respects, in conformity with accounting principles generally
      accepted in the United States. We are also responsible for: (1) obtaining a sufficient
      understanding of internal control over financial reporting and compliance to plan the audit, (2)
      testing whether CFTC’s financial management systems substantially comply with the three
      FFMIA requirements, (3) testing compliance with selected provisions of laws and regulations
      that have a direct and material effect on the financial statements and laws for which OMB audit
      guidance requires testing, and (4) performing limited procedures with respect to certain other
      information appearing in the Performance and Accountability Report.

      In order to fulfill these responsibilities, we (1) examined on a test basis, evidence supporting the
      amounts and disclosures in the financial statements, (2) assessed the accounting principles
      used and significant estimates made by management, (3) evaluated the overall presentation of
      the financial statements, (4) obtained an understanding of CFTC and its operations, including its
      internal control related to financial reporting (including safeguarding of assets), and compliance
      with laws and regulations (including execution of transactions in accordance with budget
      authority), (5) tested relevant internal controls over financial reporting, and compliance, and
      evaluated the design and operating effectiveness of internal control, (6) considered the design
      of the process for evaluating and reporting on internal control and financial management
      systems under FMFIA, (7) tested whether CFTC’s financial management systems substantially
      complied with the three FFMIA requirements, and (8) tested compliance with selected
      provisions of certain laws and regulations.

      We did not evaluate all internal controls relevant to operating objectives as broadly defined by
      the FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient
      operations. We limited our internal control testing to controls over financial reporting and
      compliance. Because of inherent limitations in internal control, misstatements due to error or
      fraud, losses, or noncompliance may nevertheless occur and not be detected. We also caution


                                                           3





140 CFTC
           Management’s                                                               Other Accompanying
                                     Performance Section        Financial Section                            Appendix
           Discussion & Analysis                                                      Information
                                                                     F I NAN C I AL S E C T I ON




           that projecting our evaluation to future periods is subject to risk that controls may become
           inadequate because of changes in conditions or that the degree of compliance with controls
           may deteriorate. In addition, we caution that our internal control testing may not be sufficient for
           other purposes.

           We did not test compliance with all laws and regulations applicable to CFTC. We limited our
           tests of compliance to selected provisions of laws and regulations that have a direct and
           material effect on the financial statements and those required by OMB audit guidance that we
           deemed applicable to CFTC’s financial statements for the fiscal year ended September 30,
           2009. We caution that noncompliance with laws and regulations may occur and not be detected
           by these tests and that such testing may not be sufficient for other purposes.

           We performed our audit in accordance with auditing standards generally accepted in the United
           States; the standards applicable to the financial audits contained in Government Auditing
           Standards, issued by the Comptroller General of the United States; and OMB guidance.

                                          *********************************

           This report is intended solely for the information and use of CFTC’s management, CFTC’s
           Office of Inspector General, OMB, the Government Accountability Office, and the U.S.
           Congress, and is not intended to be, and should not be, used by anyone other than these
           specified parties.


           a1
           Calverton, Maryland
           November 13, 2009




                                                            4





                                                                                                            CFTC   141
Management’s                                                                   Other Accompanying
                            Performance Section       Financial Section                                 Appendix
Discussion & Analysis                                                          Information
O t h e r A cco m p an y in g I nfo r m ation


   143	 Inspector General’s FY 2009 Assessment

   147	 Summary of Audit and Management Assurances
Inspector General’s FY 2009 Assessment




                                                  MEMORANDUM


      TO:                Gary Gensler
                         Chairman

      FROM:              A. Roy Lavik
                         Inspector General

      DATE:              November 16, 2009

      SUBJECT:           Inspector General’s Assessment Of The Most Serious Management
                         Challenges Facing the Commodity Futures Trading Commission (CFTC)


     Introduction

     The Reports Consolidation Act of 2000 (RCA) authorizes the CFTC to provide financial and
     performance information in a more meaningful and useful format for Congress, the President,
     and the public, through publication of the Performance and Accountability Report (PAR). The
     RCA requires the Inspector General to summarize the “most serious” management and
     performance challenges facing the Agency and to assess the Agency’s progress in addressing
     those challenges, all for inclusion in the PAR. This memorandum fulfills our duties under the
     RCA.

     In order to identify and describe the most serious management challenges, as well as the
     Agency’s progress in addressing them, we have relied on data contained in the CFTC financial
     statement audit and PAR, as well as our knowledge of industry trends and CFTC operations.
     Since Congress left the determination and threshold of what constitutes a most serious challenge
     to the discretion of the Inspector General, we applied the following definition in preparing this
     statement:

               Serious management challenges are mission critical areas or programs that have
               the potential for a perennial weakness or vulnerability that, without substantial
               management attention, would seriously impact Agency operations or strategic
               goals.


                                                                                                   CFTC 143
 Management’s                                                           Other Accompanying
                            Performance Section     Financial Section                          Appendix
 Discussion & Analysis                                                  Information
     This memorandum summarizes the results of the CFTC’s current financial statement audit,
     describes the Agency’s progress on last year’s management challenges, and finally discusses the
     most serious management challenges that we have identified:

         1. Harmonization of CFTC and Securities and Exchange Commission (SEC) Overlapping
            Regulations;
         2. CFTC’s Regulatory Model for the Swaps Derivatives Market; and,
         3. CFTC’s Regulatory Responsibilities over the Potential Carbon Emission Trading
            Markets.

     CFTC Financial Statement Audit Results

     In accordance with the Accountability of Tax Dollars Act, CFTC, along with numerous other
     federal entities, is required to submit to an annual independent financial statement audit by the
     Inspector General, or by an independent external auditor as determined by the Inspector General.
     The results of the fiscal year 2009 financial statement audit are discussed in the PAR, and the
     financial statement audit resulted in an unqualified audit opinion.

     CFTC’s Progress on Last Year’s Challenges

     Last year we identified the two most serious management challenges as: Modernization of
     Electronic Market Surveillance and the Efficient Acquisition and Integration of Skilled Human
     Capital to address expanding Congressional mandates. During fiscal year 2009 the Agency has
     addressed both issues. Over the past year the Agency has upgraded its servers and trade analysis
     systems to modernize and improve its surveillance of exchange traded futures and options
     contracts. As the Agency acquires additional regulatory responsibilities, we hope that the
     Agency is able to scale up its market surveillance capabilities. Since the start of FY 2009 the
     Agency has increased its staff by 100 new employees (a 21% increase). This dramatic influx of
     manpower should assist the Agency in meeting its expanding regulatory mission. The OIG is
     conducting a review of the recent recruitment in order to evaluate the effect of the CT pay
     system on recruitment and retention, which review will examine the skill sets of this new talent
     pool.

     Most Serious Management Challenges

     Three issues likely to challenge the CFTC in the coming year are: Congressional demand that the
     CFTC and SEC harmonize their regulation of overlapping financial products; a decision on the
     CFTC’s regulatory model for the swaps derivatives market; and expansion of CFTC’s regulatory
     responsibilities over the potential carbon emission trading markets.

     Harmonization of CFTC and SEC Overlapping Regulations

     On June 17, 2009, the White House released a White Paper on Financial Regulatory Reform
     calling on the SEC and CFTC to “make recommendations to Congress for changes to statutes




                                                         2


144 CFTC
           Management’s                                                          Other Accompanying
                                   Performance Section       Financial Section                         Appendix
           Discussion & Analysis                                                 Information
                                                                         OTHER A C C OM P ANY I NG I N F ORMAT I ON




        and regulations that would harmonize regulation of futures and securities.”1 Specifically, the
        White House recommended “that the CFTC and the SEC complete a report to Congress by Sept.
        30, 2009, that identifies all existing conflicts in statutes and regulations with respect to similar
        types of financial instruments and either explains why those differences are essential to achieve
        underlying policy objectives with respect to investor protection, market integrity, and price
        transparency or makes recommendations for changes to statutes and regulations that would
        eliminate the differences.”2

        In September 2009, the CFTC and SEC collaborated on an initial effort to begin implementation
        of the White House mandate, and released the required joint report on October 16, 2009. This
        effort identified numerous areas for operational coordination that will require substantial analysis
        and may yield a more efficient regulatory structure over the financial markets. The OIG looks
        forward to the resulting regulatory model that will define the future mission of this Agency.

        CFTC’s Regulatory Model for the Swaps Derivatives Market and the Need for Additional
        Human Capital

        Congressional deliberations over how the CFTC will regulate the swaps markets will determine
        the Agency’s need for additional human capital to regulate these markets. The Congressional
        Budget Office estimates that up to 235 employees3 may be needed by fiscal year 2011 to regulate
        central counterparty clearing of swaps. In our estimation, this would require a 40% increase over
        existing staffing levels--a considerable challenge for any organization. We believe both the
        intricacies of any forthcoming derivatives regulation and the acquisition of human capital to
        carry out the regulatory tasks will challenge the CFTC in the coming year.

        CFTC’s Regulatory Responsibilities over the Potential Carbon Emission Trading Markets

        Congress may soon move forward on new legislation to regulate carbon emissions trading. A
        recent Congressional Budget Office study projected that trading in carbon offsets could be a $60
        billion market in 2012.4 Presuming Congress assigns regulatory responsibility to the CFTC, the
        CFTC will require additional staffing increases in order to absorb this additional regulatory
        responsibility. We believe the increased responsibility will challenge the CFTC in the coming
        year.

        Conclusion

        The past year has continued to witness dramatic movement in the financial markets and the
        commodity futures markets. While the Agency has addressed the most serious management
        challenges identified last year, Congressional initiatives to overhaul regulation of over-the-

        1
          Financial Regulatory Reform: A New Foundation, p.14
        http://www.financialstability.gov/docs/regs/FinalReport_web.pdf .
        2
          Id., pg. 50.
        3
          H.R. 3795 Derivative Markets Transparency and Accountability Act of 2009 Congressional Budget Office Cost Estimate
        November 6, 2009 Page 3. http://www.cbo.gov/ftpdocs/107xx/doc10703/hr3795hfs.pdf.
        4
          H.R. 2454 American Clean Energy and Security Act of 2009 Congressional Budget Office Cost Estimate June 5, 2009 Page 11.
        http://www.cbo.gov/ftpdocs/102xx/doc10262/hr2454.pdf.




                                                                    3


                                                                                                                      CFTC 145
Management’s                                                                        Other Accompanying
                             Performance Section          Financial Section                                      Appendix
Discussion & Analysis                                                               Information
     counter derivatives and the carbon markets may provide a new set of challenges and greatly
     expand the work of the Agency. Our concern is that Congress adequately equip the Agency with
     sufficient resources to carry out all additional responsibilities efficiently and effectively, and that
     the Agency implement any new authority with skill and speed. During the coming year we will
     monitor the Agency’s progress addressing the most serious management concerns, while
     continuing to identify new challenges. The OIG takes its mission and authority seriously, and
     remains committed to promoting integrity, accountability and transparency at the CFTC.




                                                          4
146 CFTC
           Management’s                                                           Other Accompanying
                                    Performance Section       Financial Section                            Appendix
           Discussion & Analysis                                                  Information
                             Summary of Audit and
                            Management Assurances
Summary of FY 2009 Financial Statement Audit
Audit Opinion:                  Unqualified
Restatement:                    No
     Material Weakness          Beginning Balance               New              Resolved       Consolidated        Ending Balance
                                          0                      0                                                         0


Summary of Management Assurances
Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
Statement of Assurance:         Unqualified
     Material Weakness          Beginning Balance         New         Resolved     Consolidated      Reassessed      Ending Balance
                                          0                 0                                                              0
Effectiveness of Internal Control over Operations (FMFIA § 2)
Statement of Assurance:         Unqualified
     Material Weakness          Beginning Balance         New         Resolved     Consolidated      Reassessed      Ending Balance
                                          0                 0                                                              0
Conformance with Financial Management System Requirements (FMFIA § 4)
Statement of Assurance:         Systems conform to financial management system requirements
     Non-Conformance            Beginning Balance         New         Resolved     Consolidated      Reassessed      Ending Balance
     Federal Information
                                          0                 0                                                              0
        Security Act
Compliance with Federal Financial Management Improvement Act (FFMIA)
Overall Substantial                                Agency                                                Auditor
Compliance                                          Yes                                                   Yes
1. System Requirements                                                        Yes
2. Accounting Standards                                                       Yes
3. USSGL at Transaction Level                                                 Yes



                                                                                                                    CFTC 147
    Management’s                                                                    Other Accompanying
                             Performance Section          Financial Section                                     Appendix
    Discussion & Analysis                                                           Information
                    A p p en d i x


	149	 FY 2009 Commissioners

152	 Enforcement Litigation by Strategic Goal

171	 CFTC Information Technology Systems

172	 Glossary of Abbreviations and Acronyms
                             FY 2009 Commissioners

The Commissioners

Gary Gensler, Chairman


                             G    ary Gensler was sworn in
                                  as the Chairman of the
                             Commodity       Futures      Trading
                                                                      markets, public debt management, the banking system,
                                                                      financial services, fiscal affairs, Federal lending, Government
                                                                      Sponsored enterprises, and community development.
                             Commission on May 26, 2009.              In recognition of this service, he was awarded Treasury’s
                                                                      highest honor, the Alexander Hamilton Award.
                             Chairman     Gensler       previously
                             served at the U.S. Department of         Prior to joining Treasury, Chairman Gensler worked for 18
                             Treasury as Under Secretary of           years at Goldman Sachs, where he was selected as a partner;
                             Domestic   Finance     (1999-2001)       in his last role he was Co-head of Finance.
                             and as Assistant Secretary of
Financial Markets (1997-1999). He subsequently served as              Chairman Gensler is the co-author of a book, The Great
a Senior Advisor to the Chairman of the U.S. Senate Banking           Mutual Fund Trap, which presents common sense invest-
Committee, Senator Paul Sarbanes, on the Sarbanes-Oxley               ment advice for middle income Americans.
Act, reforming corporate responsibility, accounting and
                                                                      He is a summa cum laude graduate from the University of
securities laws.
                                                                      Pennsylvania’s Wharton School in 1978, with a Bachelor
As Under Secretary of the Treasury, Chairman Gensler was              of Science in Economics and received a Master of Business
the principal advisor to Treasury Secretary Robert Rubin              Administration from the Wharton School’s graduate
and later to Secretary Lawrence Summers on all aspects of             division in 1979. He lives with his three children outside
domestic finance. The office was responsible for formu-               of Baltimore, Maryland.
lating policy and legislation in the areas of U.S. financial




                                                                                                                     CFTC 149
     Management’s                                                                     Other Accompanying
                                  Performance Section         Financial Section                                  Appendix
     Discussion & Analysis                                                            Information
Michael V. Dunn, Commissioner                                      Mr. Dunn has had a long involvement in agricultural credit
                                                                   dating back to the late 1970s, when he was the Midwest

                           M        ichael V. Dunn was con-
                                    firmed by the U.S. Senate
                           on November 21, 2004, as a
                                                                   Area Director for the FmHA. He has been a loan officer and
                                                                   vice president of the Farm Credit Banks of Omaha and has
                                                                   served as a member of the Professional Staff of the Senate
                           Commissioner of the Commodity           Agricultural Committee, specializing in agricultural credit.
                           Futures Trading Commission. He          At the USDA, Mr. Dunn also served as a member of the
                           was sworn in December 6, 2004,          Commodity Credit Corporation and Rural Telephone Bank
                           to a term expiring June 19, 2006.       Board. He is a past member of the Iowa Development
                           On June 16, 2006 Commissioner           Commission and has served as the Chairman of the State
                           Dunn was nominated by President         of Iowa’s City Development Board.
Bush to a second term as Commissioner of the CFTC and
confirmed by the Senate on August 3, 2006. In a ceremo-            A native of Keokuk, Iowa and a current resident of Harpers
ny on August 23, 2006 at the Federal Court House in Des            Ferry, West Virginia, Mr. Dunn received his B.A. and M.A.
Moines, Iowa, attended by Senator Tom Harkin (D-IA),               degrees from the University of New Mexico.
Commissioner Dunn was sworn in. U.S. District Judge
Robert Pratt administered the oath of office.                      Jill E. Sommers, Commissioner



                                                                                           J
From January 20, 2009 – May 25, 2009, Commissioner                                            ill E. Sommers was sworn in
Dunn served as Acting Chairman for the agency.                                                as   a   Commissioner     of     the
                                                                                           Commodity Futures Trading Com-
Commissioner Dunn additionally serves as Chairman                                          mission on August 8, 2007 to a
and Designated Federal Official of the Commission’s                                        term that expired April 13, 2009.
Agricultural Advisory Committee (AAC).          The AAC was                                She was nominated on July 20,
created to advise the Commission on agricultural issues                                    2009 by President Barack Obama
surrounding the trading of commodity futures and options                                   to serve a five-year second term.
and to serve as a communications link with the agricultural
community. Commissioner Dunn is also the Chairman of                                       On      February     4,   2008      the
the Commission’s Forex Task Force. The task force objec-           Commission appointed Commissioner Sommers to
tive is to raise the public’s awareness of fraudulent activity     serve as Chairman and Designated Federal Official of the
in the retail foreign currency (forex) futures and option          Global Markets Advisory Committee, which meets peri-
markets and to highlight the Commission’s enforcement              odically to discuss issues of concern to exchanges, firms,
activities in this area.                                           market users and the Commission regarding the regula-
                                                                   tory challenges of a global marketplace. She also serves
Prior to joining the CFTC, Mr. Dunn served as Director, Office
                                                                   as the Commission designee to the Financial Literacy and
of Policy and Analysis at the Farm Credit Administration
                                                                   Education Commission, which is chaired by the Secretary
(FCA) where he managed the two FCA divisions respon-
                                                                   of Treasury and was established to improve the financial
sible for developing regulations and public policy positions
                                                                   literacy and education of U.S. citizens.
for applicable statutes as well as promoted the safety and
soundness of the Farm Credit System. Prior to this position,       Commissioner Sommers has worked in the commodity
Mr. Dunn served briefly as a member of the FCA Board.              futures and options industry in a variety of capacities
                                                                   throughout her career. In 2005 she was the Policy Director
Mr. Dunn has also served as Under Secretary of Agriculture
                                                                   and Head of Government Affairs for the International
for Marketing and Regulatory Programs, Acting Under
                                                                   Swaps and Derivatives Association, where she worked on a
Secretary for Rural Economic Community Development,
                                                                   number of over-the-counter derivatives issues.
and as Administrator of the Farmers Home Administration
(FmHA) at USDA.


150 CFTC
                  Management’s                                                                 Other Accompanying
                                             Performance Section       Financial Section                                Appendix
                  Discussion & Analysis                                                        Information
                                                                              A pp e n d I x




Prior to that, Ms. Sommers worked in the Government                    the Board. From 2001 to 2005, Mr. Chilton was a Senior
Affairs Office of the Chicago Mercantile Exchange (CME),               Advisor to Senator Tom Daschle, the Democrat Leader of
where she was instrumental in overseeing regulatory and                the United States Senate, where he worked on myriad issues
legislative affairs for the exchange.        During her tenure         including, but not limited to, agriculture and transporta-
with the CME, she had the opportunity to work closely                  tion policy.
with congressional staff drafting the Commodity Futures
Modernization Act of 2000.                                             From 1995 to 2001, Mr. Chilton was a Schedule C political
                                                                       appointee of President Clinton where he rose to Deputy
Commissioner Sommers started her career in Washington                  Chief of Staff to the U.S. Secretary of Agriculture Dan
in 1991 as an intern for Senator Robert J. Dole (R-KS),                Glickman. In this role, Mr. Chilton became a member of
working in various capacities until 1995. She later worked             the Senior Executive Service (SES)—government execu-
as a legislative aide for two consulting firms specializing in         tives selected for their leadership qualifications to serve in
agricultural issues, Clark & Muldoon, P.C. and Taggart and             the key positions just below the most senior Presidential
Associates.                                                            appointees. As an SES member, Mr. Chilton served as a
                                                                       liaison between Secretary Glickman and the Federal work
A native of Fort Scott, Kansas, Ms. Sommers holds a                    force at USDA.
Bachelor of Arts degree from the University of Kansas. She
and her husband, Mike, currently reside in the Washington,             From 1985 to 1995, Mr. Chilton worked in the U.S. House
DC area and have three children ages 7, 6, and 5.                      of Representatives where he served as Legislative Director
                                                                       for three different Members of Congress on Capitol Hill and
                                                                       as the Executive Director of the bipartisan Congressional
Bart Chilton, Commissioner                                             Rural Caucus.


                             B   art Chilton was sworn in
                                 as CFTC Commissioner in
                             August of 2007. He currently serves
                                                                       Mr. Chilton previously served on the Boards of Directors
                                                                       of Bion Environmental Technologies and the Association
                                                                       of Family Farms.
                             as the Chairman of the CFTC’s
                             Energy and Environmental Markets          Mr. Chilton was born in Delaware and spent his youth
                             Advisory Committee.         His career    in Indiana, where he attended Purdue University (1979–
                             spans 25 years in government              1982). He studied political science and communications
                             service—working on Capitol Hill           and was a collegiate leader of several organizations. Mr.
                             in the House of Representatives           Chilton and his wife, Sherry Daggett Chilton, reside on the
and in the Senate, and serving the Executive Branch during             Western Shore of the Chesapeake Bay.
the Clinton, Bush and Obama Administrations.

Prior to joining the CFTC, Mr. Chilton was the Chief of
Staff and Vice President for Government Relations at the
National Farmers Union where he represented average
family farmers. In 2005, Mr. Chilton was a Schedule C
political appointee of President Bush at the U.S. Farm Credit
Administration where he served as an Executive Assistant to




                                                                                                                     CFTC       151
     Management’s                                                                       Other Accompanying
                                   Performance Section         Financial Section                                 Appendix
     Discussion & Analysis                                                              Information
                         Enforcement Litigation
                            by Strategic Goal

Enforcement Litigation by Goal One                                bar against DFA; and order that DFA comply with certain
                                                                  undertakings, including 1) retaining a monitor to ensure
Manipulation, Attempted Manipulation                              that DFA does not engage in speculative trading and
& False Reporting                                                 that DFA’s Cheese Spot Call market cheese purchases are
                                                                  made for legitimate business purposes, 2) implementing
■■   In re Dairy Farmers of America, Inc., et al.                 a compliance and ethics program, and 3) providing future
                                                                  cooperation to the CFTC. The Commission received coop-
On December 16, 2008, the Commission simultaneously
                                                                  eration from the U.S. Department of Agriculture and the
filed and settled an administrative enforcement action
                                                                  CME Group’s Market Regulation Department in connec-
against the dairy marketing cooperative Dairy Farmers of
                                                                  tion with this matter. (See also discussion below, of a
America, Inc. (DFA), its former Chief Executive Officer
                                                                  related enforcement action, In re Otis, et al., CFTC Docket
Gary Hanman, and its former Chief Financial Officer,              No. 09-03 (CFTC filed Dec. 16, 2008).) In re Dairy Farmers
Gerald Bos, finding that they tried to manipulate the Class
                                                                  of America, Inc., et al., CFTC Docket No. 09-02 (CFTC filed
III milk futures contract and exceeding speculative position
                                                                  Dec. 16, 2008).
limits in that contract. Specifically, the Order finds that,
from May 21 through June 23, 2004, DFA, Hanman, and               Other Energy Market Misconduct
Bos attempted to manipulate the price of the Chicago
Mercantile Exchange’s (CME) June, July, and August 2004           ■■   CFTC v. Lee, et al.
Class III milk futures contracts through purchases of block
cheddar cheese on the CME Cheese Spot Call market. The            On November 18, 2008, the Commission filed a civil
order finds that the pricing relationship between the CME         enforcement action against David P. Lee, a former trader
block cheese market and the Class III milk futures market         for the Bank of Montreal (BMO), charging him with fraud
is well known throughout the industry, and the CME block          for mis-marking and mis-valuing the bank’s natural gas
cheese market price plays a significant part in establishing      options book and deceiving the bank.            The complaint
Class III milk futures prices. Additionally, the DFA order        also charges Optionable, Inc. (Optionable), and its former
finds that on several days in 2004, DFA’s speculative Class       senior executives Kevin Cassidy and Edward O’Connor,
III milk futures contracts exceeded the CME’s speculative         with deceiving BMO. Robert B. Moore Jr., Lee’s former
position limit, in violation of the Commodity Exchange            supervisor, is also named as a defendant with the CFTC.
Act. The Commission assessed sanctions, including: a $12          The CFTC complaint alleges that Lee unlawfully mis-
million civil monetary penalty; a five-year futures trading       marked his natural gas options positions between at least
bar against Hanman and Bos; two-year speculative trading          May 2003 and May 2007 and mis-valued other natural


152 CFTC
                 Management’s                                                                Other Accompanying
                                            Performance Section        Financial Section                                Appendix
                 Discussion & Analysis                                                       Information
                                                                               A pp e n d I x




gas options positions from October 2006 until May 2007.                Enforcement Litigation by Goal Two
The complaint alleges that Lee inflated the value of his
book so that it would appear to BMO that his trading                   Commodity Pools, Hedge Funds, Commodity Pool
was more profitable than it was in reality. As a result of             Operators, and Commodity Trading Advisors
Lee’s mis-marking, the BMO natural gas book was unlaw-
                                                                       ■■   CFTC v. Abad, et al.
fully inflated by approximately $221,875,297 Canadian
dollars as of January 31, 2007 and $257,801,706 Canadian               On December 1, 2008, the Commission filed a civil enforce-
dollars as of March 30, 2007. By inflating the value of his            ment action against Paul Abad and his company, Thirteen
book through both his mis-marking and mis-valuation                    Thirty-Two, Inc. (1332), charging them with misappro-
activities, Lee generated a larger bonus for himself and his           priating customer funds and concealing trading losses
supervisor, Moore, while hiding losses he had incurred as              in connection with operating a fraudulent commodity
a result of his unprofitable trading, the complaint alleges.           pool.       The CFTC complaint alleges that, from approxi-
The complaint also alleges that Moore failed to implement              mately February 2001 through early 2008, the defendants
an adequate level of supervision over Lee by knowingly                 solicited at least $400,000 from the general public to
allowing Lee and others to violate BMO’s ethical standards             trade commodity futures contracts through a commodity
and disregarding salient facts that, if they had been investi-         pool operated by 1332 and through individual managed
gated, could have led to the detection of Lee’s fraud earlier.         accounts, which Abad managed. The complaint also asserts
                                                                       that the defendants sustained approximately $122,000 in
Further, Lee and various brokers allegedly deceived BMO                trading losses, returned some funds to pool participants,
by fabricating purportedly independent broker quotes                   and misappropriated approximately $230,000. Throughout
delivered to BMO’s back office for price verification. BMO             the period, as alleged, defendants routinely sent false state-
employed a process to ensure that trader prices used to                ments to pool participants and clients, reflecting profitable
value BMO’s trading books were reasonably in line with                 returns from defendants’ trading on their behalf. During
market prices, and part of that process involved the collec-           2008, as pool participants and clients demanded that
tion of price quotes from market brokers.               As alleged,    Abad return their funds, Abad purportedly blamed 1332’s
beginning in at least 2003, Lee and several BMO brokers,               introducing broker for causing delays and created fictitious
including Cassidy and O’Connor—all of whom worked                      emails from an employee of the introducing broker indi-
for Optionable—knowingly deceived and defrauded BMO                    cating a trading account balance of over $180,000 in an
employees, who verified the value of Lee’s natural gas book.           account in 1332’s name. In reality, as alleged, that partic-
Since BMO personnel relied upon the independence of                    ular account had a balance of $110 and 1332’s only other
such broker quotes, they used these quotes to verify Lee’s             account with the introducing broker had a zero balance.
valuation of his natural gas book and therefore believed               On the same day the complaint was filed, the court entered
Lee’s trading to be profitable.                                        a statutory restraining order that, in part, preserved books
                                                                       and records. The Commission received cooperation from
On the same day, the Commission filed its enforcement                  the Orange County Sheriff’s Department and the California
action, the Manhattan District Attorney Office and the U.S.            Department of Corporations in connection with this
Attorney for the Southern District of New York also today              matter. CFTC v. Abad, et al., No. SACV 08-1352-AG(RNBx)
filed a criminal indictment against Cassidy. The Federal               (C.D. Cal. filed Dec. 1, 2008).
Reserve Board and the SEC also filed related actions. The
Commission received cooperation from the Manhattan                     ■■   In re Innovative Capital Management, LLC, et al.
District Attorney’s Office, Federal Bureau of Investigation
(FBI), U.S. Attorney’s Office for the Southern District of             On December 19, 2008, the Commission simultane-
New York, Federal Reserve Board, SEC, and the NYMEX in                 ously filed and settled an administrative enforcement
connection with this matter. CFTC v. Lee, et al., No. 08 CIV           action against registered CPO and CTA Innovative
9962 (S.D.N.Y. filed Nov. 18, 2008).                                   Capital Management, LLC (Innovative), and its principal,
                                                                       registered AP, and sole owner, Yehuda Belsky (Belsky),
                                                                       finding they committed fraud in their operation of a

                                                                                                                     CFTC 153
     Management’s                                                                         Other Accompanying
                                  Performance Section          Financial Section                                 Appendix
     Discussion & Analysis                                                                Information
commodity pool. Specifically, the CFTC order finds that         fraud, Forte failed to register with the CFTC and provided
from approximately September 2006 through February              quarterly account statements to pool participants showing
2008, Belsky and Innovative fraudulently obtained funds         consistently profitable returns of the pool and eventually
totaling $1,250,000 from five commodity pool partici-           reporting that as of late 2008, the pool had increased in
pants. Instead of using the solicited funds to purchase         value to over $154 million. In reality, however, Forte was
commodity futures and/or options contracts—as repre-            neither successfully trading nor making an effort to do so.
sented in solicitation materials—Belsky and Innovative          When trading, Forte purportedly sustained net losses of at
misappropriated at least $385,000 of those funds, created       least $3 million trading almost exclusively the S&P 500
false commodity pool account statements misstating the          futures contract on behalf of the pool. However, during
net asset value and monthly rates of return of the pool         a 34-month period from 2004 into 2007, Forte purport-
and then delivered these fraudulent statements to pool          edly conducted little to no trading at all. Forte allegedly
participants. The order also finds that, during a routine       failed to deposit any funds into the trading account during
audit by the NFA, Belsky and Innovative provided it with        a 53-month period from October 2002 to February 2007.
fraudulent account statements purportedly prepared by the       On the same day the complaint was filed, the court entered
futures commission merchant where the pool’s account            a statutory restraining order freezing assets and preserving
was maintained and, fraudulent bank statements that             books and records. The Commission received cooperation
falsely inflated the amount of pool funds on deposit at         from the Fort Worth Regional Office of the SEC in connec-
that bank. The Commission assessed sanctions including:         tion with this matter. CFTC v. Forte, No. 09-0064PD (E.D.
a cease and desist order; permanent trading and registra-       Pa. filed Jan. 7, 2009).
tion bans; restitution ($1,250,000, jointly and severally);
and a civil monetary penalty ($100,000, jointly and sever-      ■■   CFTC v. Agape World, Inc., et al.
ally).   The Commission received cooperation from the
                                                                On January 27, 2009, the Commission filed a civil injunc-
NFA in connection with this matter. In re Innovative Capital
                                                                tive action against Nicholas Cosmo, Agape World, Inc.
Management, LLC, et al., CFTC Docket No. 09-04 (CFTC
                                                                (Agape World), and Agape Merchant Advance LLC (Agape
filed Dec. 19, 2008).
                                                                Advance) charging them with defrauding customers of tens
■■   CFTC v. Forte                                              of millions of dollars. In its enforcement action, the CFTC
                                                                alleges that defendants solicited tens of millions of dollars
On January 7, 2009, the Commission filed a civil injunctive     from customers for the stated purpose of investing in bridge
action against Joseph S. Forte charging him with operating      loans and merchant advances. Defendants then misappropri-
a $50 million Ponzi scheme in connection with the Joseph        ated a significant portion of those funds to engage in unau-
Forte, L.P. commodity futures pool. The CFTC’s complaint        thorized commodity futures trading. Defendants’ unauthor-
charges Forte with: 1) solicitation fraud; 2) misappropria-     ized commodity futures trading resulted in tens of millions
tion of pool funds; 3) sending customers false account          of dollars in losses, none of which were ever disclosed to
statements; and 4) failing to register with the CFTC as a       investors. In 1999, Cosmo, then a licensed stock broker and
commodity pool operator. The CFTC complaint alleges             account executive, pleaded guilty to mail fraud after admit-
that from at least February 1995, Forte fraudulently solic-     ting to commingling funds, purposely misleading inves-
ited approximately $50 million from dozens of individuals       tors, and forging documents. Cosmo was sentenced to a
and entities to participate in a commodity futures pool to      21-month prison term followed by three years of supervised
trade, among other things, S&P 500 stock index futures,         release and payment of restitution. On the same day the
foreign currency futures, and metal futures. In soliciting      complaint was filed, the court entered a statutory restraining
prospective and existing participants, Forte claimed he was     order freezing assets and preserving books and records. The
a successful commodity futures trader and that his pool         Commission received cooperation from the U.S. Attorney’s
had a successful track record. For example, in a solicita-      Office for the Eastern District of New York, the U.S. Postal
tion memorandum directed to a church, Forte represented         Inspection Service, the FBI, and the SEC in connection with
that the eight-year annual return on the fund ranged from       this matter. CFTC v. Agape World, Inc., et al., No. 09 0351
18.52 percent to 36.19 percent. To conceal his ongoing          (E.D.N.Y. filed Jan. 27, 2009).


154 CFTC
                Management’s                                                                Other Accompanying
                                          Performance Section        Financial Section                                Appendix
                Discussion & Analysis                                                       Information
                                                                        A pp e n d I x




■■   CFTC v. Crossfire Trading, LLC, et al.                      statements, failed to disclose the fund’s actual multi-
                                                                 million trading losses, and operated the fund as a Ponzi
On February 5, 2009, the Commission filed a civil injunc-        scheme. Additionally, defendants allegedly received over
tive action against Charles “Chuck” E. Hays and his              $1 million in management fees based on false reports of
company, Crossfire Trading, LLC (Crossfire), charging            trading profits.     According to the complaint, Trimble’s
them with fraud and misappropriation in connection with          activities were exposed in late January 2009, after Trimble
a commodity pool Ponzi scheme. The CFTC’s complaint              provided the FBI a fictitious 2008 year-end trading account
alleges that, since January 2006, Hays and his company,          showing millions of dollars in trading profits that did not
Crossfire, a purported commodity pool, fraudulently solic-       square with actual trading statements issued by Trimble’s
ited and accepted more than $5.5 million from at least three     brokerage firm that disclosed millions of dollars in trading
individuals and a charitable foundation for the purpose of       losses. Trimble subsequently stated in an email sent to
trading stock index and crude oil futures. Hays, according       his brokerage firm, and addressed to “Family, Friends, and
to the complaint, convinced at least one person to invest        Clients,” that he had not been “honest” about the hedge
in Crossfire by representing verbally and in fabricated          fund’s trading results, explaining: “The reason our balances
account statements—issued on Crossfire’s letterhead—             are off is because I could not look myself in the mirror and
that Crossfire earned consistent profits trading commodity       face all of you and notify you that in the last quarter of
futures with no losing months. However, as charged in the        2008 we lost all the profits for the year and then some.”
complaint, Crossfire has never had an active commodity           On March 6, 2209, the court entered a Consent Order of
futures trading account. Additionally, in an attempt to alle-    Preliminary injunction freezing assets and preserving books
viate at least two investors’ suspicions as to what Hays was     and records. The Commission received cooperation from
actually doing with their money, Hays provided an account        the SEC and the Financial Crimes Enforcement Network in
statement for the Crossfire pool fabricated to appear as if      connection with this matter. CFTC v. Trimble, et al., No.
it were issued by a legitimate brokerage company by using        5:09-cv-00154-D (W.D. Okla. filed Feb. 9, 2009).
that brokerage’s letterhead. This false account statement
indicated that Crossfire maintained a trading account at the     ■■   CFTC v. Brookshire Raw Materials Management,
brokerage with over $37 million. As alleged, that account             LLC, et al.
is nonexistent. Hays was arrested by Federal authorities on
                                                                 On February 19, 2009, the Commission filed a civil injunc-
the same day the Commission’s complaint was filed. The
                                                                 tive action against commodity pool operator, Brookshire
Commission received cooperation from the U.S. Attorney’s
                                                                 Raw Materials Management, LLC (BRM), and its princi-
Office for the District of Minnesota, the U.S. Department
                                                                 pals John M. Marshall and Stephen Z. Adams, Brookshire
of Justice, the U.S. Postal Inspection Service, and the FBI
                                                                 Raw Materials Group, Inc. (BRMG) and Brookshire and
in connection with this matter. CFTC v. Crossfire Trading,
                                                                 Company, Ltd. (BCL) charging the defendants with misap-
LLC, et al., No. 09 CIV 259 DWF/AJB (D. Minn. filed Feb.
                                                                 propriating more than $4.6 million of customer funds and
5, 2009).
                                                                 destroying records, among other things. As alleged in the
■■   CFTC v. Trimble, et al.                                     CFTC’s complaint, between September 2006 and December
                                                                 2008, Marshall, Adams, and BRM accepted millions of
On February 9, 2009, the Commission filed a civil injunc-        dollars from customers for investment in a commodity
tive action against Mark S. Trimble and his company,             pool known as the Trust and operated as a Ponzi scheme.
Phidippides Capital Management LLC (PCM) charging                The Trust is governed by a Private Placement Memorandum
them with operating a private hedge fund named                   (PPM), which, among other things, states that each fund
Phidippides Capital LP (Phidippides Capital) as a Ponzi          in the commodity pool will invest customer proceeds in
scheme.      The CFTC’s complaint alleges that, from at          a portfolio of commodity futures and forward contracts
least 2005, Trimble and PCM operated a $34 million               designed to approximately replicate the investment meth-
hedge fund with approximately 60 investors and traded            odology of corresponding indices developed and managed
partly in the name of Phidippides Capital. Since at least        by BRMG. However, as alleged, Marshall and Adams, as
October 2007, defendants allegedly issued false account          agents and officers of BRM, BRMG, and BCL withdrew more

                                                                                                              CFTC 155
      Management’s                                                                  Other Accompanying
                                Performance Section      Financial Section                                Appendix
      Discussion & Analysis                                                         Information
than $5 million from the Trust account and wired those          Bloom, instead of following the purported strategy of the
funds to bank accounts in Canada, mostly in the care of         Fund, misappropriated at least $13 million from the Fund
Marshall. Under the PPM, the only authorized withdrawals        for the personal use of Bloom and his wife. The CFTC’s
from the Trust are fees, expenses, and participant redemp-      complaint also alleges that after taking over $13 million
tions. As alleged, management fees and expenses for the         for his personal use, in 2004 and 2005, Bloom invested
relevant time period totaled only $401,708. Furthermore,        approximately $17 million of Fund assets in a high risk
the CFTC complaint charges that Marshall and Adams did          commodity futures and options fund (PAAF) operated
not disclose their unauthorized withdrawal of more than         by PAAM. This investment represented at least half of the
$4.6 million in customer funds from the commodity pool          assets of Fund and was contrary to the moderate risk asset
and issued false monthly pool statements overstating the        allocation strategy Bloom represented was the strategy for
value of the pool while hiding the withdrawals. According       the Fund. Fund participants only learned of the concen-
to the complaint, in December 2008, Marshall and Adams          trated PAAF investment after the CFTC sued and shut down
closed their offices, destroyed company data stored on          PAAM and Eustace in late June 2005. Bloom also failed to
computer servers, and failed to acknowledge redemption          inform Fund participants that he had received referral fees
requests. BRM allegedly has failed to produce required          totaling $1.6 million for referring prospective investors
financial documents regarding the operation of the              to PAAM, including Fund. Allegedly, Bloom also never
commodity pool in response to recent CFTC requests. On          informed Fund participants that a receiver appointed in
the same day the complaint was filed, the court entered a       the CFTC action had distributed approximately $9 million
statutory restraining order freezing assets and preserving      in distributions in the name of Fund or that Bloom had
books and records. The Commission received cooperation          compromised the North Hills’ interest in the PAAF distri-
from the Ontario Securities Commission, the NFA, and the        butions through a third party agreement. Bloom also never
Financial Crimes Enforcement Network in connection with         disclosed that he had received approximately $8 million
this matter. CFTC v. Brookshire Raw Materials Management,       in the name of the Fund pursuant to the third party agree-
LLC, e al., No. 09CV1056 (N.D. Ill. filed Feb. 19, 2009).       ment. Bloom has not accounted for those funds. The CFTC
                                                                complaint further alleges that Bloom concealed his frauds
■■   CFTC v. Bloom, et al.                                      from Fund participants by sending out monthly account
                                                                statements showing profitable results and providing written
On February 25, 2009, the Commission filed a civil injunc-
                                                                updates on the progress of the CFTC’s action against PAAM
tive action against fund manager Mark Evan Bloom and his
                                                                and receiver’s efforts to recover assets. Based on Bloom’s
firm, North Hills Management LLC (NHM) charging them
                                                                rosy statements and updates, Fund participants expected
with: misappropriating over $13 million of the assets of a
                                                                to receive distributions from the receivership estate. On
fund they managed, North Hills LP. (Fund), and investing
                                                                the same day the complaint was filed, the court entered a
Fund assets contrary to the represented investment strategy.
                                                                statutory restraining order freezing assets and preserving
Bloom and NHM are also charged with defrauding Fund
                                                                books and records. The Commission received coopera-
participants in connection with distributions made in the
                                                                tion from the SEC, U.S. Attorney’s Office for the Southern
name of the Fund in a 2005 CFTC anti-fraud action brought
                                                                District of New York and the NFA in connection with this
against another fund operator, the Philadelphia Alternative
                                                                matter. CFTC v. Bloom, et al., No. 09 CV 1751 (S.D.N.Y.
Asset Management Company (PAAM) and Paul Eustace.
                                                                filed Feb. 25, 2009).
(See CFTC v. Philadelphia Alternative Asset Management
Company, et al., No. 05cv2973 (E.D. Pa. June 21, 2005).)        ■■   CFTC v. Walsh, et al.
According to the CFTC’s complaint, Bloom originally
formed the Fund and created NHM, with the purported             On February 25, 2009, the Commission filed a civil injunc-
design of an enhanced stock index fund, trading, among          tive action against Stephen Walsh and Paul Greenwood
other things, commodity futures contracts and options. In       charging them with misappropriating at least $553 million
2001, Bloom converted the Fund into a “fund of funds”           from commodity pool participants in connection with
(an investment strategy of holding a portfolio of other         entities they owned and controlled: defendants Westridge
investment funds).      The CFTC’s complaint alleges that       Capital Management, Inc.; WG Trading Investors, LP;

156 CFTC
                 Management’s                                                                Other Accompanying
                                          Performance Section        Financial Section                             Appendix
                 Discussion & Analysis                                                       Information
                                                                         A pp e n d I x




and WGIA, LLC. At the same time, the Office of the U.S.           iting prospective and existing participants, Palmer alleg-
Attorney for the Southern District of New York filed a            edly claimed that he was a successful commodity futures
criminal complaint against Walsh and Greenwood. The               trader, that his pool had a successful track record, and that
CFTC complaint alleges that, from at least 1996, Walsh            the pool achieves positive returns of as much as seven
and Greenwood fraudulently solicited approximately                percent monthly and 20 percent annually. The complaint
$1.3 billion from individuals and entities through                alleges that, in reality, Palmer was neither successfully
Westridge Capital Management, WG Trading Investors, LP,           trading nor making an effort to do so. As alleged, despite
and other entities. The complaint charges that the defen-         taking in at least $40 million in participant funds since
dants defrauded victims by falsely depicting that all pool        September 2000, Palmer only placed $4.5 million in his
participants’ funds would be employed in a single invest-         trading accounts. Moreover, Palmer admitted in sworn
ment strategy that consisted of index arbitrage. However,         testimony that he used participants’ funds to pay prin-
pool participants’ funds were transferred to another entity       cipal and purported profitable returns to existing pool
from which Walsh and Greenwood siphoned funds,                    participants in a manner typical of a Ponzi scheme. He
according to the complaint. According to the complaint,           also admitted that he misappropriated pool funds for his
to cover-up their misappropriation of pool participants’          personal use for the construction of a new home, to pay
funds, Greenwood and Walsh manufactured promissory                credit card bills, and purchase snowmobiles. On the same
notes to present the appearance that pool participants’           day the complaint was filed, the court entered a statutory
funds had been loaned to them. Walsh and Greenwood                restraining order freezing assets and preserving books and
allegedly misappropriated approximately $553 million in           records. The Commission received cooperation from the
pool participants’ funds. More than $160 million was used         Idaho Department of Finance and the SEC in connection
for Walsh and Greenwood’s personal expenses, including            with this matter. CFTC v. Trigon Group, et al., No. CV-09-
purchasing rare books, horses, Steiff teddy bears for as          76-S-EJL (D. Idaho filed Feb. 26, 2009).
much as $80,000, and a $3 million residence for Walsh’s
ex-wife. On the same day the complaint was filed, the court       ■■   CFTC v. Centurion Asset Management, Inc., et al.
entered a statutory restraining order freezing assets and
                                                                  On March 3, 2009, the Commission filed a civil injunc-
preserving books and records. The Commission received
                                                                  tive action against Dennis R. Bolze and his company,
cooperation from the NFA, the Office of the U.S. Attorney
                                                                  Centurion Asset Management, Inc. (CAM) charging them
for the Southern District of New York, the FBI, and the
                                                                  with fraudulently soliciting commodity pool participants,
SEC in connection with this matter. CFTC v. Walsh, et al.,
                                                                  misappropriating participants’ funds, and issuing false
No. 09 CV 1749 (S.D.N.Y. filed Feb. 25, 2009).
                                                                  statements to participants in a $20 million fraud involving
■■   CFTC v. Trigon Group, et al.                                 at least 100 participants in the United States and Europe in
                                                                  a six-year-old scheme. The CFTC complaint alleges that,
On February 26, 2009, the Commission filed a civil injunc-        from at least spring 2002 through the date the complaint
tive action against Daren L. Palmer and the commodity             was filed, the defendants misappropriated pool partici-
futures pool he operated, Trigon Group, Inc., charging            pant funds and operated the commodity pool as a Ponzi
defendants with solicitation fraud and misappropriation           scheme. Defendants allegedly misrepresented to prospec-
of pool funds for personal use and for use in running a           tive pool participants that Bolze’s trading generated annual
Ponzi scheme involving approximately $40 million. In              profits of between from 15 and 20 percent and issued false
addition, Palmer is charged with sending customers false          account statements to give credibility to these misrepresen-
account statements and failing to register with the CFTC          tations. According to the complaint, despite accepting over
as a commodity pool operator.         The CFTC complaint          $20 million, the defendants’ actual commodity futures
alleges that, from at least September 2000 through present,       trading accounts never exceeded $250,000 in equity, and
Palmer fraudulently solicited approximately $40 million           Bolze’s trading during the relevant time resulted in approx-
from dozens of individuals and entities to participate in         imately $800,000 of trading losses. According to the CFTC
a commodity futures pool to trade commodity futures               complaint, Bolze also failed to disclose to prospective pool
or options on commodity futures contracts.           In solic-    participants that he plead guilty in 2001 to four counts of


                                                                                                                 CFTC 157
      Management’s                                                                 Other Accompanying
                               Performance Section        Financial Section                                  Appendix
      Discussion & Analysis                                                        Information
failing to file sales tax returns and failing to pay sales tax,   Canada. The Complaint alleges that the defendants in this
resulting in a six-year prison sentence. The prison sentence      Ponzi scheme, from at least February 2006, misrepresented
was ultimately suspended, and Bolze was placed on super-          to prospective pool participants that Driver’s trading gener-
vised probation and fined.          The Commission received       ated monthly profits of around 20 percent and issued false
cooperation from the SEC and the Comision Nacional del            account statements to give credibility to these misrepre-
Mercado de Valores in connection with this matter. CFTC           sentations. According to the complaint, despite accepting
v. Centurion Asset Management, Inc., et al., No. 3:09-CV-88       over $13.5 million, the defendants used only about $3.7
(VARLAN/SHIRLEY) (E.D. Tenn. Filed March 4, 2009).                million for trading during the relevant time period, and
                                                                  Driver’s trading during that time resulted in approximately
■■   CFTC v. Donnelly, et al.                                     $3.5 million of trading losses, or 95 percent of the funds
                                                                  invested.     According to the complaint, the defendants
On March 11, 2009, the Commission filed a civil injunc-
                                                                  never informed the pool participants that they had traded
tive action against John M. Donnelly and three legal
                                                                  only a portion of their funds and never informed them of
entities he created, Tower Analysis Inc., Nasco Tang Corp.,
                                                                  the trading losses. Moreover, Driver misappropriated pool
and Nadia Capital Corp., charging them with operating a
                                                                  funds for his personal expenses, including cash withdrawals
Ponzi scheme involving more than $10 million. The CFTC
                                                                  at Las Vegas casinos. In addition, the complaint charges
complaint alleges that Donnelly solicited individuals to
                                                                  Driver and Axcess Automation each with illegally acting
invest in U.S. Treasury Note futures and S&P 500 futures.
                                                                  as an unregistered CPO and Axcess Fund Management, a
It further asserts that Donnelly operated three commodity
                                                                  registered CPO, with failing to keep and produce, upon
pools for over seven years; however, neither Donnelly, nor
                                                                  request by the CFTC, required books and records. On
any employee or agent of the other proposed defendants,
                                                                  the same day the complaint was filed, the court entered a
actively traded the pools’ funds. Indeed, despite represen-
                                                                  statutory restraining order freezing assets and preserving
tations that his trading strategy required daily trading of
                                                                  books and records. The Commission received cooperation
the accounts, Donnelly only executed seven trades over
                                                                  from the SEC, the Ontario Securities Commission, and the
the course of seven years. Despite the absence of trading,
                                                                  U.S. Attorney’s Office for the Central District of California
the investors still lost their funds because Donnelly misap-
                                                                  in connection with this matter. CFTC v. Driver, et al., No.
propriated at least $1 million for himself and his wife.
                                                                  SACV09-0578 (C.D. Cal. filed May 14, 2009).
Donnelly may have received another $1.7 million from
pool funds to which he was not entitled. On the same
day the complaint was filed, the court entered a statutory        ■■   CFTC v. Strongbow Investments GP, LLC, et al.
restraining order freezing assets and preserving books
                                                                  On July 1, 2009, the Commission filed a civil injunctive
and records. The Commission received cooperation from
                                                                  action against Patrick J. Dailey and his company Strongbow
the SEC and the U.S. Attorney’s Office for the Western
                                                                  Investments GP, LLC (Strongbow) charging them with
District of Virginia in connection with this matter. CFTC
                                                                  operating a multi-million dollar fraudulent commodity
v. Donnelly, et al., No. 3:09-CV-00016 (W.D. Va. filed March
                                                                  pool and failing to maintain appropriate recordkeeping.
11, 2009).
                                                                  Specifically, the complaint alleges that Strongbow, a
■■   CFTC v. Driver, et al.                                       registered CPO, and Dailey solicited at least $17 million
                                                                  from approximately 22 members of the general public
On May 14, 2009, the Commission filed a civil injunctive          for the purported purpose of investing in Strongbow
action against Gordon A. Driver and his companies, Axcess         and Strongbow Investments Fund II a commodity pool
Automation LLC (Axcess Automation) and Axcess Fund                operated by Strongbow. The complaint further alleges that
Management LLC (Axcess Fund Management), charging                 instead of using all investor money to trade commodity
them with fraudulently soliciting commodity pool partici-         futures and options, Strongbow and Dailey commingled
pants, misappropriating participants’ funds, and issuing          investor funds with funds in bank and trading accounts
false statements to participants in a $13.5 million fraud         held in the names of Strongbow, Dailey, and third parties.
involving over 100 participants in the United States and          The complaint also alleges that approximately $2.1 million


158 CFTC
                 Management’s                                                                Other Accompanying
                                            Performance Section        Financial Section                               Appendix
                 Discussion & Analysis                                                       Information
                                                                          A pp e n d I x




in commingled funds are currently unaccounted for.                 Commodity Trading Advisors, Managed Accounts,
Further, the complaint alleges that during a surprise audit        and Trading Systems
by the NFA, defendants had only limited documentation to
support their operations and were unable to produce other          ■■   CFTC v. Zurich Futures & Options, Inc., et al.
statutorily required records. For example, defendants could
                                                                   On January 15, 2008 the Commission filed a civil injunc-
not provide documentation for: 1) the total amount of
                                                                   tive action against Diego Mariano Rolando of Buenos Aires,
money invested in Strongbow or the pool; 2) how investor
                                                                   Argentina (a/k/a Roclerman and ROC d/b/a IA Trading.
funds were allocated between Strongbow, the pool, investor
                                                                   com, Inc. (IA Trading)), charging Rolando with defrauding
distributions, redemptions, or agreements; or 3) any docu-
                                                                   hundreds of customers worldwide in a $43.8 million
mentation of the funds that Dailey borrowed from the
                                                                   investment scheme. The complaint alleges that Rolando:
pool. On the same day the complaint was filed, the court
                                                                   1) fraudulently traded customer funds in commodity
entered a statutory restraining order freezing assets and
                                                                   futures and options contracts; 2) provided false account
preserving books and records. The Commission received
                                                                   statements to customers; and 3) supplied false customer
cooperation from the NFA in connection with this matter.
                                                                   contact information to a U.S. clearing firm to hide his
CFTC v. Strongbow Investments GP, LLC, et al., No. A09CA
                                                                   fraudulent scheme from customers. In all, the complaint
497SS (W.D. Tex. filed June 30, 2009).
                                                                   alleges that Rolando solicited approximately $43.8 million
■■   CFTC v. Ross, et al.                                          from more than 400 customers in South America, Europe,
                                                                   and the United States. Specifically, the complaint alleges
On September 2, 2009, the Commission filed a civil injunc-         that Rolando utilized the Web sites http://www.IATrading.com
tive action against Maize Capital Management, LLC (Maize           and http://www.Roclerman.com to solicit customers to open
Capital) and its chief operating officer, Scott M. Ross,           trading accounts.       He allegedly told customers that he
charging them solicitation fraud and issuing false state-          would trade securities on their behalf, however he traded
ments involving a $6 million commodity pool. Another               tens of millions of dollars in customer funds in commodity
of Ross’ companies, Maize Asset Management, LLC (Maize             futures and options contracts, without customer knowl-
Asset), along with Maize Capital and Ross, was charged             edge or authorization to trade in the commodity markets.
with improper handling of customer funds.            According     Indeed, according to the complaint, it appears that some
to the complaint, Maize Capital and Ross provided pool             customers signed and completed account documents
participants and prospective participants with written             which limited the defendant’s authority to trade securi-
documents that contained false and misleading state-               ties. The complaint also charges that to further promote
ments in soliciting funds for and/or operating the pool.           his scheme, Rolando allegedly provided false customer
Specifically, the complaint charges that Maize Capital and         contact information and false trading advisor names to
Ross, from at least June 18, 2008 through at least January         the U.S. clearing firm holding customers’ accounts and
14, 2009, misrepresented facts regarding the qualifica-            clearing trades to circumvent customer protection policies
tions of investors who would participate in the commodity          and programs. Rolando provided false contact informa-
pool and the minimum amount that would be accepted                 tion on as many as 200 of the 420 customer accounts.
for investment in the pool. Additionally, they allegedly           Finally, Rolando is charged with providing his customers
misrepresented Maize Capital’s legal status as an “exempt”         with written materials containing misrepresentations and
commodity pool operator under the CEA and the existence            omissions of material fact regarding their investments and
and identity of the pool’s administrator and auditor. The          IA Trading’s role and business relationship with the U.S.
complaint also alleges that Maize Capital and Ross caused          clearing firm. On the same day the complaint was filed,
periodic account statements to be sent to various pool             the court entered a statutory restraining order freezing
participants that misrepresented the profitability of their        assets and preserving books and records. CFTC v. Rolando,
accounts. CFTC v. Ross, et al., No. 1:09-cv-05443 (N.D. Ill.       No. 3:08-cv-00064-MRK (D. Conn. filed Jan. 15, 2008).
filed Sept. 2, 2009).




                                                                                                                 CFTC 159
      Management’s                                                                  Other Accompanying
                               Performance Section         Financial Section                                 Appendix
      Discussion & Analysis                                                         Information
■■   CFTC v. Guardian Futures, Inc., et al.                         in home improvements and furnishings, including a
                                                                    $500,000 home movie theater, and to lease 2,500 square
On April 8, 2009, the Commission filed a civil injunc-              feet of garage space to store the vehicles. The stolen investor
tive action against Steven Leigh Shakespeare, and his               funds also were allegedly used to lease a luxury suite at
company, Guardian Futures, Inc., charging them with                 Miami’s BankAtlantic Arena. On July 13, 2009, the court
fraud and unauthorized trading of customer accounts,                entered a statutory restraining order freezing assets and
resulting in combined customer trading losses of at                 preserving books and records. The Commission received
least $196,000.      Specifically, the complaint alleges that       cooperation from the SEC and the U.S. Attorney’s Office
Shakespeare engaged in a series of unauthorized transac-            for the Middle District of Pennsylvania in connection with
tions and fraudulent acts in the accounts of Plains Grain           this matter. CFTC v. Healy, No. 1:09-cv-01331-CCC (M.D.
Company, Inc. and Evans Grain Marketing LLC.                 The    Penn. July 12, 2009).
complaint charges that Shakespeare, throughout the course
of the unauthorized transactions, made misrepresentations
and omitted material facts to customers and to Alaron               Fraud By Futures Commission Merchants,
Trading Corporation, the FCM to whom Shakespeare                    Introducing Brokers and Their Associated Persons
had introduced the customer accounts.            On the same
day the complaint was filed, the court entered a statu-             ■■   CFTC v. First Capitol Futures Group, et al.
tory restraining order preserving books and records. The
                                                                    On June 26, 2009, the Commission filed a civil injunc-
Commission received cooperation from the Office of the
                                                                    tive action against David Michael Kogan and his company,
U.S. Attorney for the Western District of Texas in connec-
                                                                    registered IB First Capital Futures Group a/k/a and d/b/a
tion with this matter. CFTC v. Guardian Futures, Inc., et al.,
                                                                    First Capital Group (First Capital), charging them with
No. A09CA 260SS (W.D. Tex. filed April 8, 2009).
                                                                    operating a fraudulent commodity scheme involving 58
■■   CFTC v. Healy                                                  customers and causing more than $3 million in customer
                                                                    losses. Specifically, the complaint alleges that the defen-
On July 12, 2009, the Commission filed a civil injunctive           dants fraudulently solicited members of the public to
action against Sean Nathan Healy charging him with oper-            trade options on commodity futures contracts by misrep-
ating a fraudulent commodities scheme that defrauded                resenting and failing to disclose material facts concerning,
at least 44 investors of approximately $14 million. The             among other things: 1) the likelihood that a customer
complaint alleges that Healy defrauded investors by                 would realize large profits from trading options; 2) the
falsely claiming that he would invest their funds to trade          risk involved in trading options; 3) the existence of certain
commodity futures and options contracts. The complaint              options positions in customer accounts; and 4) the dismal
further alleges that Healy repeatedly told an investor that         performance record of First Capital customers trading
Healy’s futures and options trading was earning excellent           options. According to the complaint, Kogan and other
returns and that distributions of these tremendous trading          First Capital brokers repeatedly told customers that they
profits would be made in February 2009.             Contrary to     would make substantial amounts of money in a very short
Healy’s claims, he allegedly did not use investors’ funds           time by trading options, and routinely failed to disclose
to trade futures, options, or other instruments; rather,            adequately the risk of loss inherent in trading options.
Healy misappropriated investors’ funds. For example, the            Further, the complaint alleges that, despite mounting
complaint alleges that Healy and his wife, relief defendant         trading losses, Kogan, as well as other First Capital brokers,
Shalese Rania Healy, also of Weston, Florida, used investor         told customers that Kogan had “made millionaires out of
money to purchase numerous luxury vehicles (including               several customers” and that many First Capital customers
a Porsche, Lamborghini, and several Ferraris), approxi-             were making money. However, First Capital customers
mately $1.4 million worth of jewelry, gold bullion, and a           instead lost more than $3 million, of which more than
$2.4 million home. The misappropriated investor funds               $2.2 million was collected as commissions and fees. On
were also allegedly used to fund approximately $2 million           June 30, 2009, the court entered a statutory restraining



160 CFTC
                 Management’s                                                                   Other Accompanying
                                              Performance Section        Financial Section                                 Appendix
                 Discussion & Analysis                                                          Information
                                                                        A pp e n d I x




order freezing assets and preserving books and records.          in Rochester, New York; and Atwood and Kardonick have
CFTC v. First Capitol Futures Group, et al., No. 09-0488-CV-     been successfully trading foreign currency options for
W-DW (W.D. Mo. filed June 30, 2009).                             the past 30 years. As alleged, Atwood and Kardonick are
                                                                 not successful traders. According to the complaint, the
Forex Fraud                                                      only known trading accounts are Kardonick’s personal
                                                                 trading accounts, which from 2003 through September
■■   CFTC v. CRE Capital Corp., et al.                           2008, sustained net losses of approximately $1.7 million
                                                                 trading commodity futures and options. According to the
On January 15, 2009, the Commission filed a civil injunc-        complaint, defendants do not operate out of Rochester,
tive action against James Ossie and his company CRE              New York; rather, they operate out of Rio de Janeiro, Brazil.
Capital Corporation (CRE) charging them with operating a         Moreover, defendants are not registered or licensed with
Ponzi scheme involving more than 100 people and approx-          any known financial regulatory authority. Kardonick and
imately $25 million in connection with forex transactions.       Shapoff also failed to disclose that they both have criminal
Ossie is president and sole owner of CRE; neither has ever       convictions for mail and wire fraud and Shapoff, addi-
been registered with the CFTC. According to the CFTC’s           tionally, was the subject of two CFTC reparations actions
complaint, Ossie and CRE promised pool participants that         involving misrepresentation, misuse of customer funds,
they would earn a 10 percent return on their money within        nondisclosure, and order executions. On the same day
30 days by trading U.S. and Japanese currency pairs. The         the complaint was filed, the court entered a statutory
complaint further alleges that since June 18, 2008, rather       restraining order freezing assets and preserving books and
than making money for pool participants, Ossie and               records. The Commission received cooperation from the
CRE lost approximately $4.4 million trading forex. The           Comissão de Valores Mobiliarios and the British Financial
Commission received cooperation from the SEC in connec-          Services Authority in connection with this matter. CFTC v.
tion with this matter. CFTC v. CRE Capital Corp., et al., No.    Atwood & James, Ltd., et al., No. 09 CV 6032 CJS (W.D.N.Y.
1 09-CV-0115 (N.D. Ga. Filed Jan. 15, 2009).                     filed Jan. 22, 2009).

■■   CFTC v. Atwood & James, Ltd., et al.
                                                                 ■■   CFTC v. Billion Coupons, Inc., et al.
On January 22, 2009, the Commission filed a civil injunc-
tive action against Atwood & James, Ltd. and Atwood &            On February 18, 2009, the Commission filed a civil injunc-
James, S.A., Inc. (collectively, Atwood), and individuals,       tive action against Marvin Cooper and his company Billion
Michael A. Kardonick and Gary R. Shapoff charging them           Coupons, Inc. (BCI) charging them with operating a Ponzi
with forex options fraud.      The complaint alleges that        scheme that involved more than 125 customers—all of
defendants fraudulently soliciting more than $1 million          whom are Deaf—in connection with commodity futures
from retail clients to trade forex options and misappropri-      trading and forex trading. The CFTC alleges that since at
ated client funds. Specifically, the complaint alleges that,     least September 2007, Cooper and BCI solicited approxi-
from at least 2001 to the date the complaint was filed,          mately $4.4 million from more than 125 Deaf American
defendants fraudulently solicited funds from members of          and Japanese individuals for the sole purported purpose
the general public worldwide, including the United States        of trading forex. Also, according to the complaint, while
and the United Kingdom, to trade forex options. Through          Cooper and BCI opened both forex and futures accounts
the Web site http://www.atwoodjames.com and other means,         with approximately $1.7 million of customer money,
defendants allegedly made extraordinary and false claims         Cooper misappropriated more than $1.4 million of
regarding Atwood including that: profits are virtually guar-     customer funds for personal use. Cooper allegedly used
anteed; Atwood is a sophisticated world-wide company             the misappropriated funds to purchase computer and elec-
with offices in New York, Amsterdam, London, and Rio             tronic equipment, flying lessons, and a $1 million home.
de Janeiro; Atwood’s traders are licensed and regulated in       He also allegedly returned approximately $1.6 million to
the United States with their main corporate offices located      customers as purported “profits” and as commissions to



                                                                                                                  CFTC   161
      Management’s                                                                Other Accompanying
                               Performance Section       Financial Section                                    Appendix
      Discussion & Analysis                                                       Information
employees and agents. Cooper and BCI allegedly lured            ments misrepresenting the earnings in their accounts
in customers with promises of 15 to 25 percent monthly          by showing consistent monthly profits as high as seven
returns, depending on the amount and size of the custom-        percent for 12 straight months (September 2007 through
er’s investment, while representing that the investment         August 2008).            In fact, as alleged, defendants’ actual
would be low risk and that the promised return was              trading resulted in net losses every month. On the same
produced by their successful trading. Finally, the complaint    day the complaint was filed, the court entered a statutory
alleges that to conceal and perpetuate their fraud, Cooper      restraining order freezing assets and preserving books and
and BCI provided customers with false account state-            records. The Commission received cooperation from the
ments representing that their accounts were increasing by       NFA and the State of Florida Office of Financial Regulation
as much as 25 percent, when, in fact, the accounts were         in Orlando, Florida in connection with this matter. CFTC
collectively losing money every month.       On the same        v. Capital Blu Management, LLC, et al., No. 6:09-cv-00508-
day the complaint was filed, the court entered a statutory      JA-DAB (M.D. Fla. filed March 23, 2009).
restraining order freezing assets and preserving books and
records. The Commission received cooperation from the           ■■   CFTC v. CRW Management LP, et al.
SEC and the State of Hawaii, Department of Commerce
                                                                On March 4, 2009, the Commission filed a civil injunctive
and Consumer Affairs, Office of the Commissioner of
                                                                action against CRW Management, LP (CRW) and its presi-
Securities in connection with this matter. CFTC v. Billion
                                                                dent and general partner, Ray M. White and CRW, charging
Coupons, Inc., et al., No. CV09-00069 JMS LEK (D. Haw.
                                                                them with operating a Ponzi scheme involving the solicita-
filed Feb. 18, 2009).
                                                                tion of at least $10.9 million from more than 250 investors
■■   CFTC v. Capital Blu Management, LLC, et al.                to trade off-exchange forex. The CFTC alleges that, rather
                                                                than invest the funds, White and CRW stole millions of
On March 23, 2009, the Commission filed under seal a civil      dollars, using investor money to fund a drag racing team,
enforcement action against Donovan Davis, Jr. (D. Davis),       purchase real estate and multiple cars, and to purchase
Blayne Davis (B. Davis), Damien Bromfield, Capital Blu          Dallas Stars hockey season tickets. Specifically, the CFTC
Management, LLC (Capital Blu), and DD International             charges that, as early as November 2006, White and CRW
Holdings, LLC (DDIH) charging them with operating a             told prospective investors that CRW would pool their funds
fraudulent commodity scheme involving about 100 inves-          and trade forex on their behalf, claiming that CRW would
tors and approximately $17 million solicited purportedly        generate tremendous returns for investors of between five
to invest in forex futures and options. As alleged, defen-      and eight percent weekly, or an annual return equivalent of
dants told prospective investors that their funds would be      between 260 and 416 percent. As alleged, White and CRW
pooled in the CBM FX Fund, LP (FX Fund), a commodity            lied to investors when they stated that CRW had achieved
pool established by Capital Blu. Rather than pool investor      such returns, that investing with CRW involved very little
funds, the defendants split the funds into trading of both      risk, and that investor money was safe. The CFTC lawsuit
off-exchange and on-exchange forex futures and off-             further alleges that White and CRW failed to disclose to
exchange forex options. In addition, the defendants alleg-      investors that of the at least $10.9 million invested, at most
edly deposited millions of dollars into multiple Capital        only $94,000 was ever used to trade forex and most of that
Blu bank accounts, where funds were commingled and              was lost. On the same day the complaint was filed, the
misappropriated for personal use, including luxury auto-        court entered a statutory restraining order freezing assets
mobiles, private jet charters and, a two-night $40,000          and preserving books and records.               The Commission
spree at a “gentlemen’s club.” Ultimately, as alleged, of       received cooperation from the Fort Worth Regional Office
the $17 million solicited, $7 million was lost in trading,      of the SEC in connection with this matter. CFTC v. CRW
and millions of dollars remain unaccounted for. To hide         Management LP, et al., No. 3-09CV0408-L (N.D. Tex. filed
their fraud, the complaint alleges, D. Davis, B. Davis, and     March 4, 2009).
Bromfield provided investors with phony account state-




162 CFTC
                Management’s                                                                     Other Accompanying
                                          Performance Section        Financial Section                                   Appendix
                Discussion & Analysis                                                            Information
                                                                               A pp e n d I x




■■   CFTC v. Barki LLC, et al.                                          quarter.    Further, the complaint alleges that defendants
                                                                        reported returns, purportedly generated almost exclusively
On March 17, 2009, the Commission filed a civil enforce-                through forex trading, to Global One investors of approxi-
ment action against Barki, LLC and Bruce C. Kramer                      mately 1.5 percent to three percent each month. In fact,
charging them with fraudulently soliciting, since at least              Defendants claimed in monthly individual investor reports,
June 2004 through February 2009, at least $40 million from              Global One’s financial statements, and on Global One’s
at least 70 customers to trade leveraged forex contracts,               Web site, among other places that almost all of their indi-
misappropriating at least $30 million of customer funds                 vidual forex trades since January 1, 2008, resulted in a profit.
to pay purported profits, return principal to customers,                The complaint further alleges that to conceal their fraud
and for personal expenses, including the purchase of a                  from the CFTC, Defendants provided the CFTC with falsi-
horse farm for more than $1 million, a Maserati sports                  fied account statements showing supposed profitable forex
car and other luxury cars, artwork, and extravagant parties.            trades at an international brokerage house from January 1,
Defendants claimed success in trading forex, promised                   2009 to April 30, 2009, which purportedly included over
little risk using Kramer’s trading system, and lured                    $2 million in allocated profits for Global One. On the
customers with promises of monthly returns of at least                  same day the complaint was filed, the court entered a statu-
three percent to four percent. The defendants concealed                 tory restraining order freezing assets and preserving books
their fraud and trading losses through false account state-             and records. The Commission received cooperation from
ments for over five years. Defendants also created fictitious           the Fort Worth Regional Office of the SEC in connection
trading records showing that the trading account held                   with this matter. CFTC v. PrivateFX Global One Ltd., SA, No.
approximately $59 million. In fact, the accounts held $1                09-1540 (S.D. Tex. filed May 21, 2009).
million or less, and, as of the date the complaint was filed,
only $575,000 remained in trading accounts. Defendants’                 ■■   CFTC v. Riolo, et al.
fraud became known to customers on or around February
25, 2009, when Bruce Kramer committed suicide.                  On      On May 21, 2009, the Commission filed a civil injunc-
the same day the complaint was filed, the court entered a               tive action against Michael J. Riolo and two companies
statutory restraining order freezing assets and preserving              he controls and owns, LaSalle International Clearing
books and records.            The Commission received coop-             Corporation and Sterling Wentworth Currency Group,
eration from the FBI, Charlotte Division, and the NFA in                Inc., charging them with fraudulently soliciting and
connection with this matter. CFTC v. Barki LLC, et al., No.             receiving funds from members of the general public in an
3:09-cv-00106-GCM (W.D.N.C. filed March 17, 2009).                      off-exchange forex scam and providing their customers
                                                                        with false account statements. Specifically, the complaint
■■   CFTC v. PrivateFX Global One Ltd., SA                              alleges that the defendants, from at least June 18, 2008,
                                                                        failed to disclose to customers that they were the counter-
On May 21, 2009, the Commission filed a civil injunc-                   parties in each forex transaction entered on behalf of their
tive action against Robert D. Watson, Daniel J. Petroski,               customers, that they owed millions of dollars to customers,
PrivateFX Global One Ltd., SA (Global One), and 36                      and that they lacked the funds to make these payments
Holdings Ltd. charging them with orchestrating a multi-                 as well as any payments for prospective profits. The
million dollar fraudulent off-exchange forex scheme that,               complaint also alleges that the defendants sent monthly
beginning in 2006, solicited approximately $19.5 million                statements to customers depicting the month-end value for
from approximately 60 investors. The complaint alleges                  each customer’s account, without disclosing to customers
that to entice investors to purchase shares in Global One,              that defendants lacked sufficient cash to pay to customers
defendants touted their supposedly extremely successful                 the purported value of their accounts.         The complaint
historical performance of forex trading.                 Defendants     further alleges that these account statements were false
claimed forex trading returns that ranged from approxi-                 since the defendants expressly overstated the total cash
mately six percent to 10 percent quarterly from January 1,              available, in some instances by as much as $24.5 million.
2000 through June 30, 2006, without ever having a losing                The Commission received cooperation from the FBI, the


                                                                                                                        CFTC 163
      Management’s                                                                       Other Accompanying
                                   Performance Section          Financial Section                                   Appendix
      Discussion & Analysis                                                              Information
U.S. Attorney’s Office for the Southern District of Florida,     ■■   CFTC v. WeCorp, Inc., et al.
and the State of Florida Office of Financial Regulation
in connection with this matter. CFTC v. Riolo, et al., No.       On April 9, 2009, the Commission filed a civil injunctive
09-80765 (S.D. Fla. filed May 21, 2009).                         action charging WeCorp, Inc. (WeCorp), its President and
                                                                 CEO, Stuart W. Jones, and its Senior Vice President and
■■   CFTC v. SNC Asset Management, Inc., et al.                  Trading Consultant, Payton Lowe, charging them with
                                                                 fraudulently soliciting approximately $1.5 million from
On June 9, 2009, the CFTC filed a civil injunctive action        more than 20 people to trade off-exchange forex, but
against SNC Asset Management, Inc., SNC Investments,             instead used the money to lease a lavish Honolulu home,
Inc. (SNC Investments), Chief Executive Officer Peter Son        luxurious cars, and other purchases. The complaint alleges
and Chief Financial Officer Jin K. Chung charging them           that, since June 2008, Jones, Lowe, and WeCorp claimed
with operating an $85 million fraudulent forex scam              to be experienced forex traders and promised to trade
involving approximately 500 customers. The complaint             customer funds using an automated forex trading system
alleges that, since at least 2000, defendants: 1) fraudu-        that purportedly guaranteed monthly 100 percent returns
lently solicited members of the Korean community of the          with no risk of loss. In reality, the lawsuit alleges, Jones,
San Francisco Bay area, where defendants Son and Chung           Lowe, and WeCorp had no automated trading system, virtu-
lived; 2) misappropriated customer funds to pay off other        ally no experience in trading forex, lost money trading, and
customers and to pay personal and business expenses; and         stole investor funds for personal gain. The lawsuit further
3) issued false statements to customers to conceal their         alleges that Jones, Lowe, and WeCorp provided investors
misappropriation and lack of trading. As alleged, defen-         with false statements showing consistent monthly profits
dants abruptly closed operations, and Son and Chung              when, in fact, nearly all customer funds had either been
disappeared. Defendants falsely claimed to be successful         stolen by the defendants or lost in forex trading. On the
forex traders, touting a purported track record of 50 percent    same day the complaint was filed, the court entered a
annual returns and guaranteeing monthly returns of two           statutory restraining order freezing assets and preserving
percent to three percent. Solicitation materials boasted         books and records. The Commission received coopera-
that SNC was a leading forex firm in the industry. Each          tion from the State of Hawaii, Department of Commerce
month, defendants allegedly provided account statements          and Consumer Affairs, Office of the Commissioner of
showing the promised steady returns, and they continued          Securities and the Hilo Police Department in connection
to solicit new funds.       Defendants, however, appeared        with this matter. CFTC v. WeCorp, Inc., et al., No. CV09-
to have engaged in little trading on behalf of customers.        00153 (D. Haw. filed April 7, 2009).
What little trading they actually did was unprofitable. The
complaint also charges SNC Investments, a FCM regis-             ■■   CFTC v. Gresham
tered with the CFTC, with violating minimum net capital
requirements and withholding notice of its undercapital-         On July 2, 2009, the Commission filed a civil injunctive
ization. On June 10, 2009, the court entered a statutory         action against Eldon A. Gresham, d/b/a The Gresham
restraining order freezing assets and preserving books and       Company charging him with operating a multi-million
records. The Commission received cooperation from the            dollar forex Ponzi scheme, specifically targeting persons of
SEC, FBI, U.S. Attorney’s Office for the Northern District       the Christian faith to invest in the scheme. The complaint
of California, NFA, Danish Financial Supervisory Authority       alleges that, from at least January 2004, Gresham solic-
(Finanstilsynet), and the Swedish Financial Supervisory          ited more than $15 million from more than 75 customers
Authority (Finansinspektionen) in connection with this           to trade off-exchange forex contracts.          Gresham alleg-
matter. CFTC v. SNC Asset Management, Inc., et al., No.          edly claimed to prospective customers that he was
09-2555PJH (N.D. Cal. filed June 9, 2009).                       successful trading forex because the “Lord had blessed
                                                                 him.” According to the complaint, Gresham lost money
                                                                 in the limited forex trading in which he engaged, and any
                                                                 purported profits paid to his customers came from either



164 CFTC
                Management’s                                                                Other Accompanying
                                           Performance Section        Financial Section                                 Appendix
                Discussion & Analysis                                                       Information
                                                                        A pp e n d I x




existing Gresham customers’ original investments or money        restraining order freezing assets and preserving books and
invested by subsequent Gresham customers. Specifically,          records; and a consent order of permanent injunction that
the complaint alleges that, at most, slightly over $2 million    imposed a permanent injunction against further viola-
of the more than $15 million that Gresham solicited from         tions, as charged, permanent trading and registration bans,
customers was deposited into Gresham’s forex trading             and an order that the defendants pay restitution, disgorge-
accounts. Of this slightly over $2 million amount, more          ment and civil monetary penalties in amounts to be
than $1.4 million was withdrawn by Gresham. At least             determined by the court at a later date. The Commission
$14.4 million, therefore, was either misappropriated by          received cooperation from the State of North Carolina
Gresham or returned to his customers as part of the Ponzi        Department of the Secretary of State, Securities Division;
scheme. On the same day the complaint was filed, the             FBI; and the Office of the U.S. Attorney, Western District
court entered a statutory restraining order freezing assets      of North Carolina in connection with this matter. CFTC v.
and preserving books and records.         The Commission         Queen Shoals, LLC, et al., No. 3:09-cv-335 (W.D.N.C. filed
received cooperation from the U.S. Postal Inspection             Aug. 4, 2009).
Service, Fort Worth Division, and the U.S. Attorney’s Office
for the Northern District of Georgia in connection with          ■■   CFTC, et al. v. MAK 1 Enterprises Group, LLC, et al.
this matter. CFTC v. Gresham, No. 3:09-CV-75-JTC (N.D.
                                                                 On     August    17,    2009,   the   Commission      and   the
Ga. filed July 2, 2009).
                                                                 Commissioner of Corporations for the State of California
■■   CFTC v. Queen Shoals, LLC, et al.                           filed a civil injunctive action against MAK 1 Enterprises
                                                                 Group, LLC, (MAK 1) and its Chief Executive Officer, Mohit
On August 4, 2009, the Commission filed a civil injunc-          A. Khanna (Khanna), charging them with fraudulently
tive action against Sidney S. Hanson, Charlotte M. Hanson        soliciting at least $16.4 million from at least 122 individ-
and their companies, Queen Shoals, LLC; Queen Shoals             uals purportedly to trade forex on their behalf, misusing
II, LLC; and Select Fund, LLC, charging them with oper-          client funds to pay off other clients (i.e., operating a Ponzi
ating a Ponzi scheme from at least June 18, 2009 involving       scheme) and for personal use, and issuing false statements
more than $22 million in connection with off-exchange            to conceal their fraud as they continued to solicit funds.
forex futures trading. Specifically, the complaint alleges       Specifically, the complaint charges that defendants fraudu-
that in both their personal and Web site solicitations, the      lently solicited funds from individuals located primarily
defendants falsely claimed success in trading forex, guar-       in southern California by: 1) guaranteeing returns of 40
anteed customers profits through the use of silver and gold      percent to 50 percent; 2) reassuring clients that invest-
bullion-backed “non-depletion accounts” (which defen-            ments with MAK 1 were protected against loss by MAK
dants’ claimed guarantees that the customer will receive the     1 insurance policies; 3) claiming to have $50 million in
return of invested principal and the promised “interest”)        assets and at other times $500 million or more in assets;
and represented that there would be no risk to customers’        4) claiming to be experienced traders with a consistent
principal investment. The complaint also alleges that the        six-year track record of double-digit returns; 5) failing to
defendants lured prospective customers with promises of          adequately disclose the risks of trading off-exchange lever-
returns of eight percent to 24 percent through customers         aged foreign currency contracts; and 6) failing to disclose
investing via promissory notes for terms of one to five          that, in 2004, Khanna was barred from associating with
years; customers who committed to the longest monthly            any member of National Association of Securities Dealers,
terms were promised the greatest “profits.” In reality, the      now known as the Financial Industry Regulatory Authority,
complaint alleges, the defendants deposited little or no         for allegedly luring investments from clients through
customer funds into forex trading accounts. Rather, the          alleged false misrepresentations.      Defendants have not
defendants misappropriated customer funds to finance the         met redemption requests or returned funds to many MAK
Hansons’ personal expenses, including the purchase of an         1 clients. In late February, 2009, Khanna tried to reassure
88-acre farm, private plane rentals and luxury vacations.        clients by claiming that MAK 1 has prospered for six years
On the August 7, 2009, the court entered: a statutory            despite the negative market conditions. Khanna provided



                                                                                                                CFTC 165
      Management’s                                                                Other Accompanying
                               Performance Section       Financial Section                                  Appendix
      Discussion & Analysis                                                       Information
a letter from a purported accountant for MAK 1 stating that      ■■   CFTC v. CapitalStreet Financial, LLC
MAK 1 records show $50 million in assets. At that time,
MAK 1 bank accounts had less than $200,000. On the               On September 9, 2009, the Commission filed a civil
day after the complaint was filed, the court entered a statu-    injunctive action against CapitalStreet Financial LLC
tory restraining order freezing assets and preserving books      (CSF) and Sean F. Mescall, charging them with operating
and records. The Commission received cooperation from            a Ponzi scheme involving the fraudulent solicitation of at
the State of California, Department of Corporations and          least $1.3 million from at least 69 customers in connec-
the SEC in connection with this matter. CFTC v. MAK 1            tion with forex trading. Defendants are also charged with
Enterprises Group, LLC, et al., No. 09-CV-1783 BEN (POR)         misappropriating approximately $875,000 of customer
(S.D. Cal. filed Aug. 17, 2009).                                 funds. Specifically, the complaint charges that, since at
                                                                 least September 2006, defendants fraudulently operated a
                                                                 forex trading scheme, luring customers to trade managed
■■   CFTC v. Diamond, et al.
                                                                 or pooled forex accounts by claiming forex trading success
On September 3, 2009, the Commission filed a civil               and promising quick and large returns, such as 60 percent
injunctive action against Beau Diamond (Diamond) and             to 80 percent annually. Defendants created the false impres-
his company, Diamond Ventures LLC (DVL) charging                 sion that CSF was a well-established forex firm, in opera-
them with misappropriation and fraud in operating a              tion since 1999 with more than 35 offices in New York and
forex Ponzi scheme in which they allegedly solicited             North Carolina. In reality, defendants were not successful
approximately $37 million from at least 200 investors.           forex traders, sustained about $275,000 in trading losses,
According to the complaint, the defendants falsely guar-         and opened CSF in or around August 2006 with four offices
anteed the return of investors’ principal and monthly            in the Charlotte area. Defendants provided customers with
returns ranging from 2.75 percent to five percent, purport-      false monthly statements to conceal trading losses and their
edly paid from the defendants’ successful forex trading. In      misuse of customer funds. On the same day the complaint
reality, the defendants lost $13.3 million trading forex. To     was filed, in a related action, the Securities Division of the
conceal and perpetuate their alleged fraud, the defendants       Office of the North Carolina Secretary of State arrested
provided customers with false account statements misrep-         Mescall and executed search warrants at CSF and his home.
resenting that their accounts were increasing as promised,       On the same day the complaint was filed, the court entered
although the accounts were actually incurring substantial        a statutory restraining order freezing assets and preserving
losses. The complaint further alleges that the defendants        books and records. The Commission received cooperation
misappropriated at least $850,000 of customer funds              from the North Carolina Secretary of State in connection
and used the money for gambling and luxury purchases,            with this matter. CFTC v. CapitalStreet Financial, LLC, No.
including jewelry, air fares and hotel accommodations. On        3:09-CV-387-RJC-DCK (W.D.N.C. filed Sept. 9, 2009).
September 22, 2009, the court entered an order of prelimi-
                                                                 ■■   CFTC v. M25 Investments, Inc., et al.
nary injunction that continues the court’s September 3,
2009, asset freeze against Diamond and DV and prohibits          On September 29, 2009, the Commission filed a civil
them from further violations, as charged. In this matter,        injunctive action against M25 Investments, Inc., M37
the Commission received cooperation from the FBI and             Investments, LLC, Scott P. Kear, Sr., Jeffrey L. Lyon, and
the U.S. Attorney’s Office for the Middle District of Florida,   David G. Seaman, charging them with fraudulently solic-
which filed a criminal complaint against Diamond. On             iting at least $8 million from approximately 224 customers
September 2, 2009, Diamond was arrested in Florida by            in connection with the trading of forex, forex options, and
Federal authorities in connection with the related criminal      commodity futures contracts.      Many of the defendants’
complaint. On September 10, 2009, a Federal magistrate           customers were elderly and knew each other through
judge issued an order denying Diamond’s request for bond         churches in West Virginia, Mississippi, Texas, Maryland and
and ordered him detained. CFTC v. Diamond, et al., No.           other states, according to the complaint. The complaint
8:09-cv-01811-EAK-AEP (M.D. Fla. filed Sept. 3, 2009).           further alleges that defendants fraudulently guaranteed



166 CFTC
                Management’s                                                                Other Accompanying
                                           Performance Section        Financial Section                                Appendix
                Discussion & Analysis                                                       Information
monthly returns of two percent and annual returns of 24           ■■   In re Linuxor Asset Mgt. LLC, et al.
percent and falsely claimed to be successful forex traders.
Defendants did not disclose to prospective and existing           On September 1, 2009, the Commission issued a Notice
customers that a significant portion of their funds would         of Intent to Revoke Registrations against registered,
not be used for trading.      The defendants also did not         Linuxor Asset Management LLC’s (LAM[“s]) CPO registra-
disclose that as of at least March 31, 2009, they did not         tion, Linuxor Capital Management LLC’s (LCM[‘s]) CTA
have sufficient assets to pay the promised monthly profits        registration, and Abbas A. Shah’s registration as an AP of
or return principal. The complaint also alleges that the          LAM. The Notice alleges that Shah and LAM are subject
defendants overall lost funds trading forex, forex options        to disqualification from registration based on a consent
and commodity futures and subsequently concealed their            order of permanent injunction against them that resolved
trading losses, lack of trading and other uses of customer        the Commission’s commodity pool fraud charges. CFTC
funds by sending monthly statements to their customers            v. Shah, et al., No. 05-CV-8091 (LAK) (S.D.N.Y. Dec. 17,
that falsely assured customers that they were earning two         2008).      The Notice also alleges that LCM is statutorily
percent every month. On the same day the complaint                disqualified from registration because Shah is the principal
was filed, the court entered a statutory restraining order        and part-owner of LCM and Shah is disqualified from regis-
freezing assets and preserving books and records.         The     tration. In re Linuxor Asset Mgt. LLC, et al., CFTC Docket
Commission received cooperation from the U.S. Attorney            No. SD 09-02 (CFTC filed Sept. 1, 2009).
for the Northern District of Texas and the NFA in connec-
tion with this matter. CFTC v. M25 Investments, Inc., et al.,     Enforcement Litigation by Goal Three
No. 3-09CV1831-M (N.D. Tex. filed Sept. 29, 2009).
                                                                  Financial, Supervision, Compliance
Statutory Disqualification                                        and Recordkeeping

■■   In re Sklena                                                 ■■   In re Fortis Investment Management USA, Inc.; In re
                                                                       Spring Mountain Capital G.P., LLC, et al.; and In re
On August 7, 2009, the Commission issued a Notice of
                                                                       UBS Fund Advisor, LLC
Intent to Suspend or Modify Registration against registered
floor broker David G. Sklena. The action is based upon a          On January 8, 2009, the Commission simultaneously filed
criminal indictment issued against Sklena in March 2009           and settled three separate administrative enforcement
by the U.S. Attorney for the Northern District of Illinois.       actions against the following four registered CPOs: Spring
According to the Notice, the indictment charges Sklena with       Mountain Capital G.P., LLC (Spring Mountain G.P.) and
11 Federal felonies, including commodity fraud, noncom-           Spring Mountain Capital, LP (Spring Mountain Capital);
petitive futures contract trading and wire fraud. The Notice      Fortis Investment Management USA, Inc. (Fortis); and UBS
states that, because the indictment charges Sklena with           Fund Advisor, LLC (UBS). The CFTC orders find that each
violations of Federal law that would reflect on the honesty       of the four CPOs operated one or more commodity pools,
or the fitness of Sklena to be a fiduciary, Sklena’s continued    including pools that operated as funds-of-funds.        The
registration may pose a threat to the public interest or          Commission orders find that each of the CPOs failed to
may threaten to impair public confidence in markets regu-         distribute to investors and file with the NFA one or more
lated by the Commission. Sklena is also a defendant in a          of their respective commodity pools’ annual reports in a
Commission civil injunctive action filed in January 2008          timely manner. While some of the CPOs had obtained
that alleges Sklena willfully aided and abetted illegal trade     extensions of the prescribed deadlines for various pools and
practices in the CBOT Five-Year Treasury Note futures pit         reporting years, each nevertheless failed to timely comply
(see CFTC v. Sarvey, et al., No. 08C0192 (N.D. Ill. filed Jan.    with its obligations, in violation of CFTC regulations.
9, 2008). In re Sklena, CFTC Docket No. SD 09-01 (CFTC            The Commission assessed sanctions including: cease and
Aug. 7, 2009).                                                    desist orders against each of the CPOs; and civil monetary
                                                                  penalties (Spring Mountain Capital G.P., $75,000; Spring



                                                                                                                  CFTC 167
      Management’s                                                                  Other Accompanying
                                Performance Section       Financial Section                                   Appendix
      Discussion & Analysis                                                         Information
Mountain Capital, LP, $75,000; Fortis, $75,000; and UBS,        ■■   In re ADM Investor Services, Inc.
$50,000). In re Fortis Investment Management USA, Inc.,
CFTC Docket No. 09-05 (CFTC filed Jan. 8, 2009); In re          On March 26, 2008, the Commission simultaneously filed
Spring Mountain Capital G.P., LLC, et al., CFTC Docket No.      and settled an administrative enforcement action against
09-06 (CFTC filed Jan. 8, 2009); and In re UBS Fund Advisor,    registered FCM ADM Investor Services, Inc. (ADMIS) finding
LLC, CFTC Docket No. 09-07 (CFTC filed Jan. 8, 2009).           that during 2002 to 2004, it failed to diligently supervise
                                                                its employees concerning post-execution allocations of
■■   In re Walsh Trading, Inc.                                  bunched orders. According to the order, ADMIS had no
                                                                written policy or procedures concerning post-execution
On March 11, 2009, the Commission simultaneously filed          allocations of bunched orders. To the extent ADMIS had
and settled an administrative enforcement action against        unwritten procedures concerning such allocations, ADMIS
registered IB Walsh Trading Inc. finding that from at least     on certain occasions failed to implement those procedures,
March 2006 to April 2008, Walsh failed to diligently super-     the order finds. Additionally, ADMIS allowed an account
vise an AP’s handling of certain accounts managed by an         manager to conduct post-execution allocations days after
unregistered CTA, and lacked procedures to detect unau-         orders were originally executed and failed to maintain
thorized trading of these customer accounts. Specifically,      records that identify orders subject to the post-execution
the Commission found that the Walsh AP who managed              allocations. Finally, the order finds that ADMIS prepared,
Walsh’s Arkansas branch office solicited customers,             but failed to keep, forms related to such allocations. The
primarily from the farming community, for an unregistered       Commission assessed sanctions including: a cease and
CTA and introduced those customers to a registered FCM.         desist order; $200,000 civil monetary penalty; and an order
During this time, the Walsh AP placed orders at the unreg-      to comply with certain undertakings, including ADMIS’s
istered CTA’s direction for at least five customer accounts.    agreement to implement enhanced procedures to assure
None of these accounts contained a power of attorney or         adherence to rules governing post execution allocation of
a letter of direction authorizing the unregistered CTA, the     trades. Commission received cooperation from NFA in
Walsh AP, or anyone other than the customers to trade or        connection with this matter. In re ADM Investor Services,
manage their accounts. The CFTC order finds that none           Inc., CFTC Docket No. 09-10 (CFTC filed March 26, 2009).
of the five accounts were properly reviewed by Walsh
to determine how they were solicited and whether they           ■■   In re Interbank FX, LLC
were to be traded as discretionary or non-discretionary
accounts. This initial failure to supervise was compounded      On June 29, 2009, the Commission simultaneously filed
by a continued failure to diligently monitor the Walsh AP’s     and settled an administrative enforcement action against
handling of customers’ accounts. Furthermore, the lack of       registered FCM Interbank FX, LLC (Interbank) finding
any supervisory procedures and adequate oversight of the        that it violated rules designed to protect the confiden-
Walsh AP’s branch office enabled unauthorized trading by        tial personal information of consumers.          According to
the unregistered CTA to continue undetected for two years.      the order, in March 2008, an Interbank customer discov-
The Commission assessed sanctions, including: a $50,000         ered that personal information about herself, such as
civil monetary penalty; and an order that it comply with its    her name, address, phone number, date of birth, social
undertaking to strengthen its supervisory oversight of APs,     security number, driver’s license number, and bank
employees, and agents. The Commission received coop-            account numbers was accessible on the Internet through
eration from the NFA in connection with this matter. In         a Google search. Interbank began an immediate investiga-
re Walsh Trading, Inc., CFTC Docket No. 09-09 (CFTC filed       tion and learned that one of its Information Technology
Mar. 11, 2009).                                                 employees had placed files containing the confidential
                                                                personal consumer information of approximately 13,000
                                                                customers and prospective customers on a personal Web
                                                                site that was accessible on the Internet for at least a year.
                                                                This security breach was possible because Interbank did



168 CFTC
                  Management’s                                                              Other Accompanying
                                          Performance Section        Financial Section                                Appendix
                  Discussion & Analysis                                                     Information
not have policies or procedures directed to the protec-           commingled with JPMF’s funds. JPMF also failed to timely
tion of confidential consumer information at the time             complete computing its segregation requirements and did
its employee uploaded the information to the Internet.            not timely notify the CFTC that its segregated accounts had
Despite a lack of effective procedures, Interbank continu-        been insufficiently funded. JPMF did not have a process
ously issued a Privacy Notice to its customers as early as        in place to determine the impact of expected withdrawals
December 2004 that stated erroneously that Interbank              from the segregated accounts on the amount required
maintained safeguards that complied with Federal stan-            to be kept in segregation.      (JPMF has since enhanced
dards to guard customer information. Interbank’s lack of          existing procedures by implementing a segregation fore-
effective procedures and issuance of the erroneous Privacy        casting process to ensure that proper segregation is main-
Notice violated several provisions of the CFTC’s regulations      tained.) The Commission imposed sanctions, including:
concerning the privacy of consumer financial information.         a $300,000 civil monetary penalty; and order to comply
The order recognizes that Interbank engaged in substan-           with its undertakings to implement enhanced procedures
tial remedial efforts after discovering the security breach       to assure adherence to rules governing segregation of
and fully cooperated with the CFTC’s investigation of the         customer funds. In re J.P. Morgan Futures Inc., CFTC Docket
matter. The sanctions imposed on Interbank take into              No. 09-12 (CFTC Sept. 9, 2009).
account those remedial efforts and cooperation, without
which the CFTC would likely have imposed a more severe            ■■   In re Cadent Financial Services LLC
sanction. The Commission assessed sanctions including:
                                                                  On September 30, 2009, the Commission simultane-
a cease and desist order; $200,000 civil monetary penalty;
                                                                  ously filed and settled an administrative enforcement
and an order that Interbank comply with its undertaking
                                                                  action against registered FCM Cadent Financial Services
to establish, implement, and maintain a documented
                                                                  LLC (Cadent), finding that it failed to diligently super-
comprehensive security program that addresses adminis-
                                                                  vise its employees in the handling of a client’s account.
trative, technical, and physical safeguards for the protection
                                                                  Specifically, the order finds that, from at least May 15,
of consumer information, and to obtain an assessment of
                                                                  2007 until April 1, 2008, Cadent failed to diligently super-
that program from a certified security professional within
                                                                  vise its employees and APs in their handling of the Idylic
180 days of the entry of the order and annually for the next
                                                                  Solutions Pty. Ltd (Idylic) account. The order finds that
five years. The Commission received cooperation from the
                                                                  funds held by Cadent in the Idylic account were commin-
NFA in connection with this matter. In re Interbank FX,
                                                                  gled and not properly segregated from those of a different
LLC, CFTC Docket No. 09-11 (CFTC filed June 29, 2009).
                                                                  entity with a similar name: Idylic Solutions Ltd.      This
■■   In re J.P. Morgan Futures Inc.                               failure to properly segregate and account for Idylic’s funds
                                                                  took place in connection with both the receipt and deposit
On September 9, 2009, the Commission simultaneously               of funds, and the transfer and distribution of funds into
filed and settled an administrative enforcement action            and from the Idylic account. According to the order, in
against registered FCM J.P. Morgan Futures, Inc. (JPMF),          each instance, Cadent failed to diligently supervise its APs
finding that it violated Commission rules governing               to ensure that third-party funds were separately accounted
segregation of customer funds, timely computation of its          for and not commingled with the funds already in the
segregation obligations, timely reporting of under-segre-         Idylic account. Cadent also failed to ensure that there was
gation deficiency to the CFTC and diligent supervision            proper authorization from the account holder either to
of its employees.        In 2007, JPMF maintained accounts        accept funds from a third party or to send funds to a third
for customer funds (segregated accounts) and kept its             party. The Commission imposed sanctions, including: a
own funds in separate accounts. During this time, JPMF            $120,000 civil monetary penalty; and an order that Cadent
processed transactions related to the delivery of Treasury        comply with its undertaking to strengthen its supervisory
notes that resulted in JPMF’s segregated accounts being           system for overseeing its APs’, employees’ and agents’ sales
insufficiently funded by approximately $750 million. That         solicitations and maintenance of customer accounts. In re
is, JPMF drew upon customer segregated funds beyond its           Cadent Financial Services LLC, CFTC No. 09-13 (CFTC filed
actual interest, which resulted in customer funds being           Sept. 30, 2009).

                                                                                                                 CFTC 169
      Management’s                                                                Other Accompanying
                                 Performance Section      Financial Section                                  Appendix
      Discussion & Analysis                                                       Information
Trade Practice                                                    ■■   In re Moster

■■   In re Keane                                                  On February 11, 2009, the Commission simultaneously
                                                                  filed and settled an administrative enforcement action
On October 6, 2008, the Commission simultaneously filed           against Michael Moster, a former proprietary trader with
and settled an administrative enforcement action against          BOA, finding that he committed fraud by submitting
Brian Keane, a former NYMEX clerk, for fraudulently               false reports to BOA. Specifically, the Commission order
allocating favorable trades to an account from which he           finds that, during a three-day period in January 2004,
benefited. The CFTC charged Keane, a former employee              Moster falsely reported to the bank that he purchased
of a NYMEX member, with diverting profitable transac-             4,000 Treasury futures contracts to conceal the risk asso-
tions that had been filled for customers to an account            ciated with large unauthorized positions in Treasury
from which he benefited. In the related criminal matter,          bonds that he established over the same time period, by
Keane pled guilty on March 20, 2008 to the felony state           making it appear as if the long futures position hedged the
crime of violating the anti-fraud provision of New York’s         Treasury bond risk. By the following week, the fictitious
General Business Law for the same underlying conduct and          trades inflated the value of his trading book by over $12
received a four-month jail sentence, which he has already         million, the order finds. The sale of Moster’s unauthor-
served.    The Commission assessed sanctions, including           ized Treasury bond position resulted in a loss of approxi-
a permanent trading ban and a $90,000 civil monetary              mately $12.2 million to the BOA. Based upon the same
penalty. The Commission received cooperation from the             conduct, Moster pled guilty on September 18, 2008, to a
New York County District Attorney’s Office (NYCDA) and            one-count violation of making false entry into the books
NYMEX in connection with this matter. In re Keane, CFTC           and records of a bank in the Southern District of New
Docket No. 09-01 (CFTC filed Oct. 6, 2008).                       York and was ordered to pay $10 million in restitution to
                                                                  BOA. The CFTC’s order recognizes the restitution made in
■■   In re Otis, et al.
                                                                  the context of the criminal case and provides that Moster

On December 16, 2008, the Commission simultane-                   must pay and satisfy any criminal restitution obligation

ously filed and settled an administrative enforcement             before his payment of the CFTC civil monetary penalty.

action against Frank Otis, former President and CEO of a          The Commission assessed sanctions including: a cease

DFA subsidiary, and Glenn Millar, former Executive Vice           and desist order; permanent trading and registration bans;

President of the subsidiary, finding that they aided and          and a $360,000 civil monetary penalty. In re Moster, CFTC

abetted DFA’s speculative position violation by directing         Docket No. 09-08 (CFTC filed Feb. 11, 2009).

trading of Class III milk futures in an internal sub-account
designated for the DFA subsidiary. (See discussion, above,
of the related enforcement action, In re Dairy Farmers of
America, Inc., et al., CFTC Docket No. 09-02 (CFTC filed
Dec. 16, 2008).)          The Commission assessed sanctions,
including civil monetary penalties (Otis $60,000 and
Millar $90,000). In re Otis, et al., CFTC Docket No. 09-03
(CFTC filed Dec. 16, 2008).




170       CFTC
                   Management’s                                                             Other Accompanying
                                            Performance Section        Financial Section                             Appendix
                   Discussion & Analysis                                                    Information
CFTC Information Technology Systems
Integrated Surveillance System (ISS)                            Filings and Actions (FILAC)
User: Market Oversight                                          Users: Clearing and Intermediary Oversight and Market

Functionality: ISS collects futures and options end-of-day      Oversight

position data for large traders from reporting firms and        Functionality: FILAC manages data associated with the
open interest, volume, price, and clearing member data          approval organizations, products, rules, foreign filings, and
from exchanges. This data is used to monitor futures and        actions.
options trading in order to detect any market anomalies
that may occur.                                                 Exchange Database System (EDBS)
                                                                Users: Market Oversight, Enforcement, Chief Economist
Regulatory Statement Review (RSR)                               Functionality: EDBS is used for trade practice surveillance,
User: Clearing and Intermediary Oversight                       trading analyses, statistical studies, and research projects
Functionality: RSR Express is used to review monthly and        for the Commission.
annual 1-FR-FCM and Financial and Operational Combined
Uniform Single (FOCUS) reports of futures commission
                                                                Trade Surveillance System (TSS)
merchants for reporting their net capital position and other    Users: Market Oversight, Enforcement, Chief Economist
financial information. RSR Express is also used to monitor      Functionality: TSS enables staff to conduct surveillance in the
the financial status of firms and the changes to that status    rapidly expanding area of electronic trading, both intra and
over time.                                                      inter-exchange and across side-by-side platforms. Details
                                                                of all transactions are collected from exchanges and made
Stressing Positions at Risk (SPARK)                             available to the applications used for reporting, analysis, and
Users: Clearing and Intermediary Oversight and Market           profiling. TSS retains the important legacy data and func-
Oversight                                                       tionality of EDBS, which it will gradually replace.

Functionality: SPARK is a tool to look at all of an owner’s
                                                                Project eLaw
holdings and project the effect of market moves on these
                                                                Users: Enforcement, General Counsel, and Proceedings
holdings.    By performing “what if” scenarios, staff can
determine if the margin is sufficient.                          Functionality: The eLaw Program is an automated law office
                                                                that seamlessly integrates technology and work processes to
                                                                support staff in their investigative, trial, and appellate work.
                                                                It allows staff to track and monitor all activities related to
                                                                investigations, discoveries, and litigation plans.
                                                                                                                CFTC       171
     Management’s                                                               Other Accompanying
                               Performance Section      Financial Section                                   Appendix
     Discussion & Analysis                                                      Information
Glossary of Abbreviations and Acronyms

      The CFTC Glossary
      A Guide to the Language of the Futures Industry
      http://www.cftc.gov/educationcenter/glossary/

      Because the acronyms of many words and phrases used throughout the futures industry are not
      readily available in standard references, the Commission’s Office of Public Affairs compiled a glossary
      to assist members of the public.

      This glossary is not inclusive, nor are general definitions intended to state or suggest the views of
      the Commission concerning the legal significance, or meaning of any word or term. Moreover, no
      definition is intended to state or suggest the Commission’s views concerning any trading strategy or
      economic theory.




      Glossary of Acronyms

      AE	�����������������������������������������������������������The Actuarials Exchange, LLC

      AGORA-X	�����������������������������������������������Agora-X, LLC

      ALJ	���������������������������������������������������������Administrative Law Judge

      AP	�����������������������������������������������������������Associated Person

      BM&F	�����������������������������������������������������Bovespa S.A._Bolsa de Valores, Mercadorias e Futuros

      BMO	�������������������������������������������������������Bank of Montreal

      BOA	��������������������������������������������������������Bank of America

      BP	�����������������������������������������������������������British Petroleum

      BSA	��������������������������������������������������������Bank Secrecy Act

      CBOT	������������������������������������������������������Chicago Board of Trade



172 CFTC
           Management’s                                                                               Other Accompanying
                                               Performance Section                Financial Section                        Appendix
           Discussion & Analysis                                                                      Information
                                                                                   A pp e n d I x




          CCFE	������������������������������������������������������Chicago Climate Futures Exchange

          CCORP	��������������������������������������������������The Clearing Corporation

          CCX	��������������������������������������������������������Chicago Climate Exchange, Inc.

          CDXCHANGE	�����������������������������������������Commodities Derivative Exchange, Inc.

          CEA	��������������������������������������������������������Commodity Exchange Act

          CEO	��������������������������������������������������������Chief Executive Officer

          CESR	������������������������������������������������������Committee of European Securities Regulators

          CFE	���������������������������������������������������������CBOE Futures Exchange

          CFMA	�����������������������������������������������������Commodity Futures Modernization Act of 2000

          CFTC	������������������������������������������������������Commodity Futures Trading Commission

          CFO	��������������������������������������������������������Chief Financial Officer

          CHEMCONNECT	�����������������������������������ChemConnect, Inc.

          CME	�������������������������������������������������������Chicago Mercantile Exchange

          CME AM	�������������������������������������������������CME Alternative Marketplace, Inc.

          COMEX	��������������������������������������������������Commodity Exchange Division

          COO	�������������������������������������������������������Chief Operating Officer

          COOP	�����������������������������������������������������Continuity of Operations Plan

          COSRA	���������������������������������������������������Council of Securities Regulators of the Americas

          COT	��������������������������������������������������������Commitments of Traders

          CPO	��������������������������������������������������������Commodity Pool Operator

          CSCE	������������������������������������������������������Coffee Sugar and Cocoa Exchange

          CSRS	������������������������������������������������������Civil Service Retirement System

          CTA	���������������������������������������������������������Commodity Trading Advisor

          DCIO	������������������������������������������������������Division of Clearing and Intermediary Oversight (CFTC)

          DCM	�������������������������������������������������������Designated Contract Market

          DCO	�������������������������������������������������������Derivatives Clearing Organization

          DFA	���������������������������������������������������������Dairy Farmers of American, Inc.

          DFOX	������������������������������������������������������DFOX

          DHS	��������������������������������������������������������U.S. Department of Homeland Security

          DMO	������������������������������������������������������Division of Market Oversight (CFTC)

          DOE	��������������������������������������������������������Division of Enforcement (CFTC)

          DOL	��������������������������������������������������������U.S. Department of Labor

          DOT	��������������������������������������������������������U.S. Department of Transportation

          EBOT	������������������������������������������������������Exempt Boards of Trade

          ECM	�������������������������������������������������������Exempt Commercial Market



                                                                                                                          CFTC 173
Management’s                                                                                    Other Accompanying
                                 Performance Section                Financial Section                                 Appendix
Discussion & Analysis                                                                           Information
           EDBS	������������������������������������������������������Exchange Database System

           EH-09	������������������������������������������������������Eagle Horizon 09

           ELX	���������������������������������������������������������ELX Futures, L.P.

           EOXLIVE	�������������������������������������������������Energy Options Exchange, LLC

           EPFE	�������������������������������������������������������Exchange Place Futures, LLC	

           EU	�����������������������������������������������������������European Union

           FARM BILL	���������������������������������������������Food, Conservation, and Energy Act of 2008

           FASAB	����������������������������������������������������Federal Accounting Standards Advisory Board

           FB	�����������������������������������������������������������Floor Broker

           FBI	����������������������������������������������������������Federal Bureau of Investigation

           FCA	��������������������������������������������������������Farm Credit Administration

           FCM	��������������������������������������������������������Futures Commission Merchant

           FCRM	�����������������������������������������������������FCRM Electronics Markets, LLC

           FECA	������������������������������������������������������Federal Employees’ Compensation Act

           FEMA	������������������������������������������������������Federal Emergency Management Agency

           FERS	�������������������������������������������������������Federal Employees’ Retirement System

           FFIEC	������������������������������������������������������Federal Financial Institutions Examination Council

           FFMIA	�����������������������������������������������������Federal Financial Management Improvement Act

           FIA	����������������������������������������������������������Futures Industry Association

           FILAC	�����������������������������������������������������Filings and Actions

           FINCEN	��������������������������������������������������Financial Crimes Enforcement Network

           FISMA	�����������������������������������������������������Federal Information Security Management Act

           FIXML	�����������������������������������������������������Financial Information Exchange Markup Language

           FLETT	������������������������������������������������������Flett Exchange

           FMFIA	�����������������������������������������������������Federal Managers’ Financial Integrity Act

           FMHA	�����������������������������������������������������Farmers Home Administration

           FOREX	����������������������������������������������������Foreign Currency

           FSA	���������������������������������������������������������Financial Services Authority

           FSRIA	������������������������������������������������������Farm Security and Rural Investment Act of 2002

           FT	������������������������������������������������������������Floor Trader

           FTE	����������������������������������������������������������Full-time Equivalent

           FWC	�������������������������������������������������������Futures Workers Copensation

           FY	�����������������������������������������������������������Fiscal Year

           GAAP	������������������������������������������������������U.S. Generally Accepted Accounting Principles

           GAO	�������������������������������������������������������Government Accountability Office



174 CFTC
             Management’s                                                                                    Other Accompanying
                                                   Performance Section                   Financial Section                        Appendix
             Discussion & Analysis                                                                           Information
                                                                                     A pp e n d I x




          GETS	������������������������������������������������������Government Emergency Telecommunications Service

          GFI	����������������������������������������������������������GFI Group Inc.

          GFI FOREXMATCH	���������������������������������GFI Group Inc., ForexMatch

          GPRA	������������������������������������������������������Government Performance and Results Act

          HSE	��������������������������������������������������������HoustonStreet Exchange, Inc.

          IB	������������������������������������������������������������Introducing Broker

          ICAP	�������������������������������������������������������ICAP Commodity Derivatives Trading System

          ICAPTURE	����������������������������������������������ICAP Electronic Trading Community

          ICAP SHIPPING	�������������������������������������ICAP Shipping Trading System

          ICE CLEAR US	���������������������������������������ICE Clear US (formerly, NYCC)

          ICE US	����������������������������������������������������ICE Futures U.S., Inc. (formerly, NYBOT)

          IDC	���������������������������������������������������������International Derivatives Clearinghouse, LLC

          IG	������������������������������������������������������������Inspector General (CFTC)

          IMAREX	��������������������������������������������������International Maritime Exchange

          INTERBANK	�������������������������������������������FCM Interbank FX, LLC

          INTRADE	������������������������������������������������INTRADE Board of Trade

          IOSCO	����������������������������������������������������International Organization of Securities Commissions

          IRESE	������������������������������������������������������IRESE, Inc.

          ISS	����������������������������������������������������������Integrated Surveillance System

          IT	�������������������������������������������������������������Information Technology

          JO	�����������������������������������������������������������Judgment Officer

          KCBT	������������������������������������������������������Kansas City Board of Trade

          LCH	��������������������������������������������������������London Clearing House

          LIQUIDITYPORT	������������������������������������LiquidityPort, LLC

          LLC	���������������������������������������������������������Limited Liability Corporation

          LONGITUDE	�������������������������������������������Longitude, LLC

          MATCHBOXX ATS	����������������������������������Matchboxx Alternate Trading System

          MD&A	�����������������������������������������������������Management’s Discussion and Analysis

          ME	����������������������������������������������������������Merchants Exchange

          MGE	�������������������������������������������������������Minneapolis Grain Exchange

          NADEX	���������������������������������������������������North American Derivatives Exchange, Inc.
                                                                 (formerly, HedgeStreet, Inc.)

          NAFTA	����������������������������������������������������North American Free Trade Agreement

          NCI	���������������������������������������������������������National Crude Oil Investigation

          NCS	��������������������������������������������������������National Communications System




                                                                                                                            CFTC 175
Management’s                                                                                       Other Accompanying
                                  Performance Section                 Financial Section                                 Appendix
Discussion & Analysis                                                                              Information
           NFA	���������������������������������������������������������National Futures Association

           NFX	���������������������������������������������������������NASDAQ OMX Futures Exchange, Inc. (formerly,
                                                                   PBOT)

           NGX	��������������������������������������������������������Natural Gas Exchange

           NLE	���������������������������������������������������������DHS/FEMA National Level Exercise

           NODAL	���������������������������������������������������Nodal Exchange, LLC

           NQLX	������������������������������������������������������NQLX LLC

           NTP	���������������������������������������������������������NetThruPut

           NYCDA	���������������������������������������������������New York County District Attorney’s Office

           NYCE	������������������������������������������������������New York Cotton Exchange

           NYSE LIFFE	��������������������������������������������NYSE Liffe Futures Exchange, LLC

           NYFE	�������������������������������������������������������New York Futures Exchange

           NYMEX	���������������������������������������������������New York Mercantile Exchange

           OCC	�������������������������������������������������������The Options Clearing Corporation

           OCX	��������������������������������������������������������OneChicago Futures Exchange

           OED	��������������������������������������������������������Office of Executive Director (CFTC)

           OFM	�������������������������������������������������������Office of Financial Management (CFTC)

           OGC	�������������������������������������������������������Office of the General Counsel (CFTC)

           OHR	��������������������������������������������������������Office of Human Resources (CFTC)

           OIA	���������������������������������������������������������Office of International Affairs (CFTC)

           OIG	���������������������������������������������������������Office of Inspector General (CFTC)

           OILX	�������������������������������������������������������OILX

           OITS	�������������������������������������������������������Office of Information and Technology Services
                                                                   (CFTC)

           OMB	�������������������������������������������������������Office of Management and Budget

           OPEX	������������������������������������������������������Optionable, Inc.

           OPM	�������������������������������������������������������Office of Personnel Management

           ORB	��������������������������������������������������������Other Retirement Benefits

           OSTP	������������������������������������������������������Executive Office of the President’s Office of Science
                                                                   and Technology Policy

           OTC	��������������������������������������������������������Over-the-Counter

           PAAM	�����������������������������������������������������Philadelphia Alternative Asset Management Company,
                                                                   LLC

           PARITY	����������������������������������������������������Parity Energy, Inc.

           PMEF	������������������������������������������������������Primary Mission Essential Function

           REC	��������������������������������������������������������Renewable Energy Certificates



176 CFTC
             Management’s                                                                                    Other Accompanying
                                                  Performance Section                Financial Section                            Appendix
             Discussion & Analysis                                                                           Information
                                                                                          A pp e n d I x




            RFED	������������������������������������������������������Retail Foreign Exchange Dealer

            RER	���������������������������������������������������������Rule Enforcement Review

            RGGI	�������������������������������������������������������Regional Greenhouse Gas Initiative

            RSR	��������������������������������������������������������Regulatory Statement Review

            RSS	���������������������������������������������������������Real Simple Syndication

            SAR	��������������������������������������������������������Suspicious Activity Report

            SAS	���������������������������������������������������������Statement on Auditing Standards

            SEC	��������������������������������������������������������U.S. Securities and Exchange Commission

            SFP	���������������������������������������������������������Security Futures Product

            SL	�����������������������������������������������������������Spectron Live.com Limited

            SPARK	����������������������������������������������������Stressing Positions at Risk

            SPDC	�����������������������������������������������������Significant Price Discovery Contracts

            SRO	��������������������������������������������������������Self-Regulatory Organization

            SFFAS	�����������������������������������������������������Statement of Federal Financial Accounting Standards

            STORM	���������������������������������������������������Storm Exchange, Inc.

            SWAPSTREAM	���������������������������������������Swapstream Operating Services, Ltd.

            TACE	�������������������������������������������������������The American Civics Exchange

            TCX	���������������������������������������������������������Trade Capture Exchange

            TFSWEATHER	�����������������������������������������TFSWeather.com

            TPENERGYTRADE	����������������������������������tpENERGYTRADE

            TRADINGOPTX	��������������������������������������Trading OptX LLC

            TREASURY	���������������������������������������������U.S. Department of the Treasury

            TS	�����������������������������������������������������������TradeSpark, LP

            TSS	���������������������������������������������������������Trade Surveillance System

            UK	����������������������������������������������������������United Kingdom

            WPS	�������������������������������������������������������Wireless Priority Service

            US	�����������������������������������������������������������United States

            USDA	�����������������������������������������������������U.S. Department of Agriculture

            USFE	�������������������������������������������������������US Futures Exchange

            USSGL	���������������������������������������������������United States Standard General Ledger

            WBOT	�����������������������������������������������������Weather Board of Trade

            WORLDPULP	�����������������������������������������WorldPulp.com

            WXL	��������������������������������������������������������WeatherXchange Limited

            YELLOW JACKET	����������������������������������Yellow Jacket Software, Inc.




                                                                                                                             CFTC 177
Management’s                                                                                        Other Accompanying
                                  Performance Section                 Financial Section                                  Appendix
Discussion & Analysis                                                                               Information
Photo Credits and Acknowledgements

Page Photo Credits
    Clark Day Photography; Pages Cover II, II, 8, 9, 20, 34, 37, 42, 45, 46, 48, 59, 77, 97, 119,
    	   120, 121, 142, 147, 148, 149, 150, 152, 171, 172, and Cover III
    AP Images; Pages 2 and 3
    Getty Images; Page 4 and 5



Acknowledgements
This Performance and Accountibility Report was produced with the energies and talents of Commission staff. To these
individuals, the Office of Financial Management would like to offer our sincerest thanks and acknowledgement.

We would also like to acknowledge the Office of Inspector General and Clifton Gunderson, LLP for the professional
manner in which they conducted the audit of the Fiscal Year 2009 Financial Statements.

We offer our special thanks to The DesignPond, in particular Sheri Beauregard and Michael James, for their outstanding
contribution to the design of this report.




178 CFTC
               Management’s                                                               Other Accompanying
                                          Performance Section       Financial Section                           Appendix
               Discussion & Analysis                                                      Information
Additional copies of the
Commodity Futures Trading Commission
FY 2009 Performance and Accountability Report
are available by contacting the
Office of Financial Management:


Office of Financial Management
Commodity Futures Trading Commission
Three Lafayette Centre
1155 21st Street, N.W.
Washington, DC 20581


Telephone: Emory Bevill, 202.418.5187 or
	           Lisa Malone, 202.418.5184
Fax:	   202.418.5414
E-mail: ebevill@cftc.gov or lmalone@cftc.gov
Web:    http://www.cftc.gov/aboutthecftc/cftcreports.html


The CFTC’s Strategic Plan is available on the Web at:
http://www.cftc.gov/aboutthecftc/cftcreports.html
    COMMODITY FUTURES TRADING COMMISSION
T hree L afayette C entre • 1155 21 st S treet , N.W. • W ashington , DC 20581

                       202.418.5000 • www. cftc . gov
